<html>
<title> - FLOOD CONTROL AT DEVILS LAKE, NORTH DAKOTA</title>
<body><pre>[Senate Hearing 105-410]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-410


 
               FLOOD CONTROL AT DEVILS LAKE, NORTH DAKOTA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                       

    ON A PROPOSED FLOOD CONTROL PROJECT AT DEVILS LAKE, NORTH DAKOTA

                               __________

                            OCTOBER 23, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works


                               <snowflake>


                     U.S. GOVERNMENT PRINTING OFFICE
47-221 CC                   WASHINGTON : 1998 
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 23, 1997
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     3

                               WITNESSES

Armstrong, Michael J., Associate Director for Mitigation, Federal 
  Emergency Management Agency....................................    18
    Prepared statement...........................................    68
    Responses to additional questions from:
        Senator Chafee...........................................    69
        Senator Reid.............................................    72
Belford, Joe, Ramsey County Commissioner, North Dakota...........    25
    Prepared statement...........................................   160
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...     3
    Prepared statement...........................................    38
Dorgan, Hon. Byron L., U.S. Senator from the State of North 
  Dakota.........................................................     7
    Prepared statement...........................................    40
Pearson, Gary L., vice president, Dakota Prairie Chapter, 
  National Audubon Society, Jamestown, ND........................    23
    Prepared statement...........................................   114
    Responses to additional questions from Senator Chafee........   122
Pomeroy, Hon. Earl, U.S. Representative from the State of North 
  Dakota.........................................................    10
    Prepared statement...........................................    42
    Report, Devils Lake Emergency Outlet.........................    43
Sprynczynatyk, Dave, North Dakota State Engineer, Bismarck, ND, 
  on behalf of Governor of North Dakota Ed Schafer...............    20
    Article, Devils Lake Could Rise Another 20 Feet..............   110
    Fact sheet...................................................   105
    Letter, followup to hearing on Devils Lake, November 21, 1997   106
    Prepared statement...........................................   104
    Responses to additional questions from Senator Chafee........   122
Zirschky, John H., Acting Assistant Secretary for Civil Works, 
  Department of the Army.........................................    16
    Prepared statement...........................................    58
    Responses to additional questions from:
        Senator Chafee...........................................    64
        Senator Reid.............................................    67

                          ADDITIONAL MATERIAL

Letters:
    Ambassador Raymond Chretien, of Canada.......................   164
    Corps of Engineers, April 15, 1997...........................    48
    Corps of Engineers, April 22, 1997...........................    51
    Federal Emergency Management Agency..........................   103
    Fish and Wildlife Service, October 3, 1997...................   134
    Governor Arne Carleson, of Minnesota.........................   111
    Governor Edward Schafer, of North Dakota.....................    52
    Henrik Voldal................................................   163
    North Dakota legislators, to Governor Schafer................    53
    North Dakota Wildlife Society................................   165
    Office of Management and Budget, April 22, 1997..............    52
Memorandum, Continuous Flooding Claims, FEMA.....................   102
Reports:
    Closed Basin Lake Flooding: Case Studies and Mitigation 
      Opportunities..............................................    78
    Devils Lake Emergency Outlet.................................    43
    Devils Lake Flood: An Overview...............................    54
    Feasibility Study for Lake Stabilization: Devils Lake........   136
    Floodplain Management in the United States: An Assessment 
      Report.....................................................    74
Statements:
    Grams, Hon. Rod, U.S. Senator from the State of Minnesota....    41
    Minnesota Department of Natural Resources....................   111
    Missouri Department of Natural Resources.....................   162



               FLOOD CONTROL AT DEVILS LAKE, NORTH DAKOTA

                              ----------                              


                       THURSDAY, OCTOBER 23, 1997


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Reid, and Wyden.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. I want to bid a welcome to everyone here 
this morning.
    This is a meeting to receive testimony on proposed 
solutions to the flooding at Devils Lake in North Dakota. The 
overall Devils Lake Basin, which encompasses some 3,800 square 
miles in the northeastern part of the State, is a closed sub-
basin of the Red River-Hudson Bay drainage system.
    As a result of the 5-year wet cycle in the region, Devils 
Lake has risen some 16 feet since 1993 to its present level of 
1,438 feet above mean sea level. During this period, Devils 
Lake has doubled in size and tripled in volume. By tripled in 
volume, I mean by that the content of water within the lake.
    The situation in Devils Lake is most unusual. The lake is 
found in one of only two closed basins in North America, Utah's 
Great Salt Lake Basin being the other. Carved into the prairie 
by glaciers during the Ice Age, the low-lying land has no 
natural outlet for the water that floods into it from the 
north.
    Indeed, according to the 1995 report of the Devils Lake 
Basin Interagency Task Force, no water has left the Devils Lake 
Basin in recorded history since the 1830's. Indeed, the Basin's 
surface runoff flows southward through many small streams and 
lakes and is collected by Devils Lake and the smaller nearby 
Stump Lake. There it remains until it evaporates or enters the 
groundwater table.
    Geological evidence shows that the water level in Devils 
Lake has fluctuated dramatically from completely dry, about 
1,400 feet, to overflowing into the Sheyenne River at about 
1,457 feet. All of this over the last 10,000 years.
    Records from the first European settlement of the area 
indicate that the lake level in the 1830's was about 1,440 
feet. That level dropped over time to reach a level of 1,402 
feet in 1940, rose again to 1,429 feet in 1987, dropped back to 
1,423 feet in 1991. As I stated a moment ago, the lake level 
now stands at 1,438 feet.
    As we will learn today, the people who settled this area 
have long struggled with the problems presented by the 
unpredictable changes in the level of Devils Lake. In the 
current cycle, rising lake waters have caused some $100 million 
in damage to development and crop lands that had existed on dry 
lands during decades of low water.
    To help stem the further flood damage and prevent the lake 
from overtopping, the U.S. Corps of Engineers has embarked upon 
a plan with State and local agencies that includes the 
construction of a lake outlet. The proposed outlet would 
periodically drain excess water from Devils Lake into the 
Sheyenne and Red Rivers. The Devils Lake outlet and associated 
Federal water projects will be our focus today.
    In March of this year, the President requested an 
authorization in funding for the Devils Lake outlet as part of 
the fiscal year 1997 emergency supplemental appropriations 
bill. The estimated total cost for the outlet is $50 million, 
65 percent of which, or $32.5 million, would be financed by the 
Federal Government. This request was denied by Congress. 
However, $5 million was included for Army Corps planning and 
design work.
    The same request for authorization and funding, 
construction authorization funding, was advanced by the 
Administration and the North Dakota Congressional delegation as 
part of the fiscal year 1998 Army Corps appropriations bill. 
Once again, the specific request was denied by Congress in the 
recently approved Energy and Water Development Appropriations 
Act.
    However, under an agreement reached between myself, other 
members of the committee, the North Dakota delegation and the 
Appropriations Committee, Public Law 105-62 does include $5 
million to initiate outlet construction if a handful of 
criteria are met. Briefly, the recently enacted provision 
requires the Secretary of the Army to make a determination that 
an emergency exists, as defined by the Stafford Act. And I 
understand that Dr. Zirschky has recently made such a 
determination.
    In addition, the Secretary must report to Congress the 
project is technically sound, economically justified and 
environmentally acceptable and in full compliance with the 
National Environmental Policy Act of 1969, so-called NEPA. The 
agreed-upon language also specifies the project will be carried 
out in a manner consistent with the terms of the Boundary Water 
Treaties of 1909. Finally, the Army Corps of Engineers 
feasibility study shall not examine lake stabilization or inlet 
controls.
    The reason for our including these requirements is simple 
and fair. Such determinations are required for all other water 
resource projects recommended by the Corps.
    While the serious situation at Devils Lake unquestionably 
requires swift action, it has not yet been demonstrated by the 
Corps that the proposed outlet is technically sound, 
economically justified and environmentally acceptable. The 
standard Army Corps feasibility study and report by the Chief 
of Engineers has not been completed in this case. To definitely 
respond to the water quality and water quantity concerns 
expressed by the Canadian government, certain local citizens, 
neighboring States, plans for the Devils Lake outlet must 
undergo appropriate scrutiny.
    Now, having said all that, I want to welcome our witnesses. 
We're joined by our colleagues from North Dakota, Senators 
Conrad and Dorgan, and Representative Earl Pomeroy. Later we'll 
hear from the Army Corps and FEMA representatives, as well as 
two representatives of residents of North Dakota.
    I want to note that we invited Governor Ed Schafer to 
appear today. He worked hard to shift pre-existing commitments, 
but was unable to be here. Testifying in his absence is the 
State Engineer from North Dakota, Mr. Sprynczynatyk.
    I met with Governor Schafer a few weeks ago and know how 
committed he is to the efforts of Devils Lake.
    Senator Reid.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Mr. Chairman, thank you very much for calling 
this meeting.
    I have a statement I would ask be submitted into the record 
so we can have the witnesses testify. But I will say that in 
all the time I've been in Congress, I've never seen such 
advocacy as the representatives from North Dakota on an issue. 
This is something that, as a member of the Appropriations 
Committee, they have been working day and night for months.
    They've worked so hard, I should say with me, not only me, 
that I feel that I know a lot about Devils Lake. It's a serious 
problem. You've been very good advocates for a difficult 
problem. And I think those of us from around the country must 
reach out and do what we can to help other States that have 
these emergencies that develop.
    So I appreciate your advocacy. And it speaks well of each 
of you and the work you've done for North Dakota.
    Senator Chafee. All right, Senators, we welcome you both. 
Senator Conrad, if you want to proceed.

STATEMENT OF HON. KENT CONRAD, A UNITED STATES SENATOR FROM THE 
                     STATE OF NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman, and thank you, 
Senator Reid.
    We appreciate very much, Mr. Chairman, your holding this 
hearing. We appreciate very much your sincere interest in 
helping us face the crisis that we confront in the Devils Lake 
Basin.
    Mr. Chairman and Senator Reid, we believe that the flooding 
in the Devils Lake Basin constitutes an emergency. The 
President has so declared it, we have witnessed it. We have 
people here today who have lived it.
    And with the Chairman's permission and the committee's 
indulgence, I would like Vern Thompson, who is a State Senator 
from North Dakota, and co-chairman of the Lake Emergency 
Committee, to show us a brief video. It's 3 minutes in length, 
Mr. Chairman. I think it will help put in perspective what we 
face.
    Senator Chafee. Go to it.
    Mr. Thompson. Thank you, Mr. Chairman.
    [Video shown.]
    Mr. Thompson. What you see here is 19 miles from the shores 
of the lake. There are thousands and thousands of acres of 
agricultural deeded property. This is an example of many homes 
that have been moved, up to 300 homes.
    In 1993, Devils Lake covered 40,000 acres, and today it 
covers about 105,000 acres. Another example of some homes that 
have been overtaken by the water.
    Damages now exceed $200 million and rising. This is a vital 
link, Highway 57, between Devils Lake, where there's a hospital 
and Fort Totten, the Spirit Lake Nation. It's estimated the 
lake will rise another two to three feet, coming this spring. A 
two foot increase in the water will result in another $30 
million in damages.
    Senator Chafee. What is that we just saw?
    Mr. Thompson. Nearly 300 families have already lost their 
homes. Another 50 will likely lose theirs this coming spring.
    This is on the protective dike around Devils Lake that 
Mayor Bott has worked out. Dikes protecting the city have 
already been raised five feet at a cost of $7 million. Work has 
now started to raise dike levels another five feet at an extra 
cost of $45 million. That's not included with the $200 million 
in damages.
    The economic activity is down 15 to 20 percent across the 
Devils Lake region. To date, business expansion is non-existent 
because of the rising waters.
    [Video continues.]
    Mr. Thompson. Senators, he lost his home. He's moved and 
relocated.
    Sixty-two million dollars has been spent to keep the roads 
above the rising water. Millions more may be needed for 
emergency services to get from Point A to Point B next spring.
    My wife is in law enforcement. Domestic violence reports 
are up, while the population is decreasing.
    We respectfully ask for your help.
    Senator Chafee. Thank you. That was very powerful.
    Senator why don't you proceed.
    Senator Conrad. If it would be all right, I'd like to 
stand, if I could, Mr. Chairman.
    Mr. Chairman, I think that video demonstrates in very short 
order what we face. This is a remarkable situation without 
parallel anywhere else in the United States. Mr. Chairman, I 
direct your attention and the attention of the staff and 
Senator Reid to this depiction, which shows how big the lake 
was back in 1993. The succeeding overlay will show where it is 
today. This is 1993, this is----
    Senator Reid. It's more than one body of water?
    Senator Conrad. Yes. This lake, there are related lakes to 
the north, Senator Reid. This is Devils Lake proper. Off to the 
east it's Stump Lake.
    As you can see, this is a massive body of water. To put 
this in perspective, the size of this body of water today is 
three times the size of the District of Columbia. This is not 
some placid, small lake. This is a massive body of water. And 
it is growing, and it is growing inexorably.
    In fact, it has grown 20 feet in the last 4 years, doubling 
in size, tripling in volume as the chairman indicated.
    This shows what happens if the lake goes to 1,457 feet, at 
which time it will have an uncontrolled release into the 
Sheyenne River Valley. Mr. Chairman, for your perspective, this 
size would be about the size of the entire State of Rhode 
Island.
    Senator Chafee. Which one is that now, Senator?
    Senator Conrad. This is what happens if the lake goes to 
1,457 feet, where we know it has gone several times before in 
history. If it goes to this level, it will then have 
uncontrolled releases, uncontrolled as to both quality and 
quantity. I think that's a critically important point.
    If it goes to this level, we will see releases that will be 
uncontrolled.
    Senator Reid. What do you mean, releases?
    Senator Conrad. There will be an escape of the water from 
the Devils Lake lakebed. And this water will then go over into 
the Sheyenne River Valley uncontrolled. Uncontrolled both as to 
quality and quantity. That would simply move the flood 
downstream.
    And in terms of water quality, that would mean people 
downstream get sick. They get sick because the dissolved solids 
are not something their systems can tolerate. And the water 
treatment facilities of the major cities downstream are not 
prepared to deal with the level of dissolved solids that they 
would experience.
    Senator Chafee. When you say downstream, down what stream?
    Senator Conrad. Very, very important point. Mr. Chairman, 
the first people downstream are the people of North Dakota. 
People in the city of Valley City, people in the city of Fargo, 
which is the largest city in our State. People in the city of 
Grand Forks.
    Because remember what happens here. If the lake goes to 
1,457 feet, which we know has happened before in history, at 
that level it goes over into the Sheyenne River. Sheyenne River 
goes over into the Red River, and remember, the Red River goes 
north. Red River goes north.
    When we're talking downstream, initially, it's down in 
terms of, most people would think of down as south. It goes 
south into the Sheyenne. That goes down into Valley City. That 
goes over, loops over into the Red River. Then the Red River 
goes north, goes over into Fargo and Grand Forks.
    So when people say there are water quality concerns for our 
neighbors to the north in Canada, we need to remind them, the 
first people who will experience water quality problems are our 
people. And it is the majority of the people in our State who 
are resident in this part of North Dakota.
    If we could go to the next chart. Mr. Chairman and Senator 
Reid, this chart shows the historic water levels of Devils 
Lake. The chairman recounted in his opening statement what we 
have seen. You can see it, the lake has now, Mr. Chairman, gone 
up another five feet.
    In your opening statement, you indicated 1,438 feet. That 
was exactly right a year ago. It's gone up another five feet 
this year, again, unpredicted by all of the forecasting 
services. This lake has gone up another five feet to 1,443 
feet. You can see that's the highest it has been in over 130 
years.
    Mr. Chairman, this is an emergency. And it has required an 
emergency response from the Federal Government. This is the 
money that we have spent so far from the Federal Government, 
over $210 million, from the Federal Treasury already. The 
Office of Management and Budget and the Corps of Engineers tell 
us if this lake continues to rise, and if in fact it goes to 
the level of 1,457 feet, that the damages then will reach $450 
million.
    So the question of cost effectiveness is an important one. 
Again, if this rise continues and goes to 1,457 feet, the 
estimates are the total cost to the Federal Government will 
then reach $450 million. We've already spent $210 million. The 
latest estimate of the cost of this outlet is $45 million.
    Mr. Chairman, there has been a great deal of confusion 
about how an outlet from Devils Lake may relate to the transfer 
of water from the Missouri River Basin over into the Red River 
Valley. I have prepared this chart to show this committee that 
in fact, an outlet has nothing whatever to do with the transfer 
of water from the Missouri River Basin. It has nothing to do 
with it.
    Mr. Chairman, this shows the Devils Lake Basin inside the 
larger basin of the Red River watershed. Devils Lake watershed, 
inside the Red River watershed. Here is the Missouri River. The 
Missouri River has nothing to do with an outlet from Devils 
Lake.
    Some are saying, and some will present to you today that 
this is all a scheme to further Garrison, the Diversion 
project. That is false. Let us be clear. That is simply false.
    There is no inlet that is provided for in this legislation. 
And in the Garrison Diversion amendments that we will be 
offering later this year, there will be no provision for an 
inlet, period.
    Senator Chafee. Let me just ask you, Senator, could you put 
that chart back up, please? In other words, what you're saying 
is there are two totally separate subjects?
    Senator Conrad. Two totally separate subjects.
    Senator Chafee. And I mean, since Senator Burdick left 
here, I've really lost track of the Garrison project, which he 
was deeply interested in. I thought, as best I recall, we had 
gotten that settled pretty well. But in any event, that's not 
involved here.
    The other thing I think is important for us to remember in 
the discussions today is there are two separate things we're 
talking about. One, we're talking about an outlet and on a 
separate direction, we're talking possibly an inlet. But that's 
a separate subject. You're talking outlet here.
    Senator Conrad. Mr. Chairman, I want to be crystal clear on 
this point. We are talking solely about an outlet. No. 1, any 
inlet consideration is precluded by the legislation. No. 2, in 
the Garrison amendments that we will be offering later this 
year or early next, there will be no provision for an inlet to 
Devils Lake. None.
    So those who seek to confuse this issue, those who seek to 
tie the two, are attempting to mislead this committee and 
attempting to mislead the Congress of the United States. There 
is no connection between an outlet from Devils Lake, which is 
contained completely in the Devils Lake watershed and the Red 
River watershed, with the question of the Missouri River.
    Senator Reid. How far is it from Devils Lake to the 
Missouri River in miles?
    Senator Conrad. It's about 150 miles.
    I would just close, Mr. Chairman, by showing, this is a 
road leading into the lake. This is what we have going on all 
throughout the Devils Lake Basin.
    And I would close, Mr. Chairman, with this picture, which I 
think is especially compelling. This is a house that didn't 
catch on fire, this is a house that is being burned down. It is 
being burned down because, Mr. Chairman and members of the 
committee, it is being inundated by the flood waters and it 
could not be moved fast enough.
    This is a scene that is being repeated all across the 
Devils Lake Basin, as homes are being burned because they 
cannot be moved quickly enough. Mr. Chairman, this particular 
home happens to belong to a paraplegic. This man has had to 
burn his own home down because of health considerations for the 
rest of the community.
    It is time to act. This is an emergency situation. I don't 
know what could be more clear.
    I thank the chairman.
    Senator Chafee. Thank you very much, Senator.
    Senator Dorgan.

STATEMENT OF HON. BYRON L. DORGAN, A UNITED STATES SENATOR FROM 
                   THE STATE OF NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    Senator Conrad has very ably described for you the 
circumstances of our being here this morning.
    And Mr. Chairman, when you indicated you haven't heard much 
about Garrison Diversion lately, that is because it is true, in 
the mid-1980's, we passed a reformulation act for Garrison 
Diversion. There will need to be a further adjustment in that, 
and I expect we will be involved, and your staff, in fact, has 
been involved in some initial discussions about that.
    But this does not have anything to do with Garrison 
Diversion. It has to do with the question of flooding that 
exists in a closed basin, one of only two closed basins in 
American for which there is no inlet and no outlet, and 
seemingly, no solution. So faced with that, the question for us 
and for the folks in the Devils Lake Basin is, what do we do?
    And the answer was, you do a lot of everything in order to 
try to resolve this issue. You do upper basin storage, you 
build dikes, you do a range of things, including you try to 
find a way to provide for a reasonably sized outlet to try to 
relieve some of the pressure from this lake.
    In addition to the charts that Senator Conrad has shown 
you, I'd like to show this chart. This is a woman standing at 
the bottom of a telephone pole, at the base of a telephone pole 
looking up. That was taken in 1965. And she was standing at the 
base of that telephone pole, looking up. And she was looking at 
where the waters of that lake had been previously.
    Now, if you go all the way to the top of that telephone 
pole, which was July 2, 1997, that's where the water is today. 
She's not going to stand at the base of that telephone pole 
today, because the water has risen to that level, and 1,444 is 
the highest projected level on that chart, and that's where it 
is now predicted to go.
    Mr. Chairman, I have heard some say, gee, this is not an 
emergency. I'd like to just pose this question. This is a 
proposition of time and dimension. Let me pose this question. 
What if, after the time that we retired for the evening last 
evening, all of us had a fitful sleep, and we awakened this 
morning to hear on the news that we had a huge body of water 
that had just flooded. It had done over $200 million worth of 
damage last night, 300 families were gone, and we had an Indian 
community that was now isolated. The Spirit Lake Tribe is 
isolated from medical help and so on.
    Would we not see that in banner headlines across the 
country? Of course we would. This is a slow motion disaster. It 
is clearly, by any standard of definition, an emergency.
    I want to describe it in other terms. But first I want to 
describe it in personal terms, if I might. The fellow that you 
saw in the video with the western hat, Mr. Chairman, his name 
is Dwayne Howard. My dad was a horseman. All the time I grew 
up, we went to rodeos and horse shows. Not just in North 
Dakota, we went to other parts of the country.
    When I was a kid, I watched Dwayne Howard ride bulls all 
across this country.
    Senator Reid. That's why he limps?
    Senator Dorgan. That's exactly the case. You saw him with a 
rather slow gait.
    He was one of the great bull riders in America, as a rodeo 
cowboy. You could have seen him ride in Boston Gardens, in the 
Cow Palace in San Francisco, the National Western in Denver. I 
can't tell you how many times I saw Dwayne Howard come out of a 
chute on a bull. And he was one of North Dakota's national 
champions as a bull rider.
    He retired to Minnewauken, North Dakota, to a farm and 
ranch. He's lost his land, he's lost his home, he's lost 
everything. He's lost the small inheritance he had. He's cashed 
in his insurance, cashed in his retirement and now has nothing 
left.
    I tell you that simply to say, this is a human problem of 
desperate proportions, to some wonderful people who are 
confronting this emergency, and they're asking for help. Now, 
what is the help? The help is a whole series of things to try 
to respond to what's happening to us in this basin.
    One of those is an outlet. And the outlet itself is not a 
magic solution. It is part of a series of things that must be 
done in coordination to do what we can do to take the pressure 
off this lake. And that's why we're here this morning.
    Mr. Chairman, you especially have been enormously helpful 
to us. We know that you have the capability of stopping the $5 
million of construction funds that were included in the last 
appropriations bill. I understand that could have been stopped, 
and it was not because you and others felt that the community 
and the State had made its case.
    This hearing is further evidence of your interest and 
concern about this region of the country. We are a community of 
interest in this country and the folks who live in this basin, 
the Devils Lake Basin, have an abiding interest in asking you 
and this committee and the Congress to help address this 
problem. They are addressing it every day in every way. And 
they're asking for your help.
    Let me make just a couple of comments about the criticisms 
that you may have heard. The outlet will somehow cause angst to 
Canada or to downstream interests. Senator Conrad pointed out 
that the water will go into a river whose downstream interests 
first and foremost are North Dakotans. I would not be at this 
table asking to transfer water in a manner that would injure 
other North Dakotans. It's not in North Dakota's interest, it's 
not in the Congressional delegation's interest.
    This is not an outlet that will remove water from Devils 
Lake that in any way comes from another basin. So to the extent 
that Canada writes letters, as they have, and they've written 
to me and to you, suggesting that this is of great concern with 
the potential of removing water from the Missouri River Basin, 
it is not going to happen. That's not what this proposal is 
about.
    They're welcome to win a debate we're not having. But this 
is not about moving Missouri River water. This outlet will 
actually help with quality and quantity problems, because it 
will give us some control over both the quality and the 
quantity of water that's released. We will not have that 
control if we do nothing, and this lake moves naturally across 
its boundaries and dumps into the Sheyenne River, and then up 
the Red River.
    This outlet makes good economic sense and is strongly 
supported by the Administration, which included, as you know, 
in its own fiscal year 1997 disaster supplemental bill a 
proposal for the entire funding for the outlet. And the outlet 
has enormous economic value to the community and to the region, 
because it will preserve a regional trade center, it will 
reduce flooding and avoid expenditure of other Federal funds. 
This will be of great economic value to that region.
    Finally, this outlet is needed to protect the homes and 
livelihoods of all the folks in the Basin who are threatened, 
including and especially a tribal government and the Native 
Americans who live in the Spirit Lake Nation, who are among the 
most affected by high water and who are least able to cope with 
it. They have a very high unemployment rate, a very high rate 
of poverty. And we hold a trust responsibility for them as 
well, and they will benefit enormously by this approach.
    Finally, let me say that this outlet will be cost shared. 
It's a critical part of a comprehensive strategy. We are not 
moving around saying, this is the solution. We have worked very 
hard with the Governor, with State legislators, with Federal, 
State and local officials, to develop a comprehensive policy 
that has many different parts to it, all of which are now being 
implemented to address this flooding problem.
    One of those parts, just one, but a critical one, is the 
building of an outlet. And let me finally just show a map, 
because I think it's always good in terms of frame of 
reference, we mentioned Rhode Island. This will give you a 
notion of the size of the lake area, it's overlaid with the 
outline of Rhode Island.
    Our State, incidentally, Mr. Chairman, is ten times the 
size of the State of Massachusetts. The actual Devils Lake 
Basin, the Basin itself inside our State, is about the size of 
the State of Massachusetts. And you can see that if you overlay 
the State of Rhode Island, for example, on the specific lake 
area, about what kind of dimension we're talking about.
    So Mr. Chairman, thank you very much for your patience and 
your help, and especially your courtesy in hearing in great 
detail the story of an emergency that causes us to ask once 
again for your help.
    Senator Chafee. Thank you very much, Senator Dorgan.
    I don't know what your situation is, you and Senator 
Conrad. Can you stay for a few minutes while Representative 
Pomeroy makes his statement? Then I have some questions. Or I 
could ask you questions now if you're anxious to go. Can you 
stay a few minutes?
    Senator Reid. Mr. Chairman, I am going to have to leave. I 
got a note to leave.
    I would ask consent from the Chair that I be able to submit 
some questions in writing for Secretary John Zirschky when he 
appears.
    Senator Chafee. Certainly.
    Senator Reid. Thank you.
    Senator Chafee. Now, the Honorable Earl Pomeroy, who is the 
U.S. Representative from the State of North Dakota, and I 
believe the only representative, right?
    Mr. Pomeroy. That's right. Senators come by the pair, but 
we only have one Congressman.
    [Laughter.]
    Senator Chafee. Well, we won't pursue that any further.
    Now, why don't you proceed.

 STATEMENT OF HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. Thank you, Mr. Chairman.
    I want to briefly discuss three important points. First, 
there's virtual unanimous agreement among all those with actual 
responsibility for dealing with this problem that an outlet has 
to be part of the solution. Second, while this hearing focuses 
on the outlet, extensive efforts have been made at the other 
alternatives, the other things that must be done as part of the 
solution. And third, while this is an emergency and a quick 
response is required, full NEPA review of this outlet prior to 
its construction will take place.
    Think of the most significant water problem in your State, 
Mr. Chairman. Imagine the different perspectives that 
inevitably exist across the varying stakeholders to this 
problem, the many public officials with a hand in trying to 
find some solution. I would doubt that there would be virtual 
unanimity among all of those entities in terms of how to deal 
with it.
    But that is the case with the Devils Lake outlet. At the 
State level, the Governor, each member of the delegation, the 
State legislature, and the State water commission have all 
reached what I believe is the inevitable and inescapable 
conclusion that the outlet has to be part of the mix in terms 
of dealing with this problem.
    Now, I say that as someone who was born and raised 
literally on the banks of the Sheyenne River, downstream from 
Devils Lake. I used to represent Valley City, my hometown, the 
first city downstream from Devils Lake, in the State 
legislature. Now, more than half of the voters I represent live 
downstream of Devils Lake.
    Obviously, I reached the conclusion that the outlet is an 
important part of this answer only upon reaching a very 
thorough personal conclusion that this outlet can be done in a 
way that's compatible with downstream interests and that there 
is simply no other way to meaningfully deal with the ongoing, 
very, very severe flooding in the Devils Lake area.
    Now, I'm not saying downstream there aren't opposing views 
on the outlet. There are a few that think this is a bad idea. 
But any public policy problem presents different conclusions. 
Yet you don't see in the record, nor will you see to date one 
city council resolution, one county commission resolution 
opposing the outlet. Those that have some responsibility in 
terms of actually trying to deal with this terribly vexing 
public problem have all come to the conclusion an outlet is 
necessary.
    We don't have the luxury of viewing this in an academic 
light. Or perhaps from the dispassionate geological perspective 
covering thousands of years. People are being hurt today, farms 
and businesses are being destroyed. A town is threatened. A 
Native American reservation with a population of up to 4,000 is 
having their access to essential medical services threatened 
today. These are the needs here and now, and we have had to 
respond to them.
    I would also emphasize that across the Federal agencies 
that have spent so much time and invested such substantial 
resources, there is also virtual accord that an outlet has to 
be part of the answer.
    Now, when I emphasize part of the answer, Mr. Chairman, 
this isn't one of those pull the bathtub stopper and the water 
goes away. But it were that simple. There's not a silver bullet 
answer to Devils Lake, and we're not proposing that the outlet 
is. Two other lines of attack have been intensely pursued: 
upper basin storage as well as infrastructure investment, as my 
colleagues have noted.
    This upper basin storage is not a terribly easy thing to 
achieve, dramatically increasing the water impoundment 
upstream. Most of the land that might be available for that has 
been under cultivation in productive family farms for over a 
generation. You take acreage out of production, you literally 
take away the economic base of those individual family farm 
units.
    The only way we can expand upper basin storage dramatically 
is basically a strategy of maximizing impoundment on public 
lands and trying to put in place a series of financial 
incentives to enlist private landowners to impound water.
    The delegation at every conceivable opportunity has 
attempted through one program after another to enhance the 
incentives for upper basin water storage. And we've had some 
considerable successes. The most significant in terms of actual 
acreage would be the CRP program.
    We fought for and obtained a special designation for much 
of the acreage in North Dakota, including virtually all of the 
upstream acreage. That made it much more likely to be enrolled 
in the CRP program. Presently in the 6 area counties of the 
region, 436,000 acres signed up in CRP. There is, as you know, 
the second enrollment taking place right now for this 10-year 
lease program. And this area has been so inundated with the 
response, they've had to bring on extra help.
    So we have really done what we feel is the best job we 
possibly can at expanding the upper basin storage. And some 
thoughts of random county-wide condemnation or some other 
things to try and take away the productive acreage of family 
farmers and get that water on there is simply not viable in a 
realistic way.
    In addition, the infrastructure struggle, one that I have 
been particularly involved in, is getting homes moved before we 
have to burn them, as that terrible picture showed. We have 
learned in North Dakota that this house moving is a real art. 
If you would just hold up that, we've moved more than 200 
homes, all shapes and sizes. The Federal Flood Insurance 
program has been an integral part of that program. It's cost us 
to date $17 million as insured homes are moved from harm's way 
just prior to inundation and total loss.
    In addition, as had been mentioned, we've worked at levies 
and we've worked at levies some more. Every time you further 
raise them, the costs seem to compound on you. We are now in 
the process of a $43 million dike-levee raise up to the 1,450 
mark.
    The final thing I want to mention is that this outlet will 
have NEPA review. It is in an expedited form. The outlet under 
consideration, that enjoys the strong consensus I indicated 
earlier, will have NEPA review. Some suggest that even, that 
any expediting, any trying to get this NEPA review done more 
quickly than the usual, normal, staid, leisurely, up to 6 year 
process, is some kind of abrogation of the environmental 
safeguards. Not so. It's done, it's just done as quickly as 
possible, because we've got a full-fledged emergency on our 
hands.
    And people that really don't think this is an emergency I 
believe are being terribly cavalier with the plight of the 
individuals that we represent and that we have seen choked up 
as they try to tell us about their losing businesses and 
inundated homes.
    In conclusion, then, Mr. Chairman, I think North Dakota, 
aside from the moving Fargo adding a lot of fame to that city 
of the State, North Dakota has become known for almost a tale 
of two cities, Grand Forks and Devils Lake. There's a contrast 
between the two. Grand Forks is like having a friend hit by a 
truck. Everything's fine, and then everything's terrible.
    Devils Lake is like watching a friend waste away to cancer. 
That is, a cancer that is a plague on our State. It is a most 
serious problem, it is a cancer not in remission, it is a 
rapidly deteriorating situation. We desperately need your help.
    Thank you.
    Senator Chafee. Thank you very much, Representative.
    I want to welcome Senator Wyden here. I understand you have 
no statement, Senator.
    As you know, the way we do these matters, where the Army 
Corps of Engineers is involved, there's what we call a 
feasibility study, which is really something quite swift that 
normally is done on these matters. We don't yet have the 
feasibility study. I'll be asking the Chief of Engineers about 
that. I just wanted to let the Senators and Representative 
know. And I don't know why.
    And from that, we also need a report from the Corps that 
the project is technically sound, economically justified, 
environmentally acceptable. We don't have any of that yet. I 
don't know why. Because although this is an emergency, it 
hasn't happened overnight. I think, Senators, you spoke to me 
about this some time ago, and it's been going on long before 
that.
    Let me ask you about a letter that was sent by your 
Governor, by the Governor on August 1 to Senator Lott. This 
letter was from the Governor and the majority leaders of the 
State legislature. And I quote: ``Abandoning for all time the 
possibility for an inlet,'' and I think all through this we 
want to keep people's focus on the difference between the inlet 
and the outlet, they are two separate matters, but they both 
affect this Devils Lake, or potentially could, the Senators and 
the Representative are here now discussing an outlet, and 
indicating that's what you seek.
    But the Governor and the legislative leaders wrote this: 
``Abandoning for all time the possibility for an inlet runs 
contrary to the statewide water development plan, which 
envisions stabilization of Devils Lake. It represents a 
significant statewide policy shift, made suddenly at the 
Congressional level, with minimal input from North Dakota.''
    What do you say about that, gentlemen?
    Senator Conrad. Mr. Chairman, I think it's very important 
that we make this very, very clear. That matter has been 
resolved. It has been resolved----
    Senator Chafee. That matter being the inlet?
    Senator Conrad. That is correct. Mr. Chairman, as you know, 
in this legislation, an inlet is specifically excluded. No. 2, 
the State of North Dakota negotiating team that includes the 
three gentlemen that are signatories to that letter, have 
agreed on a submission of amendments to the Garrison project 
with respect to this issue. And the State of North Dakota----
    Senator Chafee. This issue being?
    Senator Conrad. The issue of an inlet. And the State 
negotiating team that includes the three gentlemen that are 
signatories to that letter have agreed that there will be no 
provision for an inlet in the Garrison amendments. That has 
been decided. That is resolved. It's no longer an issue.
    Senator Chafee. In other words, even though this was dated 
August 1, which is a couple of months ago, you're saying that's 
now been resolved, and that what comes under the Garrison 
project is a separate subject, a future matter to be taken up, 
the Garrison project could well involve an inlet to Devils 
Lake, but that's a separate subject to be considered later?

    Senator Conrad. Mr. Chairman, could I make it even more 
clear than that. We have agreed, in fact, I have a letter from 
the Governor and the other two gentlemen who are signatories to 
the August 1 letter. And this letter relates to Garrison 
amendments that we are working on. In the document that 
addresses the question of an inlet or an outlet for Devils Lake 
with respect to the Garrison amendments, in that document, the 
working document, it says, do not include outlet or inlet in 
amendments to 1986 Act, referring to the Garrison project.
    Outlet is being considered on a separate emergency basis. 
And the document from the three gentlemen who are signatories 
to the letter dated August 1 say that their position is 
agreement, agreement with the principle that we will not 
include, will not include, in any Garrison amendments, any 
reference to an inlet or an outlet. That the outlet is being 
considered on a separate, emergency basis.
    So the August 1 letter has been overtaken by events. The 
Governor and the top legislative leaders have signalled their 
agreement that in any Garrison amendments, an inlet will not be 
included.
    Senator Chafee. Could you, Senator, submit that letter and 
whatever attached documents for the record, please?
    Senator Conrad. We'd be happy to submit the relevant parts 
for the consideration of the committee.
    Senator Dorgan. Mr. Chairman?
    Senator Chafee. Senator Dorgan.
    Senator Dorgan. If I might just further respond to that. As 
you know, I'm a member of the Appropriations Committee. And 
this issue was addressed in the appropriations deliberation 
before, in fact, the last item of business before the Energy 
and Water Appropriations Bill left the U.S. Senate.
    The $5 million was provided for this outlet, as the last 
item of business. But the $5 million was combined with language 
required and requested by Senator Bond. That language dealt 
with the issue of the inlet. And we accepted that in exchange 
for getting funding for an outlet.
    The fact is, there was fairly substantial criticism in 
North Dakota for our accepting that. But nonetheless, that is 
done. That went to conference. There was an attempt, and I 
think the letter addresses that attempt, to soften that 
language. The conferees refused to do so. And we now have in 
law a provision that says there will not be an inlet, in 
attendance with this discussion of an outlet.
    So I was a part of the process, in the appropriations 
process, that accomplished the money for achieving the outlet. 
But I understand what happened was, language was included that 
is now law dealing with the question of prohibiting an inlet.
    Mr. Pomeroy. Mr. Chairman, I'd only add that this happens 
all the time. The State leaders wanting maximum flexibility, 
Congress not disinclined often to have some assurances that 
things go as they direct. In this case, the direction was 
imposed in the legislation, now enacted, in Federal law, 
relative to the inlet. So that has been disposed of, and 
irrespective of the wishes of State officials as expressed in 
the August 1 letter.
    Senator Chafee. Let me ask one final question, and then I 
want to go to Senator Wyden. We've got on the next panel the 
State engineer and so forth.
    But just briefly, from your point of view, is there a 
concern about the quality of the water, if you have this 
outlet? In other words, if you look at this thing here, without 
getting into tremendous detail, what you are proposing is 
reasonable, you build an outlet, it goes down to the Sheyenne 
River, flows over to the Red River, then it goes up and 
everything's fine.
    But I presume there are some hitches to it. One is the 
quality of the water. It's a saltish water, is there a concern 
about that? And I know I'm not looking to you as experts, 
because we've got other experts on the next panel, probably. 
But what do you say to that?
    Senator Conrad. Yes, sir, we are concerned. That's why we 
believe it is critically important to have an ability to 
release water on a controlled basis. Controlled as to both 
quality and quantity.
    The reason that is especially important, Mr. Chairman and 
Senator Wyden, is because the quality of the water in this lake 
is many times worse out at the east end, where an uncontrolled 
release would occur, than out at the west end, which is where 
the controlled release would occur. In other words, we are much 
better able to manage the quality of the water if we have it 
released out of the west end than on an uncontrolled basis out 
of the east end.
    If you look across that lake, the natural outlet is out of 
the east end. And the water quality is many times worse, many 
times worse out of the----
    Senator Chafee. Dissolved solids?
    Senator Conrad. Yes, dissolved solids, salts, much worse 
out at the east end. If this lake goes over into Stump Lake, it 
will raise Stump Lake 40 feet. And the water quality, much 
worse.
    One of the reasons that those who have been working to 
devise a solution have chosen a controlled outlet out at the 
west end is because then you can have water quality in the 
Sheyenne that is roughly equivalent to what is in the Sheyenne 
now. And you can meter out the water in a way that does not 
present a water quality concern downstream.
    Again, I'd remind the chairman and the other members of the 
committee and the staff, that we're the first ones downstream. 
It is the majority of the population of the State of North 
Dakota who are in the first trench, if you will.
    And that is why we have got a special concern about water 
quality. We have no interest in moving this flood downstream. 
Because downstream is North Dakota. And we have no interest in 
imposing bad water quality downstream, because downstream is 
North Dakota in the first instance.
    Senator Dorgan. Let me also mention the Corps of Engineers 
report says, the operation of the outlet as proposed would meet 
applicable water quality standards. The operating plan proposed 
in a previous report was based on meeting the Sheyenne River's 
class 1A standards at the release point.
    And what Senator Conrad says is critically important. If 
you do nothing and this moves by its own motion, and goes over, 
what happens is the worst possible quality water goes into the 
Sheyenne. If measured releases from an outlet in a thoughtful 
way are able to reduce the pressure from that lake, you are 
able to provide releases from the better quality water in the 
lake. So there's no question that what we're doing represents 
the best interests with respect to water quality that would go 
down the Sheyenne.
    Senator Chafee. You're suggesting that if nothing happens, 
there's liable to be an overflow on the eastern end, where the 
worst water is, and it could flow right down there. So you'd 
have a situation that would put the worst water into the Red 
River.
    Senator Dorgan. And it's not just the worst, it's many 
times worse in terms of quality than other water in the lake. 
You're exactly correct.
    Senator Chafee. OK, thank you.
    Senator Wyden, I understand you have no questions.
    Thank you all, gentlemen, very much. We appreciate your 
coming here, and this is a very serious matter, and we'll do 
our very best. Thanks for your attention.
    Now we'll have the next panel. John Zirschky, Acting 
Secretary for Civil Works, Corps of Engineers; the Honorable 
Michael Armstrong, Associate Director for Mitigation, of FEMA; 
Dave Sprynczynatyk, North Dakota State Engineer, from Bismarck; 
Dr. Gary Pearson, Dakota Prairie Chapter, National Audubon 
Society; and Mr. Joe Belford, Lake Emergency Management 
Committee.
    If you'd all take your seats, and I want to say one thing. 
Gentlemen, if we'd move right along now, folks, there's going 
to be a vote at 11 o'clock. So that gives us a little bit over 
an hour, and we ought to able to have everybody have a fair 
chance here. But I would ask that you keep your statements to 5 
minutes. You'll see the lights here, if somebody goes a little 
bit over, they're not going to be guillotined, but we want to 
keep that so we'll have a chance to ask questions and give 
thorough consideration to everything that's said.
    Mr. Zirschky, why don't you proceed.

STATEMENT OF HON. JOHN H. ZIRSCHKY, ACTING ASSISTANT SECRETARY 
            FOR CIVIL WORKS, DEPARTMENT OF THE ARMY

    Mr. Zirschky. Thank you, Mr. Chairman, members of the 
committee.
    I would ask that my written statement be placed into the 
record.
    Senator Chafee. Without objection.
    Mr. Zirschky. Mr. Chairman, I've been in my present 
position for about 4 years, which is something of a record for 
the job that I'm in. I can say in all honesty that Devils Lake 
is one of the toughest challenges that I've faced, and that 
finding the right solutions to this problem are going to be 
very, very difficult.
    Furthermore, the Corps of Engineers has been the Nation's 
problem solver since 1775. In fact, we're one of the few 
Federal agencies the founding fathers would recognize.
    Even with this long history, the situation at Devils Lake 
is unique. This is going to be a tough problem for us to solve.
    To highlight the problem, Mr. Chairman, I'd like to ask 
everyone in the room to sort of imagine a line on the wall 
about 12 feet from the floor. And that's how much higher the 
water is in Devils Lake than the adjacent town of Devils Lake. 
I think it's about where the joint is on the two wood panels.
    And I doubt that would be acceptable to most Members of 
Congress.
    Senator Chafee. Now, what are you saying, 12 feet is what?
    Mr. Zirschky. The water level in Devils Lake is about 12 
feet higher than the adjacent town of Devils Lake. Our levee 
systems are basically acting as dams. We're essentially 
building an earthen dam between Devils Lake and the town of 
Devils Lake. And the water level right now is 12 feet higher 
than the town.
    Senator Chafee. They're dikes, rather than dams, aren't 
they?
    Mr. Zirschky. Pardon?
    Senator Chafee. It's a dike, isn't it?
    Mr. Zirschky. Well, what we're essentially building it as a 
dam, sir.
    Senator Chafee. OK.
    Mr. Zirschky. A very large, earthen dam.
    I doubt it would be acceptable to many Members of Congress 
to have their constituents for years living next to basically 
12 feet of water.
    The first point I would like to make is that there is a 
flood at Devils Lake. It's not a hypothetical situation. 
There's a flood there right now.
    And one of my former professors used to tell me that you 
should put problems in three categories: real problems, 
potential problems and imaginary problems. Devils Lake is a 
real problem and one that the exact solution to is going to be 
very, very hard to find.
    We have to look at a lot of different options, upstream 
storage, an outlet. We're going to be doing that. We've been 
doing it for several years. I don't know what history is going 
to show will be the right way to address the flood, because I 
don't know how long the flood is going to last or how much 
worse it's going to get.
    I do know that it's going to get worse before it gets 
better, because the flood waters are still rising. That 
imaginary line on the wall is getting higher and higher off the 
floor each year.
    To help me make the right decision, I asked the Corps to 
enter into a contract with a leading research institution to 
develop a rational decision model for the situation. None of 
the normal assumptions on flood forecasting will work in a 
situation such as at Devils Lake.
    Normally, when you do probability modeling, you assume that 
what happens in 1 year is not related to what happens the next 
year. But because this is a closed lake, the water level that 
we have today has a very big bearing on what the water level is 
going to be next year. So we've got to do a different kind of 
probability analysis.
    There's been a lot of discussions of the conditions that 
were added to the appropriations act, and frankly, I don't 
think those conditions served us very well at all. At least in 
Washington, everyone seems focused on the conditions and not 
focused on the actual flooding.
    At least four times a week, I hear people come and talk to 
me about how I'm going to address the conditions, and they 
don't come and talk to me about how I'm going to address the 
flooding. I guess I'd like to keep everybody focused on how do 
we address the flooding, not how do we answer certain 
conditions. Because the real problem that we have to solve is 
the actual flood.
    The third point I'd like to make is that Devils Lake is 
going to overflow into Stump Lake, and that Stump Lake is going 
to overflow into the Sheyenne River, 100 percent certain that 
that is going to happen. What isn't certain is when. We know 
it's happened in the past. It could happen in the next few 
years, it could happen in 1,000 years. But we know it's going 
to happen. What we don't know is when.
    When that eventually happens, there's going to be an outlet 
from Devils Lake, and it's going to be an uncontrolled outlet, 
and we're going to lost the opportunity to minimize the 
environmental damage. There's not going to be an opportunity to 
mitigate downstream flooding. There's not going to be an 
opportunity to mitigate health effects on the people who are 
going to have to drink that water.
    When we have that ultimate situation, we're not going to be 
talking about an outlet any more, we're going to be talking 
about a spill lake. And I don't believe that anybody here wants 
that situation. I'm pretty sure the Canadians don't, and the 
Minnesotans don't, and the North Dakotans don't.
    I guess the standard I would like to use in addressing the 
flooding is the same one I've used for every other member of 
the committee and Congress, and that is, I'm going to try to do 
all that I reasonably can to protect the people of North 
Dakota, Minnesota and Canada. I have asked and I'm going to 
continue to ask the Corps to undertake all reasonable efforts 
to protect those people.
    In closing, Mr. Chairman, I'd like the Congress to remember 
three things over the next few months. First, there's a flood 
at Devils Lake right now. The second is the conditions that 
have been added I think increased our risks of getting the 
answer wrong, because we've got too many people focused on the 
conditions and not the flood.
    And third, that there is going to be an outlet from Devils 
Lake. There's been one in the past, and there's going to be one 
again.
    Mr. Chairman, you asked about the feasibility study. I'd be 
happy to answer any questions about that. I also have charts 
that I can explain the situation in more detail if you so 
desire.
    Thank you.
    Senator Chafee. Thank you very much, Mr. Secretary.
    Mr. Michael Armstrong, Associate Director for Mitigation 
for FEMA.

STATEMENT OF HON. MICHAEL J. ARMSTRONG, ASSOCIATE DIRECTOR FOR 
        MITIGATION, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Armstrong. Good morning, Mr. Chairman and Senator 
Wyden.
    This is my first appearance before you since this committee 
was kind enough to recommend my confirmation to the Senate 
earlier this year, and I'd like to just thank you again for 
this opportunity to serve in this capacity.
    Before I was confirmed by the Senate, I served as the 
regional director at FEMA in Region VIII, which includes North 
Dakota. In that capacity, I was asked to chair the interagency 
task force for the Devils Lake Basin. And my written testimony, 
which you have before you, talks about the work of this task 
force.
    I'd like to highlight several things, because I think it's 
important to know the context in which we are talking today, 
which is a different scenario than I encountered when I was 
first asked to chair a task force 2 years ago. At that time, 
the community had been studied repeatedly, but there was a 
sense that there was no coordination occurring between the 
various stakeholders, both at the governmental levels, at 
Federal, State and local, as well as people in the private 
sector and ordinary citizens in the Basin.
    Therefore, the mission of the task force was, and is, 
because we are continuing to meet and I am continuing to chair 
it, is to find and propose intermediate solutions to reduce the 
impacts of the high lake levels in the Basin, intermediate 
solutions to find as remedial actions that could be achieved 
within approximately 5 years after or along with disaster 
response efforts, but before the benefits from any long term 
engineered solution could be realized.
    From the very beginning, it was recognized that to achieve 
this mission, the task force effort would require the 
coordinated activity and commitment of numerous Federal, State 
and local government entities along with elected officials, 
private citizens, environmental groups, and representation from 
the Spirit Lake Sioux Tribe. For this reason, the task force is 
operated with one key point in mind: that any solutions to be 
recommended could not involve a single agency response, but 
instead would require an approach that is multidisciplinary, 
multi-objective, multi-agency, bottom up and achieved through 
consensus building partnerships.
    Two years have passed since I was first appointed to serve 
as the chair of the task force. And since 1995, the members of 
the task force have pulled together to mitigate the flooding 
impacts in the Basin by leveraging Federal, State and local 
stakeholder resources.
    Some of the examples: all essential roads in the Basin have 
either been raised or are being raised above the rising lake 
level. Flood plain maps for the entire Basin were developed and 
all communities are now participating in the national flood 
insurance program.
    To date, 504 claims have been reported, helping those who 
were affected by the flooding to rebuild their lives. This has 
been an infusion of over $17 million to impacted residents.
    Waivers of the standard flood insurance policy have been 
issued by FEMA in order to allow homeowners and business owners 
who are threatened by imminent flooding to receive payments in 
advance of experiencing flood damage. These waivers have 
allowed 122 home and business owners to access the resources 
they needed to move out of harm's way and 344 additional claims 
are pending at this time.
    Twenty-one homes on the Spirit Lake Reservation have been 
relocated outside of the flood hazard area. The levees around 
the city of Devils Lake are being raised. Internal drainage 
systems are being put in place.
    Approximately 30,000 acre feet of upper basin storage has 
been created through various programs. A series of agricultural 
programs have been funded and put in place to assist farmers. 
Twenty lift stations in Ramsey County have been elevated. A 
sewage lagoon for the town of Minnewauken has been relocated. 
Lake water quality monitoring is ongoing. A long term lake 
stabilization study is funded and underway. And now we are 
considering the possibility of building an outlet.
    While the Federal Government has spent over $200 million to 
address issues, and I have listed some of the achievements that 
this task force has helped coordinate, nevertheless, it remains 
that we still have a crisis in Devils Lake. James Lee Witt, the 
director of our agency, has said that he has never seen 
anything like this situation. And as you know, Mr. Chairman, he 
has seen an extraordinary variety of disaster scenarios during 
his time as director of FEMA.
    The studies that have occurred number over 400 in this 
area. Our purpose is not to do another study, but to instead 
create a process whereby all stakeholders would come together 
to examine the problem from many angles, brainstorm 
alternatives and confront differences of opinion and reach 
consensus. Through this process, we have seen an incredible 
development of partnerships. The task force has succeeded in 
creating an understanding that no one solution or one level of 
government provides all the answers.
    But we believe by pursuing a combination of options, 
including removal and flood proofing of structures, alternative 
land usage and water storage, rehabilitation of infrastructure, 
local planning, the people of Devils Lake have sought permanent 
approaches to mitigation. And that's what makes today different 
from 2 years ago. We believe that there is a concerted effort 
to involve all levels of government, and that the levels of 
government have made a good faith effort to demonstrate that no 
one solution is being pursued.
    Given that, in this package of options, we believe that a 
construction of an outlet in a manner that is sensitive to 
environmental concerns and downstream impacts could complement 
the other efforts underway.
    Thank you.
    Senator Chafee. Thank you very much, Mr. Armstrong.
    Mr. Sprynczynatyk?

 STATEMENT OF DAVE SPRYNCZYNATYK, NORTH DAKOTA STATE ENGINEER, 
                     BISMARCK, NORTH DAKOTA

    Mr. Sprynczynatyk. Good morning, Mr. Chairman and Senator 
Wyden.
    Thank you for the opportunity to testify here today. My 
name is Dave Sprynczynatyk. I'm the North Dakota State Engineer 
and the Secretary to the State Water Commission.
    The testimony I'm giving today is on behalf of Governor Ed 
Schafer. Governor Schafer asked me to extend his apologies to 
the committee for not being able to attend in person.
    Since 1993, Devils Lake has risen more than 20 feet, from 
an elevation of 1,422.6 to elevation 1,442.9. Today, it is the 
most serious, the most pressing flood problem facing North 
Dakota. Since 1993, the Federal, State, tribal and local 
governments, as well as the people of that area, have incurred 
more than $200 million in damages and flood fighting expenses.
    As the lake continues to rise, the U.S. Army Corps of 
Engineers forecasts that cumulative damages will grow to $370 
million by the time the lake reaches elevation 1,450, less than 
8 feet above its current level. This year alone, the lake rose 
five feet over last year's level.
    Most often, rivers will rise, flood adjacent areas and then 
recede. This is not the case with Devils Lake, which continues 
to rise relentlessly, engulfing land, homes, roads and 
everything else within its constantly growing borders. This is 
a progressive disaster that requires emergency action to gain 
control.
    The lake's natural outlet occurs when water rises another 
15 feet and reaches elevation 1,457.5. It then overflows into 
the nearby Sheyenne River, which drains into the Red River, and 
ultimately into Lake Winnipeg and the Hudson Bay. Geologists 
have concluded that this natural spillage has occurred several 
times during the past 10,000 years.
    No one can predict what will happen with the lake next 
year. We have watched the lake rise well above the best 
scientific predictions for 5 years in a row. Just a few weeks 
ago, Mother Nature dumped another three to five inches of rain 
over the entire Devils Lake Basin. Every naturally occurring 
event, such as this, compounds our problems and reminds us of 
how little control we have over the situation.
    North Dakota's approach to managing the problem has been a 
comprehensive, three-part effort, including upper basin storage 
and management, protecting infrastructure and removing water 
from the lake. First, the Federal and State government have 
made significant efforts to hold water back within the upper 
areas of the basin. Upper basin water management, as we call 
it, has been ongoing for several years. But it alone is not the 
answer.
    Some people point the finger of blame to agriculture and 
suggest that closing wetland drains is the solution. Again, 
this is a grossly simplistic approach. Scientific evidence 
shows that the lake's level has ebbed and flowed for thousands 
of years, and overflowed naturally into the Sheyenne River long 
before man had any influence on the watershed.
    We firmly believe there is a limit to what we can 
accomplish through upper basin water management. Nevertheless, 
we continue to spend millions of dollars on upper basin 
management to restore holding areas and to create new ones.
    Second, we're protecting infrastructure around the lake. 
The greatest expenses have occurred as a result of relocating 
more than 200 homes, raising miles of roads, replacing several 
bridges and building levees and protecting utilities. This year 
alone, we had 17 highway elevation raising projects in the 
area, for a total cost of $30 million. More dirt and road work 
took place in the Devils Lake region this year than occurred in 
our State even during construction of the interstate highway 
system.
    Resources to continue these infrastructure efforts are 
limited. Yet we must continue pursuing these projects, not 
knowing if our efforts will ultimately be overtaken again by a 
lake that is rising uncontrolled.
    Our third effort is to remove water from the lake. This is 
where an outlet is necessary, because evaporation is the only 
current method of reducing the lake level. Even with a 
prolonged drought, it would take more than 10 years of normal 
evaporation for the lake to return to the pre-flood level of 
1993.
    A managed outlet is technically feasible, and others have 
been completed successfully elsewhere in the country. Lake 
Pulaski in neighboring Minnesota is a good example, a managed 
lake outlet built in 1986 by the Corps of Engineers.
    Environmentally, the outlet can be constructed and operated 
to meet downstream State and Federal water quality standards, 
as well as international water quality objectives. The runoff 
to Devils Lake is the same as runoff from other agricultural 
areas in the State into the Sheyenne and Red River.
    Operating the outlet only during non-flood periods will 
eliminate additional downstream flooding in peak flood times. 
The entire basin would be managed like a reservoir, with water 
being stored when needed for downstream flood control, and 
released during non-flood periods.
    The benefit of the outlet has been questioned since it is 
limited in capacity. At the current lake level, any future rise 
will cost approximately $30 million per foot, much more than 
what was projected by studies completed by the Corps of 
Engineers several years ago, when the lake was nearly 25 feet 
lower, and the damages at that time per foot were much less 
than what we are experiencing now.
    A rise in 1998 similar to what we experienced this year 
could cause up to $150 million in additional damages. To the 
people who have lost nearly 60,000 acres of land, their homes 
and their livelihood to the lake since 1993, I can assure you 
that the situation is an emergency and that the outlet is very 
justified.
    Regarding the non-Federal cost share for the project, the 
1997 State legislature unanimously passed a resolution of 
support for an outlet to Devils Lake, and provided sufficient 
funding for the cost share to the State Water Commission. 
During the hearings and the dozens of public meetings that have 
occurred across the State regarding Devils Lake, there has been 
considerable public debate. The State stands ready to provide 
funds as necessary.
    Finally, there seems to be some confusion regarding the 
relationship of Devils Lake to the Missouri River Basin. Devils 
Lake physically is not a part of the Missouri River Basin. It 
is part of the Hudson Bay-Red River drainage. An outlet from 
Devils Lake to its natural basin, the Red River, will in no way 
affect the Missouri River nor the Mississippi River.
    Thank you for your time today, and thank you for your 
careful consideration of this outlet project that we believe 
will provide the relief necessary from this terrible unfolding 
disaster and emergency that plagues the Devils Lake region, the 
Spirit Lake Nation and the State of North Dakota.
    With my testimony I have also submitted a Devils Lake fact 
sheet that gives more detailed information. I have also 
provided to you a brochure entitled the Devils Lake Flood: 
Managing the Problem, which presents a comprehensive strategy 
that has been put forward and the document is signed by the co-
chairs of the Lake Emergency Management Committee, Vern 
Thompson and Joe Belford, our Congressional delegation, Senator 
Dorgan, Senator Conrad, and Congressman Pomeroy and also by 
Governor Ed Schafer.
    Mr. Chairman, thank you again, and if you have any 
questions, I'll be glad to try to answer them.
    Senator Chafee. Thank you very much, Mr. Sprynczynatyk.
    Dr. Gary Pearson, Vice President, Dakota Prairie Chapter, 
National Audubon Society.
    We welcome you, Doctor. Why don't you proceed?

 STATEMENT OF GARY L. PEARSON, VICE PRESIDENT, DAKOTA PRAIRIE 
   CHAPTER, NATIONAL AUDUBON SOCIETY, JAMESTOWN, NORTH DAKOTA

    Mr. Pearson. Thank you very much, Chairman Chafee, Senator 
Wyden.
    It's going to be a little difficult to respond to an hour 
and a quarter of emotional statements on this project, but I 
will do what I can in the time allotted.
    The rising level of Devils Lake in recent years has caused 
millions of dollars of damage to roads and other developments 
and has created tremendous hardships for many people living 
near the lake. The problems are serious and they require 
solutions that are effective, are based on sound hydrologic and 
engineering analyses, and are economically justified and 
environmentally responsible. Unfortunately, the proposed 
emergency outlet from Devils Lake to the Sheyenne River fails, 
and it fails dismally, to meet any of these criteria.
    In considering the problems created by the high water 
levels at Devils Lake, it is necessary to recognize that we are 
dealing with a natural phenomenon, which has been transformed 
into a man-made emergency. As you have heard, Devils Lake has 
never been a stable lake. And over the last 4,000 years, it has 
been completely dry five times, it has overflowed to the 
Sheyenne River twice, and it has fluctuated between these 
extremes another eight times.
    As the level of the lake continued to decline in the first 
half of this century, roads, railroads and other developments 
encroached more and more on the dry lake bed. Simultaneously, 
agricultural development resulted in extensive wetland drainage 
throughout the watershed.
    It is now estimated that a minimum of 189,000 acres of 
wetlands with the capacity to store nearly a million acre-feet 
of water have been drained in the Devils Lake Basin. With 
evaporation and seepage, much of this storage was renewable. 
Instead, however, most of that water now finds its way directly 
into Devils Lake.
    We've been told that this project is economically feasible. 
We have seen no data to substantiate that. However, in 1994, 
the Corps of Engineers calculated an outlet would produce only 
39 cents in benefits for each dollar of cost. Since then, 
nearly $200 million have been spent to move 300 homes. I point 
out those homes have been moved, there have only been about 20 
structures that have actually been destroyed. People haven't 
actually lost their homes, they've moved them. And there have 
been $14 million in Federal national flood insurance payments 
made, and in comparison, there's been only $900,000 in premiums 
paid by those people receiving those benefits.
    The money has been spent to raise roads and dikes and 
implement other measures to minimize the damage that has 
resulted from the high water levels, thus reducing even further 
any benefits of an outlet. It is obvious, therefore, this 
proposed outlet is devoid of economic justification.
    I am also disappointed that no one of the previous 
witnesses told you that the outlet, had it been in operation 
when the lake began to rise in 1993, would have lowered the 
lake by only 13 inches by October 1995. The lake still would 
have risen more than five feet, and it would have risen another 
five feet since 1995. The fact is, the lake has been rising at 
five times the rate that an outlet would lower it.
    In other words, the proposed outlet simply wouldn't work to 
prevent flooding around the lake. Nor would it prevent the lake 
ultimately from overflowing into the Sheyenne River. And should 
that occur at 1,457 feet, it doesn't matter to those people 
downstream whether it be the water from the outlet or from the 
natural overflow. This project simply doesn't work to solve the 
problem.
    The Corps' preliminary emergency outlet plan notes 
specifically that environmental impacts of the proposed outlet 
have not been addressed. But they include destabilization, 
erosion and remodeling of the stream bed of the Sheyenne River, 
worsening of low water level situations at Devils Lake, 
increased mercury in downstream aquatic systems, persistent 
high sulfate levels in Lake Ashtabula during drought 
conditions, higher water treatment costs for cities using river 
water, an increased frequency, duration and magnitude of 
violations of State and international total dissolved solid 
standards.
    However, just last week, under pressure from our North 
Dakota Congressional delegation, President Clinton declared the 
Devils Lake outlet to be an emergency requirement. Senator 
Conrad now asserts that this somehow compels construction of 
the outlet without consideration of an effective and feasible 
alternative, and without addressing the environmental impacts 
until after they have occurred. In other words, without full 
compliance with the National Environmental Policy Act.
    We strongly disagree with this interpretation, because it 
is neither wise policy nor is it a legal requirement.
    Although the Corps' report was intended to be ``a common 
reference for discussions,'' despite widespread opposition, 
little factual information has been provided to the public and 
no forum has been established to permit meaningful public 
participation in decisions regarding the outlet.
    While the North Dakota Congressional delegation is telling 
Congress to abandon all thoughts of seeking authorization for 
an inlet, now it's interested only in an outlet from Devils 
Lake, politicians and proponents of the outlet are telling a 
very different story in North Dakota. And I would like to quote 
from attachment number 24 to my written submission. ``Dorgan 
and Conrad said Congress could change the legislation in 
question in later years.'' This was legislation regarding the 
outlet-inlet.
    Attachment number 27 to my statement, North Dakota Senators 
push for emergency inlet. ``An emergency inlet option is the 
only one opponents may buy, Conrad said.'' We were told this 
issue was resolved in an August letter from the Governor. Here 
is a story from the Fargo Forum September 26th, 1997. Senator 
Byron Dorgan and Senator Kent Conrad, both Democrats, said that 
the inlet had to be bargained away to win funding for the 
outlet.
    The inlet has been strongly opposed by Senator Christopher 
Bond, a Missouri Republican. ``Senator Bond refused to budget 
on the inlet, Conrad said, adding that securing money for the 
outlet was the most difficult fight in my Senate career.'' 
Dorgan said he will bring back the inlet debate in future 
sessions. But for now, he said, the outlet is what is needed. 
This is dated September 26th, 1997.
    By their own admissions, they are steadfastly pursuing a 
piecemeal strategy to construction of an inlet to Devils Lake. 
It is important to recognize that effective solutions are 
available and already are being implemented to deal with 
problems at Devils Lake.
    However, Governor Schafer said in July, ``State Water 
Commission Chairman voiced his misgivings that all the work and 
money being put into protecting infrastructure at Devils Lake 
and upper basin storage was taking pressure off the Corps to 
produce an outlet. I am concerned by putting all the Federal 
and State efforts into infrastructure, we are building 
ourselves into the position that efforts will be less intensive 
to secure an outlet.
    We are very intent on getting an outlet, and we don't want 
to reduce the pressure on getting an outlet by making an 
investment in the infrastructure.'' In other words, we don't 
want to look at other solutions to this problem. We just want 
our outlet.
    It is evident, really, that the real motivation behind 
North Dakota's pursuit of an ineffective and economically 
infeasible Devils Lake outlet has little to do with any 
emergency, but is simply another element of the State strategy 
for piecemealing together its plan for a $1.5 billion Garrison 
Diversion project.
    In fact, just this week, the U.S. Geological Survey 
released a reporting indicating that the odds are, Devils Lake 
will stabilize and then start to slowly fall over the next 
several years. I would like to submit a copy of that news story 
for the record.
    Senator Chafee. All right, fine.
    Mr. Pearson. Obviously, the most pressing emergency facing 
proponents of the Devils Lake outlet is getting it built before 
the lake starts to drop.
    In view of the many people downstream in North Dakota and 
other States and Canada who would be affected by the outlet, 
but who have been deprived of meaningful participation in 
decisions regarding the proposal, we strongly recommend that 
this committee reiterate to the President and the executive 
branch the requirements that Congress has specified in the 
fiscal year 1998 Energy and Water Development Appropriations 
Act must be met before construction may be initiated on the 
Devils Lake outlet.
    And these include that it be technically sound, 
economically justified and environmentally acceptable, and in 
compliance with the National Environmental Policy Act.
    Thank you.
    Senator Chafee. Thank you very much, Doctor.
    Mr. Joe Belford, Lake Emergency Management Committee.

  STATEMENT OF JOE BELFORD, RAMSEY COUNTY COMMISSIONER, NORTH 
                             DAKOTA

    Mr. Belford. Senator Chafee, Senator Wyden, my name is Joe 
Belford. I am a Ramsey County Commissioner representing Ramsey 
and the Devils Lake Basin.
    Senator Chafee. That is, you are an elected official?
    Mr. Belford. That's correct, sir. I am also a co-chair of 
the Devils Lake Emergency Management Committee, which is made 
up of elected officials of the Devils Lake Basin. I also serve 
in another capacity, as vice chairman and the North Dakota 
representative of the Red River Basin Board, which includes 
members from North Dakota, South Dakota, Minnesota and the 
province of Manitoba. And we organize for the purpose of 
managing water within the Red River Basin.
    I have with me Senator Vern Thompson and a co-chair of the 
Lake Emergency Management Committee, and the Mayor of 
Minnewauken, North Dakota; and Mayor Fred Bott, the Mayor of 
the city of Devils Lake.
    Before I start my presentation, which I have submitted to 
you, I would especially like to take issue with the comment 
that this is a man-made emergency. I would like that to be told 
to Mayor Thompson, whose community was eight miles from the 
lake in 1993. And now, he had to move his lagoon, because it 
was being inundated with water, and they're talking about 
building a levee for the city of Minnewauken. Or to our mayor, 
Fred Bott, who is overseeing a six mile levee being built at an 
additional cost of $43 million. I think you would have a hard 
time telling them that this is a man-made emergency.
    Also, Mr. Sprynczynatyk mentioned that for every foot, $30 
million additionally would be spent in saving property and 
infrastructure around the lake. For the record, the lake is 
freezing up only two-tenths of an inch from its high this year. 
We had three inches of rain in our area again last weekend, 
which is bringing it up within two-tenths of an inch.
    So there's no question but it's going to continue to rise.
    I want to thank you for the opportunity to testify, and as 
has been indicated, we do have a very serious problem in Devils 
Lake. Being an elected official and being involved with this 
process every day, it is indeed a real devastating thing on the 
citizens of our communities throughout the Devils Lake Basin.
    And as indicated, it did start in 1993. Devils Lake has 
been a record lake for fishery and sports and other things 
going on within the Basin. So it's very beneficial to our 
community, but it's also very damaging.
    At the same time, our problems started at the same time 
that the Missouri and the Mississippi kicked off in 1993, and 
Senator Bond and I talked about that the last time we met, all 
the damages in his State, which were taken care of, as we had 
in the Red River Valley this year. And we continue to have 
heavy rain and snowfall throughout our area, as we had last 
winter. A Presidential disaster declaration has been signed for 
every year since 1993.
    The lake started out covering 40,000 acres, as was 
mentioned. And today, it's over 100,000 acres and continuing to 
rise. It took on more water this year than there was in the 
lake in 1993. Even though projects are going on in the upper 
basin for water retention, water management, there's a big CRP 
sign-up that has happened, there's a new one underway right 
now, wetlands restoration and other projects going on to 
continue to keep the water from coming into the lake.
    In fact, the Devils Lake Basin has their own water 
management plan and it's printed, and the committee is working 
to implement a lot of the plans and ideas to keep water from 
flowing into the lake. Nevertheless, it continues to rise. And 
I want to call your attention to that.
    It's a flood unlike a river flood. And the flooding at 
Devils Lake will continue to grow like a cancer, with no end. 
As indicated, over $200 million has been spent. The question we 
must ask is, do we want to manage water or let the water manage 
us?
    If we continue to let the water manage us, we are looking 
at another $260 million. And as a Republican, I don't want to 
come back here and ask you gentlemen for another $260 million 
again to help save our infrastructure and the problems that are 
facing our communities up there. So let's act and move along 
with our outlet.
    To illustrate how the lake has grown, Mr. Chairman, if I 
may just ask Senator Thompson for a couple of comments, and 
Mayor Bott, I would like to do that in the middle of my 
testimony.
    Senator Chafee. Well, that's all right, briefly. Because 
we've had a pretty thorough presentation of the situation. And 
I want to save some time. As I said, there's going to be a vote 
in half an hour. And if you want----
    Mr. Belford. We'll be very brief, and we'll have you out of 
here in time, sir.
    Senator Chafee. It's not a question of us getting out of 
here at 11. It's a question of having an opportunity to 
thoroughly examine the witnesses.
    All right, if those gentlemen want to briefly say 
something.
    Mr. Thompson. Thank you again, Senator.
    Senator Chafee. First, Mayor, was the Doctor accurate? I 
think he indicated there have been 20 houses burned? Is that 
correct?
    Mr. Thompson. That's a fair statement. And there are a 
number that are being looked at, they have to file for permits 
to go ahead and have those burned.
    But if you look at your briefing book, on the cover there's 
a picture, if Mr. Sprynczynatyk would hold it up, there's an 
example of where the lake shore was. It moved eight miles. On 
the top of that picture is the community of Minnewauken. And 
the lake has moved eight miles.
    We didn't make that lake come. The lake encroached on us, 
and we've had to move and relocate our lagoon system for the 
town of 400 at a cost of over $800,000. We're basically broke, 
as political subdivisions. Our homes, our livelihoods, our 
futures are at risk. And this problem is not going away.
    There's other documents in there, and you can go ahead and 
look through them at your leisure, have your staff do it. But I 
think it's important that, as a State Senator, we had a public 
debate about this issue, with the portion of the emergency 
outlet in the legislature. We passed unanimously a resolution 
for the outlet. And we passed overwhelmingly the funding for 
the State portion to match the Federal commitment.
    Thank you.
    Mr. Belford. Now I'd like to call on Mayor Bott, who is the 
Mayor of Devils Lake, North Dakota.
    Mr. Bott. Thank you, Mr. Chairman.
    Just a couple other statements to talk about downstream 
from Devils Lake. I'm Mayor of Devils Lake. But I went to 
college and I have an aunt and uncle living in Valley City, the 
first city that would be impacted downstream from Devils Lake 
when the water flows. And I'm from Lisbon, North Dakota. My 
mother still lives there, that's the second city that would be 
impacted downstream when the water overflows Devils Lake, 
hopefully controlled, but uncontrolled, my relatives are living 
downstream.
    There is a picture in your briefing booklet, and there was 
a poster showing the lake level in 1965, and the lady standing 
there. If someone stood on the sign that showed the lake level 
last year compared to the lake level this year, if they were 
not at least five feet seven inches tall, they'd drown. The 
lake has gone up that much from last year.
    Two letters from my students. This is from a senior in one 
of my American Studies classes. It has to do with the inlet. If 
an inlet is not built, people will lose homes they've lived in 
for years. Devils Lake will no longer be a town that you can 
live in. There won't be any place for kids to go to school. 
They'll have to relocate all around the State. There won't be 
any high school games. You won't see the same faces in church 
that you've seen your whole life. And this is from a junior in 
my same class.
    Senator Chafee. That young lady that wrote that, I think 
she meant an outlet, didn't she?
    Mr. Bott. She meant an outlet, yes.
    And this one also.
    Senator Chafee. I'm not trying to----she said inlet----
    Mr. Bott. She said outlet, I said inlet. Excuse me.
    [Laughter.]
    Mr. Bott. I always tell them not to make that same mistake. 
Obviously, I should take some of my own advice.
    This one also having to do with the outlet. Everyone 
watched as floods ravaged Grand Forks last summer. The Nation 
was shocked. Now Devils Lake is facing the same problem. If we 
don't act now, Devils Lake will be flooded over and we might 
not be so lucky. Lives could be lost.
    Beginning cost for an outlet is $5 million. Is that the 
value of lives of 8,000 people? You have families. What's the 
value of your mom's life? Your dad's? Your aunts, your uncles? 
Your daughters, your sons? Can you put a price on it? If we 
don't get the money, you just have.
    Thank you, Senator.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Chafee. Thank you very much, Mayor.
    Now, Mr. Belford, if you want to wind up.
    Mr. Belford. I'll continue on very briefly.
    Mr. Chairman, as a county commissioner, this is causing 
catastrophic impacts to our community and our local government.
    And just Tuesday night before I came down, and I don't know 
if any of you gentlemen have ever been local elected officials 
or not, but we had 105 abatements to deal with of flooded land 
within the Devils Lake Basin. We had a room full of people 
asking for tax relief because of flooded properties and flooded 
lands.
    It's quite a process to go through and grant those 
abatements, which we had to, which affects schools and 
townships and our county government. And that's going on and on 
within our area.
    We've had hundreds of roads, as was indicated, and other 
concerns. Our Ramsey County rural sewage system has taken a 
real beating. We owe $950,000 worth of bonds on that. We're 
trying to figure out how to keep that process alive so that we 
can continue to get the revenue in.
    The Spirit Lake Indian Nation, which is our neighbor to the 
south, the road has been closed, creating an impact. Six 
thousand cars a day travel that road, have not been able to 
come to our community to do business, nor have they been able 
to come in for health and public safety and so forth.
    We are trying to come up with a comprehensive solution to 
our problem, as I have indicated. We have included a 
partnership of Federal, State and local governments working 
together for a holistic approach. The three-legged stool 
approach we talk about includes management of water in the 
upper basin, protection and moving of infrastructure, and an 
emergency outlet. And no one leg can stand on its own. That's 
the process that we are moving forward on.
    And I indicated, of the things that are going on in the 
upper basin, to hold water and manage water and try to keep the 
problem from becoming a real catastrophe.
    To protect infrastructure, we've moved dikes and homes and 
so forth, as was indicated. Over 5 million cubic yards of dirt 
have been moved to date to buildup our State road system.
    The emergency outlet is a management tool that will allow 
us to release the controlled quality and quantity of the water 
without harming our downstream neighbors. We believe it is an 
environmentally and economically smart project. A controlled 
emergency outlet can prevent a possible environmental and 
economic disaster down the road.
    The proposed west end outlet uses the best quality of water 
in Devils Lake. This water is very similar to what is in the 
Sheyenne presently. It would be released into the Sheyenne 
River during non-flooding or flood potential times. We are 
confident that the properly managed outlet will meet water 
quality standards of North Dakota, Minnesota and Manitoba.
    Senator Chafee. Mr. Belford, are you close to winding up 
here?
    Mr. Belford. I'll wind up here very quickly, sir.
    In closing, we as local elected officials need your help. 
We need to move as quickly as possible in this process. Our 
community is stressed out. We are financially impacted, and our 
community is gradually dying, unless we can resolve this issue. 
In fact, once again, I want you to look at that home. Our house 
is on fire, and we need your help.
    And I want to thank you for your time listening to me. And 
Senators, please, I beg you to move forward with this process 
as quickly as possible. We need help.
    Senator Chafee. Thank you very much, Mr. Belford. We 
appreciate your testimony here.
    Dr. Zirschky, I don't quite understand why you're not 
farther along with some just very standard matters. I noticed 
you objected to the conditions in the appropriations bill. But 
you've been in that department for a long time, and you know 
that the feasibility study isn't the most difficult thing in 
the world. It's pretty standard. We've set that up here.
    It is my understanding that hasn't even been completed so 
far. Is that correct?
    Mr. Zirschky. That's correct, Senator. And it's my fault 
for that. I don't say that necessarily as a bad thing.
    In 1995, we were faced with rising flood waters. And we 
were not going to have our feasibility study done in time. They 
should be very fast documents. In 1993, they were taking us 
over 5 years to get done. We've got that down now to less than 
4 years to get done.
    But in 1995, we didn't have four more years to get this 
done. So General Genegan and I decided we would undergo a 
parallel process. We would continue trying to do the studies 
for the feasibility study, but make our priority the 
contingency plan efforts for how we deal with the rising flood 
waters.
    We're still using the same sort of philosophy in the 
feasibility study. We're going to make smart decisions. Every 
dollar that I've spent so far in North Dakota I've gotten a 
higher benefit than the cost I've incurred.
    The conditions, per se, those are things we would normally 
look at. I don't have a problem answering those questions. My 
only concern about those conditions, and everybody keeps 
talking about the conditions, and not the whole range of 
options that we're going to have to look at to solve this 
problem. I'd be delighted to have more wetlands and more 
upstream storage. That would be a big help.
    There is some range within which the outlet will be most 
effective. To make sure we make smart decisions in that regard, 
I've asked the Corps, we worked with the Department of 
Agriculture, to hire a research laboratory to help us develop a 
decision model that will then translate into sort of a 
simulation model. We can show you graphically, we build the 
outlet and we have this range of climate conditions, what's 
going to happen to the lake level. And I would be delighted to 
come back and brief the committee on those results.
    I'm not proposing anything rash.
    Senator Chafee. Well, as you know, this committee has to be 
guided by something. We can't just authorize funds without some 
kind of justification. So traditionally we've required that 
when an engineering project of this size is submitted or 
requested, that it be technically sound, economically 
justified, cost benefit ratio, you're familiar with all those, 
and environmentally acceptable. And none of those, it's my 
understanding, in none of them so far has the Corps 
demonstrated that these requirements are met.
    Mr. Zirschky. That one I don't know. Because the design is 
not done. I can demonstrate that every action we've taken so 
far meets those criteria.
    I guess what I consider unprecedented is to have that 
specifically spilled out for an emergency. I can't think of any 
case, unless I've been directed by Congress and it's been 
signed by the President, where I haven't followed those 
conditions in 4 years. It's not that those are bad conditions. 
It's that everybody is now talking about those conditions, and 
we're ignoring the upstream storage possibilities and other, 
dike, levee increases.
    I want us to get back to the flood, rather than the 
conditions. And I will make sure whatever we do is responsible. 
I promise you that.
    Senator Chafee. Now, Dr. Pearson says that, I can't 
remember the exact figures, but I think he said that if you 
constructed this outlet, and I don't know how big, what would 
be the diameter of one of the pipes for an outlet? Would it be 
a piped outlet, or would it be a canal of some type?
    Mr. Zirschky. I believe it would be a mixture. We would use 
some natural flow patterns and also some lift stations and 
pumping. And it would move about 200 million gallons per day, 
is the maximum of what we're designing. That's about two-thirds 
of what the city of Washington, DC uses.
    The constraint, however----
    Senator Chafee. But I think Dr. Pearson said that it would, 
I think, what did you say, Doctor, lower it 12 inches?
    Mr. Pearson. I said if the outlet had been in operation 
when the lake began its accelerated rise in 1993, by October 
1995, it would have lowered the lake by 13 inches.
    Senator Chafee. In other words, it would have met the 
increase, and indeed----
    Mr. Pearson. No. No. It would have been only 13 inches 
lower than it would have been without the outlet.
    Senator Chafee. Oh, I see. What do you say to that, Mr. 
Zirschky?
    Mr. Zirschky. We might disagree with the amount of feet 
that it would be lower. We think there would be a much greater 
decrease. But the water level still would have risen. That's 
part of the rational decision model we're trying to put 
together, with an entity called the Energy and Environment 
Research Center, which is to do that simulation.
    I can pump millions of gallons of water out of Devils Lake, 
but I've got to find a place that can take that water. If I 
pump 200 million gallons of water into the Sheyenne River, I'm 
going to have a water quality problem, and I can probably, if 
the water conditions are correct, cause flooding downstream in 
the Sheyenne River.
    So I have to make sure that if we're going to build an 
outlet that the amount of water we send out, one, is going to 
make a difference. And there is some range of climate 
conditions that will make a big difference. But we also won't 
be transferring the problem from Devils Lake to some other 
town.
    Senator Chafee. Dr. Pearson says in his solutions that 
construction costs for the outlet are estimated at $34 million, 
with an annual cost of $1,500,000. The Corps estimates that an 
additional 63,000 acres would be flooded if the lake, and I'm 
going to ask you gentlemen this, Mr. Sprynczynatyk and Mr. 
Belford. Mr. Sprynczynatyk, I've butchered the pronunciation of 
your name, but I suspect I'm not the first.
    [Laughter.]
    Mr. Sprynczynatyk. Unfortunately, you're not the first, and 
Mr. Chairman, if you want to call me Spry, that's what everyone 
else does.
    Senator Chafee. Well, I think I will call you Spry.
    [Laughter.]
    Mr. Sprynczynatyk. Thank you.
    Senator Chafee. What happens, I'm curious, when I saw that, 
what happens when you're talking on a telephone and somebody 
says, would you please spell that for me?
    Mr. Sprynczynatyk. Interestingly, most often they say, can 
you spell it, and I say certainly.
    [Laughter.]
    Senator Chafee. Well, I'm going to ask you gentlemen, then, 
including Mr. Armstrong, to reply to what Dr. Pearson says, and 
then my time is up, and I want to give time for questions to 
Senator Wyden.
    I'll just repeat that briefly. An additional 63,000 acres 
would be flooded if the lake were to rise to 1,455 feet, which 
is I guess the maximum, or if there is a maximum. In any event, 
and then he goes into the value of the crop land. And whether 
his figure is accurate or not, I don't know, therefore if the 
full crop land price of $557 an acre were paid, you could buy 
up all that land for $35 million and have a wetlands overflow, 
and you wouldn't have all these problems.
    What do you say to that, gentlemen?
    Mr. Sprynczynatyk. Well, Mr. Chairman, I'll start and 
address at least part of the comment and the question.
    Presently, Devils Lake is at about 100,000 acres. If the 
lake rises another 15 feet, to about elevation 1,457, it will 
grow in size to roughly 250,000 acres. And I haven't had the 
opportunity to sit down and calculate what the cost might be, 
but the concern is, if $35 million or whatever the estimate is 
were spent to buy out all that land, that would literally 
destroy that whole area from an economic, regional and cultural 
standpoint.
    I would add, too, that in response to your question a 
minute ago, to Dr. Zirschky, what is being proposed today is a 
pumped outlet with a pipeline. That pipeline is estimated to be 
about 84 inches in diameter at its maximum. So that will give 
you an idea of the size, pumping up to 300 cubic feet per 
second.
    Senator Chafee. What did you say, 84?
    Mr. Sprynczynatyk. Yes, 84 inches. And that is the current 
proposal and the project that's supported by the State. Had 
that pipeline been in place, what Dr. Pearson said is true, 
that up to 2 years ago, it would have only lowered the lake 
about 13 inches. Since 2 years ago, had it been in place, it 
would have lowered the lake at least another 24 inches.
    So the lake today could be more than three feet below where 
it is. At the current rate of damage, we're experiencing 
somewhere in the neighborhood of $25 million to $30 million a 
foot. So in that 3 year period, the project would have paid for 
itself. We could have saved somewhere in the neighborhood of 
$80 million to $90 million.
    Unfortunately, the study that was completed in 1994 said 
that the rate of return was only 39 cents on the dollar. That 
was based on pre-1993 data, pre-flood data. And that was based 
on data that was developed when the lake was lower and the 
damages in that first few feet were much lower. The people 
weren't living right on the edge of the lake in 1993. They were 
some distance back.
    And as the Corps applied their forecast of what might 
happen to the lake, the damage per foot based on this scenario 
were much less. And they showed that would have not been a wise 
Federal investment. Today their situation is much different, 
and the return per dollar is much greater than what was 
estimated several years ago.
    Senator Chafee. Any of you want to make a quick comment, 
because I want to move to Senator Wyden?
    Mr. Belford. I would make the comment, as the local county 
commissioner, that this is not socially or economically 
feasible. I think Mayor Bott's letter from his student 
described it very well. That would affect the entire city of 
Devils Lake if it goes to the elevation of 1,457.
    Also, the flooding has caused indirectly almost $1 billion 
in scab disease because of the high humidity coming off that 
lake, of the agricultural surroundings, for miles around. I 
personally take issue of the values that Dr. Pearson has 
brought forward. Socially, I think if all of you were in my 
place, you would not want that to happen. You would not want to 
move.
    Thank you.
    Senator Chafee. Dr. Pearson, quickly, and then we're going 
to move on.
    Mr. Pearson. The point is that this outlet will not prevent 
the lake from rising. It will not prevent those damages. It 
simply delays them a few years. We are not saving any money by 
building the outlet. We're simply deferring the damage.
    Senator Chafee. Well, I think that's up to the Corps to 
tell us, if you have a seven foot diameter pipe, what's it 
going to do to the lake, what's it going to do to the river, 
the Sheyenne and the Red River. That's for the Corps to tell 
us.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    And Mr. Chairman, let me say that by agreement with your 
staff this morning, and Senator Baucus' staff, I am going to 
ask some questions of Dr. Zirschky on a matter of great 
importance to my constituents, and I'll just take a few 
minutes. The folks from North Dakota can be at ease for a 
couple of minutes. You're going to get a short respite.
    Mr. Zirschky. Somehow I don't get a feeling I'm going to be 
at ease.
    [Laughter.]
    Senator Wyden. No, you will not be.
    Dr. Zirschky, you are the official at the Corps that 
handles the dredging program, is that correct?
    Mr. Zirschky. Yes, sir.
    Senator Wyden. All right. As you know, the Army audit 
agency found evidence in 1995 of substantial bid rigging 
efforts to raise prices on dredging contracts with the Army 
Corps. They found evidence of collusive bidding, they found 
evidence of winning bidders subcontracting out the work they 
bid on to losing bidders, a variety of questionable practices.
    That audit was done in 1995. My first question to you is, 
has there been followup by the Army audit agency on the 
problems found in 1995?
    Mr. Zirschky. Yes, sir.
    Senator Wyden. Has the investigation found evidence, the 
new investigation since 1995, indicating that the problems that 
were found earlier continue at this time?
    Mr. Zirschky. There have been indications that the problem 
still continues, yes, sir.
    Senator Wyden. In 1995, the Army audit agency made a 
variety of recommendations on how to correct the problems with 
bid rigging, collusive practices, price fixing. What has been 
done since then to correct those problems?
    Mr. Zirschky. Well, we don't have a final report from the 
Army audit agency. But the initial indications are that not 
enough has been done. I'm confident that the current Chief of 
Engineers, General Ballard, will take this problem very, very 
seriously, and that we will fix those problems.
    But unfortunately, not enough's been done currently.
    Senator Wyden. We found evidence of price fixing, bid 
rigging from 1990 to 1995. Recommendations were made to correct 
them in 1995. You've told us that not much has been done from 
1995 to 1997. What in fact has been done that's going to make a 
difference here?
    Mr. Zirschky. Well, I would say not enough has been done, 
obviously, because the problem still exists. The things we're 
looking at now are to implement the suggestions that I hoped we 
would have been farther along the road on. They were 
suggestions that came up in 1995. I can't give you a good 
reason why they weren't implemented in 1996.
    But I do know the current Chief of Engineers is committed 
to working with me to fix the problem. Looking at some of the 
examples of fixes, are looking at regional contracting so that 
not each office is doing contracting. That way we would have 
data more centralized and could detect, I won't use the term 
evidence, I'll use the term indications, I'll let the Justice 
Department decide what's evidence, indications of collusive 
bidding, bid rigging, non-competitive practices.
    We're also looking at trying to put our dredging contracts 
into bigger packages to encourages more bidding. We found that 
in 1995, just having two people bid on the job cut our costs 10 
percent. That kind of similar information was found, and we 
don't have a final Army audit.
    But if we could get three bidders, for example, we could 
get bids from the dredging industry at 90 percent of the 
Federal Government estimate. The more competition, the lower 
our costs.
    Senator Wyden. Well, I will just say, this is North 
Dakota's day, and I'm not going to continue this, Mr. Chairman. 
But what has gone on is simply a rip-off of the taxpayers. I 
mean, we have seen a pattern of price fixing, bid rigging on 
this important dredging work. It went on for 5 years, there was 
an audit done.
    Dr. Zirschky has now told us that essentially nothing 
significant has been done since then. And I just appreciate 
your willingness to respond to some of my questions, Dr. 
Zirschky. Now is not the time, as you know, to eliminate the 
Federal dredge fleet, given what you have pointed out. It's the 
only competition, frankly, that's out there. Given the evidence 
of price fixing, this is the only thing that keeps the system 
honest.
    Mr. Chairman, I will be having further discussions with you 
at an appropriate time. Because this is obviously in our 
jurisdiction and Dr. Zirschky has told us the problems are 
ongoing.
    And I thank you for it, and to the folks from North Dakota, 
I appreciate a few minutes. Tip O'Neill used to say, all 
politics is local. You have come for your concerns and the 
chairman has been good enough to let me ask a few questions.
    Senator Chafee. All right, fine.
    Now, Dr. Zirschky, could you deal with, I know that you 
haven't gotten into this all the way. But what about this 
outlet? How does it strike you? And I know you haven't 
completed your work on it yet. But as your folks have looked at 
this, is it going to really lower the lake? What's the water 
quality going to be like? What's it going to do to the Red 
River?
    Dr. Pearson suggested that you're liable to transfer 
flooding into those rivers. Now, I know we've had witnesses 
here who said their parents, families, so forth, live on the 
river. So the last thing they want to do is, I'm talking about 
the Sheyenne and the Red, the last thing they want to do is 
inflict harm on their families. Yet they support this and 
believe that no harm will come.
    What do you say to all that?
    Mr. Zirschky. I've not made a decision to tell the Corps to 
build an outlet. I have asked that studies be done to help me 
better define what's the range and which will be most 
effective. That study should be underway, I believe we 
transferred the money yesterday to the entity to do that study. 
And it will be done before the end of the construction season.
    So there is nothing I could build today. But I want those 
answers before the next construction season starts. I believe 
the best thing to offer is to come back and tell you about what 
that study found.
    But I believe the outlet is something we have to strongly 
and seriously consider. We've got a lot of people living next 
to 12 feet of water, and all that's between them and that lake 
is an earthen dam.
    It is not the only answer to this problem, though. I do 
believe the State's efforts on upstream storage should be 
commended. The more wetlands we could have there, that's great.
    We have to come up with a solution that keeps the people of 
that area safe, but doesn't transfer the problem to somebody 
else. And that's what I'm going to be looking for. I don't have 
a better answer to your question, I don't think.
    Senator Chafee. Well, we certainly want those answers from 
you. And the North Dakota Congressional delegation, 
understandably, is deeply concerned about this. And we really 
want to move along.
    So I just want you to give us that report as soon as you 
can. And I'll be talking more with you as we proceed here. 
Answer those questions that I mentioned in my statement, is the 
project technically sound, economically justified and 
environmentally acceptable, and in compliance with the NEPA.
    The representative from North Dakota said he's not 
objecting to the NEPA study and expects a NEPA report on this.
    So I think we've completed here. I don't have any further 
questions.
    We might have some questions for the record, and if so, 
we'll write to each of you and give you the time when to reply. 
There might be other Senators that have something.
    Mr. Armstrong, I might have rushed you along a little bit. 
Are you satisfied?
    Mr. Armstrong. Senator, just three final points, I guess. 
First of all, that every foot that the lake rises has an 
impact. I think that's important to note. We're now dealing 
with the impact of the infrastructure regarding the sewage 
treatment systems and the fresh water delivery to the citizens 
of the area.
    So even if the lake lowers a foot, that has a significant 
impact on the infrastructure.
    Second, as was stated----
    Senator Chafee. What do you mean, infrastructure? Do you 
mean the roads, sewage plants?
    Mr. Armstrong. Everything. Everything. Because every foot--
--
    Senator Chafee. Power company?
    Mr. Armstrong. Yes. Because it continually undermines the 
roads that have been continually rebuilt upon. It undermines 
the earthen levees and virtual dams that the Corps has been 
constructing.
    Also, because we're in a cycle, I disagree with Dr. 
Pearson's statement that we're delaying the problem. In fact, 
we are, if an outlet can be part of a package that addresses 
this situation, we can ultimately get ourselves out of the wet 
cycle in a few years without as much damage as might occur 
otherwise.
    And third, other options are being pursued. That was the 
point of my testimony today, that I think it would have been a 
bad faith presentation to come to this committee if the outlet 
was being presented as a silver bullet solution.
    But instead, what this task force and other efforts have 
done in the last several years is work together to make sure 
we're applying a multi-objective planning approach to the 
greater basin, that we are pursuing upper basin storage, that 
we are relocating homes, that we are promoting planning, that 
we are looking at alternative land usage, and that we have 
State and local dollars invested in this process, not just 
Federal dollars.
    Senator Chafee. Well, we're certainly going to require 
that, we always have in our matching, not necessarily matching 
100 percent. But there is a requirement for local 
contributions. The Federal Government's not going to do this 
alone.
    Well, I think that's a thoughtful presentation, Mr. 
Armstrong.
    Senator Conrad. Mr. Chairman, if I might. Mr. Pearson 
brought us a series of quotes out of newspapers about a debate 
that was a lively debate in North Dakota, on the question of an 
inlet and an outlet. I want to be very clear.
    North Dakota would have preferred not to have restrictions 
on an inlet. The chairman knows that very well. We've said to 
the chairman, we would prefer not to have restrictions on an 
inlet.
    The fact is, the only way we could get an outlet was to 
accept restrictions on an inlet. Senator Bond and others 
forcefully argued for such restrictions.
    It is also important, I think, for the committee to 
understand that since we've had that debate and we are about to 
discuss amendments on the Garrison project that the State 
leadership has concluded that we will not offer language for an 
inlet in the Garrison amendments.
    So I think it's very important those two not get confused. 
This, the language of this energy and water appropriations bill 
says there will not be an inlet. We will not offer language for 
an inlet in the Garrison amendments.
    But it is also true that no Congress can bind a future 
Congress. Some future Congress, if an emergency exists of a 
different nature, who knows, 20 years from now or 30 years from 
now or 40 years from now what they might decide. And it would 
be inappropriate.
    That's why we have the conditions that we have, that no 
Congress can bind a future Congress. None of us here can 
predict what might happen 40 years from now or 50 years from 
now.
    But what we can say to you, directly and clearly, there's 
no provision for an inlet in this legislation. In fact, it's 
prohibited, and we make a commitment to you that in the 
Garrison amendments, there will be no provision for an 
amendment.
    Senator Chafee. All right, thank you very much. That's 
totally understandable.
    I want to stress to Mr. Zirschky and others that I am 
concerned about the effects on the water quality. We have a 
letter here from the Canadian ambassador indicating his 
concerns. So that's an important thing, and I think the 
testimony that to the west, the waters are far superior than 
the waters to the east, was interesting testimony.
    So I want to thank you all very, very much for the 
testimony. To my fellow Senators, I would point out, it looks 
like the vote has started now. Thank you all.
    I want to thank all the witnesses. You've come a long 
distance, Dr. Pearson and Mr. Spry and Mr. Belford. Thank you 
all for coming, and all the others. Thank you.
    [Whereupon, at 11:07 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Kent Conrad, U.S. Senator from the State of North 
                                 Dakota
    Mr. Chairman, I appreciate the opportunity to come before the 
Senate Committee on Environment and Public Works to stress the 
emergency nature of the flooding at Devils Lake, North Dakota and the 
importance of an emergency outlet to combat this flood.
    We have faced a continuing disaster at Devils Lake since North 
Dakota entered a wet weather cycle in the spring of 1993. Since that 
time, above-average precipitation has caused the lake to more than 
double in size and triple in volume. The lake has risen 20 feet since 
1993, rising 5 feet this year alone and has expanded from 40,000 acres 
only 4 years ago to nearly 105,000 acres today. To put this in some 
perspective, Devils Lake has grown to nearly 200 square miles, almost 
three times the size of the District of Columbia. Even more alarming, 
experts tell us the lake will grow nearly two and a half times larger 
before it finds its natural outlet.
    Mr. Chairman, this is a massive lake that is inundating homes, 
roads and other infrastructure, productive farmland and is threatening 
the city of Devils Lake. Already over 200 homes have been moved from 
the encroaching lakeshore. More dramatic, emergency management 
officials have had to burn some homes to keep debris out of the lake 
because the water is rising faster than homes can be moved.
    The main road connecting the Spirit Lake Nation reservation to the 
city of Devils Lake is underwater. This forces residents of the 
reservation to travel an additional 50 miles for medical and emergency 
services in the city of Devils Lake, which is the regional economic and 
health care hub. Also, the rising waters are threatening the nearly 
9,000 residents of Devils Lake. The top of the levee protecting the 
city of Devils Lake is currently only two feet above the water level 
and the U.S. Army Corps of Engineers is frantically trying to raise 
this dike five feet to prepare for continued flooding next spring.
    Mr. Chairman, the Federal Emergency Management Agency established 
the Devils Lake Basin Interagency Task Force in 1995 to identify ways 
to combat this flood. Federal, State and local government officials are 
now aggressively implementing the comprehensive flood-fighting strategy 
developed by the Task Force. This comprehensive approach includes a 
three-pronged strategy: 1) upper-basin water storage; 2) infrastructure 
protection and relocation of structures (such as the levees currently 
under construction); and 3) an emergency outlet from Devils Lake to the 
Sheyenne River. Implemented independently, none of these elements can 
solve this flood disaster. But each is a critical element of the 
overall strategy to combat this flood.
    Water storage is important to slow run-off into the lake and 
increase the rate of evaporation. Senator Dorgan, Congressman Pomeroy 
and I secured changes to the Conservation Reserve Program (CRP) to make 
it better suited to the needs of landowners in the Devils Lake basin. 
The Secretary of Agriculture named the entire Prairie Pothole Region, 
including the Devils Lake basin, as a National Conservation Priority 
Area and modified the enrollment of shallow water areas in CRP to 
address water retention around Devils Lake.
    Efforts are continuing to protect infrastructure in the basin. The 
Federal Highway Administration has committed $68 million to the Devils 
Lake region to keep the road system operational. FHWA is coordinating 
with the North Dakota Department of Transportation to construct a 
bridge connecting the Spirit Lake Nation to the city of Devils Lake. 
Also, as I mentioned, over 200 homes have been moved or destroyed and 
the Corps is raising the dike protecting the residents of Devils Lake.
    An emergency outlet from Devils Lake to the Sheyenne River is an 
essential element of this comprehensive strategy. Devils Lake is 
currently at a level of 1,442.6 feet. As the water continues to rise, 
it will eventually flow to the east into Stump Lake at 1,446.6 feet, 
immediately raising that lake 40 feet. When the water rises to 1,457 
feet, it will spill uncontrolled into the Sheyenne River from the part 
of the lake with the worst water quality. An emergency outlet is 
necessary to provide a controlled release of water from Devils Lake 
that will not harm water quality downstream.
    Officials from the Corps inform us that under the normal study 
process, an outlet will take six to 10 years to complete. 
Unfortunately, we cannot wait six to 10 years. This is an emergency 
situation that requires an emergency response.
    The operation of the outlet will not injure downstream interests, 
including communities along the Sheyenne and Red Rivers in North Dakota 
and Minnesota and the Province of Manitoba. In fact, the Corps held 
numerous public meetings in downstream communities to discuss the 
emergency outlet plan. Devils Lake and the outlet route are contained 
wholly within the Red River watershed, so there is no transbasin 
transfer of water or interaction with the Missouri River watershed. The 
outlet will be operated so as not to exacerbate downstream flooding or 
worsen water quality for downstream communities.
    The emergency outlet is a cost-effective flood control project. To 
date, the Federal Government has spent over $210 million to combat this 
flood. Officials from the Corps of Engineers estimate that as the lake 
rises to 1,457 feet, total cumulative damages will reach nearly $450 
million. Estimated total cost for the outlet is less than $45 million, 
cost-shared at a rate of 65 percent Federal, 35 percent non-Federal. 
Both the Corps and the Office of Management and Budget have endorsed 
Federal expenditures for an outlet now to avoid additional Federal 
expenditures later.
    Further, the emergency outlet from Devils Lake will be constructed 
and operated in an environmentally sensitive manner. The Fiscal Year 
1998 Energy and Water Development Appropriations bill includes $5 
million for construction of an outlet and stipulates that the 
construction must be environmentally acceptable and in compliance with 
the National Environmental Policy Act of 1969.
    Mr. Chairman, I recognize that an outlet is not the sole solution 
to the flooding disaster at Devils Lake, North Dakota. Unfortunately, 
there is not one solution to this flood. But an outlet is a necessary 
part of the comprehensive approach to battle this flooding. We face an 
emergency situation at Devils Lake, North Dakota. I urge this committee 
to join the North Dakota Congressional delegation and State and local 
leaders in making every effort to avert a larger disaster.
    Mr. Chairman, thank you again for conducting this important 
hearing. In addition to the Congressional delegation, we have a number 
of witnesses from North Dakota that are present. We would be happy to 
answer any questions that you or members of the committee may have 
regarding the need for an emergency outlet at Devils Lake.
                                 ______
                                 
Statement of Hon. Byron L. Dorgan, U.S. Senator from the State of North 
                                 Dakota
    Mr. Chairman, thank you for giving us the opportunity to discuss 
with the Committee the impact of flooding at Devils Lake in North 
Dakota and the need for an emergency outlet for its flood waters. 
Devils Lake, one of only two major lakes in North American with no 
usual outlet, rises or falls with the weather. Since 1993, the 
beginning of our current wet cycle, the lake has doubled in surface 
area and tripled in volume, increasing from 40,000 acres to 105,000 
acres today and continued rising is expected. The lake has grown to 
nearly 200 square miles or an area approximately three times the size 
of the District of Columbia.
                a devastating problem warrants attention
    High waters have cutoff roads, destroyed houses, flooded farms and 
devastated the local economy. For example, the area near the lake has 
sustained over $200 million in damage with another $30 million expected 
by next spring. Over 300 families have lost their homes with another 50 
at risk in the next 6 months. Residents of the Spirit Lake Nation must 
travel an additional 40 miles for medical services and the tribe's 
major source of business income and jobs, a multimillion dollar casino, 
has been virtually cutoff and its patrons are dwindling.
    The local, State and Federal Governments have each spent millions 
on raising roads and diking flood waters yet their combined efforts 
will not be enough to stop additional damage. The Federal Government 
alone has spent $ 68 million to preserve transportation infrastructure.
    North Dakota is suffering from a real emergency--one that requires 
emergency measures. We can't afford to do nothing and wait for the 
waters to recede. It's simply too costly, economically, environmentally 
and in harm to human lives. To cite just one example, you just saw on 
the tape how flooding has affected rancher Duane Howard. Because of 
losses from high water he has been forced to cash in his retirement, 
insurance and a small inheritance, yet his family will still have 
troubling making ends meet.
    Mr. Chairman, we can't wait the six to 10 years a regular Corps 
flood control project process would require. Each year we wait costs 
Federal taxpayers additional millions in compensation on top of the 
$210 million already paid out under a variety of Federal programs 
ranging from highway renovations to increased diking.
    Doing nothing also risks harm to the environment since, unmanaged, 
the floodwater will spill out of the lake from an area of poor water 
quality. Once the lake reaches an elevation of 1,457 feet it will 
overflow sending poor quality water down the Sheyenne River and into 
the Red River Valley. This highly saline water will not only wreak 
havoc on downstream drinking water systems, it will also ruin thousands 
of acres of valuable farmland.
                a comprehensive solution is recommended
    But this catastrophe can be avoided by a combination of raising 
levees, relocating property, raising roads, increasing water storage in 
the upper basin and building an emergency outlet Since no one flood-
control strategy can do the whole job, our delegation supports using 
all of these methods together in a comprehensive water management 
effort. This is a strategy recommended by a joint Federal-State task 
force which Mike Armstrong headed and about which he will speak.
    Mr. Chairman, North Dakota and the Federal Government are devoting 
a considerable amount of money and effort to programs promoting upper 
basin water storage one part of a comprehensive program. In the six 
counties within the Devils,Lake Basin over 430,000 acres are enrolled 
in the conservation reserve program (CRP). Much of these CRP acres are 
either under water or saturated thereby effectively serving as water 
storage areas. The Devils Lake region is also the location of over $ 
1.5 million worth of Federal and State water bank contracts for upper 
basin storage with another $500,000 applied for under the emergency 
watershed program. Another $3.2 million has been spent on public lands 
water storage. May I underscore that the North Dakota delegation sought 
and obtained funding for upper basin storage before we even requested 
outlet funding. However, these efforts are not enough to prevent future 
floods. A multi-faceted problem demands a multi-faceted solution--a 
solution which includes the construction of an emergency outlet.
                     an emergency outlet is needed
    I'd like to take a few minutes to address the questions raised 
about the effects of building an emergency outlet. First, an outlet is 
not an inlet. It doesn't transfer water and organisms from the Missouri 
Basin to the Red River Basin and the Hudson Bay watershed. It can't 
since it is not even connected to the Missouri. The Devils Lake Basin 
is part of the Red River Basin. The outlet is just a controlled man-
made drain preventing uncontrolled overflow that would occur once the 
lake reaches an elevation of 1,457 feet.
    An outlet also gives us some control over both the quality and the 
quantity of water flowing downstream and a chance to avoid the worst 
effects of unmanaged flows into the Sheyenne and Red Rivers. It 
releases the best quality water from the western end of the lake and 
times the releases to take into account downstream interests.
    An outlet makes good economic sense and is strongly supported by 
the Administration whose own Fiscal Year 1997 Disaster Supplemental 
Appropriations bill included $32.5 million for its construction. 
Because of the unique nature of flooding in a closed basin, traditional 
cost/ benefit rules don't really apply to the Devils Lake Outlet. 
Unlike river floods our high waters.
                                 ______
                                 
 Statement of the Honorable Rod Grams, U.S. Senator from the State of 
                               Minnesota
    Thank you Chairman Chafee for holding today's hearing on the 
proposed outlet for Devil's Lake, North Dakota. I appreciate having the 
opportunity to submit my remarks on this matter.
    As you know, my State, along with North and South Dakota, 
experienced unbelievable destruction and hardship this past summer 
along the Red River in Northwestern Minnesota. The citizens of 
communities up and down the river were uprooted from their homes, 
schools and places of employment. Many of those communities will never 
be the same as a result of the damage caused by flooding.
    The people of my State expect, and have been promised, that the 
Federal Government will work with them to ensure that whatever can be 
done to prevent a similar situation in the future will be done. It is 
precisely because of this promise that I must express my reservations 
with the Devil's Lake proposal.
    First, any proposed outlet from Devil's Lake presents the 
possibility for an increased water flow into the Red River Basin in 
years in which flooding occurs. Quite clearly, this region cannot 
afford to take a chance on that possibility. My constituents cannot 
live under the potential threat that not only might they have to endure 
the wrath of mother nature, but the consequences of public policy not 
very well thought out.
    In a recent letter to the Honorable Joseph M. McDade, the Canadian 
government touched on many of the same concerns, pointing out the 
importance of bilateral cooperation on crossborder issues. 
Appropriating money for this project prior to hearings and action by an 
authorizing committee, violates any expectation shared by the United 
States and Canada to work cooperatively on joint concerns.
    In addition, there exists the potential that this project would 
provide Devil's Lake a potential inlet in years of drought, a more 
common occurrence for Devil's Lake. This inlet would draw water from 
the Missouri River Basin, thereby diminishing the flow of water in the 
lower Mississippi Basin. For this reason, the Upper Mississippi River 
Basin Association passed a resolution on September 24, 1997, opposing 
any construction of Devil's Lake outlet or inlet projects prior to 
completion of an Environmental Impact Statement.
    I remain concerned that the potential negative impacts of this 
proposal have not been properly considered. No one can say with any 
degree of certainty just what will happen to either the Red River Basin 
or the Missouri River Basin as a result of this project. This project 
has received significant appropriations without any authorization or 
cost-benefit analysis. Therefore, the question must be asked, is this 
the most cost-effective measure to reduce the stress in and around 
Devil's Lake? I doubt anyone can answer that question definitively 
considering the lack of study and analysis.
    I hope the committee will take a very close look at the means by 
which this project has moved through Congress and consider the concerns 
of the regions Governors and Congressmen, as well as the concerns of 
the Canadian Government and environmental organizations such as the 
National Wildlife Federation. Most importantly, however, I hope you 
will keep in mind the struggles and triumphs of the people of my State 
over the past year and work to ensure that whatever is done in 
Congress, protects them from further harm rather than threatens them 
with greater hardship.
    Again, Mr. Chairman, thank you for your time and effort on this 
important issue.
                                 ______
                                 
 Statement of Hon. Earl Pomeroy, U.S. Representative from the State of 
                              North Dakota
    Mr. Chairman, thank you for holding this important hearing. In my 
remarks I will discuss three points.
    First there is virtually unanimous agreement among those with 
actual responsibility for dealing with this problem that a controlled 
measured outlet is an important component of attempting to manage this 
significant flooding problem.
    Second, while this hearing focuses on the outlet, extensive efforts 
have been made on the other two major lines of response, upper basin 
storage and infrastructure investment to deal with the flooding levels 
already experienced.
    Third, while this is an emergency and quick response is required, 
the process underway will involve full NEPA review of the outlet prior 
to its construction.
    Think of the most significant water problem being experienced in 
your State. Given the complexity of water issues and the sharply 
differing perspectives that inevitably exist across stakeholders, I 
would be surprised if virtually all agencies and elected officials--
local, State, and Federal--agree how to deal with it.
    That is, however, the case in North Dakota with the Devils Lake 
outlet. At the State level, the Governor, each member of the 
Congressional Delegation, the State legislature and State Water 
Commission, all agree that a controlled outlet is part of the answer. 
Consensus at the State level is particularly striking in light of the 
fact that most of the people of North Dakota live downstream.
    I was born and raised downstream of Devils Lake, literally on the 
banks of the Sheyenne River. I used to represent my hometown Valley 
City in the legislature. Numerically speaking, I represent a lot more 
downstream North Dakotans than upstream.
    Yet, I am for this outlet--like all other public officials--because 
it can be done in a way compatible with downstream interests and there 
is no other way to meaningfully respond to the significant threat of 
much more severe flooding from the rising waters of Devils Lake.
    I am not saying there aren't opposing views on the outlet. Any 
tough public problem produces those who hold differing conclusions. Yet 
among those with actual responsibility for dealing with this problem 
there is complete agreement. We don't have the luxury of viewing this 
in an academic light or with the geological perspective covering 
thousands of years. People are being hurt, farm and businesses are 
being destroyed and a town is threatened. Those are the needs here, and 
how we have had to respond to them.
    I would add that across the Federal agencies involved a strong 
consensus exists that an outlet is part of the solution.
    We do not seek the outlet as a silver bullet answer to this vexing 
problem--pull the bathtub stopper and the water goes away. If only it 
was that simple!
    Two other lines of attack have been pushed as intensely as 
possible. These are increasing water storage upstream of the lake and 
addressing infrastructure and housing needs as the lake continues to 
rise.
    Upper basin storage is very important yet not easily achieved. Most 
of the potential storage exists on land which has been under active 
cultivation for many many years. These productive acres are critical to 
the family farmers making their living off of these lands.
    Accordingly, we have pursued a strategy of making maximum use of 
public lands and building a variety of financial incentive programs to 
achieve water storage on private land.
    As a delegation, at every opportunity we have sought to increase 
Federal support for additional water storage. The most significant 
result in terms of acreage numbers involves the Conservation Reserve 
Program.
    Local efforts to maintain infrastructure have been significant. 
More than $17 million has been used to relocate 200 homes and 
businesses under a National Flood Insurance Program waiver from FEMA. 
The Federal Highway Administration has spent more than $68 million in 
the lake region to repair and maintain major roadways. Work to raise 
the levee protecting the city of Devils Lake is underway. The Corps of 
Engineers will spend $43 million to protect the city from a lake level 
of 1,450. These are just some of the efforts undertaken to preserve and 
relocate infrastructure.
    Finally, the language in the fiscal year 1998 Energy and Water 
Appropriations bill passed by Congress requires that the emergency 
outlet be environmentally acceptable in compliance with the National 
Environmental Policy Act of 1969 (NEPA). In accordance with the 
legislation, the NEPA process will be completed. However, the emergency 
nature of Devils Lake, as declared by the President for the past 4 
years, requires the NEPA process to be expedited. The average NEPA 
process take two to 4 years. We cannot wait years to complete the 
process, but yet we want the impacts to be studied. Under this 
emergency, the necessary studies will occur concurrently with 
construction, and in full compliance with NEPA.
    We have spent more than $210 million in Federal aid to Devils Lake. 
Upper basin storage and infrastructure relocation continue to be 
successful efforts. The remaining piece of the puzzle is construction 
of the emergency outlet. The Corps estimates the total cost of the 
project to be $45 million which would have a 65 percent Federal- and 35 
percent State-cost share under the 1996 Water Resources Development Act 
(WRDA). Considering the sizable investment in what has so far been a 
band-aid approach to the Devils Lake flooding, construction of the 
outlet is cost-effective, responsible and necessary in order to frilly 
implement the three-legged response to the disaster.
    Thank you, Mr. Chairman, for holding this important hearing. I 
appreciate the opportunity to discuss the emergency outlet with you and 
the committee.
                                 ______
                                 
      Devils Lake Emergency Outlet: Need for the Emergency Outlet
                            October 23, 1997
    Devils Lake is one of only two major lakes in North America 
contained within a closed basin. Due primarily to abnormally high 
precipitation levels, Devils Lake has risen 20 feet since 1993 to its 
current level of 1,442.6 feet and will rise to over 1,443 feet before 
winter freeze-up. Preliminary indications are that the lake will 
continue to rise by at least two feet next year.
    Devils Lake has more than doubled in size and tripled in volume 
since 1993, expanding from 40,000 acres to nearly 105,000 acres, 
inundating farmland that is the sole source of income for hundreds of 
families. The lake has grown to nearly 200 square miles, about 3 times 
the size of the District of Columbia.
    Highway 57, the main link between the Spirit Lake Nation Indian 
Reservation and the City of Devils Lake, was inundated this summer by 
the rising lake. Due to this road closure, residents of the reservation 
must travel an additional 56 miles or more for medical and emergency 
services.
    At 1,446.6 feet, Devils Lake flows naturally to the east into Stump 
Lake, raising that lake 40 feet and inundating roads, houses and 
hundreds of acres of farmland.
    At 1,457 feet, Devils Lake will cover over 250,000 acres and flow 
through its natural outlet channel into the Sheyenne River, which 
eventually flows into the Red River of the North to the Hudson Bay 
drainage in Canada. Devils Lake water will flow uncontrolled into the 
Sheyenne River, from the part of the lake with the worst water quality.
                 comprehensive flood-fighting strategy
    To coordinate efforts in combating continuous flooding in the 
basin, the Federal Emergency Management Agency (FEMA) formed the Devils 
Lake Basin Interagency Task Force in 1995.
    Federal, State and local levels of government are now aggressively 
implementing the Talk Force's comprehensive flood-fighting strategy, 
including relocation of structures, upper-basin water storage, raising 
the levee protecting the City of Devils Lake, raising essential roads 
and increasing flood insurance coverage. The Task Force also determined 
that an emergency outlet from Devils Lake to the Sheyenne River is a 
critical part of the this comprehensive plan to battle this disastrous 
flood.
                       recent legislative history
    The fiscal year 1997 Supplemental Disaster Appropriations Bill 
included $5 million for the preconstruction, engineering and design of 
the outlet.
    The fiscal year 1998 Energy and Water Development Appropriations 
bill recently signed by the President included $5 million in emergency 
spending to initiate construction of an emergency outlet after certain 
conditions are met.
           answer to questions raised about emergency outlet
    Question.  A previous Corps benefit/cost analysis indicates the 
outlet project rates .39 to 1.0. Will this project be economically 
justified?
    The .39 to 1.0 ratio was taken from a 1992 Corps Reconnaissance 
study that the Corps now indicates does not accurately reflect the 
benefits to be derived from this project.
    In a document titled Responses to Concerns with Devils Lake Outlet, 
the Corps indicates that, ``[t]he preliminary traditional economic 
models that were developed by the Corps of Engineers for evaluating the 
benefits of an outlet from Devils Lake are not designed to be applied 
to a closed basin lake and do not fully represent the potential merits 
of an outlet.''
    Corps officials indicate that prudent measures taken to combat this 
flood, including road raises and structure relocations, help explain 
why the Corps of Engineers preliminary analysis of a benefit to cost 
ratio are not as favorable as might be expected. Even more importantly, 
the Corps preliminary analyses vastly underestimate the benefits to 
agriculture resulting from stemming the flood. Finally, the early Corps 
analyses admittedly do not account for the benefits of preserving the 
City of Devils Lake as a significant State regional commerce center.
    Further, per the language adopted by the Congress, the Corps must 
determine the emergency outlet to be economically justified before 
proceeding to construction.
    Question.  How will the concerns of the Government of Canada be 
addressed?
    The emergency outlet will not injure Canadian interests. Canadian 
Ambassador Raymond Chretien wrote the Senate Appropriations Committee 
expressing concern that the emergency outlet is a component of the 
Garrison Diversion project. This is not the case. This flood-fighting 
effort is being pursued altogether separately from our consensus 
efforts to reformulate the Garrison project. Further, Devils Lake is 
contained solely in the Red River watershed.
    Also, the provision in the Senate bill requires the Secretary of 
State to review the outlet project and offer an assurance, in 
consultation with the International Joint Commission, that the project 
will not violate the U.S.-Canada Boundary Waters Treaty of 1909.
    Question.  How will the concerns of the environmental community be 
addressed?
    The Senate bill requires that an outlet be environmentally 
acceptable and in compliance with the National Environmental Policy Act 
of 1969.
    Question.  What will be the Federal/non-Federal cost-share for the 
outlet?
    Construction costs for the outlet will be cost-shared 65 percent 
Federal, 35 percent non-Federal, accordance with the cost-share for 
flood-control projects established by the 1996 WRDA bill.
    Question.  Does this outlet provision seek to divert Missouri River 
water?
    The fiscal year 1998 Energy and Water Development Appropriations 
bill provided $5 million to initiate construction only for an emergency 
outlet from Devils Lake to the Sheyenne River, wholly contained within 
the Red River watershed. This outlet would allow controlled releases to 
monitor both water quality and water quantity.
    Further, the legislation precludes the construction of an inlet or 
the transfer of water from the Missouri River basin into Devils Lake.
    Question.  What is the Federal funding required in Fiscal Year 
1998?
    The U.S. Army Corp of Engineers indicated they could utilize $5 
million in fiscal year 1998 for construction of an outlet. This funding 
level was included in the fiscal year 1998 Energy and Water Development 
Appropriations bill.
    Question.  What is the total project cost?
    The Corps' original estimate for total project costs was $50 
million, of which $32.5 million would be the Federal contribution and 
$17.5 would come from the non-Federal sponsor. The Corps has since 
revised this estimate downward to a total project cost of less than $45 
million.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Devils Lake, North Dakota--Dramatic Lake Rise Threatens City
    If you were standing here on highway 57 today, you would be 30 feet 
under water. This photo was taken in 1965 when the lake elevation was 
1,412 feet. The lake has risen more than 30 feet since then. The lake 
has risen 20 feet in just the past 5 years. On July 22, 1997, water was 
at an elevation of nearly 1,443.
    The Devils Lake region has already suffered hundreds of millions of 
dollars in economic and property losses. The Federal Government has 
obligated some $150 million for disaster relief.
    Unless further steps, such as raising the city's levee and building 
an emergency outlet, are initiated immediately, 9,000 people could 
become victims of catastrophic flooding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Department of the Army,    
                          Army Corps of Engineers Centre,  
                              St. Paul, MN, April 15, 1997.
             responses to concerns with devils lake outlet
    Cost Effectiveness of Outlet: The preliminary traditional economic 
models that were developed by the Corps of Engineers for evaluating the 
benefits of an outlet from Devils Lake are not designed to be applied 
to a closed basin lake and do not fully represent the potential merits 
of an outlet. Expenditures and damages that have been incurred relates 
to the flooding problems at Devils Lake are estimated in excess of $100 
million. Potential damage estimates from lake level rises of another 
five feet (from elevation 1,440 to 1,445) are estimated to exceed an 
additional $140 million The probability of the lake reaching these 
higher levels is much greater now with the lake at its present high 
level than the probability previously estimated.
    Effectiveness of Outlet in Controlling Lake Level: Closed basin 
lake hydrology is considerably different than riverine or lakes with 
outlets. The electiveness of an outlet for alleviating the upward rise 
of the lake level must be measured on the cumulative effects over 
several years. The outlet could lower the lake approximately one foot 
per year. This reduction would come after the rise in the lake level 
due to spring runoff. Over a several year period, the outlet could take 
several feet of water off of the lake. The unprecedented rise in lake 
level of 16 feet in the last 5 years could not be completely prevented, 
but peak level that the lake would have reached could have been reduced 
by several feet The cumulative effect over the longer term can 
represent significant reductions in flood damages.
    Comprehensiveness of Solution/Alternatives to Outlet; The outlet is 
not being proposed as the only action to solve the problems of flooding 
around Devils Lake. Relocations of low-lying structures around the lake 
is taking place through the Flood Insurance Program. Levees are being 
raised through Corps of Engineer emergency authorities to protect the 
City of Devils Lake. Water storage in the upper basin is being provided 
to reduce the volume of flows reaching Devils Lake. Rural utilities are 
being raised and protected around the lake. There is a comprehensive 
multiple agency effort to address the flood problems associated with 
the rising level of Devils Lake. The outlet is only one component, 
however it is a key component that is necessary to take water out of 
the lake system at a controlled rate that will minimize any potential 
downstream impacts.
    What if the Devils Lake Emergency Outlet is not included in the 
Supplemental Funding Bill? The Corps is presently conducting a 
Feasibility Study for the Devils Lake basin which is scheduled for 
completion in the year 2000. Subsequent Congressional action and 
authorization would be required on the recommendations from the 
feasibility study. Under a normal study and construction process, the 
earliest completion for an alternative recommended through the 
feasibility study process would be six to 10 years. Under the 
accelerated Emergency Process of the Supplemental Funding Bill, about 2 
\1/2\ years will be required to complete the project, including a 
revised Environmental Impact Statement process to comply with National 
Environmental Policy Act. With the lake at unprecedented high levels 
and having the potential to came extremely high additional damages, an 
accelerated emergency process is necessary to reduce the risks of 
potential fixture flood damages.
    Relationship of Outlet to Garrison Diversion Unit (GNU): 
Stabilization of Devils Lake by bringing water from the Missouri River 
via an inlet component of the GDU has long been a goal of the State of 
North Dakota and residents of the Devils Lake basin. The Corps of 
Engineers feasibility study is addressing the lake stabilization 
issues, including both an outlet and an inlet. The feasibility study 
will provide ample opportunities to address and discuss the issues 
associated with an inlet from the GDU and will provide many forums for 
opponents to express their concerns. The seriousness of the current 
flooding situation around Devils Lake requires immediate attention to 
the outlet, as it is a key component of a comprehensive plan to address 
the flooding problems. The emergency implementation of an outlet does 
not imply any approval of the importing of water to Devils Lake via the 
GDU. The GDU and inlet implications are a totally separate issue 
requiring separate studies, authorization, funding and congressional 
action.
    Biota Transfer: The Devils Lake basin is hydrologically part of the 
Hudson Bay (Red River of the North) watershed and has overflowed to the 
Sheyenne River in the past, providing historical mixing of species. 
There have been concerns that non-native fingerlings raised in Missouri 
River hatcheries and stocked in Devils Lake would be introduced to the 
Hudson Bay drainage by an outlet. However, similar fingerlings have 
already been stocked in Lake Astabula and other tributaries of the Red 
River of the North. The non-native striped bass, was introduced to 
Devils Lake in 1977; however, in 1996 the North Dakota Game and Fish 
Department reported that studies showed the survival oft he original 
stock is unlikely and that reproduction and hybridization have not 
occurred. Preliminary conclusions from a U.S.-Canada joint working 
group evaluation are that the risk of adverse impacts at the 
International Border from outlet-related biota transfer is minimal.
    Water Quality: The operation of the outlet as proposed would meet 
applicable water quality standards. The operating plan proposed in the 
Emergency Outlet Plan Report of 12 August 1996 was based on meeting the 
Sheyenne River's Class 1A standards at the release point. Downstream 
concentrations would be further diluted by tributary and local inflows. 
Total dissolved solids and chloride standards in the Red River north of 
Grand Forks are occasionally exceeded under natural conditions during 
low flow conditions. Operation of the outlet would have minimal effect 
on the water quality of the Red River north of Grand Forks and would 
not significantly affect the frequency or magnitude of the current 
water quality conditions.
    Downstream Flooding: The outlet would not be operated when there is 
a potential threat of downstream flooding. One of the key constraints 
on outlet operation would be the Sheyenne River's channel capacity at 
the release point of the outlet into the Sheyenne. Channel capacity of 
the Sheyenne River increases as its goes downstream and the risk of any 
potential adverse effect on downstream flooding is minimal.
                                 ______
                                 
                                    Department of the Army,
                                                    April 15, 1997.
   background information: proposed emergency outlet from devils lake
    The proposed emergency outlet from Devils Low estimated at a cost 
of $50 million is based on a preliminary plan that would consist of a 
combination of pumps, pipeline, open channel, dams and impoundments 
that would allow water to be taken from the west end of Devils Lake to 
the Sheyenne River. The proposed plan has been sized so that enough 
water could be taken from Devils Lake to cause a lowering of the lake 
level of approximately one foot per year, recognizing channel capacity, 
water quality and other constraints of adding the water to the Sheyenne 
River.
    An Emergency Outlet Plan for Devils Lake was developed by the St. 
Paul District, Corps of Engineers, and is described in a report dated 
12 August 1996. That report describes an outlet plan from the west end 
of Devils Lake that was selected primarily because it is one of the 
most cost-effective options based on initial construction costs. That 
plan went along an alignment that crosses the Spirit Lake Nation 
Reservation for its entire length, had one of the shortest distances 
and one of the smallest elevation differences required to get the water 
to the Sheyenne River. During development of that plan, the Spirit Lake 
Nation was supporting the route selection. The Spirit Lake Nation still 
supports an outlet, however, they prefer variations from the plan 
designed in the Emergency Outlet Plan report. We are currently 
evaluating additional alignments and plan features that would result in 
minimal impacts to the Spirit Lake Nation lands, that would take water 
from the west end of Devils Lake, and would have comparable 
effectiveness concerning the lowering of the level of Devils Lake and 
comparable effects along the Sheyenne River and other downstream 
interests.
    Three outlet routes have been identifies from the west end of 
Devils Lake that have the potential for developing implementable plans. 
Preliminary evaluations of outlet plans for these routes resulted in 
the identification of several potential plans which could be 
implemented for $50 million or less. The features of each plan differ 
somewhat, but all plans include pumping to lift the water over the 
drainage divide, and most plans include buried pipeline for some 
portion of the route to minimize environmental, social and cultural 
impacts. Open channel construction, rock or concrete water control 
structures and earthen embankments are also included in most of the 
plans.
    A summary description of the potential plans for which preliminary 
evaluations were made is listed in the following table:


                                                                        
------------------------------------------------------------------------
                                      Alternate A         Alternate B   
------------------------------------------------------------------------
Outlet Route....................  Highway 281.......  Peterson Coulee   
Total length of Outlet..........  10.6 miles........  13.4 miles        
    length of open channel......  0.4 miles.........  4.7 miles         
    length of pipeline..........  10.2 miles........  8.7 miles         
Number of Pumping Stations......  1.................  2                 
Pumping head (elevation                                                 
 difference from lake level to                                          
 drainage divide).                                                      
                                  140 feet..........  140 feet          
  Total Estimate Project Costs    $46 million.......  $48 million       
   (preliminary).                                                       
    Estimated Federal Share (65   $29.9 million.....  $31.2 million     
     percent).                                                          
    Estimated non-Federal share   $16.1 million.....  $16.8 million     
     (35 percent).                                                      
  Estimated Annual Operating      $1.9 million......  $1.6 million      
   Costs.                                                               
------------------------------------------------------------------------

    Each of the plans preliminarily identified, including the two 
listed above, are based on a preliminary assessment using available 
information. The total estimated Casts include contingencies to suggest 
that the plans identified as potentially implementable would approach 
$50 million. If an Emergency Outlet plan is authorized, the first task 
to be accomplished would be the identification and selection of the 
specific alignments and components of the plan to be implemented. This 
selection process would include agency and public meetings and 
presentations of the costs and the environmental and social impacts of 
the plans to the extent the information can be developed in a very 
short time frame (2 to 3 months). Coordination with the Spirit Lake 
Nation would also be accomplished during this selection period. 
Environmental studies would beam immediately and would be extended 
throughout the construction period and beyond. Environmental 
considerations would be incorporated into the design and construction 
process to assure that adverse impacts are minimized, and where 
unavoidable, mitigated.
    The design and construction of the outlet on an emergency basis is 
expected to take a minimum of 33, months. This requires that a waiver 
from the normal Environmental Impact Statement preparation and 
processing be approved by the Council on Environmental Quality.
    An overview of key activities in the anticipated emergency 
implementation of the outlet plan is:
Activity--Time Frame
    Plan identification, selection and EIS scoping process--Months 1 to 
3
    Engineering and Design--Months 4 thru 20
    EIS (environmental studies and evaluations)--Months 1 thru 33 (and 
beyond)
    Start of first Construction Contract--Month 13
    Completion of Construction/Available for Operation--Month 33
                                 ______
                                 
                                Department of the Army,    
          Office of the Assistant Secretary, Civil Works,  
                               Washington, DC 20310, 22 April 1997.

Hon. Harry Reid, Ranking Member,
Subcommittee on Energy and Water Development,
Committee on Appropriations,
United States Senate,
Washington, DC 20510.

    Dear Mr. Chairman: As you know, on March 19, 1997, President 
Clinton transmitted to Congress his request for Emergency Supplemental 
Appropriations. Part of that request dealt with the authorizations and 
funding needed by the Army Corps of Engineers to address flooding in 
Northern California, the Northwest, and the Midwest.
    To reduce the flood damages being suffered by the residents of the 
Devils Lake Basin in North Dakota from rising waters of the lake, the 
March 19 request includes a proposal to authorize the Secretary of the 
Army to construct an emergency outlet from Devils Lake to the Sheyenne 
River. The total first cost of an outlet is about $50 million, which 
would be cost shared 65 percent Federal and 35 percent non-Federal. 
Non-Federal interests would assume ownership of the project after 
construction and would be responsible for its operation, maintenance, 
repair, replacement, and rehabilitation. The proposal would provide $2 
million in fiscal year 1997 for the necessary design and environmental 
studies, and $30.5 million in fiscal year 1998 for the Federal share of 
construction.
    The Army supports the President's request for the authorization and 
funding of an emergency outlet for Devils Lake, and requests the 
inclusion of this project in the fiscal year 1997 Emergency 
Supplemental Appropriations Bill. We are very concerned that the 
extremely heavy snowpack in the Devils Lake Basin will lead to 
continued lake level rises and result in increased flooding of private, 
public, and Indian lands, and may even lead to uncontrolled releases 
from Devils Lake. Such uncontrolled releases would likely result in 
further damages and loss of lands and could have significant adverse 
environmental consequences. Continued increases in lake levels would 
also result in additional direct flood damages to farmlands, along with 
long-term impacts due to deposits of salts in the soil.
    To date the Federal Government has spent over $114 million to 
address the flooding around Devils Lake. If the level of the lake were 
to rise another five feet, we estimate that potential damages could 
increase by about another $140 million. Construction of an emergency 
outlet, as the first step in a comprehensive structural and non-
structural program and in conjunction with other efforts, would reduce 
this risk of flood damages.
            Sincerely,
                                       H. Martin Lancaster,
                     Assistant Secretary of the Army (Civil Works).
                                 ______
                                 
                     Executive Office of the President,    
                         Office of Management and Budget,  
                              Washington, DC 20503, April 22, 1997.

Hon. Byron Dorgan,
United States Senate,
Washington, DC 20510.

Dear Senator Dorgan: Thank you for your letter to the President 
concerning proposed supplemental emergency funding for Devils Lake, 
North Dakota. He has asked me to respond on his behalf.
    As you know, the Administration supports funding for design and 
construction of an outlet for Devils Lake and included a request for 
these funds in the fiscal year 1997 Emergency Supplemental Request 
submitted to Congress on March 19, 1997. Since there is no natural 
outlet to this lake, it is predictable that the extreme snowpack in the 
Devils Lake Basin, will lead to continued lake level rises, and result 
in increased flooding of private, public, and Indian lands and may even 
lead to uncontrolled releases from Devils Lake--in effect, the creation 
of a natural outlet. Such a natural outlet would likely result in 
further damages, loss of lands, and have environmental consequences. In 
addition, damages could accrue to farmland as the lake increases in 
size and deposits salt in the soil. Once the flooding subsides, this 
land could be unusable for years. Constructing an emergency outlet 
would reduce the risks of further flooding and of an uncontrolled 
natural outlet occurring. An emergency outlet will not, by itself, 
eliminate the threat of flood, at Devils Lake. It is, however, an 
essential element of a broader program, and will provide a measure of 
reduction flood risk.
    The Federal Government has already spent over $114 million to 
address the flooding around Devils Lake, and constructing an outlet 
could help minimize future expenditures. According to the Army Corps of 
Engineers, there has been approximately $100 million total in 
expenditures and damages. If the level of the lake were to rise another 
five feet (1,440 feet to 1,445 feet), potential damages could increase 
by another $140 million. Construction on of an outlet, in conjunction 
with other efforts to address the situation could greatly reduce this 
damage estimate.
    Also as you make clear in your letter, the Administration's's 
proposal would not waive or amend any of our environmental laws. Our 
proposal requires fulfillment of all requirements of the National 
Environmental Policy Act and the 1909 Boundary Waters Treaty Act with 
Canada. In addition. in the Administration's view, there is no link 
between support of an emergency outlet and potential future 
authorization of a reformulated Garrison Diversion project.
    Thank you for letting me know of your strong interest in this 
project.
            Sincerely,
                              Franklin D. Raines, Director.
                                 ______
                                 
                               Edward T. Schafer, Governor,
                              State of North Dakota, April 23, 1997

Hon. David Obey,
U.S. House of Representatives,
Washington, DC 20515.

Dear Representative Obey: I am writing to ask; for your support to 
include finding for an emergency outlet at Devils Lake, North Dakota. 
No doubt you have heard of the immense flooding taking place in North 
Dakota these past several weeks. We need your help in North Dakota.
    This project is part of the Administration's 1997 Supplemental 
Emergency Appropriation for the U.S. Army Corps of Engineers which 
included $32.5 million for construction of the Devils Lake emergency 
outlet.
    Unfortunately, the funding did not make it into Chairman McDade's 
mark-up, coming out of subcommittee, because of concerns over 
``authorizing'' a project in a supplemental appropriations bill. 
However, I am advised that authorizing a project like an emergency 
outlet for Devils lake in an emergency appropriations bill is not 
unique. But, our circumstances are unique.
    The State and Federal Governments have spent over $100 million 
responding to damages from Devils Lake since 1993. We have raised 
roads, and dikes to 1,445, the highest limit reasonably possible.
    We were bracing for levels of 1,440 this year. However, as of April 
23, 1997 recent projections by the National Weather Service indicate 
the lake is likely to rise to 1,444, 8 feet above the high level 
reached in 1867. Clearly. 1997 is the last year we have to take 
critical steps to avoid jeopardizing the entire community of Devils 
Lake and incurring millions of dollars in additional damages.
    The situation at Devils Lake is both a disaster and an ongoing 
emergency. The lake has risen 16 feet since 1993, and will rise another 
four to six feet this year. I have enclosed several recent photos that 
show some of the problems from last year. The impacts were terrible 
then and will be even more extreme this year. I have also enclosed a 
map of the area showing how Devils Lake has grown from about 45,000 
acres in 1993 tO about 85,000 acres this year. As the lake continues to 
rise, it could soon reach nearly to Cando. Unfortunately, there is 
nothing to prevent this from happening, and history shows it can happen 
again. Since the lake will reach new levels this year, we have no time 
for the usual six-seven year study for a project to be authorized under 
normal circumstances.
    The Devils Lake emergency outlet is one part of a comprehensive 
three-part solution devised in 1995 by the Devils Lake Basin 
Interagency Task Force lead by FEMA and comprised of numerous Federal, 
State and local agencies. This report and the Emergency Outlet Plan 
published by the U.S. Army Corps of Engineers on July 26, 1996, both 
conclude that an emergency outlet is necessary to gain control of the 
flood disaster that now plagues the Devils Lake region.
    The emergency outlet project will be a 200 cfs outlet facility 
operated under stringent rules to protect downstream interests. If this 
project had been in place in 1993, it would have lowered Devils Lake 2 
feet and saved $30 million for infrastructure protection, and prevented 
the relocation of at least an additional 70 to 90 homes, as we are now 
preparing to do.
    All planning to date has included provisions to comply with the 
National Environmental Protection Act (NEPA) and the 1909 Boundary 
Waters Treaty (BWT). Future efforts will also comply with NEPA and the 
BWT to ensure recognition and protection of downstream interests. In 
planning thus far, all downstream water quality standards have been 
met. Biota transfer issues and downstream flood and erosion potential 
have been addressed. In North Dakota. we are concerned about water 
quality at Kindred, Valley City, Lisbon, Fargo, and other downstream 
communities in Minnesota and Manitoba. At the same time, we must 
recognize that Devils Lake is clearly a part of the Red River Basin and 
has naturally overflowed on several occasions into the Sheyenne River.
    I assure you that all measures that can effectively reduce the 
flood losses at Devils Lake are being aggressively pursued. Despite 
these efforts, Devils Lake continues to rise. Evaporation the past 4 
years has been non-existent, and without our three-part solution, there 
is no end in sight to increasing damages at Devils Lake. Will an outlet 
alone solve the problem? No, we must implement all parts of the 
solution. Even that may not be enough. But to do less is irresponsible. 
Our hope is that God Almighty will contribute the fourth and final part 
of the solution.
    I have enclosed a chart showing the recorded levels of Devils Lake. 
I have also enclosed a fact sheet that further explains the recent 
problem, the need for an outlet, and the comprehensive solution we are 
pursuing.
    Finally, let me add that the North Dakota Legislature, on behalf of 
the people of North Dakota carefully reviewed and endorsed the three 
part solution that we are pursuing, passed a resolution approving the 
outlet, and passed a bond program to pay for the State's share of an 
emergency outlet. Congressman Pomeroy will provide you with a copy of 
the resolution and other briefing materials on behalf of North Dakota.
    I request that you help us gain control of a disastrous situation. 
As the Governor of a State, I recognize the demands placed upon you for 
even program and request imaginable. Likewise, the people of our great 
country have asked that we exercise some fiscal restraint in the 
management of their affairs. I would not ask you for this help, in the 
face of growing demands and critical needs resulting from disasters 
across the country, unless we desperately needed it. We desperately 
need it.
            Sincerely,
                               Edward T. Schafer, Governor.
                                 ______
                                 
                                    Office of the Governor,
                               State of North Dakota, October 1997.
To All Interested Parties: In 1995, a wide range of local, State, and 
Federal agencies and organizations; the Spirit Lake Nation; elected 
public officials; and numerous concerned individuals, met to form a 
Task Force assigned to address, in a comprehensive, multi-objective 
manner, ways to mitigate the Devils Lake flood.
    This Task Force, chaired by the Federal Emergency Management 
Agency, produced a variety of mid- to long-term response measures to 
complement the short-term efforts of the local emergency management 
agencies. Many of these measures have been implemented while others are 
works in progress. The Interagency Task Force continues to meet on a 
regular basis to monitor and evaluate these efforts.
    Local, State, and Federal leaders have identified three key 
components in the effort to combat this flood: improved upper basin 
water management, infrastructure protection, and pursuing a west end 
outlet from Devils Lake to the Sheyenne River. As each component is 
somewhat reliant upon implementation of the others, this approach has 
been termed the ``three legged stool.''
    To further the specific discussions, a separate group of local, 
State, Federal, and environmental representatives began to meet in 
1996. After numerous meetings, it was agreed that a ``flowchart'' 
depicting the various efforts associated with the three legged stool 
and the agencies involved, would be a helpful complement to the work of 
the Task Force and to others interested in understanding the wide range 
of efforts which are being pursued to deal with this ongoing flood. 
This flowchart is attached, with a separate page outlining efforts 
associated with each leg of the stool.
    In addition, a website has been developed to keep interested 
parties informed of the progress being made on these many parts of the 
three legged stool. This website is updated regularly and is accessible 
at: http://water.swc.state.nd.us.
    As local, State, and Federal elected leaders working together 
toward implementing the three legged stool, we hope that this 
information is helpful to you and we thank you for your support in the 
implementation of this plan.
            Sincerely,
                              Vern Thompson, LEMC Co-Chair.
                                Joe Belford, LEMC Co-Chair.
               Edward T. Schafer, Governor of North Dakota.
                                  Kent Conrad, U.S. Senate.
                                 Byron Dorgan, U.S. Senate.
                          Earl Pomeroy, Member of Congress.
                                 ______
                                 
                   The Devils Lake Flood: An Overview
    Flooding in the Devils Lake basin continues. High water started 
working its way into Devils Lake, a terminal lake, in the summer of 
1993. High flows have continued at an alarming rate through 1997, 
causing Devils Lake to rise approximately 20.5 feet, triple in volume, 
and spread from 45,000 surface acres to 100,000 surface acres. The 
result of this continued flooding has been extraordinary damages to the 
region's homes, infrastructure, rangeland, cropland, and economy. Over 
$200 million in aid has flowed to the region to raise roads, move 
homes, provide levee protection and for other mitigation efforts.
    Communities most acutely impacted include the city of Devils Lake, 
which is North Dakota's eleventh largest city, a regional trade center, 
and an integral part of the State's recreation and tourism industry. On 
the western edge of the lake is the community of Minnewaukan, which was 
approximately eight miles away from the lake in 1992. The Spirit Lake 
Sioux Nation borders Devils Lake to the south and has experienced 
significant impacts from this continued flooding. Numerous other 
communities throughout the basin have also suffered during this wet 
cycle.
    In 1997, the lake reached an elevation of 1,442.9 feet. The 
complexity and magnitude of this problem increases as the lake reaches 
natural overflow levels. At approximately 1446 feet it will begin to 
flow into nearby Stump Lake, and at approximately 1457 feet Stump Lake 
will overflow into the Sheyenne River. The Sheyenne flows south through 
the communities of Valley City and Lisbon before it winds northward and 
where it enters the Red River, which flows into Canada.
    Implementing solutions to the flooding is also very complex. As 
outlined in the attached flowcharts, improved upper basin water 
management, infrastructure protection, and an outlet from Devils Lake 
are three main components to reducing flood impacts. In order to move 
forward with these initiatives, however, we must also address such 
concerns as upper basin agricultural productivity and water quantity 
and quality concerns from downstream communities in North Dakota as 
well as Minnesota and Canada.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Statement of John H. Zirschky, Acting Assistant Secretary of the Army 
                            for Civil Works
    Mr. Chairman, Members of the Committee, I am John H. Zirschky, 
Acting Assistant Secretary of the Army for Civil Works. Thank you for 
inviting me to provide testimony on the U.S. Army Corps of Engineers 
(Corps) response to the flooding problems caused by the rising levels 
of Devils Lake, North Dakota. My statement will consist of a brief 
history of the Corps involvement in Devils Lake including the projects 
and assistance that the Corps has provided thus far and our plans for 
the future. Mr. Mike Armstrong, FEMA, addresses other Federal, State, 
and local efforts in his testimony.
               history of corps activities in devils lake
    The Corps of Engineers investigated primarily agricultural flooding 
problems in the Devils Lake area in the 1960's and early 1970's and 
again in 1980. Also in the early 1980's the Corps began to develop a 
flood protection plan for the city of Devils Lake. This study 
culminated in the construction of the levee system in 1986 to protect 
the City.
    A study in the late 1980's focused on broader flooding problems in 
the Devils Lake region and looked at different solutions, including an 
outlet to the Sheyenne River. This study highlighted the difficulty of 
predicting whether the lake will rise or fall. These are the same 
concerns facing us today.
    In 1993 the Corps and the North Dakota State Water Commission began 
a cost shared feasibility study to develop plans to stabilize Devils 
Lake. While the feasibility study is continuing in parallel with our 
emergency activities, many of the feasibility activities related to an 
outlet to the Sheyenne River are under way now as part of our design 
efforts that I will speak to in a moment.
    However, during this same time period, the region began to 
experience dramatic rises in the lake levels. Federal, State and local 
efforts quickly focused on a response to the flooding situation. The 
Corps provided assistance under the Corps emergency authority. These 
activities included technical assistance, protection of sewage lagoons 
and lift stations and emergency equipment and supplies. Preparations 
were also started to raise the levee protecting the city of Devils 
Lake. Unfortunately, Federal, State and local response efforts are 
handicapped by the difficulty in forecasting future lake levels.
    We are continuing to provide emergency assistance and are working 
with the city of Devils Lake and other local interests to raise the 
levee system in anticipation of additional lake rises. We have been 
adapting our designs and construction methods to allow for future 
raises. Even now, we have undertaken an additional two foot raise to 
help ensure the protection of the City next spring. Our designs are 
taking in to account the special nature of the Devils Lake area and the 
likelihood that water will be high for several years. We have adopted 
an incremental raise approach to be sure that we can continue to 
provide protection for the City but also to husband the State, local 
and Federal Governments' resources. We want to make sure that we do 
what we need to do to protect the City.
    In the summer of 1995, with the lake levels having risen over 13 
feet in a 4-year period, at the request of the North Dakota delegation, 
the Corps developed a Contingency Plan which identified a wide range of 
possible actions, their likely cost and performance and the responsible 
agency for implementing them. The measures discussed in the report 
included: outlets to the Sheyenne River and Stump Lake; upper basin 
storage; raising the levee protecting the city of Devils Lake; flood 
insurance; evacuation of the floodplain and relocations; other levees; 
road raises; and infrastructure protection. This report was released in 
February 1996 and complemented the efforts of the Interagency Task 
Force chaired by the Federal Emergency Management Agency. It focused 
attention not only on the complexity of the problem but most 
importantly that many different measures would be needed to provide 
flood relief. Many of these measures, such as providing upper basin 
storage, relocation of structures, and road raising have already been 
implemented by other Federal, State and local agencies. The Corps on-
going feasibility study, currently scheduled for completion in 
September 2000, considers these and other measures to develop 
comprehensive plans that are flexible enough to address the great 
uncertainty in future conditions.
    In 1996 when the lake was forecast to continue to rise, the Corps 
used information from earlier studies, the on-going feasibility study 
and judgment, to develop a conceptual emergency outlet plan. This plan 
provided information on the impacts and performance of an outlet from 
Devils Lake to the Sheyenne River. Following the release of that report 
in August 1996, the Corps and the North Dakota State Water Commission 
held over a dozen public meetings in the Devils Lake basin, with the 
Spirit Lake Nation, Minnesota officials and others throughout the 
region to discuss the outlet and its' performance and impacts. The 
Corps is now undertaking the detailed design of an outlet, as directed 
in the Emergency Supplemental Appropriations Act of 1997 (Public Law 
105-18), and we have issued a Notice of Intent to prepare an 
Environmental Impact Statement. The Energy and Water Development 
Appropriations Act, 1998, authorizes and provides $5 Million of funding 
to initiate construction of an emergency outlet at Devils Lake. These 
specific funds are available after the Secretary of the Army reports to 
the Congress that an emergency exists and that the construction is 
technically sound, economically justified, and environmentally 
acceptable; and provided that the Secretary of State, after 
consultation with the International Joint Commission, reports that the 
project will not violate the requirement& or intent of the 1909 U.S.-
Canada Boundary Waters Treaty.
    Although an outlet route was tentatively identified during the 
preparation of the 1996 Outlet Plan, additional route selection efforts 
were undertaken to address concerns raised by the Spirit Lake Nation. 
These efforts resulted in a route change that has been agreed upon by 
the Spirit Lake Nation and the State of North Dakota. As a result of 
the route change and ongoing design efforts for the pumping station, we 
would expect some increase in the total discharge from the Devils Lake 
basin into the Sheyenne River over that identified in 1996 conceptual 
plan. The changed route and its related design are expected to lessen 
environmental impacts of the outlet.
    As detailed in Mr. Armstrong's statement, the Corps and numerous 
other Federal agencies have been heavily involved in providing 
assistance to the State and the local communities during the most 
recent flooding. I believe these actions reflect the recognition of the 
serious problem faced by the people of the Devils Lake basin as well as 
the wide range of measures that are required to deal with this complex 
problem. The uncertainty that we face in dealing with a closed lake 
basin requires us to adopt a stance that allows the local, State and 
Federal Governments to make wise use of their resources while 
continuing to provide assistance.
                       corps plans for the future
    My previous remarks illustrate the Corps efforts to adapt to the 
changing conditions and to continue to provide support and assistance 
to the region. Now, as we are in the fifth year of record rises, we 
must turn our attention to the future and the decisions that will be 
facing us. We don't know Nature's time line that might cause the lakes 
to spill over into the Sheyenne River and thus it is exceedingly 
difficult to time the implementation of any flood mitigation measures.
    Forecasting the long term lake levels in a closed basin (Figure l) 
is much more difficult than forecasting the probability of floods in 
our free flowing rivers and lakes. Flood events on rivers are generally 
independent events resulting from storms or yearly snowmelt. Devils 
Lake flooding is dependent upon the previous year's lake level and is 
related to long term climatological cycles, which makes it much more 
difficult to forecast. We worked closely with the United States 
Geological Survey and other agencies in 1994 to improve our ability to 
forecast lake levels and to attempt to quantify the uncertainty and 
assess the risk of future lake level increases. To further enhance 
these efforts, we have finalized an agreement with the University of 
North Dakota's Energy and Environmental Research Center to work with 
the Corps to examine the potential of new findings about climate 
variability in order to improve forecasts for future lake levels. The 
Corps St. Paul District and Institute for Water Resources will use this 
information to develop a state-of-the-art decision model. This model 
will assist decisionmakers on the critical and exceedingly difficult 
choices on future actions for dealing with the flooding from Devils 
Lake. The model will allow us to consider different assumptions about 
likely future inflows into the lake, test possible solutions to see if 
they can provide relief, and determine which alternatives work best in 
such an uncertain situation. This work, conducted in close 
collaboration with affected groups, will produce decision support 
tools, forecasts, data and forums that can continue to be used by the 
Corps, the States of North Dakota and Minnesota, the International 
Joint Commission, and the people of the Devils Lake region.
    We are faced with making further decisions to expend additional 
amounts of Federal and local funds if the lake continues to rise. More 
importantly, we are faced with significant impacts to peoples' lives if 
we don't take the proper actions or if we take the wrong ones. In order 
to understand the implications of taking various actions, I would like 
to explain in broad terms the climatic and hydrologic uncertainties 
that face us.
    We do not know what elevations to expect on Devils Lake for next 
year nor the next several years. We know that it has exhibited great 
variability over both geologic time (Figure 2) and recorded history 
(Figure 3). From 1950 to the present, almost a third of the total 
inflow to Devils Lake has occurred in the last 5 years. Such a series 
of large inflows translates to dramatic rises in lake levels. Yearly 
inflows and corresponding maximum lake elevation and surface area are 
shown in the table below starting with the 1993 low point of 1,422.7 
feet, mean sea level (msl).

                                                                                                                                                        
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                 Change 
                                                                                                            Change in                            in Lake
                    Year                      Estimated Annual Inflow (acre-  Maximum Lake Elevation (msl)     Lake       Lake Surface Area      Surface
                                                           feet)                                            Elevation          (acres)            Area  
                                                                                                               (ft)                              (acres)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1950-93.....................................  65,000 average................                            --        --                        --        --
1993........................................  296,000.......................          1,427.8 (min 1422.7)        --           56,600 (47,000)        --
1994........................................  189,000.......................                       1,430.9       3.1                    62,500     5,900
1995........................................  405,000.......................                       1,435.7       4.8                    74,000    11,500
1996........................................  280,000.......................                       1,437.8       2.1                    80,000     6,000
1997........................................  420,000 (thru Sept)...........                         1,443       5.2                    97,500    17,500
1998........................................  ??............................                            ??        ??                        ??        ??
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The lake is currently at 1,442.5 feet, msl and is forecast to reach 
about 1,443 feet, msl by winter freeze-up. The volume of Devils Lake at 
1,443 feet, msl is approximately 1,958,000 acre-feet and covers nearly 
100,000 acres.Figure 4 shows a cross-section through the basin and the 
key elevationslinking Devils Lake to the Stump Lakes and then to the 
Sheyenne River. At the average annual rate of inflow we have seen into 
the lake over the last 5 years, it could take about a year to rise to 
the elevation of the divide between Devils Lake and the Stump Lakes. At 
this same average inflow, it would take about 2 years to fill the Stump 
Lakes to the same elevation as Devils Lake. It would then take about 
six more years to fill the combined Devils lake and Stump Lakes to 
elevation 1,457 feet, msl, which is where the lake would naturally 
begin to flow into the Sheyenne River. But we don't know what next 
year's inflow will be.
    There has been concern over the possible environmental impacts of 
an overflow of the natural divide between the Devils Lake basin and the 
Sheyenne River. There is a risk of an overflow of the divide which 
would be several years away even under the continued high inflow 
conditions I described above. The impacts of such a non-catastrophic 
overflow would include: erosion and subsequent deposition of sediments 
in the Sheyenne River; long term inundation of wetlands along the 
Sheyenne River which could reduce their productivity depending on the 
duration of their inundation; and higher levels of dissolved solids in 
the Sheyenne River, that would likely have some effect on the ecosystem 
but the scope of which is unknown at this time. There is also a danger 
of contaminating water supplies along the river. Higher treatment costs 
would occur and alternate sources of water might be necessary for those 
with special health considerations.
    The amount of inflow into Devils Lake is highly variable as shown 
in Figure 5. We have plans in place to continue to protect the City but 
the remaining areas adjacent to the lake would continue to be 
vulnerable. There is some time to consider options before there is a 
danger of an overflow to the Sheyenne River although damages will 
continue to occur. The additional information from the work by the 
University of North Dakota and the Corps offices will be very important 
in making our future decisions.
    Much has been made about an outlet from Devils Lake to the Sheyenne 
River. A major concern expressed is the salinity (measured as total 
dissolved solids) of the water in Devils Lake and the Stump Lakes. 
Current salinity levels vary from about 900 mg/l in the west to nearly 
15,000 mg/l in east, as illustrated in Figure 4. By comparison, sea 
water is usually 35,000 mg/l. These salinities are very dependent upon 
the level of the lakes and are much higher as the lake levels drop. In 
1961, the salinity in East Stump Lake was over 240,000 mg/l or nearly 
seven times as salty as seawater. Setting aside the environmental, 
social, and international concerns, let us consider the hydraulic 
aspects of an outlet. Right now the Corps is working on the design of a 
pumping system that could move 300 cubic feet per second (cfs). This 
would amount to almost 200 MGD, which is two thirds more than the 
average daily use in Washington, DC. However, based upon the Corps 1996 
Outlet Plan simulations, the amount that could be pumped would be much 
less because of conditions on the Sheyenne and Red Rivers. These limits 
are both in terms of channel capacity, so that flooding is not induced 
on those rivers, and the need to meet State water quality standards. An 
outlet is not a simple solution, nor one guaranteed to work. If very 
high inflows to the lake continue, a spillway may be a necessary action 
given the volume of water that may flow naturally to the Sheyenne 
River.
    Along with the North Dakota State Water Commission, we are 
continuing our feasibility study to develop and evaluate an array of 
measures to reduce the flood damages in the region in the event the 
lake continues to rise. From all our earlier studies, it is clear that 
one component of any comprehensive plan will be an outlet. We are 
continuing our design efforts for an outlet as directed by the 
Congress.
    In summary, the rising level of Devils Lake has had a serious 
impact on the region. A great many resources from the Federal, State, 
and local governments have been committed to address these flooding 
problems. Future lake levels are unknown but we have studies underway 
to try to reduce the uncertainty of our forecasts and improve our 
decisionmaking. We have construction, design, and study efforts 
underway to address expected problems and insure that we are poised to 
respond quickly to changes. We are ready to provide needed assistance 
while being mindful of our responsibilities to the environment and of 
the impacts to the Federal taxpayers.
    Thank you and I will be happy to answer any questions.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
 Responses by John Zirschky to Additional Questions from Senator Chafee
    Question 1. As part of the project study requirements that we have 
followed for many years now, we require a thorough vetting of the cost 
and benefit analysis; the technical feasibility; and the environmental 
impacts. As I stated in my opening remarks, this data is collected and 
reviewed by appropriate agencies at the Federal and State levels as 
part of the cost-shared feasibility report. The data is later 
``certified'' by the Report of the Chief of Engineers. Where are we in 
this process for the Devils Lake outlet and all other related projects 
or project features?

    Response. To comply with the requirements of the 1998 Energy and 
Water Development Appropriations Act (P. L. 105-62), necessary studies 
are underway that will address an outlet's economic justification, 
technical feasibility and environmental acceptability and would include 
coordination and consultation with the Department of State and the 
International Joint Commission and compliance with the National 
Environmental Policy Act.
    As part of the report, the Corps will present the results of an 
economic analysis. At the current time, there are two consultants 
conducting studies on flood damages related to the rising levels of 
Devils Lake. The U.S. Geological Survey (USGS) has been and is 
continuing to conduct lake level probability studies. The results from 
the flood damage studies conducted by the Corps will be combined with 
the USGS lake level-probability analyses to develop an assessment of 
the outlet's economic justification. Additional information will be 
developed on the outlet's impact on other ongoing and potential 
Federal, State, and local flood fight investments.
    We have also contracted with the Energy and Environmental Research 
Center (EERC) and the Regional Weather Information Center (RWIC), both 
associated with the University of North Dakota, to assist in providing 
the best available science on which to base any recommendations on an 
outlet, or on other means to address the flooding. The RWIC is 
investigating climatic variations that could refine estimates of the 
probability of future flooding. The EERC will use those results as part 
of a ``Virtual Flood'' simulation in Grand Forks, ND in February 1998. 
This ``Virtual Flood'' will allow stakeholders and decision makers to 
simulate flooding conditions on Devils Lake and then fight the flood 
with simulated alternatives such as an outlet, levees, and relocations. 
We hope that this simulation, and the process of developing it, will 
help develop a consensus on the likely effectiveness and impacts of 
various alternatives including an outlet.
    Based on the analyses to date, construction of an outlet poses no 
technical problems. The pre-construction engineering and design process 
is ongoing; detailed designs of various outlet project features will be 
developed over the next several months; and, plans and specifications 
for selected components of the outlet will follow. The environmental 
impacts will be addressed in an EIS. The Notice of Intent (NOI) to 
prepare an EIS was issued in the Federal Register of October 21, 1997. 
Agencies and interested parties at the Federal, State, international 
and local levels are being and will continue to be coordinated with 
throughout the design and EIS process.
    Regarding other related projects in the area, the cost-shared 
feasibility study was started in 1995 to address a wide variety of 
water resources issues in the Devils Lake basin. This feasibility study 
is still ongoing and is scheduled for completion in the year 2000. The 
levee to protect the city of Devils Lake has been recently raised to a 
Top of Levee (TOL) elevation of 1,450 feet. Further incremental raises, 
as needed, are proposed to maintain a TOL of about five feet above 
predicted lake levels. In April 1995, the levee at the city of 
Minnewauken's sewer lagoon was raised and strengthened as part of an 
advanced measures project. This raise afforded the City the time to 
relocate the lagoon to a more suitable site. As the lake level 
continued to rise, the abandoned lagoon was eventually inundated.

    Question 2a. Page two of your written testimony states that many of 
the feasibility study activities related to the outlet are being 
conducted in the project design work. Speaking broadly, is the 
feasibility study a waste of time? Should we just do away with the 
feasibility study step?

    Response. The feasibility study should be continued; however, the 
original scope of the feasibility study is being modified to recognize 
the work being undertaken on the outlet under the authorities provided 
by Public Law 105-18 and Public Law 105-62. The feasibility study is 
the necessary vehicle for addressing the details of alternatives other 
than the emergency outlet. For example, upper basin storage, the impact 
of high ground water levels at the City of Devils Lake and other 
problems related to the high lake levels that are not directly related 
to the outlet are being evaluated under the feasibility study. Also as 
required by Public Law 105-62, study efforts on an inlet to Devils Lake 
have been eliminated from the feasibility study.

    Question 2b. Just yesterday, the committee received a copy of your 
3-sentence letter, dated October 15, 1997, to the President of the 
Senate informing him of your determination that an emergency exists at 
Devils Lake. This, of course, was a requirement of the recently enacted 
Energy and Water Appropriations act. What factors led to your 
determination?

    Response. As noted in my testimony, there is an ongoing flood 
problem in the Devils Lake basin where we are at historic levels. We 
can also predict, with almost 100 percent certainty, that the lake will 
rise higher. We just do not know when or by how much. There is a good 
chance it will rise higher next year. Therefore, we need to proceed as 
quickly as possible to evaluate options and make decisions on actions 
to be taken to mitigate for the expected and potential rise in lake 
level.

    Question 2c. I recognize that the Congress did not specify the need 
for a report to accompany such determinations, but are there any 
supporting documents, criteria or materials that shed light on the 
merits of such determinations?

    Response. As I noted, there is an ongoing and record flood in the 
Devils Lake basin and the lake will rise higher. State and local 
interests have and are committing their resources to address an ongoing 
emergency which is beyond their capability. These criteria have been 
the traditional basis for providing Corps of Engineers emergency flood 
assistance. These factors provide the basis for my making the emergency 
declaration.

    Question 3. Some have indicated that the standard benefit-to-cost 
methodology applied by the Army Corps for other flood control projects 
may or may not be well-suited for the unique hydrologic circumstances 
at Devils Lake (because it is a closed basin and not a free-flowing 
river).
    Would you explain this to me? If this is so--that the methodology 
cannot be easily applied--what are we going to do to try to understand 
the appropriateness (at least in economic terms) of moving forward with 
the outlet?

    Response. It is true that a closed basin presents unique hydrologic 
circumstances. Essentially the problem is that for a closed basin what 
happens in any given year, say to a lake level, depends in part on what 
happened the year before, and the year before that, and so on. This 
``dependence'' is much less likely for open river flood stages, so much 
less likely that it is reasonable to treat the open river flood stage 
in any given year as unaffected by the stage in any previous year. In 
addition, for Devils Lake, the analyses are further complicated by 
long-term and short-term (El Nino) climate variability.
    These real world differences translate into hydrologic modeling and 
statistical analysis complexities which, due to the rareness of the 
closed basis situation, have not been made routine within the Corps. To 
address this analytically difficult situation, the Corps, in 
conjunction with other agencies, is developing computer models to 
estimate the outlet's effect on the lake level-probability 
relationships. Although these probability relationships are the best 
technically supportable methodologies available at present, they are 
extremely sensitive to many factors. The Corps intends to integrate 
those probability changes and the lake level-damage relationships to 
estimate the potential benefits of an outlet operation. The Corps will 
estimate benefits relating to the prevention of future flood damages 
(national economic development benefits), as well as; regional and 
local benefits associated with the prevention of future business 
losses, the cost of foregone or deferred investments, and costs 
incurred in avoiding or fighting the flood. We will also measure the 
cost that other Federal, State and local agencies might incur if lake 
levels continue to rise, and the damages resulting from failure to 
protect recent Federal investments.

    Question 4. Given the rather impressive amount of funding (some $ 
114 million) the Corps and other Federal agencies have spent on 
mitigating flood damages in the Devils Lake basin, including relocating 
many structures, roadways, and infrastructure facilities, and given the 
limited amount of water that can be pumped out of the Lake, even under 
the best of circumstances, is it not possible that there may be very 
limited benefits from this project?

    Response. The work already done by the Corps and other Federal and 
State agencies have limited the benefits of an outlet. But, if further 
hydrologic analysis leads us to raise our estimates of the probability 
of even higher lake levels, the expected damages would rise 
accordingly. As stated above, an outlet may result in savings in other 
flood-related measures as well as in the reduction of direct flood 
damages. An elimination of or even a delay in the uncontrolled overflow 
into the Sheyenne River could have substantial economic and 
environmental benefits over a wide area. In addition, whether lake 
levels rise or not, the lowering of Devils Lake could help return 
currently flooded lands to productive uses sooner, resulting in 
economic benefits.

    Question 5. How does the Corps currently plan to conduct the 
environmental impact statement on the Devils Lake outlet? Will the 
Corps conduct the EIS according to the normal process, meaning you 
intend to complete a Final EIS, including analysis of alternatives, and 
analysis of potential impacts on the environment of: construction, 
operation, and maintenance of the project prior to the start of project 
construction?

    Response. Army will consult with CEQ on how best to comply with 
NEPA given the emergency nature of the situation.

    Question 6a. Questions have been raised as to how much water could 
be pumped from the Devils Lake outlet and how long the pumping season 
would be. What is the Corps current thinking on this?

    Response. The Devils Lake Emergency Outlet Plan, issued in August 
1996, assumed that operation of an outlet would be limited to 7 months 
per year, May through November, with operation being constrained by 
downstream channel capacity and water quality limitations. While the 
pumping season has not changed, the downstream channel capacities have 
been found to be greater than originally estimated, and the water 
quality in Devils Lake has improved as a result of the very high volume 
of flood runoff into Devils Lake in 1997. Based on current information, 
and at the current lake level, the Corps estimates that about 60,000 
acre feet could be pumped out in a year without having adverse flooding 
or water quality impacts.
    An outlet, however, could remove far greater amounts of water. If 
lake levels rise such that a discharge from Stump Lake to the Sheyenne 
River would occur, opportunities to mitigate downstream flooding and 
water quality problems will be few. If this situation develops, there 
would be an uncontrolled discharge of high saline water into the 
Sheyenne River and into the Red River of the North We believe that it 
would be better to release the large volumes of water from Devils Lake 
via an outlet located at the west end of the lake. A controlled flood 
would occur. We believe a controlled flood of higher quality water is 
better than an uncontrolled flood of salt water.

    Question 6b. How and when will the issue of operation criteria for 
the outlet be addressed?

    Response. The operation plan will be developed that will comply 
with downstream water quality standards and to keep flows in the 
downstream receiving waters within normal non-damaging channel 
capacities, except under the extreme conditions noted above.
    The North Dakota State Legislature established a 9-member Devils 
Lake Outlet Management Advisory Committee consisting of the State 
Engineer and representatives from the Devils Lake Basin, the Spirit 
Lake Nation, the North Dakota Game and Fish Department, and downstream 
communities. This committee met for the first time on October 20, 1997. 
The Corps will be coordinating with this committee and other 
stakeholders in the development of an acceptable operating plan for an 
outlet.
                               __________
  Responses by John Zirschky to Additional Questions from Senator Reid

    Question 1. Based on testimony I have read, I understand that the 
emergency outlet is not being pursued as a single solution to the 
flooding in the Devils lake basin. A memo from the Department of the 
Army on April 15, 1997 indicated, in fact, that an emergency outlet ``. 
. . is necessary to take water out of the lake system at a controlled 
rate that will minimize any potential downstream impacts.'' This same 
position was outlined in a joint Federal-State-local task force on 
Devils lake which included an emergency outlet in its recommendations. 
Do you support the recommendation of the Joint Task Force on Devils 
Lake that an emergency outlet should be a key part of a comprehensive 
flood control strategy?

    Response. The memorandum that you refer to is background 
information prepared by the St. Paul District of the Corps. Members of 
the district staff represented the Department of the Army on the 1995 
Devils Lake Interagency Task Force, chaired by the Federal Emergency 
Management Agency, and supported the recommendation to consider an 
emergency outlet as a part of a comprehensive flood control strategy 
for the Devils Lake situation. We still believe an outlet could be part 
of a comprehensive flood control plan for Devils Lake.

    Question 2. In your remarks, you emphasized that flooding in the 
Devils Lake basin is creating an emergency for the communities in the 
region. I also understand that the President recently affirmed that the 
Devils lake flooding constituted an emergency. Are you concerned that 
the Federal response may fall short of treating this situation as an 
emergency and that necessary measures such as an emergency outlet may 
not be accomplished in time to prevent serious damages?

    Response. Yes, absolutely. It is my main concern. Serious damages 
have already been inflicted on the residents surrounding Devils Lake, 
and the potential for much greater damages exists. Federal responses to 
the flood threat at Devils Lake so far have been very effective in most 
cases; however, in some cases the response was not effective in 
preventing the damages. Significant Federal resources have been 
invested to minimize or to mitigate the flood damages around the lake. 
The requirement for future Federal resources to address the threat of 
potentially higher lake levels and the associated flood damages could 
be very great. The construction of an outlet has the potential to 
improve the ability of the Federal response to address the needs of 
residents in the region around Devils Lake. In spite of these efforts, 
we have had a significant increase in lake levels in the past few 
years. Again, I am concerned about the timely implementation of 
measures to help reduce future rises in lake level, and a return of the 
lake to less damaging levels. This is why I have initiated a contract 
with the Energy and Environmental Research Center and the Regional 
Weather Information Center to develop a decision model for Devils Lake.

    Question 3. In the same April 15, 1997 memo to the Congress on 
responses to concerns with the Devils Lake outlet, the Department of 
the Army explained that ``With the Lake at unprecedented high levels 
and having to cause extremely high additional damages that an 
accelerated emergency response process is necessary to reduce the risks 
of potential future flood damages.'' Is this also part of your concern 
about the need to proceed with an emergency outlet as part of a 
comprehensive solution to Devils lake flooding?

    Response. Yes. Since the lake is at such a high level, the 
potential for higher additional damages is very real. While no one can 
reliably predict whether the lake will in fact continue to rise, the 
risks associated with further lake level increases are great. As the 
levees and roads around Devils Lake have been raised to respond to the 
threats to the regional community of Devils Lake, the efforts and 
resources required for each additional foot of lake level increase are 
incrementally larger than those required for the previous foot of lake 
level increase. For example, the costs to raise the level of levee 
protection by five feet at the City of Devils Lake from elevation 1,440 
to 1,445 were approximately $7 million, the costs to raise the level of 
protection of these levees by five more feet from elevation 1,445 to 
1,450 and to include additional areas that now need protection are 
currently estimated to be an additional $43 million. A coordinated 
effort in several areas to address these problems is required, and an 
outlet from Devils Lake could be one of the components to the overall 
plan.
                               __________
 Statement of Michael J. Armstrong, Associate Director for Mitigation 
                  Federal Emergency Management Agency
    Thank you Mr. Chairman, and other Members of the Committee, for the 
opportunity to testify before you today about Devils Lake. I would also 
like to thank Senators Conrad and Dorgan for their continued support in 
addressing this issue.
    I sit here before you not only as the Associate Director for 
Mitigation at the Federal Emergency Management Agency (FEMA), but also 
as the Chair of the Devils Lake Basin Interagency Task Force. I've 
served in this capacity since its establishment in 1995, when I was the 
FEMA Region VIII Director. At that time, I was asked by FEMA Director 
James Lee Witt to lead the Task Force in order to identify appropriate 
methods of responding to the rising lake levels in the Devils Lake 
Basin in North Dakota.
    The mission of the Task Force was to find and propose intermediate 
solutions to reduce the impacts of high lake levels in the Devils Lake 
Basin. Intermediate solutions were defined as remedial actions that 
could be achieved within approximately 5 years--after or along with 
disaster response efforts, but before the benefits from any long-term 
engineered solution could be realized. From the very beginning, it was 
recognized that to achieve this mission, the Task Force effort would 
require the coordinated activity and commitment of numerous Federal, 
State, and local government entities along with elected officials, 
private citizens, environmental groups, and representation from the 
Spirit Lake Sioux Tribe. For this reason, the Task Force has operated 
with one key point in mind--that any solutions to be recommended could 
not involve a single-agency response, but instead would require an 
approach that is multi-disciplinary, multi-objective, multi-agency, 
bottom-up, and achieved through consensus-building partnerships.
    Two years have passed since I was first appointed to serve as Chair 
of the Task Force, and I am pleased to be able to report this approach 
is working. And over that time, the water levels in the Lake have 
increased another 7.5 feet to its present 1,443 feet msl. But while 
lake levels have climbed, we have made great strides to coordinate and 
implement an appropriate response to the problems in and around Devils 
Lake. Since 1995, the members of the Task Force have pulled together to 
mitigate the flooding impacts in the Devils Lake Basin by leveraging 
Federal, State, and local stakeholder resources. And the results have 
been profound. For example:
    <bullet>   All essential roads in the basin have either been raised 
or are being raised above the rising lake level;
    <bullet>   Floodplain maps for the entire basin were developed, and 
all communities are now participating in the National Flood Insurance 
Program. In fact, to date 504 claims have been reported, helping those 
who were affected by the flooding to rebuild their lives. To date, this 
has meant an infusion of over $17 million to impacted residents;
    <bullet>   Waivers of the standard flood insurance policy have been 
issued by FEMA in order to allow homeowners and business-owners who are 
threatened by imminent flooding to receive payments in advance of 
experiencing flood damage. These waivers have allowed 122 home- and 
business-owners to access the resources they needed to move out of 
harm's way, and 344 additional claims are pending at this time;
    <bullet>   Twenty-one homes on the Spirit Lake Reservation have 
been relocated outside of the flood hazard area;
    <bullet>   The levees around the city of Devils Lake are being 
raised, and internal drainage systems are being put in place;
    <bullet>   Approximately 30,000 acre feet of upper basin storage 
has been created through various programs;
    <bullet>   A series of agricultural programs have been funded and 
put in place to assist farmers address their losses due to flooding and 
for upper basin storage;
    <bullet>   Twenty lift stations in Ramsey County have been 
elevated;
    <bullet>   The sewage lagoon for the Town of Minnewaukan has been 
relocated;
    <bullet>   Lake water quality monitoring is ongoing, and a long-
term lake stabilization study is funded and underway; and--As you all 
know, consideration is being given to the possibility of building an 
outlet from Devils Lake to the Sheyenne River.
    All in all, the Federal Government has spent over $200 million to 
address issues in the Devils Lake Basin, not to mention the funds and 
resources brought to bear at the State and local levels. And with these 
resources and the commitment of all stakeholders to the process, the 
Task Force has had a significant and positive impact on the lives and 
economy of the communities surrounding Devils Lake.
    One of the reasons for our success to date has been a direct result 
of the approach we used to identify alternatives. Unlike past attempts 
to address the fluctuating water levels in the Devils Lake Basin, this 
effort was not designed to be another study. Over 400 such studies have 
been pursued in the past, with little known impact on the problems at 
hand. Instead, our intent was to work through a process whereby all 
stakeholders came together to examine the problem from many angles, 
brainstorm alternatives, confront the differences of opinion, and reach 
consensus on those actions that appeared most feasible, achievable, and 
most likely to be effective. We did this on a large scale, and ended up 
producing a report of which we can all be very proud.
    Through this process, we have seen an incredible development of 
partnerships between Federal, State and local governments. The Task 
Force has succeeded in creating an understanding that no one solution, 
or one level of government, provides all the answers. By pursuing a 
combination of options, including removal and floodproofing of 
structures, alternative land usage and water storage, rehabilitation of 
infrastructure, and local planning, the people of Devils Lake have 
sought permanent approaches to mitigation which make the region more 
disaster resistant.
    Construction of an outlet, in a manner sensitive to environmental 
concerns and the downstream impacts on other communities and Canada, 
could complement these other efforts.
    Thank you for the opportunity to speak to you today to discuss this 
important issue. I would be pleased to answer any questions you may 
have.
                                 ______
                                 
  Responses by Michael Armstrong to Additional Questions from Senator 
                                 Chafee
    Question 1: How would you characterize the Federal Government's 
response to the flooding problems at Devils Lake? What has the Federal 
Government done? How much has the Federal Government spent so far in 
response to this flooding?
    Response: The Government has used a multi-objective, multi-level 
response effort drawing together as many different entities as possible 
to deal with a common disaster. These entities range all the way from 
Federal agencies to local, community, and citizens groups. The Devils 
Lake Basin Interagency Task Force is now in its third year of meetings 
and/or regular conference calls with as many as 40 people participating 
in the monthly calls.
    The Federal Government has spent over $210 million as of the 
attached list, which was compiled in October 1997, with two-thirds 
being spent by Federal Crop Insurance Corp., the Federal Highway 
Administration, and the Army Corps of Engineers. This money has been 
spent in many ways including crop insurance, Upper Basin water storage, 
road raising around the lake, building and improving protective dikes, 
relocating residences, sewage lagoons, rural utilities and 
infrastructure, developing floodplain maps, and many other efforts.
    Question 2: Do you have a breakdown of how much each of the Federal 
agencies has spent on this? Did I get the numbers right? Some $114 
million since 1995? What have we done with the money?
    Response: A list entitled ``Federal Response to Devils Lake 
Flooding 1995-97'' (see copy attached) was compiled in October which 
indicates that over $210 million has been spent in the basin. The money 
has been used as described in paragraph 2 of the response to question 1 
above.
    Question 3: How much more would you expect will be spent on 
continued flood mitigation in the coming year by Federal agencies?
    Response: It is very difficult to estimate either the total dollars 
that will be spent within the Devils Lake Basin or what portion would 
be spent during 1998. Among the larger known items are $34 million for 
an outlet to the Sheyenne River, of which $5 million is projected for 
1998; $15 million for a bridge across Devils Lake connecting the town 
and the Ft. Totten reservation; and $30 million to raise the levees 
protecting the town of Devils Lake to 1,452, of which $20 million is 
projected for 1998. The unknown items are related to the weather and 
future flooding and include crop insurance payments, highway raises and 
maintenance, structure relocation and others.
    Question 4: Is flooding from closed basin lakes extremely rare or 
unprecedented?
    Response: While closed basin lakes have occasionally caused 
flooding, many of the circumstances involving Devils Lake make it 
unique, including the repetitive inundation of the area and the threat 
to reservation lands. There are other instances which have been 
studied. FEMA Region VIII experienced disaster declarations in 1983 and 
1984 in Utah with flooding of the Great Salt Lake. A case study was 
presented at the Association of State Floodplain Managers Symposium in 
March 1986 entitled ``Closed-Basin Lake Flooding: Case Studies and 
Mitigation Opportunities.'' This study cited Lake Pulaski, Minnesota; 
Great Salt Lake, Utah; Devils Lake, North Dakota; Lake Elsinore, 
California; the Salton Sea, California; and Malheur (Ilarney) Lake, 
Oregon, as examples of closed-basin lakes where flooding has occurred. 
The subject was also addressed in ``Floodplain Management in the United 
States: An Assessment Report--Volume 2: Full Report'' which is a FEMA 
publication FIA-18/June 1992.
    Question 5: Has the U.S.G.S. made predictions for what might be 
expected in terms of water levels at Devils Lake in the coming year?
    Response: No. The U.S.G.S. has not made any predictions of lake 
levels that include any consideration of expected weather conditions 
and/or snow and rainfall. Probabilities have been computed based on a 
statistical water mass-balance model for Devils Lake. They differ 
significantly depending on whether the initial conditions entered are 
the spring of 1994 (starting lake level of 1,430.6 feet) or the spring 
of 1995 (starting lake level of 1,435.0 feet). Significant differences 
are also incurred depending on whether the statistics are entered 
beginning with the early 1900's, the 1950's, or a more recent date. The 
lake levels projected are presented as probabilities: 1 in 2, 1 in 10, 
1 in 100, etc., rather than predictions.
   Probability of Future Lake Levels for Devils Lake, North Dakota--
                      Attachment to Question No. 5
    Prepared by the U.S. Geological Survey in cooperation with the 
North Dakota State Water Commission
Historic Lake-Level Information
    Devils Lake Basin is a 3,810-square-mile closed basin (fig. 1) in 
the Red River of the North Basin. About 3,320 square miles of the total 
3,810 square miles is tributary to Devils Lake; the remainder is 
tributary to Stump Lake.
    Since glaciation, the lake level of Devils Lake has fluctuated from 
about 1,457.0 feet above sea level, the natural spill elevation of the 
lake, to about 1,400.0 feet above sea level (Aronow, 1957). No 
documented records of lake levels are available before 1867, but, on 
the basis of tree-ring chronology, Upham (1895, p. 595) indicated that 
the lake level of Devils Lake was 1,441.0 feet above sea level in 1830. 
Lake levels were recorded sporadically from 1867 to 1901, when the USGS 
established a gaging station on Devils Lake. For the period 1867 to the 
present (1995), the lake level reached a maximum of 1,438.4 feet above 
sea level in 1867 and a minimum of 1,400.9 feet above sea level in 1940 
(fig. 2). On May 25, 1995, the lake level was 1,435.1 feet above sea 
level. This lake level is about 12.5 feet higher than the level 
recorded in February 1993 and the highest level in about 120 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Figure 2. Historic water level for Devils Lakes 1867-1995.

                recent flooding in the devils lake basin
    Since 1993, the lake level of Devils Lake (fig. 2) has risen 
rapidly in response to generally above-normal precipitation from the 
summer of 1993 to the present (1995). The recent lake-level rise has 
inundated thousands of acres of cropland around the lake and tens of 
thousands of acres in the Devils Lake Basin. State highways near Devils 
Lake have been closed, and construction is underway to raise roadbeds. 
Sections of many rural roads have been submerged or washed out near 
stream and wetland crossings.
    The estimated mean annual inflow to Devils Lake for 1950-93 is 
65,500 acre-feet. The estimated annual inflow for 1993 is 296,000 
acre,feet, the estimated annual inflow for 1994 is 216,000 acre-feet, 
and the estimated inflow for January 1 through May 31, 1995, is 292,000 
acre-feet. Total inflow to Devils Lake for 1993-95 accounts for about 
24 percent of all inflow to Devils Lake for 1950 through May 31, 1995.
Future Lake-Level Probability
    In response to rising lake levels from 1969 through the 1980's, the 
U.S. Army Corps of Engineers (COE) is conducting a reconnaissance study 
for a flood-control project to stabilize the level of Devils Lake. The 
COE study required analyses of future lake-level probabilities and 
associated economic damage estimates to evaluate the benefits and costs 
of proposed flood-control or lake-stabilization projects. To assist the 
COE and to assist water-resource managers in making decisions regarding 
lake-level fluctuations, the USGS, in cooperation with the North Dakota 
State Water Commission, conducted a study of the lake-level 
fluctuations. The principal objective of the study was to estimate the 
probability of possible future lake levels for Devils Lake using a 
statistical water mass-balance (WMB) model. The WMB model is used to 
compute the total volume (mass) of water stored in Devils Lake due to 
precipitation on the lake surface, evaporation from the lake surface, 
and inflow to the lake from the drainage basin.
    Seasonal precipitation, evaporation, and inflow data for Devils 
Lake were estimated and compiled for 1950-93 (Wiche and Vecchia, 1995). 
The data were used to generate 2,000 possible future sequences of 
precipitation, evaporation, and inflow. These values then were used to 
generate 2,000 possible future lake-level traces, each 50 years in 
length. The model closely reproduced the statistics of recorded 
seasonal precipitation, evaporation, and inflow and recorded lake-level 
data for 1950-93 for Devils Lake. The chance that a given lake level 
will be exceeded can be determined by evaluating the 2,000 possible 
maximum lake levels in each year (table 1). The chance of a given lake 
level occurring is dependent on the previous precipitation, 
evaporation, and inflow and on the starting lake level. The starting 
lake level for the spring of 1995, when the lake level was 1,435.0 feet 
above sea level, was used for the simulations shown in table 1. Chances 
are 1 in 10 that the lake level will exceed 1,438.1 feet above sea 
level in 1996 and 1 in 100 that the lake level will exceed 1,443.0 feet 
above sea level in 1996 (table 1).

 Table 1. Possible future levels of Devils Lake given the initial conditions that existed in the spring of 1995 
                                      (starting lake level is 1,435.0 feet)                                     
----------------------------------------------------------------------------------------------------------------
                             Year                               1 in 100   1 in 50   1 in 20   1 in 10   1 in 2 
----------------------------------------------------------------------------------------------------------------
1995..........................................................   1,437.8   1,437.3   1,436.6   1,436.0   1,435.0
1996..........................................................   1,443.0   1,441.9   1,439.6   1,438.1   1,435.3
1997..........................................................   1,445.3   1,443.3   1,440.5   1,438.8   1,435.2
1998..........................................................   1,446.2   1,444.3   1,441.1   1,439.1   1,434.8
1999..........................................................   1,446.3   1,444.2   1,441.4   1,439.1   1,434.4
2000..........................................................   1,446.6   1,444.4   1,441.4   1,439.1   1,434.1
2001..........................................................   1,446.3   1,444.6   1,441.2   1,439.2   1,433.8
2002..........................................................   1,446.5   1,444.7   1,441.4   1,439.1   1,433.5
2003..........................................................   1,446.5   1,444.4   1,441.3   1,438.9   1,433.2
2004..........................................................   1,446.0   1,444.2   1,441.2   1,439.0   1,432.9
----------------------------------------------------------------------------------------------------------------

    The assumed initial lake level, of course, affects the estimated 
chances of future lake levels. Possible future lake levels were 
estimated in 1994 using the initial lake level for the spring of 1994, 
when the false level was 1,430.6 feet above sea level. The resulting 
lake-level chances are shown in table 2. On the basis of hydrologic 
conditions as of June 1, 1994, chances were 1 in 20 that the lake level 
would exceed 1,436.0 feet above sea level in 1996 and 1 in 100 that the 
lake level would exceed 1,440.7 feet above sea level in 1996. However, 
after initial conditions were changed to those existing in the spring 
of 1995, when the lake level was 1,435.0 feet above sea level, chances 
were 1 in 20 that the lake level would exceed 1,439.6 feet above sea 
level in 1996 and 1 in 100 that the lake level would exceed 1,443.0 
feet above sea level in 1996. Periodically updating the model to 
reflect the most recent hydrologic conditions for Devils Lake allows 
water-resource managers to base decisions on the most up-to-date 
hydrologic information.

 Table 2. Possible future levels of Devils Lake given the initial conditions that existed in the spring of 1994 
                                      (starting lake level is 1,430.6 feet)                                     
----------------------------------------------------------------------------------------------------------------
                             Year                               1 in 100   1 in 50   1 in 20   1 in 10   1 in 2 
----------------------------------------------------------------------------------------------------------------
1994..........................................................   1,432.9   1,432.4   1,431.8   1,431.3   1,430.6
1995..........................................................   1,438.4   1,436.9   1,434.6   1,433.3   1,430.8
1996..........................................................   1,440.7   1,438.5   1,436.0   1,434.2   1,430.7
1997..........................................................   1,441.9   1,439.5   1,437.1   1,434.7   1,430.3
1998..........................................................   1,442.6   1,440.2   1,437.5   1,435.0   1,430.0
1999..........................................................   1,442.8   1,441.0   1,437.5   1,435.4   1,429.8
2000..........................................................   1,443.1   1,441.4   1,437.7   1,435.7   1,429.7
2001..........................................................   1,443.0   1,441.8   1,437.8   1,435.7   1,429.5
2002..........................................................   1,443.0   1,441.5   1,438.1   1,435.7   1,429.3
2003..........................................................   1,443.1   1,441.2   1,438.4   1,435.9   1,429.1
2004..........................................................   1,443.4   1,441.7   1,438.8   1,435.7   1,429.0
----------------------------------------------------------------------------------------------------------------

                               references
    Aronow, Saul, 1957, On the postglacial history of the Devils Lake 
region, North Dakota: Journal of Geology, v. 65, no. 4, p. 410-427. 
Upham, Warren, 1895, The glacial Lake Agassiz: U.S. Geological Survey 
Monograph No. 25, 658 p.
    Wiche, G.J., and Vecchia, A.V., 1995, Lake-level frequency analysis 
for Devils Lake, North Dakota: U.S. Geological Survey Open-File Report 
95-123, 65 p.
  Responses by Michael Armstrong to Additional Questions from Senator 
                                  Reid
    Question 1: Based on testimony I have read, I understand that the 
Emergency Outlet is not being pursued as a single solution to the 
flooding in the Devils Lake Basin. A memo from the Department of the 
Army on April 15, 1997; indicated, in fact, that an emergency outlet 
``is necessary to take water out of the lake system at a controlled 
rate that will minimize any potential downstream impacts.'' This same 
position was outlined in a joint Federal-State-Local Task Force on 
Devils Lake, which included an Emergency Outlet in its recommendations. 
Do you support the recommendation of the Joint Task Force on Devils 
Lake that an Emergency Outlet should be a key part of a comprehensive 
flood control strategy?
    Response: The Federal Government has spent over $200 million to 
date because of the flooding that has occurred since 1995. If the lake 
level continues to rise, potential problems that might have to be 
addressed include inundation of the entire Rural Utilities System of 
Ramsey County, destruction of both the sewer system and the electrical 
system in the City of Devils Lake, relocation of U.S. Highway 2, the 
railroad lines and the airport in Devils Lake, and many others. If the 
lake rises to a level where it flows out of the basin naturally (at 
lake level 1,457 msl) there would be much less opportunity to control 
salinity of the outflow, biota transfer, and other legal obligations 
included in the Boundary Waters Treaty of 1909. The Emergency Outlet is 
one part of an overall plan to prevent much more costly damages and 
control the outflow from the lake.
    Question 2: In your remarks, you emphasized that flooding in the 
Devils Lake Basin is creating an emergency for the communities in the 
region. I also understand that the President recently affirmed that the 
Devils Lake flooding constituted an emergency. Are you concerned that 
the Federal response may fall short of treating this situation as an 
emergency and that necessary measures such as an Emergency Outlet may 
not be accomplished in time to prevent serious damages?
    Response: The Federal response has been continuous since the 
formation of the Devils Lake Interagency Task Force in the summer of 
1995. It has addressed as many problem areas as possible in that time 
and has achieved much success in many of these areas. The response was 
immediate and is ongoing. Therefore, the situation was definitely 
treated as an emergency. Some serious damages have already occurred and 
cannot be prevented. Certainly there is concern that with every lake 
rise, the absence of an Emergency Outlet option makes the critical 
nature of the situation more acute. The Emergency Outlet is one measure 
that, in combination with other efforts, can alleviate or diminish the 
severity of effects of flooding in the future and return some stability 
to the basin.
    Question 3: In the same April 15, 1997, Memo to the Congress on 
responses to concerns with the Devils Lake Outlet, the Department of 
the Army explained that ``with the lake at unprecedented high levels, 
and having to cause extremely high additional damages, that an 
accelerated emergency response process is necessary to reduce risks of 
potential future flood damages.'' Is this also part of your concern 
about the need to proceed with an Emergency Outlet as part of a 
comprehensive solution to Devils Lake flooding?
    Response: Yes. The Interagency Task Force in 1995, identified a 
number of hazards that would have to be addressed at each foot of 
increase in the level of Devils Lake. The lake peaked at just under 
1,443 feet msl in July of 1997, and has receded about one-half of a 
foot since that time. The Emergency Outlet could compliment other 
efforts to control the level of the lake and the only man-made measure 
that can reduce or maintain a lake level. Completion of the outlet will 
allow the ability to remove water from the lake and reduce the 
consequences of drainage of the 3,800 square mile basin into the lake.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            Federal Response to Devils Lake Flooding 1995-97            
                 Details 1 & 2, Compiled October, 1997.                 
------------------------------------------------------------------------
                                                                        
------------------------------------------------------------------------
Federal Highway Administration.................                    $68 M
Army Corps of Engineers........................                    $44 M
Federal Emergency Management Agency (NFIP).....                  $17.0 M
Housing and Urban Development..................                     $8 M
Natural Resource Conservation Service/USDA.....                 $2.125 M
Fish and Wildlife Service......................                  $3.34 M
Economic Development Administration............                   $4.8 M
Geologic Survey................................                  $66,400
Environmental Protection Agency................                 $323,300
Rural Development/USDA.........................          $748,000 (loan)
Federal Crop Insurance Corporation/USDA........                  $61.9 M
                                                ------------------------
    Total, Devils Lake Basin...................                 $210.3 M
------------------------------------------------------------------------

    FLOODPLAIN MANAGEMENT IN THE UNITED STATES: AN ASSESSMENT REPORT
                         volume 2: full report
    Prepared For The Federal Interagency Floodplain Management Task 
Force
                              liquefaction
    Although less common than subsidence, liquefaction is another type 
of ground failure that contributes to flood problems. Liquefaction can 
result in serious flooding of structures built on fill or saturated 
soils, as in portions of San Francisco or Anchorage.
    Liquefaction is triggered by earthquakes and occurs when seismic 
shock waves pass through unconsolidated and saturated soil, allowing 
the soil grains to move freely and pack more closely together. A soil 
structure with water in the pore spaces is transformed to groups of 
grains in a fluid matrix, and the load of the overlying soil and 
buildings is transferred from the soil grains to the pore water. If the 
pressure on the water causes it to drain away, the overlying soils and 
structures will sink or tilt. If the water cannot drain away, the water 
pressure rises. When the water pressure equals the downward pressure of 
the overlying strata and structures, the saturated soil layer will 
become liquid and flow. On steep slopes (greater than 3 percent) where 
the saturated layer is at or near the surface, soil, vegetation and 
debris can flow rapidly downslope with the liquified material. These 
flow failures can result in the movement of material for miles. On 
gentle slopes (0.3 to 3 percent) where the saturated layer is below the 
surface, failures termed lateral spread occur, with huge blocks of soil 
moving 10 to 100 feet or more (Federal Emergency Management Agency, 
1987).
                        fluctuating lake levels
    Water levels in U.S. lakes can fluctuate on a short-term (e.g., 
seasonal) or long-term (e.g., yearly) basis. Periods of heavy rainfall, 
for example, can cause high water levels for short periods of time and 
annual snowmelt can result in higher water levels in the spring. Long-
term lake level fluctuations are a less-recognized phenomenon that can 
cause highwater and subsequent flooding problems lasting for years or 
even decades.
    While all types of lakes may exhibit fluctuating water levels, 
water levels usually do not change dramatically in lakes where outlet 
streams provide a fairly regular balance of inflow and outflow. Some 
lakes, however, are completely landlocked or have outlets that are 
``inadequate'' for maintaining a balance between inflow and outflow. 
These lakes, commonly referred to as ``closed basin lakes,'' are 
particularly susceptible to dramatic fluctuations in water levels--five 
to 15 feet in some instances--over long periods of time. The Great Salt 
Lake in Utah and the Salton Sea in California are examples of 
landlocked lakes, and the Great Lakes are examples of lakes with 
inadequate outlets under extreme high water level conditions.
    Long-term water level fluctuations are particularly pronounced on 
the Great Lakes and other lakes that were formed by glacial action. The 
significance of this problem is underscored by the fact that most of 
the lakes in the United States are glacial lakes. In the States of 
Alaska, Maine, Michigan, Minnesota, New York, North Dakota and 
Wisconsin alone, there are more than 100,000 inland lakes (Federal 
Emergency Management Agency, 1987).
    The ``playa'' or drainage lakes in the West and Southwest have no 
outlets or only limited outlets and are also subject to long-term 
fluctuations in water levels. Sinkhole lakes in Florida and throughout 
the Southeast also exhibit the characteristics of closed basin lakes. 
Flooding can be a problem on the shorelines of oxbow lakes,\1\ which 
are common in the floodplains of the Mississippi River, its tributaries 
and other southern rivers:
---------------------------------------------------------------------------
    \1\ Oxbow lakes are closed-off channel segments left behind when 
the main channel of a meandering river cuts through the land and 
creates a new channel.
---------------------------------------------------------------------------
    Flooding caused by fluctuating lake levels presents a different set 
of problems than riverine flooding. Riverine flooding is typically of 
short duration, lasting for a period of hours or days. While relatively 
short-duration flooding can also occur on lakes, flooding associated 
with closed-basin lakes or lakes with inadequate outlet channels may 
persist for years.
              types and causes of lake level fluctuations
    Lake level fluctuations can be caused by both natural and man-
induced events. Natural factors influencing lake levels include 
precipitation, evaporation, upland runoff, ground water conditions, 
ice, aquatic growth, meteorological disturbances, and long term 
climatic trends. Man-induced factors influencing lake levels include 
dredging activities, diversions, consumptive water use, and regulation 
by structural works.
    The most dramatic short-term changes in water levels are caused by 
strong winds and by sharp differences in barometric pressure. These 
fluctuations usually last less than a day and do not cause any changes 
in the total volume of lake water. The phenomena of surface tilt or 
wind set-up is illustrated on Figure 1-12.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Seasonal lake level fluctuations are associated with the 
hydrologic cycle. In the early spring, snowmelt, heavier rains and 
reduced evaporation over a drainage basin typically cause lake water 
levels to rise from winter lows. This trend continues until peak levels 
are reached in the summer. As the summer progresses, runoff and ground 
water flows reach their lowest values and steadier winds and drier air 
increase evaporation. As a result, water supplied to the lake becomes 
less than the outflow, and the water level begins a downward trend, 
reaching the lowest levels during winter.
    Long-term fluctuations in lake levels result when water supply 
conditions in a drainage basin become persistently low or high. These 
conditions can be caused by such factors as long-term climatic changes. 
The intervals between periods of high and low water and the lengths of 
such periods vary widely and erratically, and extreme lake levels are 
likely to persist even after the factors that caused them have changed. 
Long-term fluctuations in lake levels are particularly significant in 
the Great Lakes Basin.
          water level, fluctuations in the great lakes system
    The five Great Lakes (Superior, Michigan, Huron, Erie and Ontario) 
and their connecting waterways (see Figure 1-13), make up the largest 
fresh water lake system in the world, with a total water surface area 
of 95,000 square miles (Great Lakes Commission, 1986). Despite the 
natural drainage through the lake system, the Great Lakes are 
considered a closed-basin system because of the lakes' limited outflow 
capacities relative to the size of the basin (Federal Emergency 
Management Agency, 1986).
    Fluctuations in Great Lakes water levels have occurred continually 
since the modern Great Lakes were formed some five to six thousand 
years ago and after the last ice age ended some 10,000 years ago 
(Hough, 1968). Yearly fluctuations on the average account for changes 
of about 12 to 18 inches, with lows normally occurring in January or 
February and highs in June through September (Great Lakes Commission, 
1986). Longer-term fluctuations in water levels have been measured at 
over six feet from record lows to record highs. Since modern lake level 
measurements began in 1860, the Great Lakes have experienced distinct 
periods of high and low water levels. High water periods have occurred 
in the late 1920's, mid-1940's, early 1950's, early 1970's and mid-
1980's (Federal Emergency Management Agency, 1987). Table 1-5 shows 
surface elevation data for the Great Lakes in this century (U.S. Army 
Corps of Engineers, 1987).
    The water level in each of the Great Lakes is dependent on the 
hydrologic water balance--the balance between the amount of water 
entering the lake (from precipitation, runoff, snowmelt, inflow from 
connecting channels, diversions of water into the lake basin and 
ground-water inflow) and the amount of water lost (through evaporation, 
ground-water outflow, consumptive uses, diversions out of the lakes and 
flow through surface outlets).
    The large size of the Great Lakes and the limited discharge 
capacities of their outlets cause extremely high or low lake levels to 
persist for a long period of time. Much of the shoreline of the lakes 
is highly erodible, and shore erosion and flooding have caused 
significant damage, especially during high water periods. Shoreline 
property damages have increased with each high water period because of 
the increased development of unprotected shorelines, rising shorefront 
property values and record high water levels.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is extremely difficult to forecast future water levels in the 
Great Lakes Basin. Any attempt to do so requires accurate information 
on the various natural and human-induced factors affecting water 
levels. Future long-term fluctuations will occur, likely generating 
both extreme high and low conditions. It is also likely that serious 
flooding and erosion problems will occur again along the shorelines of 
the Great Lakes in the future.
    Recently, the National Oceanic and Atmospheric Administration 
(NOAA) has conducted research into the impacts of the greenhouse effect 
on Great Lakes levels. NOAA predicted that higher air temperatures from 
the greenhouse effect ``would also lead to such events as a shortened 
snow season in the Great Lakes basin with reduced snow melt runoff; 
increased evaporation of lake waters...'' and other impacts. The result 
is that water levels in the Great Lakes over the next 75 to 100 years 
may drop an average of 2 to 4.5 feet (Anonymous, 1988).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 lake level fluctuations in other areas
    Other lakes that have exhibited dramatic fluctuations in water 
levels include the Great Salt Lake in Utah, Lake Pulaski in Minnesota, 
Lake Elsinore, and the Salton Sea in California, Lake Malhuer in 
Oregon, and Devils Lake in North Dakota. Flooding problems of the Great 
Salt Lake and Lake Pulaski are illustrative of flooding problems on 
these other lakes.
Great Salt Lake, Utah
    The Great Salt Lake can be described as a ``terminal lake'' because 
it receives inflow but has no outlet. Historical accounts of lake 
levels have been well documented since the mid-1800's and fluctuations 
between elevation 4,191.35 and elevation 4,211.85 feet above mean sea 
level (msl) have been recorded. After 1963, when the lake fell to the 
record low, new development and infrastructure facilities were 
established on the exposed lake bed. By 1975, however, the lake level 
had risen to 4,202 feet above msl, and in the fall of 1982 it began to 
rise even further in response to a series of storms (Federal Emergency 
Management Agency, 1987).
    Between September 1982 and June 1983, the lake rose 5.2 feet--the 
greatest seasonal rise ever recorded--increasing the lake's surface 
area by 171,000 acres (267 square miles). In April 1983 a Presidential 
disaster was declared following severe storms, landslides and lake 
flooding. Damage estimates for total losses at the end of 1983 were 
approaching $500 million (Federal Emergency Management Agency, 1986).
    Fed by unprecedented precipitation, the lake continued to rise 
steadily, reaching an all-time recorded high of 4,211.85 feet above sea 
level in June, 1986. It had risen 11 feet in 4 years, and the State of 
Utah was faced with the imminent loss of Interstate 80, railroads, 
wastewater treatment plants, and possibly the Salt Lake International 
Airport if the lake level continued to rise a few more feet (Federal 
Emergency Management Agency, 1986).
    As a result, a number of flood control options were thoroughly 
studied and evaluated, including: diversion of water from the Bear 
River into the Snake River Basin in Idaho; dredging, diking, and 
pumping water from the Bear River; and pumping water into the west 
desert. The West Desert Pumping Project evolved as the quickest action 
that could be taken to provide the greatest flood control benefit at 
the most reasonable cost.
    The pumping project was completed and the three giant pumps (3,300 
ces total capacity) began discharging water into the west desert in 
March 1987. Pumping, combined with two successive dry years, resulted 
in a lowering of the lake to an elevation of about 4,206.5 feet above 
mat by May of 1989. In July of 1989 the project was halted and the 
pumps ``mothballed'' (U.S. Water News, 1989).
Lake Pulaski, Minnesota
    Lake Pulaski, located approximately 45 miles northwest of the 
Minneapolis-St. Paul metropolitan area, is landlocked with no outlet 
stream. Ground-water inflow feeds the lake but direct rainfall and 
runoff are the most significant contributors to elevated water levels 
and resulting flooding problems.
    Following prolonged drought during the 1930's, the lake level 
remained low for an extended period of time and extensive lakeshore 
development took place, including year-round homes and seasonal 
cottages. Since the late 1960's, however, the water level has continued 
to rise steadily, inundating many exposed structures. Today much of the 
existing development surrounding the lake is at risk (Federal Emergency 
Management Agency, 1986).
                        summary and conclusions
    Floodplains may be defined and identified in two basic ways--as 
natural geologic features or from a regulatory perspective. The one 
percent annual chance (``100-year'') flood is the standard most 
commonly used for management and regulatory purposes in the United 
States. In part because of the different ways of defining and 
identifying floodplains, there is no definitive estimate of the total 
area of floodplains in the United States, or even of the area subject 
to a one percent annual chance flood. Existing estimates vary widely 
and cannot be readily compared because of differences in estimation 
techniques and definitions used.
    Flooding concerns are not limited to the traditional riverine and 
coastal flooding situations. Also of concern are more unusual floods 
associated with alluvial fans, unstable channels, ice jams, mudflows 
and other types of ground failure, as well as fluctuating lake levels 
and areas ``protected'' by structural control works in both riverine 
and coastal areas. Flooding in areas outside delineated floodplains 
caused by inadequate surface drainage and high ground water levels is 
also of concern.
                                 ______
                                 
 Closed-Basin Lake Flooding: Case Studies and Mitigation Opportunities
  (Presented at the Association of State Floodplain Managers, Western 
       State High Risk Flood Areas Symposium, March 24-26, 1986)
                                preface
    Flood damages resulting from long-term fluctuations in lake levels 
had not been commonly encountered in Region VIII of the Federal 
Emergency Management Agency prior to the 1983 and 1984 disaster 
declarations in Utah. In addition to Utah, the Region VIII states 
include Colorado, Montana, North and South Dakota, and Wyoming. This 
report was initiated to better understand the problem in order to 
identify possible solutions for the Great Salt Lake. Mr. Randy Hamilton 
was the primary researcher, assisted by other Hazard Mitigation Section 
staff. During the report's preparation, it became clear that the 
problem is more costly, widespread, and complex than originally 
anticipated. Therefore, the report concludes with recommendations for 
continued research into the causes, effects and management of flooding 
on closed-basin lakes.
    Much of the information obtained during the research was gathered 
through telephone conversations and written correspondence with 
representatives of Federal, State, regional, and local entities who 
have been involved with closed-basin lake problems. Other information 
was obtained from existing documents, although little research has been 
done on this hazard.
    More detailed treatment of many of the issues addressed in this 
report is provided in the references included as a part of the report. 
Comments and questions can be addressed to FEMA at the address given on 
the cover page or by calling the Hazard Mitigation Program Section at 
(303) 235-4900.
                           executive summary
    The 1983 and 1984 disaster declarations in Utah introduced FEMA 
Region VIII to closed-basin lake problems. The Great Salt Lake has no 
outlet. This characteristic makes it subject to long-term fluctuations 
in lake levels. Surface elevations have varied over 20 feet since 1873. 
In the flat terrain immediately west of the Wasatch Range, these 
fluctuations alternately expose or inundate hundreds or even thousands 
of acres of lake bed. During low stages since the 1940's, development 
encroached into the bed because it appeared that the lake was ``drying 
up.'' Since 1963, however, the lake has risen as much as 18 feet, 
engulfing homes, businesses, highways and rail lines, parks, game 
refuges, and countless other development. Damages have exceeded $200 
million.
    This situation is characteristic of problems around closed-basin 
lakes across the Nation. The hazard that they represent and the 
mitigation programs needed are fundamentally different from those of 
typical inland flooding situations on streams and on lakes with 
adequate outlets.
    In the summer of 1985, FEMA Region VIII began an investigation of 
the causes, effects, and mitigation approaches to closed-basin lake 
problems. The best known and documented cases were selected for 
analysis. Much was learned, but much remains unknown. Lake flooding is 
widespread--not a problem unique to the West. Without a concerted 
management effort, losses attributable to it will likely exceed $1 
billion by the year 2000. Most importantly, successful mitigation 
programs have been developed and they appear to be transferable. 
Recommendations are made for follow-up through a joint effort of FEMA 
Region VIII with the Association of State Floodplain Managers. The 
recommendations involve (1) continuing research into the most effective 
ways to identify the lake-rise hazard and mitigate its effects, 
especially as the lake is rising, but before serious damages occur; (2) 
determining the relationship between long-term climatic variations and 
lake-rises; (3) selecting additional case studies for analysis; and (4) 
assisting local decisionmakers in addressing lake-rise issues. This 
report is receiving wide distribution to decisionmakers and technicians 
involved with closed-basin lake problems.
                           part i: background
A. Introduction
    In an issue paper prepared for the Federal Emergency Management 
Agency (FEMA) by the Association of State Floodplain Managers (ASFPM), 
it is stated that:
    Lake level fluctuations are a source of concern both for shoreline 
property owners and for local, State and Federal Governments with 
regulatory or financial interests in water and related land use. Lakes 
are usually considered to be amenities--providing recreation, water 
supply and hydropower. Development of the shoreline has frequently 
occurred without recognition of the fact that water levels can and do 
vary over time. It is generally recognized that lake levels can 
fluctuate daily or seasonally with inflow, but what often is not 
recognized is that lake levels also exhibit more extended trends--of 
years or even decades--associated with long-term climatic changes 
(Bloomgren and Kusler, 1984).
    It is these extended trends in lake level fluctuations, and the 
problems which they cause, that comprise the primary focus of this 
research. An additional focus is on the management, utilization, and 
development of hazard prone areas located along the perimeter of these 
lakes and within the limits of fluctuation.
    FEMA Region VIII, located in Denver, became interested in 
researching this problem further after its involvement with the 1983 
and 1984 disasters in Utah where flooding from the rising level of the 
Great Salt Lake has resulted in hundreds of millions of dollars in 
damages. The Region's goal in this research is to identify successful 
mitigation strategies through analysis of case studies for application 
in Utah and other States that are subject to this hazard. This report 
is receiving wide distribution in order to share its findings.
B. Problem Definition
    Most lakes have outlet streams that provide for a fairly regular 
balance of inflow and outflow, thereby regulating the lake surface and 
preventing drastic fluctuations. They have seasonal variations in 
response to the annual hydrologic cycle, i.e., higher levels in the 
spring and summer, followed by lower levels in the fall and winter, as 
well as shorter-term variations, typically during summer in response to 
heavy rainfall. In general, however, the outlet can accommodate inflow 
in the form of direct precipitation on the surface, flow from surface 
streams, and subsurface groundwater sources, as well as overland flow 
or runoff. This provides a fair degree of regularity for surface 
levels.
    The lakes that are the subject of this report either have no 
outlets (completely land-locked lakes such as the Great Salt Lake or 
the Salton Sea) or inadequate ones, such as the Great Lakes. Lakes 
having inadequate or no outlets have only evaporation to regulate their 
surface levels, while others have low capacity outlets or groundwater 
seepage to assist in regulation. Throughout this report, these lakes 
are referred to as closed-basin lakes.
    The lack of an adequate outlet leaves these lakes susceptible to 
drastic fluctuations in lake levels which can occur over a matter of 
days, or more commonly, over a period of years. During dry periods, 
lake levels can retreat scores of feet, yards or even miles over 
periods of 10, 20 or more years, giving the appearance that the lake is 
``drying up.'' This trend invites those unfamiliar with the history of 
the lake to begin developing closer and closer to the retreating 
shoreline--actually within the lake bed itself. When the lake begins to 
reclaim its bed, flood damages occur and water quality is impaired by 
the inundation of sewage and septic systems.
C. Magnitude of the Problem
    Because of aesthetic values and recreational amenities, shoreline 
areas have routinely been developed, especially around lakes near 
population centers and major transportation routes. In Minnesota, for 
example, between 1967 and 1982, lakeshore homes increased 75 percent, 
year round lakeshore use increased 100 percent, and seasonal lakeshore 
use increased 63 percent (ibid., p. 9-3). Unfortunately, in most 
States, this development has occurred largely without recognition of 
the flood hazard.
    The exact number of lakes with shoreline development subject to 
damages resulting from fluctuations in water levels is unknown. Since 
there are over 150,000 sizable lakes in the country, even with only a 
small percentage of them subject to this hazard, the problem is very 
significant. Most of the inland lakes in the United States were formed 
by glacial action; in the States of Maine, New York, Michigan, 
Wisconsin, Minnesota, North Dakota, and Alaska, there are more than 
100,000 inland lakes. Oxbow lakes, depressions left behind when the 
main channel of a meandering river moves to a new position, are common 
in the floodplains of the Mississippi River and many other rivers 
(ibid., p. 9-1). Many of these lakes have been the site of damaging 
floods caused by long-term fluctuations.
    The magnitude of the property damages in the United States due to 
floods resulting from fluctuations in lake levels has exceeded a 
quarter billion dollars in the past 5 years alone. Lakeshore 
industries, rail lines, highways, residential, commercial and 
agricultural property, wildlife refuges, and recreation facilities have 
been damaged or destroyed as a result of rising lake levels encroaching 
upon developed land. Economic data suggest that lake-rise flooding is a 
significant hazard in the United States. Between 1983 and January 1985, 
damages resulting from flooding around Malheur Lake, Oregon, had 
reached $13.5 million. Around the Great Salt Lake, damages have 
exceeded $200 million since 1983.
D. Hazard Identification
    The key to developing an effective hazard mitigation program for 
closed-basin lakes lies in the identification of the hazard area within 
which to initiate programs for regulation, acquisition, relocation, 
structural protection or other forms of mitigation. The process of 
defining this area is more difficult for closed-basin lakes than for 
other water bodies. This is because closed-basin lakes do not exhibit 
the random inflow/outflow regime common to most lakes and streams, 
which allows peak annual discharges to be analyzed with some 
reliability statistically, and then hydraulically (Harnack, 1986).
    Analysis of the case studies found four hazard identification 
approaches being used on closed-basin lakes: (1) stage-frequency 
analysis; (2) topographical analysis; (3) high water mark 
determinations; and (4) water balance-statistical analysis. The 
strengths and weaknesses of these techniques are discussed in Part III 
of this report. Each of these techniques may be used to identify a lake 
level above which the risk of flood damages is considered to be 
acceptable for development. Below this level, development needs to be 
made subject to structural or nonstructural mitigation techniques or 
some combination of each.
    Stage-frequency analyses have been used on a number of occasions 
(see the Lake Elsinore and Salton Sea case studies). The topographical 
approach involves analysis of the land adjacent to the shore to 
identify a natural feature that can be used to define the hazard area. 
Overflow points into adjoining drainages, steep benches or other such 
features are the focus of investigation (see the Great Salt Lake case 
study). Where no topographical features can be used to define an upper 
limit for the hazard area, determination of a high water mark is an 
alternative. Another alternative may be to perform a water balance-
statistical analysis which involves modelling lake inputs and outputs 
to estimate a level for use in mitigation.
E. Hazard Mitigation
    Once a hazard area has been identified on a closed-basin lake, 
there is a wide range of structural and nonstructural techniques 
available for application. Attachment B describes several regulatory 
techniques for new construction, acquisition, and relocation for 
existing structures, as well as structural techniques such as outlet 
modifications (see the Malheur Lake case study) and levees (see the 
Devils Lake case study).
    Structural techniques tend to be expensive for lake problems 
because of their scale. Pumping is another technique that can be used, 
but its effectiveness is also constrained by lake size.
F. Policy and Program Elements for Mitigating Lake Flooding
    Lake rise flooding presents decisionmakers with a fundamentally 
different set of issues than those of typical inland flooding 
situations. Therefore, standard mitigation policies and programs need 
to be tailored to address this unique hazard. In their soon to be 
published analysis of high-risk flood hazard areas, Bloomgren and 
Kusler identify the following policy and program elements for 
structuring a local mitigation program for lake rise situations. Where 
there is potential for lake flooding problems, a policy and program 
with the following elements may be appropriate:
    1. A policy statement or resolution that long-term fluctuations in 
water levels may result in flood damages quite different from those 
caused by riverine flooding.
    2. A ban on roads, water, and sewer extensions to areas subject to 
long-term inundation.
    3. A set of regulations that prohibit building in semi-permanently 
flooded areas. If building is to take place, it should occur only on 
fill with adequate access, water supply, and waste treatment ensured 
during times of high water, and not within wetland areas.
    4. A strategy for relocating or protecting structures in areas 
subject to long-term fluctuations.
    5. A formal agreement that ensures intergovernmental coordination 
and cooperation if the lake extends across the boundaries of more than 
one unit of government. The exact form of the agreement will vary with 
different State laws. Examples of cooperative arrangements include 
joint powers agreements, lake management districts, and watershed 
districts. The management plan for Lake Pulaski, Minnesota, in 
Attachment C, contains a comprehensive policy statement.
G. Case Study Selection and Format
    At the time the case studies were selected, the true extent of 
closed-basin lake problems on a nationwide basis was not fully 
realized. During the preparation of this report, and from comments 
received during the review of early drafts, it became apparent that 
numerous other case study sites are available for analysis and may 
offer additional insights into the causes, effects, and management of 
floods resulting from long-term fluctuations in lake levels (see 
Recommendation 2 in the Summary and Recommendation Section). The Great 
Lakes system, alone, warrants its own detailed analysis, as may be the 
case for the dozens of sinkhole lakes in Florida and throughout the 
southeast United States. Both the Great Lakes and the sinkhole lakes 
exhibit the characteristics of closed-basin lakes.
    For each of the case studies presented in the following pages, 
three issues provided the basis for analysis: (1) what hazard 
identification techniques were used; (2) what hazard mitigation 
techniques were used; and (3) how successful and transferable were 
these techniques?
                         part ii: case studies
A. Lake Pulaski, Minnesota
    Lake Pulaski is located approximately 45 miles northwest of the 
Minneapolis-St. Paul metropolitan area. The lake is situated between 
the City of Buffalo on the south and Buffalo Township on the north. The 
lake is landlocked with no outlet stream. Although groundwater inflow 
feeds the lake, direct rainfall and runoff are the most important 
contributors to the lake flooding problem.
    After the prolonged drought of the 1930's, the water level in the 
lake remained low for several years. During the 1940's, 1950's, and 
1960s, much development took place while water levels remained 
relatively low, and now the shoreline is nearly fully developed with 
year-round homes and seasonal cottages. Since the late 1960's, the 
surface elevation has continued to rise steadily (ibid., pp. 2-3 and 
inclusion 2).
    Some of the development has taken place in areas now defined as 
natural lake bed by the State of Minnesota's high water mark 
determination, termed the Natural Ordinary High Water Level (NOHWL) 
(ibid., p. 3). In Minnesota, the NOHWL is defined as the highest level 
that has persisted for a long enough period of time to leave physical 
evidence, e.g., vegetation (see Attachment A). In December of 1981, the 
NOHWL was established at 968.8 feet above mean sea level (amsl). All 
land adjacent to the lake below this level is now considered lake bed 
and is subject to direct regulation by the State Department of Natural 
Resources (DNR) (Bloomgren and Kusler, 1984). A March 1985 public 
hearing was held in order to discuss public concerns about the accuracy 
of the NOHWL. From that hearing came a recommendation by the Hearing 
Examiner that the NOHWL be lowered to 967.5 feet. This lower level is 
now considered to be the upper limit of the lake bed, below which all 
new development is prohibited. In addition, all new construction 
between 967.5 and 971 feet amsl must be elevated to or above 971 feet 
amsl.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Lake Pulaski case is unique in that major decisions on all 
phases of flood damage reduction and water quality protection are being 
made jointly by Federal, State, and local agencies. This includes 
decisions on regulatory measures, property relocation, and structural 
solutions, as well as future studies. Joint policies and initiatives 
adopted to date include the following:
    1. Existing structures on the lake bed may remain until water 
levels make their continued use or presence a threat to public health 
or safety.
    2. Existing structures may be repaired and maintained, provided 
their dimensions are not changed and their longevity is not increased.
    3. New structures cannot be placed in the lake bed.
    4. New on-site sewage systems are prohibited in the lake bed, but 
temporary holding tanks may be allowed upon receipt of a permit from 
the county.
    5. The city has agreed not to extend any city sewer lines to any 
structures located in the lake bed.
    6. Placing fill in the lake bed will be strictly regulated. DNR 
permits for limited filling will be issued only to raise roads in the 
lake bed in order to provide for evacuation and limited filling may be 
allowed in order to raise portions of lots that are partially out of 
the lake bed.
    7. When water levels recede, those lots that had to be abandoned 
can only be used for open space.
    8. Only temporary sandbags may be used by those who wish to fight 
the rising waters. Fill or retaining walls are prohibited.
    9. Natural rock may be used to prevent erosion of the shoreline at 
the present water level under a general permit authority of the DNR. 
However, rock may not be used as fill and it must follow the natural 
shoreline alignment.
    In mid-1984, approximately 100 structures had been built on land at 
elevations below the NOHWL, and approximately 170 additional structures 
were potentially exposed to damages as the lake continued to rise. The 
NOHWL determination presented an opportunity for Federal, State, and 
local governments to prepare for lake rise flooding before it became 
severe. In anticipation of continued rise, three main funding sources 
were investigated for the relocation of these structures. The first was 
the ``preventative measures'' clause in the standard flood insurance 
policy of the National Flood Insurance Program (NFIP). FEMA informed 
the State that relocation expenses cannot be provided under the 
standard flood insurance policy. (In a recent U.S. District Court Case, 
John E. Tankard, Sr., vs. FEMA, relocation expenses paid in 
anticipation of flooding were supported by the Court. The affect of 
this decision on FEMA policy is yet to be determined.) Second, local 
governments applied for a Small Cities Block Grant from the Department 
of Housing and Urban Development (HUD). The goal was to establish a 
revolving, low-interest loan program as a source of relocation funds. 
The application did not meet HUD's approval criteria. Third, the State 
investigated the use of Section 1362 funds from FEMA. This program 
provides funding for acquisition, but it is designed to apply after a 
property has incurred repetitive flood damages. Therefore, Section 1362 
funds cannot be used in situations where damages are anticipated, but 
have yet to occur, even if damage appears inevitable.
    Many of the 170 exposed structures were eventually inundated by 
rising lake waters. According to State officials, this loss was 
reasonably certain. Had any of the three potential funding sources for 
relocation proved to be more flexible, some or all of these structures 
could have been relocated before they were damaged. The cost of 
relocation has been estimated by the State to be 20-30 percent of the 
eventual outlays for flood insurance, tax refunds, and other costs.
    In the fall of 1983, a Section 205 Small Projects Program 
application was made to the U.S. Army Corps of Engineers (USAGE) and a 
feasibility analysis was completed in 1985. The USACE has recommended a 
pumped pipeline outlet to stabilize the lake level. State staff have 
observed that the structural planning process is lengthy and numerous 
issues that extend beyond the area where lake flooding impacts are 
being experienced need to be resolved, including: (1) impacts on 
downstream property owners from increased flows, and (2) impacts on 
upland riparian landowners who would benefit when increasing lake 
levels give them access to the lake (Harnack, 1986).
    State staff who have been involved in the Lake Pulaski program are 
currently performing an analysis of 20 other lakes in the State using a 
grant from FEMA. The purpose of the analysis is to:
    1. Identify the source and potential magnitude of the water level 
fluctuations.
    2. Define the physical setting and characteristics of each lake.
    3. Inventory the potential environmental, social, and economic 
losses which would result from rising lake levels.
    4. Identify alternatives available to local governments for 
mitigating potential losses.
    The following points summarize the Lake Pulaski case study:
    1. A high water mark determination was used as an interim means to 
identify the lake's flood hazard area. A FEMA flood insurance study was 
used to determine a final floodplain elevation.
    2. Federal, State, and local agencies are working together to 
manage the flood problem.
    3. A wide range of mitigation strategies is being applied covering 
all types of development, water quality protection, and flood damage 
reduction.
    State staff observe that: (1) structural solutions to lake rise 
problems can take a long time to analyze and can have significant and 
wide-ranging impacts, and (2) programs are needed for acquisition and 
relocation that can be implemented before inevitable flood damages 
occur.
    5. The USACE is proposing a lake stabilization outlet, which could 
be completed in the near future.
B. Great Salt Lake, Utah
    In 1963, the Great Salt Lake fell to a historic low level of 
4,191.35 feet amsl. Many people thought that the lake would eventually 
dry up and therefore, roads, railroads, wildlife management areas, 
recreation facilities, and industrial facilities were established on 
the exposed lake bed. By 1976 the lake level had risen to 4,202 feet 
amsl. Concern arose and studies were conducted to determine the 
feasibility of pumping water into the desert to the west of the lake. 
During 1977, the lake again began to decline and concern abated. In 
September 1982, the lake began to rise as a result of a series of 
storms. Record-setting rainfall was accompanied by cool weather and 
cloud cover which impeded evaporation. During the winter of 1982-83, 
snowfall was greatly above average. The weather remained unseasonably 
cool through the spring of 1983, but major snowbelt began with a heat 
wave on Memorial Day weekend. On April 30, 1983, the President declared 
a major disaster following a landslide at Thistle, Utah due to severe 
storms, landslides, and lake flooding. After the Memorial Day weekend 
heat wave, several additional areas of the State were included in the 
declaration.
    Flows from the Jordan, Bear, and Weber rivers peaked on June 1, 2, 
and 3, 1983, and the lake level rose until June 30 when it peaked at 
4,205. Between September 18, 1982 and June 30, 1983, the lake had risen 
5.2 feet, the greatest seasonal rise ever recorded. The increase in the 
lake's surface area was 171,000 acres (267 square miles). The direct 
and indirect capital damages and the costs of work to protect lakeshore 
facilities as the lake rose to 4,204.75 were estimated by the Utah 
Division of State Lands and Forestry at $157 million (Arrow, 1984).
    In the spring of 1984, precipitation and snowpack were above 
average again, and the potential for further flooding had not decreased 
substantially since the summer of 1983. The Great Salt Lake experienced 
its shortest evaporation period and subsequent recession in recorded 
history during 1983. On August 17, 1984, the President declared another 
major disaster due to severe storms, flooding, mudslides, and 
landslides.
    Various solutions for lowering the lake level have been proposed. 
Pumping water from the Great Salt Lake into the desert west of the lake 
was considered in 1976, 1983, and again by the legislature in 1985. 
Construction of such a project would take 15-18 months and cost up to 
$75 million. Annual operating costs would be $4 million. The pumping 
project would maintain the lake elevation below 4,212 feet. During the 
first year of operation, it is estimated that the project would lower 
the lake by 16 inches. Because of questions raised about the economic 
feasibility of this project, other alternatives are being considered.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 1983, a proposal was made to breach the Southern Pacific 
Railroad causeway in order to lower the elevation of the south arm of 
the lake which was three feet higher than the north arm. The proposal 
was rejected in 1983 but later approved when the elevation of the south 
arm reached four feet higher than the north. The causeway breach was 
completed in August of 1984 at a cost of $3.1 million. This action 
lowered the south arm by nine to ten inches. The legislature is also 
considering diking projects to protect critical facilities around the 
lake. Other proposed structural solutions have been determined not to 
be cost effective or are only considered as very long-term mitigation 
measures.
    In 1983 and 1984, FEMA provided disaster assistance for damages 
caused by the rise of the Great Salt Lake. Emergency Federal assistance 
was also provided by the USACE and the Federal Highway Administration 
for diking, dredging, and elevation of highways. In 1985, the lake 
continued its rise and it became apparent that this was due to long-
term climate variability. This continuous period of lake flooding 
losses has allowed sufficient time for the State to develop and 
implement mitigation strategies. As the authorities of these Federal 
agencies are limited to the delivery of emergency or disaster 
assistance only, it was determined that no further funding could be 
provided for this problem. As a result, FEMA and the other Federal 
agencies have encouraged the State and local governments to take 
appropriate mitigation measures as there can be no assurance that they 
will receive future disaster assistance for damages associated with 
lake fluctuations.
    Federal agency compliance with Executive Order 11988, Floodplain 
Management, also contributed to the development of a Federal position 
on both future disaster assistance outlays and non-disaster assistance 
for acquisition and construction purposes in the flood hazard area of 
the Great Salt Lake. This Order, which applies in identified flood 
hazard areas, prohibits Federal financial support of development unless 
there is no practicable alternative. The Great Salt Lake flood hazard 
area was identified as the lake bed below elevation 4,217 feet by 
several independent groups. These included the Federal Interagency 
Hazard Mitigation Team which analyzed mitigation options following the 
1984 Presidential disaster declaration; Utah's Comprehensive Emergency 
Management Division staff which issued the State's 1985 Hazard 
Mitigation Plan; a technical team headed by the Utah Department of 
Natural Resources, and an interdisciplinary group of experts that met 
in a conference in Salt Lake City in March of 1985.
    Largely in response to the Federal position on future disaster 
assistance payments for lake rise losses, the State of Utah developed a 
nonstructural strategy for the development of land subject to lake rise 
flooding. This strategy addresses development between the shoreline and 
elevation 4,217 feet. It has been determined that elevation 4,217 
should be used for planning purposes as the best available estimate of 
a maximum lake level. At this elevation (which includes wind, tides, 
and wave heights), the lake would naturally overflow into the west 
desert. The lake has reached this level at least twice in the last 500 
years and there is the possibility that it may be reached again in the 
foreseeable future. The State refers to the land between the shoreline 
and 4,217 feet as the Beneficial Development Area (BOA). As the lake 
continues to rise, an Intergovernmental Great Salt Lake Beneficial 
Development Council (IBDC), composed of State and local governments, 
will be organized to develop planning objectives. The State has held an 
initial meeting with lake counties and proposes to hold future meetings 
with State agencies and County Commissioners to discuss representation 
on the IBDC, its authorities, and planning objectives for the BOA.
    The following points summarize the Great Salt Lake case study:
    1. The hazard area was defined based on a topographical analysis 
that identified an overflow point.
    2. A mix of structural and nonstructural techniques have been used, 
and are being further analyzed, but the greatest long-term potential 
for achieving mitigation appears to lie in a management approach based 
on the Beneficial Development Area.
    3. Flood losses on the Great Salt Lake significantly exceed those 
from all of the other case studies.
    4. Further Federal disaster assistance outlays for lake rise 
flooding and future non-disaster assistance for acquisition and 
construction purposes on the shores of the Great Salt Lake may not be 
available.
C. Devils Lake, North Dakota
    Devils Lake is located in the northeastern quarter of North Dakota. 
Since the 1940's, when Devils Lake was almost dry, it has risen 
approximately 27 feet. It peaked in 1983 at 1428.3 feet amsl, the 
highest level in about 100 years. Geological investigations have shown 
that the lake has been dry several times since glaciation and may have 
been as high as its natural outlet elevation of 1457 feet on two or 
three occasions. Since 1983, the level has declined slightly, but 
Federal, State, and local interests initiated both short- and long-term 
solutions in the early 1980s as levels increased dramatically.
    The major loss exposure in the area is concentrated at the City of 
Devils Lake. Additional development is scattered along the lakeshore 
areas of several townships in Ramsey County. Before the natural outlet 
is reached, extensive residential and commercial development would be 
inundated, as well as highways, rail lines, and other infrastructure. 
If the lake level were to reach the natural outlet, potential damages 
are estimated to exceed $200 million.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Several short-term structural mitigation projects were considered 
in the early 1980s. A levee system for the City of Devils Lake was 
selected as the most favorable option. The USACE has recently completed 
the project, which provides protection to the city up to 1440 feet. 
This was considered to be the optimal level of protection for a short-
term project. The USACE is now performing preliminary investigations of 
long-term options. Most of these are variations on constructing an 
outlet to the Sheyenne River. Other options include outlets to other 
water bodies, upstream storage, increases in levee height, and 
relocation. The final investigations should be concluded in 1987.
    With the levee in place and lake levels declining, an additional 
element in the overall mitigation program, regulation through 
floodplain zoning, remains to be implemented. Several communities are 
encouraging the habitable portions of new buildings be raised above the 
1440 level, but formal regulations do not appear to be in place at this 
time. Since most existing development is located behind the new levee 
system, approximately 80-9OX of the loss exposure up to the 1440 level 
will be protected when the lake again begins to rise.
    The following points summarize the Devils Lake case study:
    1. The hazard area was defined using the topographical approach 
combined with analysis of sediments, vegetation, and old beach lines.
    2. Major flood damages have yet to occur and mitigation activities 
were initiated in anticipation of losses to existing development.
    3. A short-term solution is in place--a levee system to protect the 
most highly exposed development.
    4. Long-term solutions are currently being investigated with the 
focus on structural solutions involving construction of an outlet.
    5. Despite significant expenditures on structural works, the 
regulatory provisions that were intended to supplement them have yet to 
be implemented.
D. Lake Elsinore, California
    Lake Elsinore is located in southern California between Los Angeles 
and San Diego near Interstate 15. The City of Lake Elsinore lies along 
the north side of the lake. In January and February of 1980, heavy 
rains fell on the San Jacinto River Basin. Between February 13 and 
March 21, 1980, Lake Elsinore rose approximately 20 feet to 1265.72 
feet amsl. Nearly 450 structures were damaged, and all crops in the 
area were a total loss.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``Approximately 450 structures were damaged by flooding, of which 
about 300 were damaged as a result of the rising lake. In addition, 
approximately 100 septic tanks, serving undamaged structures, were 
flooded, and became unusable. Thus, a total of 400 buildings were 
rendered uninhabitable due to the flooding of the lake'' (Doty, 1980).
    Records indicate that Lake Elsinore's surface elevation has reached 
1265 feet seven times during the 200 years prior to 1980. Outflow 
begins when the surface level rises high enough to reach a natural 
spillway. Siltation in this natural spillway had raised the outflow 
level to 1268 feet amsl by February of 1980. During floodlighting 
operations, the USACE restored the outlet channel to an elevation of 
1260 feet amsl (ibid., p. 2). Subsequently, an elevation of 1260 feet 
amsl, plus five feet of freeboard to raise it to 1265 feet amsl, was 
used to define the regulatory flood hazard area.
    At the time of the flooding, both local government jurisdictions 
surrounding the lake, the City of Lake Elsinore and unincorporated 
Riverside County, were in the emergency phase of the National Flood 
Insurance Program (NFIP). Riverside County entered the regular phase on 
April 15, 1980 and Lake Elsinore entered on September 17, 1980. On May 
21, 1980, the Lake Elsinore City Council adopted an ordinance that 
exceeds the requirements of the regular phase of the NFIP by 
prohibiting structural improvement of existing residential buildings if 
located on land below elevation 1265.
    No residential construction is now permitted in the Lake Elsinore 
floodplain below 1265 feet amsl, commercial buildings must be elevated 
or floodproofed, and any buildings which incur structural damage may 
not be rebuilt or replaced. To date, enforcement of the new regulations 
has been excellent (Doty, 1985).
    After the 1980 flooding, 39 structures were acquired with Section 
1362 funds. These buildings, as well as approximately 50 others, were 
then demolished and the land was designated as open space by the City 
of Lake Elsinore.
    Several structural mitigation alternatives have been investigated 
to provide a long-term solution to fluctuations on Lake Elsinore. The 
outcome is that the Bureau of Reclamation has approved a $26 million 
loan under Public Law 84-984 to the Elsinore Valley Municipal Water 
District to construct a lake stabilization project. The project will 
provide water for agricultural uses, flood control, and recreation. It 
will involve constructing a levee, relocating the inflow channel, 
excavating the outflow channel, constructing an outlet pump station and 
diversion structure for agricultural water, rehabilitating or 
constructing wells to replenish lake water, and constructing a pier, 
new bridges and crossings and parks. The project is designed to 
maintain the lake at a minimum elevation of 1235 feet amsl to ensure an 
adequate water supply for agricultural purposes (Doty, 1985). The 
outlet modification described above results in an anticipated maximum 
level of 1260 feet amsl.
    Several insurance companies filed a lawsuit against various 
defendants including the City of Lake Elsinore, the Riverside County 
Park and Recreation District, the County Flood Control District, the 
Temescal Water Company, the Elsinore Valley Municipal Water District, 
and the State. FEMA has joined the lawsuit as a party plaintiff. It is 
alleged that the defendants negligently maintained and inspected Lake 
Elsinore, the inflow and outflow channels, and the adjacent property, 
therefore causing the flooding during 1980. The suit is based on a 1927 
agreement that the city was to maintain the lake to prevent flooding.
    The following points summarize the Lake Elsinore case study:
    1. FEMA identified the flood hazard area based on a USACE study 
(stage/frequency analysis).
    2. The typical NFIP regulations have been modified by the city to 
include a prohibition of any new residential construction within the 
hazard area and the reconstruction or replacement of any damaged 
structure.
    3. FEMA Section 1362 funds were used to acquire damaged properties 
following a disaster declaration.
E. Salton Sea, California
    The Salton Sea is located in southern California about 50 miles 
north of the Mexican border. It has experienced rising lake levels 
resulting from increased precipitation and agricultural runoff. The 
communities of North Shore, Bombay Beach, and Salton City were all 
affected, and as the water continues to rise, buildings have been 
abandoned and/or demolished. The Federal Insurance Administration (FIA) 
has established a base flood elevation, and local agencies have adopted 
regulations prohibiting rebuilding below that level (Doty, 1985).
    Of special interest in this case is a lawsuit, Salton Bay Marina v. 
Imperial Irrigation District which was filed subsequent to the flooding 
of the early 1980s. Imperial County had permitted development to take 
place around the Salton Sea, but it required property owners to absolve 
the county and the Imperial Irrigation District (IID) from liability 
for the sea's rising. (The IID is responsible for controlling the level 
of the sea.) Salton Bay Marina argued that, by forcing landowners to 
take flood easements and then flooding their lands, the IID was 
actually exercising eminent domain over their property without just 
compensation. The IID argued that it had to be absolved from liability 
to succeed economically, and that the landowners freely and willingly 
entered into the easement agreements and understood that they were 
absolving the IID from liability related to flood damages. The Appeals 
Court disagreed with the IID's analysis and over $6 million in damages 
were awarded the plaintiffs.
    The importance of this case is that municipalities and special 
districts may no longer be able to avoid liability from flood damages 
simply by entering into agreements with impacted landowners. Even where 
ordinances and written contracts existed, the courts found them to have 
no legal significance. The courts have again struck a blow to sovereign 
immunity; unless affirmative flood mitigation efforts clearly exist, 
municipalities may not be able to rely on fancy legal language to avoid 
liability for flood damages (The Flood Report, 1985).
    The following points summarize the Salton Sea case study:
    1. FEMA identified the flood hazard area using a stage/frequency 
analysis.
    2. Mitigation involves application of the NFIP's regulatory 
requirements and removal of some abandoned properties.
    F. Malheur (Harney) Lake, Oregon
    Since the area around Malheur Lake in southeastern Oregon was 
settled in the late 1880's, water has never reached the natural outlet 
which lies at approximately 4,111 feet amsl. During this period, the 
lake has reached a maximum level of 4,095 feet amsl. In 1934, on the 
other extreme, the lake bed was completely dry. But over the past 4 
years, unusually high runoff has raised the lake level to 4,102.5 feet 
amsl, resulting in extensive flood damages. At least thirty ranches and 
associated buildings, a section of the Southern Pacific Railroad, 
portions of two State highways, and many county roads have been 
flooded. What was once a system of lakes and marshes with a surface 
area of 80,000 acres is now one lake with a surface area of 
approximately 180,000 acres.
    The area has received disaster declarations from the State, but 
requests for a Presidential declaration have been submitted, rejected, 
appealed, rejected, and dropped. According to Harney County 
Commissioner Judge Dale White, the most severe impact has been on the 
local economy because the railroad, the present link to the timber 
markets, is inundated with no alternate routes available.
    In the USACE Reconnaissance Report of May 1985, several mitigation 
alternatives were listed. The recommended plan involved the 
construction of an 18-mile canal (the Virginia Valley Canal) which 
would carry water from Malheur Lake to a nearby river channel and lower 
the lake level to 4,093 feet amsl.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Other structural alternatives include construction of canals, 
tunnels and diversion systems to lower the lake, and upstream 
reservoirs to regulate inflow. A second approach involves relocation of 
the roads and railroads to land beyond the reach of the lake. A 
nonstructural alternative under consideration is a land exchange that 
would transfer Federal or State-owned land to ranchers. The low-lying 
ranch land would then be made part of a wildlife refuge. Other 
nonstructural options being reviewed are property acquisition and 
flowage easements. The regulatory approach is not applicable because 
its strength lies in protecting new construction, but there is little 
likelihood of future development.
    The following points summarize the Malheur Lake case study:
    1. A topographical analysis identified an overflow point on the 
lake, similar to that found in the Great Salt Lake case study.
    2. New construction is not likely to be an issue, therefore the 
analysis of mitigation options is focused on protecting existing 
development, especially roads and railroads.
    3. Structural options for lowering the lake are receiving the 
greatest attention.
                   part iii: analysis of case studies
A. Introduction
    The focus of the case study analysis is on the techniques used to 
identify and mitigate impacts from flooding on closed-basin lakes. The 
purpose is to determine which techniques or combination of techniques 
work best and are most readily transferable.
B. Hazard Identification
    As discussed in Part I, D, there are four approaches that are 
generally used for identifying the hazard-prone area of closed-basin 
lakes: (1) stage-frequency analysis; (2) topographical Analysis; (3) 
high water mark determinations; and (4) water balance-statistical 
analysis. Where decisionmakers are at the initial stages of addressing 
a closed-basin lake flooding problem, they should analyze the 
feasibility of using each of these four techniques before selecting the 
technique or techniques that are most likely to provide reliable 
results.
    1. Stage/frequency analysis: This technique has been used on 
closed-basin lakes such as Lake Elsinore and the Salton Sea. The 
technique is modified somewhat from that used for lakes with adequate 
outlets and for streams. The analysis is performed using historic lake 
level records. If there is a long historic record, a stage analysis is 
run on the data, annual peaks are fit to a frequency distribution and 
the 1 percent recurrence interval level is selected, displayed on a map 
and may then be used for regulatory, flood insurance and other 
purposes. Where historic records are inadequate, synthetic or 
artificial data is used to simulate inflow, outflow, evaporation, 
precipitation, seepage into groundwater aquifers, and other inputs and 
outputs. Then the lake is modelled to develop the regulatory flood 
level. There are numerous problems with this approach, resulting in a 
high degree of uncertainty in its results. First, selection of a 
starting lake level from which to begin analysis, a ``normal'' water 
level, is speculative because of the nature of long-term lake 
fluctuations, i.e., no one can be sure of what's ``normal.'' Second, 
elevations on lakes with no outlet or inadequate ones are neither 
random nor independent, a prerequisite for a reliable stage/frequency 
analysis. Third, historic records are generally not of adequate detail, 
continuity, frequency or duration. Fourth, where synthetic data and 
modelling are used, results are particularly uncertain because of the 
difficulty of estimating the effects of seepage and evaporation. Stage/
frequency analysis is a complex, costly and uncertain method for 
identifying the hazard-prone area of closed-basin lakes.
    2. Topographical Analysis: This technique involves analysis of the 
lake bed and surrounding land area to determine whether a natural 
feature exists that can be used to define a hazard area for mitigation 
purposes. The overflow point on the Great Salt Lake is a good example. 
Other features that could be used are benches or scarps. This technique 
can be effective without being costly or technically complex. However, 
not all lakes have such a convenient feature.
    High Water Mark Determination: This technique appears to be 
applicable on all lakes. It is more costly and complex than the 
topographical approach, but less so than stage/frequency analysis, and 
it appears to be more reliable and affordable. Attachment A and the 
Lake Pulaski case study describe one form of this technique in detail.
    Water Balance-Statistical: This technique has been used on the 
Great Salt Lake where good records exist for precipitation, surface 
inflow, and evaporation. It appears to be transferable to other lakes 
where adequate data on inputs and outputs exist. It was developed as an 
alternative to standard methods for estimating flood frequencies and 
damages which have the shortcomings listed above in number 1. As 
described by James et al. (1985), the water balance statistical 
approach involves developing a model to generate annual sequences of 
lake inputs and outputs. In James' case, 1000 event sequences were 
developed. The resulting data is used in a lake balance model to 
generate lake levels which can be used to define lake level probability 
distributions or can be applied to a damage simulation model (ibid., p. 
1). The major shortcoming of this approach is its data requirements. 
Few lakes have as much data available as the Great Salt Lake. Where 
limited data exists, additional statistical simulations are needed, 
reducing the reliability of the results.
C. Hazard Mitigation
    As discussed in Part I, E, there are several mitigation techniques 
being used on closed-basin lakes.
    1 Regulations: The most common technique used to protect new 
buildings from lake-rise flood damages is the floodplain management 
regulatory approach based on the NFIP. Its key provisions are elevation 
and floodproofing. Previous investigations into closed basin lake 
problems have contended that these elevation and floodproofing 
provisions are ineffective against this type of flooding. The rationale 
stated is that even if a property is elevated above the reach of flood 
waters, if it is surrounded by water for weeks, months or even years, 
occupancy is infeasible. Similarly, floodproofing the structure or its 
water and sewer lines is rendered ineffective by extended inundation. 
However, this is only true in cases where the regulatory elevation used 
when the structures were built was too low. If the level is accurately 
set, based on an overflow point or other topographical feature, or on a 
high water mark determination, such inundation will not be likely to 
occur. Therefore, the problem does not lie with the effectiveness of 
the mitigation technique, but rather with the accuracy of the hazard 
area identification.
    2. Acquisition and Relocation: The regulatory approach of the NFIP 
is not useful for mitigating losses to existing structures. The most 
effective nonstructural technique for existing structures is 
acquisition followed by razing or relocation of the structure and 
conversion of the land to open space use.
    3. Setbacks: One of the most effective mitigation techniques for 
new development is to restrict construction to some point well back 
from anticipated levels of lake rise. Setbacks are especially effective 
for achieving this result, and can be used not only for structures, but 
for all forms of development.
    4. Flood Insurance: Flood insurance claims under the NFIP have been 
paid for flood damages on closed-basin lakes in every case where the 
surrounding community participates in the program. The slow rate of 
rise, repeated incidents of rise, and other factors have made claims 
adjustment very time consuming and complex, leading to a number of 
changes in insurance procedures and policies. The most recent FEMA 
policy on closed-basin lake claims is included as Attachment D. Its 
full implications have yet to be determined, but it simplifies the 
flood insurance claim process and appears to hold additional potential 
for long-term mitigation (see Recommendation l(c), in Part IV of this 
report).
    5. Structural Works: Levees and flood walls have been used or are 
contemplated in a number of the case study communities. Outlet 
modifications are being performed on Malheur Lake. Pumping has been 
considered in others. Levees, flood walls, and pumping are expensive 
forms of protection on all but the smallest lakes because of the scale 
of the problem. There's too much storefront to levee or too much water 
to pump effectively on the larger lakes. Outlet modifications can only 
be considered on those few closed-basin lakes that have outlets.
D. Effectiveness and Transferability
    Lake flooding situations require case-by-case analysis. Their 
commonalities are fewer than their differences, making it difficult to 
generalize about either effectiveness or transferability. Cases exist 
where the hazard was identified using stage-frequency analysis and 
where structural mitigation programs appear to be the only recourse. 
However, the case study communities, as well as others encountered 
during this research, would likely benefit most by using the 
topographical or high water mark approaches to identification, and 
giving greater consideration to primarily nonstructural mitigation 
programs. The Lake Pulaski case study seems to provide at least a 
framework for comparison if not a model for existing and evolving lake 
rise situations.
                  part iv: summary and recommendations
A. Summary
    Flooding on the shores of closed-basin lakes poses a significant 
and growing burden to the taxpayer. Without a timely and concentrated 
effort, this burden will continue to grow. To summarize the findings of 
this report:
    1. Closed-basin lake flooding is not a minor, isolated problem.
    2. It occurs in at least three-quarters of the States--from Florida 
to Washington and from California to Maine.
    3. It affects hundreds of communities.
    4. It impacts the shoreline--one of the most desirable areas for 
development and occupancy.
    5. It has resulted in:
    Almost $200 million in damages in Utah alone.
    Over $1 million in damages in five other States
    6. Total national losses have exceeded $250 million in the last 5 
years.
    7. Losses could exceed $1 billion by the year 2000 if left 
unchecked.
    8. The key to effective mitigation is the identification of the 
area subject to flood damages from lake fluctuations, but this is a 
more difficult task than on most lakes and streams.
    9. Relocation appears to be the most effective mitigation technique 
for existing structures, but programs need to be developed to fund 
relocation before structures are inundated.
    10. A wide range of both structural and nonstructural mitigation 
techniques have been used successfully to protect new development.
B. Recommendations
    One of the most comprehensive attempts to improve understanding and 
recognition of problems associated with closed-basin lakes was 
performed under the auspices of the ASFPM by Bloomgren and Kusler 
(1984). The ASFPM is uniquely positioned to continue pursuit of 
solutions to this problem. It has a nationwide constituency, an 
established interest in the issue, and it has the respect of 
professionals in hazard-related fields. Therefore, FEMA Region VIII has 
been discussing joint implementation of a continuing effort with the 
ASFPM. As a framework for this effort, FEMA Region VIII recommends that 
the ASFPM should:
    1. Analyze this report in light of its own knowledge of the hazard 
and develop specific recommendations on the following issues:
    (a) Mapping and Engineering. It is difficult to identify the flood-
prone area of a closed-basin lake since flooding on these lakes is 
quite different from conventional flooding situations. What are the 
most appropriate techniques for identifying the lake rise flood-prone 
area? Who should be involved in determining which are most effective? 
Who should be involved in applying selected techniques in communities 
determined to be susceptible to this hazard?
    (b) Mitigation Flood Damages and Water Quality. In addition to 
impacts on life and property, closed-basin lake flooding causes sewage 
facility failures as the water table rises. What mitigation techniques 
appear to be most effective in minimizing flood damages and water 
quality degradation? Which work best before flooding begins, which 
during, and which after? Who should be involved in applying selected 
techniques in communities that are susceptible to this hazard?
    (c) Flood Insurance. In January of 1986, FIA issued a policy to 
simplify payment of flood insurance claims for flood damages on closed-
basin lakes (see Attachment D). What opportunities does this policy 
provide for improving mitigation for structures that currently exist 
within the reach of rising lake levels? Can this policy lead to 
relocation of exposed structures? What additional policies or 
procedures would be necessary to maximize the potential of this policy 
to limit the Federal investment in flood hazard areas?
    2. Initiate one or more case studies of emerging closed-basin lake 
problems. Site selection for the case studies should allow for 
investigation of all key issues and involvement of all key actors. 
Sites of emerging problems should take precedence over ongoing ones in 
order to be able to study the full duration of the hazard 
identification, mitigation, and evaluation stages. The purpose of these 
studies is to test the practicability of hazard identification and 
mitigation techniques from Recommendation 1, above, the transferability 
of successful techniques, and to ensure a continued effort to better 
understand and manage this costly hazard. The case studies should be 
performed by an interdisciplinary and intergovernmental team under 
joint FEMA/ASFPM leadership. The duration should be adequate to allow 
for the development, implementation, and evaluation of progress.
    3. Encourage and assist local governments faced with closed-basin 
lake flooding problems in identifying, planning for, and managing the 
hazard. With ASFPM support, States should encourage and assist local 
decisionmakers in addressing closed-basin lake flooding issues in a 
comprehensive hazards management format that includes:
    (a) Hazard identification using the techniques developed under 
Recommendation 1(a), above.
    (b) Determination of the lives and property at risk within the 
identified flood-prone area.
    (c) Identification of the mechanisms currently in place for 
reducing long-term vulnerability to the hazard.
    (d) Mitigation using the techniques developed under Recommendation 
1(b) above.
    (e) Identification of the local, county, State, and Federal 
programs available to support implementation of steps (a) (d) above.
    (f) Preparation and implementation of a plan of action for enacting 
the resulting program to address closed-basin lake flooding.
    4. Determine the effects of long-term climatic trends on the 
accuracy of flood-prone area studies performed for closed-basin lakes. 
This subject, which was beyond the scope of the Region's study, was 
identified as a priority by Bloomgren and Kusler (1984). Their report 
noted that flood-prone area determinations ``based upon a period of 
less than normal precipitation will only lead to a false sense of 
security and result in flood damages when climatic conditions return to 
normal.'' Who should be involved in analyzing this issue? How should it 
be coordinated with the hazard identification tasks under 
Recommendation 1(a)?
                               references
    Anderson, Witt. 1985. U.S. Army Corps of Engineers, Walla Walla 
District. Personal communication.
    Arnow, Ted. 1984. Water-Level and Water Quality Changes in Great 
Salt Lake Utah, 1847-1983. United States Geological Survey Circular 
913. Alexandria, Virginia.
    Bartz, Richard. 1985. State of Ohio Coastal Zone Management Office. 
Personal communication.
    Bloomgren, Patricia, and Kusler, Jon A. 1984. Improving the 
Effectiveness of Floodplain Management in High Risk Areas. An issue 
paper prepared for the Federal Emergency Management Agency. The 
Association of State Floodplain Managers. Madison, Wisconsin.
    ----. 1984a. Improving the Effectiveness of Floodplain Management 
in High Risk Areas. From the proceedings of the Eighth Annual 
Conference of the Association of State Floodplain Managers, Portland, 
Maine, June 11-14, 1984. Natural Hazards Research and Applications 
Information Center Special Publication 11. Boulder, Colorado.
    Bloomgren, Kusler and Vollbrecht, Mary Ellen. 1986. (Not yet 
published). Reducing Losses in High Risk Flood Hazard Areas: A 
Guidebook for Local Officials. By The Association of State Floodplain 
Managers for the Federal Emergency Management Agency.
    Borek, Paul; Staats, David; and Wuestenfeld, Karen. 1981. ``What 
You May Need to Know About Owning Shoreline Property.'' The Great Lakes 
Communicator, Volume 11, Number 5: pp. 3-5. Ann Arbor, Michigan.
    Doty, Viki. 1980. Federal Hazard Mitigation Coordinator's Report on 
Lake Elsinore. Federal Emergency Management Agency, Region IX.
    ----. 1985. Federal Emergency Management Agency Region IX. Personal 
communication.
    Federal Emergency Management Agency, Region VIII. 1984. Interagency 
Hazard Mitigation Report, FEMA-720-DR-Utah.
    ----. 1984a Post-Flood Recovery Progress Report, FEMA-720-DR-Utah.
    ----. 1985. Post-Flood Recovery Progress Report, FEMA-720-DR-Utah.
    Federal Emergency Management Agency, Region IX, 1980. Environmental 
Assessment, 1362 Relocation Project, Lake Elsinore, California.
    Finke, Peter. 1985. State of Ohio Department of Natural Resources, 
Division of Water. Personal communication.
    The Flood Report. 1985. Litigation Alert: Court Throws Out Flood 
Easements Volume II, No. 8. Alexandria, Virginia.
    Forsberg, Al. 1985. U.S. Army Corps of Engineers, St. Paul 
District, Minnesota. Personal communication.
    Freitag, Robert. 1985. Federal Emergency Management Agency, Region 
X. Personal communication.
    Hardy, Lynn. 1985. State of Oregon Office of Emergency Services. 
Personal communication.
    Harnack, Ronald. 1986. Minnesota Department of Natural Resources. 
Personal communication.
    James, L. Douglas, et al. 1985. Estimating Water Surface Elevation 
Probabilities for the Great Salt Lake.
    Kay, P.A. and H.F. Diaz. 1985. Problems of and Prospects for 
Predicting Great Salt Lake Levels. Logan, Utah: University of Utah.
    Kusler, Jon A. 1982. Innovation in Local Floodplain Management: A 
Summary of Community Experience. Natural Hazards Research and 
Applications Information Center Special Publication 4. Boulder, 
Colorado.
    Larson, Larry A. 1985. State of Wisconsin Department of Natural 
Resources and the Association of State Floodplain Managers. Personal 
communication.
    Lutgen, Tom. 1985. State of Minnesota Department of Natural 
Resources, Division of Waters. Personal communication.
    Morton, David. 1985. Natural Hazards Research and Applications 
Information Center, Boulder, Colorado. Personal communication.
    Powers, William. 1985. Federal Emergency Management Agency, Region 
V. Personal communication.
    Smelcer, Dale. 1985. U.S. Army Corps of Engineers, Walla Walla 
District. Personal communication.
    Snyder, Ed. 1985. Federal Emergency Management Agency, Region IX. 
Personal communication.
    Spychalla, William. 1986. U.S. Army Corps of Engineers, St. Paul 
District. Personal Communication.
    Sutphen, Sandra. 1983. Lake Elsinore Disaster: The Slings and 
Arrows of Outrageous Fortune, in Disasters, July 3, 1983, California 
State University, Fullerton.
    Trakimas, William L. 1984. Federal Insurance Administration 
Initiatives To Resolve Inconsistencies in Floodplain Management 
Regulations. From the proceedings of the Eighth Annual Conference of 
the Association of State Floodplain Managers, Portland, Maine, June 11-
14, 1984. Natural Hazards Research and Applications Information Center 
Special Publication 11. Boulder, Colorado.
    U.S. Army Corps of Engineers, St. Paul District, Minnesota. 1983. 
Section 205 Detailed Project Report, Flood Control Project at Devil's 
Lake, North Dakota.
    ----. 1984. Section 205 Flood Control Initial Appraisal Report, 
Lake Pulaski, City of Buffalo and Wright County, Minnesota.
    U.S. Army Corps of Engineers, Walla Walla District. 1985. 
Reconnaissance Report, Malheur Lake, Oregon; Upper Snake River and 
Tributaries.
    U.S. Government Code of Federal Regulations: Title 44, Part 59. 
1976. General Provisions, National Flood Insurance Program.
    Utah Department of Natural Resources and Energy. 1983. 
Recommendations for a Great Salt Lake Contingency Plan for Influencing 
High and Low Levels of Great Salt Lake, Salt Lake City, Utah: Division 
of State Lands and Forestry.
    Vaughan, R.D., 1984. Utah Coping with Flooding: A Perspective on an 
Arid State. Amherst, Massachusetts: University of Massachusetts Land 
and Water Policy Center.
    White, Judge Dale. 1985. County Commissioner, Harney County, 
Oregon. Personal communication.
                                 ______
                                 
                              ATTACHMENT A
             mapping the floodplain of a lake: one approach
    Resource management and riparian rights pertaining to an inland 
lake are dependent upon identification and establishment of that lake's 
Natural Ordinary High Water (NOHW) elevation. The NOHW is coordinated 
with the upper limit of the lake basin and defines the elevation 
(contour) on the lakeshore which delineates the boundary of public 
waters. Identification of the NOHW comes from an examination of the bed 
and banks of a lake to ascertain the highest water level where the 
presence and action of water has been maintained for a sufficient 
length of time to leave recoverable evidence. The primary evidence used 
to identify the NOHW of a lake consists of biological (vegetation) and 
physical features found on the banks of the lake. Data depicting 
historic lake levels are often useful only as supporting data in NOHW 
studies. This is because the available data generally are not of 
sufficient detail, continuity, frequency and/or length of record to 
alone identify the NOHW.
    Because trees are the most predominant and permanent expression of 
upland vegetation, they are used as NOHW indicators wherever suitable 
species and sites can be located. Particular attention must be given to 
the species of upland growth selected for consideration. In general, 
willow and most ash are very water tolerant; maples and elms tolerant; 
most birch intermediately tolerant and oak intolerant. The less 
tolerant trees make the best indicators, but factors in addition to 
species also have to be considered such as age, the slope of ground, 
the effect of water and ice action on the shoreline and the physical 
condition and growing characteristics of the trees. Water dependent 
vegetation, such as cattails, will follow lake levels as they rise and 
fall and therefore provide little evidence about the lake's NOHW, 
except in cases where more permanent vegetation does not exist. Trees, 
like people, will follow receding water levels and infringe upon the 
lake basin. When water levels rise to reclaim the basin, such trees are 
inundated and eventually die.
    The tree analysis involves a relationship between the elevation of 
the ground at the base of the tree and the diameter of the tree. 
Depending upon the species of tree selected and the slope of the 
ground, it can be generally stated that a tree requires a depth of 
unsaturated soil about equal to its trunk diameter to grow. Most trees 
will not survive if water levels saturate their root systems for a 
sufficient period of time and if they do survive, stress signs may be 
evident in the growing characteristics of the tree. The diameter, 
height, shape of the stem, branch shape, branch spread and foliage 
density reflect the extent to which the tree roots have had an 
opportunity to penetrate into and spread through the soil to reach the 
elements that stimulate growth. A tree growing near the basin's fringe 
will often indicate by its general appearance whether its root system 
has had breathing space and sufficient nourishment and support from the 
soil in which it grows. As an example, a seedling started in soil six 
inches above a zone subject to saturation will grow normally until it 
reaches a diameter of approximately six inches, after which it will 
show by its general appearance the adverse growing characteristics 
mentioned above.
    Physical features searched for include soil characteristics, beach 
lines, beach ridges, scarp or escarpment (more prominent scarp can 
often be found in the form of the undercutting of banks and slopes), 
ice ridges, natural levees, berms, erosion, deposition, debris, washed 
exposed shoreline boulders, movement of deposits as a result of wave 
action, top and toe of bank elevations, as well as water levels. 
Caution is taken to be aware that many of the listed geomorphological 
features may take a long time to develop and also that several sets of 
these features may be found. That is, a lake likely will have more than 
one stage where the action of water has left recoverable evidence, 
however, only the stage coordinated with the upper limit of a basin is 
used to assist in identifying the NOHW level. As an extreme example, 
water level stages resulting from the drought years of the 1930's 
certainly were the result of natural conditions extending over a number 
of years, but the resulting recoverable evidence is not useful in 
performing NOHW determinations.
    Credits: Excerpts from NATURAL ORDINARY HIGHWATER MARK 
DETERMINATION. Report for Pulaski Lake, Minnesota, Minnesota Department 
of Natural Resources, Division of Waters, March 1983.
                                 ______
                                 
                              ATTACHMENT B
              mitigation approaches for closed-basin lakes
Regulations
    Floodplain zoning, shoreline zoning, subdivision control, building 
codes, and other special codes can be used to establish:
    Protection elevation. In determining protection elevations, allow 
substantial freeboard where there is the potential for wave action or 
ice damage. The amount of freeboard should be based on the fetch (open 
water area), anticipated wave heights, and thickness of the ice (if 
this is a factor).
    Buffers and setbacks. Wisconsin, Minnesota, Washington, and Maine 
require minimum setbacks of 75 feet for new structures on all lakes.
    No Fill. Requirements that structures be located on existing grade, 
not on fill, at an elevation above the natural high water level.
    Prohibit basements. Prohibiting basements, themselves, is more 
effective than prohibiting use of the basement as living areas.
    Sanitary codes. Sanitary codes can be used to prohibit septic 
systems in expected flood and high ground water areas where such 
systems will not function.
    Well construction codes. Well construction codes can cite 
conditions for abandonment of existing wells to protect groundwater and 
requirements for siting new wells.
    Flood loss reduction standards are often appropriately included not 
only in flood hazard reduction ordinances, but also in shoreline 
zoning, wetland protection, and broader land use controls.
                         non-regulatory actions
Acquisition and Relocation
    Relocating structures may be the only practical solution when long-
term flooding renders them useless or threatens to do so. Relocation is 
taking place on many closed-basin lakes.
Outlet Construction
    Efforts have been made on both Lakes Elsinore and Pulaski to 
construct outlets in order to reduce water levels. The problem with 
this approach is that it may be difficult to find a place to put the 
excess water.
Levees
    Levees have been constructed to reduce flooding at selected sites 
on the Great Salt Lake, e.g., at sewage treatment facilities, and on 
Devils Lake, North Dakota. However, levees are usually a temporary 
solution to flood problems, and are costly because of the scale of the 
required projects.
    Credits: Modified version of text excerpted from a report soon to 
be published by Bloomgren and Kusler for the Association of State 
Floodplain Managers.
                      LAKE PULASKI MANAGEMENT PLAN
    Credits: Excerpt from Reducing Losses in High Risk Flood Hazard 
Areas: A Guidebook for Local Officials by the Association of State 
Floodplain Managers (yet to be published).
                                 ______
                                 
                              ATTACHMENT C
    Appendix 8-A: A Management Plan for the Developed Lake Bed Area of 
Lake Pulaski, Wright County, Minnesota.
Introduction
    Lake Pulaski is located near the center of Buffalo Township (T120N, 
R25W) in Wright County Minnesota. Thc south half of the lake is located 
within the corporate limits of the City of Buffalo.
    A December 1981 report by the Division of Waters of the Department 
of Natural Resources (DNR) estimated the Natural Ordinary High Water 
level (NOHW) of Lake Pulaski to be at an elevation 968.8 or roughly 
seven feet above present levels.
    On June 11, 1982, in accordance with State law and after public 
hearings, the Commissioner of Natural Resources signed an order 
officially establishing the 968.8 elevation as the NOHW of Lake 
Pulaski. All land located adjacent to Lake Pulaski that is below this 
elevation is now considered lake bed. Upon signing this order, it is 
estimated that roughly 100 structures are considered located on the bed 
of Lake Pulaski and at least 170 structures will receive some water-
related damage. At the 968.8 elevation, roughly 60 acres of land that 
is above the present lake level would be inundated by water.
    This fact presents a very unusual but not unprecedented problem in 
Minnesota's history of shoreline management. Several lakes in eastern 
Minnesota have similar problems, such as Big Marine Lake in Washington 
County. However, this is the first time that the DNR has established 
the NOHW level to be above this many residences before the lake 
reclaimed itself. Experience from these eastern lakes has shown that 
the combination of lakeshore owners trying to save their homes, 
together with conflicting and uncertain authorities of State and local 
governments can lead to many problems. The Lake Pulaski problem is 
unprecedented in the respect that this is the first time State and 
local governments have had the chance to prepare for the problem in 
advance of its becoming severe.
    The City of Buffalo and Buffalo Township contracted with Zack 
Johnson and Associates to study the Lake Pulaski problem and to work 
with a local task force in making recommendations to State and local 
governments as to how to deal with it. The study entitled ``Lake 
Pulaski Area Development Study'' was released in July of 1982 and it 
explored many possible solutions to the low development problems 
including artificial control of the lake level, filling and raising of 
all the structures, acquisition of the lake bed area, relocation of 
homes, and adoption of development controls.
    The task force which worked with Zack Johnson and Associates came 
up with several recommendations on how to deal with the Lake Pulaski 
problem. Most of these recommendations involved non-structural means of 
addressing the problem. That is, they concluded that artificial 
manipulation of the lake level and massive relocation programs mere not 
financially feasible. Instead, they recommended use of development 
controls (zoning), public information, and further study as the most 
cost-effective way of addressing the problem. The Department of Natural 
Resources supports the task force's recommendations and hopes to see 
all of them carried Out.
    The purpose of this plan is to address the environmental, social, 
and regulatory issues involved in future management of the lake bed 
area of Lake Pulaski and to lay out the framework and policies which 
State and local governments will follow in administering the area. The 
purpose is also to make this information available to local residents, 
developers, real estate agents and particularly lake bed owners so that 
they fully understand the legal limitations that govern the existing 
and future use of the lake bed area.
    This plan is prepared under.authority granted the Department of 
Natural Re: sources in Minnesota Statutes, Section 104.03 (Flood Plain 
Management), 105.39 (Authority of Commissioner--DNR), 105.403 (Water 
and related land resources plans), 105.42 (Public water permits) and 
105.48 (Shoreland management).
Geology and Hydrology
    The geology and other physical characteristics of Lake Pulaski are 
addressed in both the ``Lake Pulaski Area Development Study'' and the 
Department's ``Natural Ordinary High Water Determination for Pulaski 
Lake''. The size of Lake Pulaski has been measured at 837 acres in 
1858, 770 acres in 1953, and 786 acres in 1979. The watershed, that is 
all land that slopes towards Lake Pulaski, has been estimated to be 
roughly 3500 acres in size. This results in a 3:1 watershed to lake 
area ratio, which is generally considered insufficient to maintain 
water levels in Pulaski. Therefore, it is assumed that the levels of 
Pulaski are in large part affected by ground water levels and ground 
water inflow (commonly referred to as being ``spring fed''.).
    Since ground water inflow is extremely difficult to measure and 
since the extent of and recharge capabilities of the aquifers affecting 
Lake Pulaski are largely unknown, any calculations regarding projected 
levels and timing of those levels is impossible at this time. The only 
thing that is known for certain is that levels in Lake Pulaski reached 
and stayed at elevation 968.8 feet for extended periods at least once 
and possibly twice within the past 125 years. It should be noted that 
there was also evidence that the lake had exceeded 968.8 feet by 2 or 3 
feet sometime in the past.
    Reading of the two previously mentioned reports is recommended for 
those interested in more detailed information on the physical 
characteristics and history of Lake Pulaski.
Existing Regulatory Authorities
    Presently, five governmental units have some interest or 
authorities relating to Lake Pulaski. They are the Federal Government 
State Government, Wright County, the City of Buffalo, and Buffalo 
Township. A summary of the general interests and authorities of each 
unit follows:
    Federal Government: Direct authority over placement of fill in the 
lake or adjoining wetlands by the U.S. Army Corps of Engineers. No 
direct land use authority. Some Federal interest in Pulaski problems is 
through financial assistance type agencies such as HUD, VA, SBA, FHA, 
etc. Some technical assistance available through SCS. Primarily Federal 
interest is through the Federal Emergency Management Agency (FEMA) 
which administers the disaster assistance programs and the Flood 
Insurance Program.
    State Government: DNR--Direct authority over all activities 
occurring below the ordinary high water level. Indirect authority over 
all property located within 1000 feet of the lake, through the 
Shoreland Management Program and indirect authority over all land 
located below any estimated 100-year flood level, through the State 
Floodplain Management Program. Permits are required of all individuals, 
companies, agencies. or government units doing any work that changes 
the cross-section of the bed of Lake Pulaski. Local governments are 
required to adopt and enforce ordinances relating to Shoreland and 
Floodplain areas that meet the minimum standards developed by the DNR.
    Pollution Control Agency (PCA): Direct authority over water quality 
aspects of Lake Pulaski relating to community sewage discharge, feed 
lot location and construction of landfills. Indirect authority relating 
to individual sewage treatment systems and general ground and surface 
water quality.
    Department of Health (DOH): Direct authority over well construction 
and location, and commercial food or recreation related establishments. 
Well drillers have to be licensed and must follow DOH well code which 
specifies various elevation requirements and setbacks.
    Local Government: Wright County: Has extensive direct land use 
authority which is administered through the Wright County Planning and 
Zoning Ordinance. This ordinance contains provisions which meet or 
exceed all DNR required shoreland and floodplain provisions. This 
authority applies to the north one-half of the lake only. The County 
also has taxing authority over the area and property values of the area 
may affect county revenues.
    City of Buffalo: Has extensive direct land use authority over the 
south one-half of the lake, which is administered through the City's 
zoning ordinance. This ordinance does not meet all of the DNR required 
shoreland and floodplain provisions, but the City recently enacted a 
moratorium on any development below the ordinary high water level. The 
City also has indirect control over land uses on Lake Pulaski through 
its municipal sewage collector system.
    Buffalo Township: Has the authority to adopt extensive land use 
controls provided they meet or exceed the county standards. These 
controls would apply to the north half of the lake only. However, the 
township presently addresses its land use concerns through the County 
planning process.
    The primary tool by which governmental units control uses of land 
is through a permit or approval system. What follows is a listing of 
common development activities that do or could occur in and around Lake 
Pulaski, and a summary of the various types of permits and/or approvals 
that are required for each activity.
    1. Erecting, moving or wrecking any building or structure. A 
building permit is required by either the City of Buffalo or Wright 
County any time this activity occurs within their corporate boundaries. 
In the County, the permit may actually be issued by a Township Building 
Inspector, but a permit is not required for a building of less than 150 
square feet of area. On the lake bed area, a permit would also be 
required by the DNR and possibly by the U.S. Army Corps of Engineers 
Generally, DNR regulations would prohibit building or moving new 
structures onto the lake bed; the city or county would normally issue 
building permits provided the building code and all other ordinance 
provisions are met. On the lake bed both the City and County prohibit 
the construction or location of new structures.
    2. Remodeling, enlargement, repair or modification of existing 
structures. A building permit is required for any of these activities 
either in the City or County controlled areas. On the lake bed area, 
DNR permits would also be required, except for minor repairs such as 
reshingling and painting under the county ordinance, lake bed 
structures are classified as a nonconforming-use which cannot be 
extended or expanded. However, the county ordinance does allow normal 
maintenance of structures. The City does not differentiate between lake 
bed or non-lake bed areas.
    3. Filling, excavation. landscaping, terracing, grading, and 
construction of retaining walls. On the lake bed areas these activities 
all require a permit from the DNR. Whether or not such permits are 
issued depends on the environmental effects and the purpose of the 
activity. Permits from the U.S. Army Corps of Engineers are generally 
needed when material is placed in the lake bed, but not for excavation. 
In the county controlled lake bed area, placement of fill requires a 
conditional use permit, which can be issued if the applicant can show 
that the fill has some beneficial purpose and the amount is as small as 
possible. Outside of the lake bed area, but within the county 
controlled shoreland area, a land alteration permit is required any 
time more than 50 cubic yards of earth is to be moved. Within city 
controlled lake bed and shoreland areas, a specific permit is not 
required for any of these activities but they may be controlled by the 
City when done in conjunction with another controlled activity.
    4. Subdivision of land. In the County controlled area any division 
of property or moving of lot lines requires approval of the County. 
Simple lot line adjustments arc handled through the Board of 
Adjustment. Division of tracts of land for development requires that 
platting procedures be followed and requires County Board of 
Commissioner's approval. Within the City, any time property is divided 
into parcels smaller than 2 and one-half acres in size or 150 feet in 
width, platting provisions must be followed and City Council approval 
is required.
    5. Installation, repair, replacement, removal or use of individual 
on-site sewage treatment systems. Within the County-controlled area, a 
permit is required prior to installation, alteration or repair of any 
individual on-site sewage disposal system. On the lake bed area, a DNR 
permit may also be required as such installation or repair would 
involve a temporary or permanent change of the cross-section of the bed 
of the lake. Within the City, on-site systems are prohibited and hook 
up to public sewer is required.
Recommended Policies and Regulatory Changes
    From reading the preceding section, one can see that the authority 
of the Federal, State, and local government units often overlap as 
regards control of the lake bed area. In examining the various policies 
relating to each of the involved permit requirements, it becomes 
obvious that none of the affected regulations or ordinances were really 
designed to deal with this unique situation. Therefore. it is felt that 
some general policies must first be agreed upon by the State and local 
governments, before the regulatory conflicts can be sorted out. These 
recommended policies and the action needed to implement the policies 
follow:
    1. Policy--Existing structures located on the lake bed may remain 
in their present location and continue their present local of use until 
water levels make their habitation unsafe.
    Action. The State, Counts and City shall implement a monitoring 
program in order to notify owners when continued habitation of their 
homes could be hazardous.
    2. Policy--Existing structures on the bed may be repaired or 
maintained provided the degree of permanence of the structure and the 
outside dimensions of the structure arc not increased. Permits far such 
repair or modification shall be required by the County and City in 
conformance with existing ordinances or codes.
    Action. The DNR shall issue general permits to both the County and 
City so that lake bed owners only have to deal with one agency. These 
general permits would only apply if the above policy was met.
    3. Policy--Existing structures on the lake bed shall comply with 
on-site sewage treatment standards. Those whose systems are polluting 
shall be encouraged to install temporary holding tanks or to find a 
disposal site out of the lake bed.
    Action. The City should require city sewer hook-up for any homes 
not presently served by such. The County should consider the issuance 
of variances to allow temporary holding tanks to be utilized. The DNR 
will not require permits for either of these activities provided 
adequate conditions are placed on the local permits to prevent future 
pollution and to assure removal of the tank or disconnection from the 
system when appropriate.
    4. Policy--Fill for lots that are totally surrounded by lake bed 
shall be prohibited. Fill for lots that connect to land above the bed 
may be issued provided that certain conditions arc met. Fill to raise 
public roads leading to lake bed lots shall be prohibited unless the 
lots arc connected to land above the bed.
    Action. DNR shall institute the above policy in compliance with the 
Public Waters Permits Standards. The County and City should adopt a 
policy to not take any actions that encourage filling that would not be 
allowed under this policy.
    5. Policy--New or additional structures shall be completely 
prohibited from being located on the lake bed. The reuse or 
reoccupation of lake bed lands shall be in conformance with all State 
and local standards.
    Action. None necessary
    6. Policy--Temporary flood fighting measures such as sandbagging, 
pumping. or dike construction should be discouraged. However, pumping 
and sandbagging should not be strictly prohibited unless it is obvious 
that they mill become permanent features of the lake bed.
    Action. Agreement by the State, County and City regarding 
enforcement policy should be made.
    7. Policy--The ``Management Plan'' for Lake Pulaski shall be 
utilized to effectuate a long-term solution far high water problems.
    Action. The State shall develop specific rules for dealing with 
future development and reuse of late bed lands. The County and the City 
should consider similar specific rules or guidelines for lake bed 
lands. In addition, the State, County and City should cooperate in 
joint administrative actions to implement the ``actions'' recommended 
in the Management Plan.
Recommended Long-Term Approaches
    As the lake level rises, there is no doubt that considerable new 
interest will again develop in things such as lake level control 
structures, dikes, relocation funding. Before any of these activities 
are again explored, it is recommended that all efforts be directed 
towards obtaining funding to study the lake and ground water hydrology 
in much detail. Dikes and lake level control could not even be 
considered without this information. Also such information would be 
extremely useful in timing any relocation efforts and in making sure 
that any relocated homes are placed at a high enough level.
    At this point in time, it appears that the best and most cost-
effective long-term solution would be relocation. Several home owners 
already have or are in the process of doing so on their own. Also, 
relocation may also be at least partly accomplished through the Federal 
Flood Insurance Program, as many of these landowners already have flood 
insurance coverage.
                                 ______
                                 
                               memorandum
                       Federal Emergency Management Agency,
                             Washington, DC 20472, January 6, 1986.
TO: Deputy Administrator; Assistant Administrators; Special Assistants

FROM : Donald L. Collins, Assistant Administrator, IPATS
SUBJECT: Administrator's Policy Interpretation No. I-86 Continuous 
Flooding Claims--Rising Lake Waters
                           purpose statement
    At issue is payment of building policy limits when it is reasonably 
certain that continuous flood damage from rising lake waters will 
eventually reach the building policy limits.
                               background
    The National Flood Insurance Program frequently encounters 
situations where lake waters rise over a long period of time, gradually 
causing increased damage to an insured building.
    The Standard Flood Insurance Policy (SFIP) provides in Article 
VIII.N of the Dwelling Form that ``all loss arising out of a single, 
continuous flood of long duration shall be adjusted as one 1066.
    Similarly, the General Property Form of the SFIP provides in 
paragraph L of the General Conditions and Provisions section that fall 
loss arising out of a continuous or protracted occurrence shall be 
deemed to constitute loss arising out of a Single loss.
                            policy statement
    Where it appears reasonably certain that flood damage from rising 
lake waters reimbursable as one loss under the provisions of the 
Dwelling Form and the General Property Form has occurred to an insured 
building (other than any appurtenant structure on the premises) and 
will eventually reach the building policy limits, payment of the 
building policy limits without waiting for the further damage to occur 
will benefit both the insured ant the insurer by simplifying the 
adjustment of the claim and is authorized by these provisions.
    Since contents can be moved out of harm's way, there is no need for 
any payment of anticipated contents damage.
    Inasmuch as the building policy limits would be paid under this 
procedure and any further flood damage In this situation would be part 
of the same loss so that the further flood damage would not be 
reimbursable, it is appropriate to require the insured, as a condition 
for payment of the building policy limits under these circumstances, to 
sign a release agreeing to three conditions, In addition to-all of the 
terms and conditions of the policy:
    1. To make no further claim under the policy;
    2. Not to seek renewal of the policy, and
    3. Not to apply for any flood insurance under the National Flood 
Insurance Act of 1968, as amended, for property at the property 
location of the insured building.
    Attached is the Administrator's Policy Interpretation.
                               new matter
    The payment of full policy limits due to the reasonable certainty 
of damage from rising lake waters eventually reaching policy limits, 
prior to such an outcome, constitutes a new loss adjustment method made 
possible by the Administrator's policy interpretation.
                                 ______
                                 
                       Federal Emergency Management Agency,
                                              Washington, DC 20472.

Federal Insurance Administration; National Flood Insurance Program; 
Standard Flood Insurance Policy Interpretation; Continuous Flooding 
Claims

    The National Flood Insurance Program continues to encounter 
situations where lake waters rise over a long period of time, gradually 
causing increased damage to an insured building. The Standard Flood 
Insurance Policy (SFIP) provides In Article VIII.N of the Dwelling Form 
that ``all loss arising out of a single, continuous flood of long 
duration shall be adjusted as one loss. Similarly, the General Property 
Form of the SFIP provides in paragraph L of the GENERAL CONDITIONS AND 
PROVISIONS section that ``all loss arising out of a continuous or 
protracted occurrence shall be deemed to constitute loss arising out of 
a single loss.
    Thus, where it appears reasonably certain that flood damage from 
riling lake waters reimbursable as one loss under these provisions has 
occurred to an insured building (other than any appurtenant structure 
on the premises) and will eventually reach the building policy limits, 
payment of the building policy limits without waiting for the further 
damage to occur will benefit both the insured and the insurer by 
simplifying the adjustment of the claim and is authorised by these 
provisions. Since contents can be moved out of harm's way, there is no 
need for any payment of anticipated contents damage. Inasmuch as the 
building policy limits would be paid under this procedure and any 
further flood damage in this situation would be part of the same lose 
so that the further flood damage would not be reimbursable, it is 
appropriate to require the insured as a condition for payment of the 
building policy limit under these circumstances to sign a release 
agreeing to three conditions, In addition to all of the terms and 
conditions of the policy: (l) to make no further claim under the 
policy, (2) not to seek renewal of the policy, and (3) not to apply for 
any flood insurance under the National Flood Insurance Act of 1968, as 
amended, for property at the property location of the insured building.
                                          Jeffrey S. Bragg,
                                   Federal Insurance Administrator.
                               __________
 Statement David A. Sprynczynatyk, State Engineer, on behalf of North 
                      Dakota Governor, Ed Schafer
    Chairman Chafee and members of the Senate Environment and Public 
Works Committee. Thank you for the opportunity to testify today.
    My name is David Sprynczynatyk. I am the State Engineer and 
Secretary to the North Dakota State Water Commission. The testimony I 
am giving today is on behalf of Governor Ed Schafer. Governor Schafer 
asked me to extend his apologies to the committee for not being able to 
attend in person.
    Since 1993, Devils Lake has risen more than 20 feet from elevation 
1422.6 msl to 1442.9 msl. Today it is the most serious and most 
pressing flood problem facing North Dakota. Since 1993, the Federal, 
State, tribal and local governments, as well as the people of that 
area, have incurred more than $200 million in damages and flood-
fighting expenses. As the lake continues to rise, the U.S. Army Corps 
of Engineers' forecasts that cumulative damages will grow to $370 
million by the time the lake reaches 1450 msl, less than eight feet 
above its current level. This year alone the lake rose five feet over 
last year's level.
    Most often, rivers will rise, flood adjacent areas, and then 
recede. This is not the case with Devils Lake, which continues to rise 
relentlessly, engulfing land, homes, roads and everything else within 
its constantly growing borders. This is a progressive disaster that 
requires emergency action to gain control.
    The lake's natural outlet occurs when water rises another 15 feet 
and reaches elevation 1457.5 msl. It then overflows into the nearby 
Sheyenne River, which drains into the Red River and ultimately into 
Lake Winnipeg. Geologists have concluded that this natural spillage has 
occurred several times during the past 10,000 years. No one can predict 
what will happen with the lake next year. As Governor, I have watched 
the lake rise well beyond the best scientific predictions for 5 years 
in a row. Just a few weeks ago, Mother Nature dumped another three to 
five inches of rain over the entire Devils Lake Basin. Every naturally 
occurring event such as this compounds our problems, and reminds us how 
little control we have over the situation.
    North Dakota's approach to managing the problem has been a 
comprehensive, three-part effort including upper basin storage and 
management, protecting infrastructure, and removing water from the 
lake.
    First, State and Federal Governments have made significant efforts 
to hold water back within the upper areas of the basin. Upper basin 
water management, as we call it, has been ongoing for several years, 
but it alone is not the answer. Some people point the finger of blame 
to agriculture, and suggest that closing wetland drains is the 
solution. Again, this is a grossly simplistic approach. Scientific 
evidence shows that the lake's level has ebbed and flowed for thousands 
of years, and overflowed naturally into the Sheyenne River long before 
man had any influence in the watershed. We firmly believe there is a 
limit to what we can accomplish through upper basin water management. 
Nevertheless, we continue to spend millions of dollars on upper basin 
management to restore holding areas and create new ones.
    Secondly, we are protecting infrastructure around the lake. The 
greatest expenses have occurred as a result of relocating more than 100 
homes, raising miles of roads, replacing several bridges, and building 
levees and protecting utilities. This year alone we had 17 highway 
elevation raising projects in the area for a total cost of nearly $30 
million. More dirt and roadwork took place in the Devils Lake region 
this year than occurred in our State even during construction of the 
Interstate Highway System. Resources to continue these infrastructure 
efforts are limited. Yet we must continue pursuing these projects, not 
knowing if our efforts will ultimately be overtaken again by a lake 
that is rising uncontrolled.
    Our third effort is to remove water from the lake. This is where an 
outlet is necessary because evaporation is the only current method of 
reducing the lake level. Even with a prolonged drought, it would take 
more than 10 years of normal evaporation for the lake to return to the 
pre-flood level of 1993.
    A managed outlet is technically feasible and several have been 
completed successfully elsewhere in the country. Lake Pulaski in 
neighboring Minnesota is a good example, a managed lake outlet built in 
1986. Environmentally, the outlet can be constructed and operated to 
meet downstream State and Federal water quality standards. Operating 
the outlet only during non-flood periods will eliminate additional 
downstream flooding in peak flood times. The entire basin would be 
managed like a reservoir with water being stored when needed for 
downstream flood control, and released during non-flood periods.
    The benefit of the outlet has been questioned since it is limited 
in its capacity. At the current lake level, any future rise will cost 
approximately $30 million per foot, much more than what was projected 
by studies completed by the Corps several years ago when the lake was 
25 feet lower. A rise in 1998 similar to what we experienced this year 
could cause up to $150 million in additional damages. To the people who 
have lost nearly 60,000 acres of land, their homes and their livelihood 
to the lake since 1993, I can assure you the outlet is very justified.
    Regarding the non-Federal cost share for the project, the 1997 
North Dakota Legislature provided sufficient funding for the cost share 
to the State Water Commission. The State stands ready to provide funds 
as necessary.
    Finally, there seems to be some confusion regarding the 
relationship of Devils Lake to the Missouri River Basin. Devils Lake 
physically is not a part of the Missouri River Basin, it is part of the 
Hudson Bay (Red River) drainage. An outlet from Devils Lake to its 
natural basin, the Red River, will in no way affect the Missouri River 
nor the Mississippi River.
    Thank you for your time today. And thank you for your careful 
consideration of this outlet project that will provide relief from this 
terrible, unfolding disaster and emergency that plagues the Devils Lake 
region and the State of North Dakota.
                                 ______
                                 
                      Devils Lake Flood Fact Sheet

                             October, 1997

History
    Devils Lake is normally considered a closed sub-basin of the Red 
River of the North Basin. However, evidence suggests that Devils Lake 
has, on several occasions during the past 10,000 years, reached its 
spill elevation of about 1,457.5 above mean sea level (msl) and 
overflowed to the Sheyenne and Red Rivers. Geologists have concluded 
that Devils Lake water levels naturally vary widely due to climatic 
swings. Beginning 130 years ago with the first recorded level of 
1,438.4 msl, the lake level fell until reaching its recorded low of 
1,401.9 msl in 1940. From that point the lake has followed a rising 
trend, reaching the modern high of 1,442.97 msl in July 1997. The lake 
is currently at elevation 1,442.6 msl, over five feet higher than it 
was a year ago.
Flood Problems and Damages
    Flooding in 1993 caused Devils Lake to rise five feet in 6 months. 
The lake has steadily risen each year since, almost 20 feet total. The 
volume of water in Devils Lake has more than tripled since July 1993. 
Over 51,000 acres of adjacent land, much of it deeded farm or 
ranchland, has been flooded since 1993. The lake now covers about 
98,100 acres. More than 172 buildings have been affected. In 1997, 
about 400 damage claims have been filed totaling $20 million in Ramsey 
and Benson Counties. In addition, 83 homes on the Spirit Lake Nation 
Reservation have been, or will be moved. Insurance claims paid by the 
National Flood Insurance in 1996 totaled $7.1 million for damage to 
private homes and businesses.
    Maintaining State and county roads at Devils Lake has cost tens of 
millions of dollars since 1993. There were 17 highway elevation raising 
projects in progress around Devils Lake in 1997 at a total cost of 
$27.2 million.
    Highways 20 and 57 south of the city of Devils Lake are key routes 
in the region for school bus traffic, shopping, commuting for work, and 
for emergency transportation to the south side of Devils Lake including 
the Spirit Lake Reservation. Both highways were flooded at the narrows 
south of Devils Lake last spring. Plans to build a $15 million, 6,400-
foot long bridge on Highway 57 are in progress. Contractors worked all 
summer to raise Highway 20 to elevation 1448.5 msl. Work on raising 
Highways 281 and 19 north of Minnewaukan, as well as other roads and 
bridges at 17 project sites around the lake is nearing completion. Top 
of roadway elevation on most highways adjacent to Devils Lake is now at 
1448.5 msl, less than six feet above the current lake level.
    The U.S. Army Corps of Engineers is raising the city of Devils Lake 
levee system. Stages I and II were completed in 1997 at a cost of $7 
million. They protect the city to elevation 1445 msl. Another $43 
million has been committed to raise the dike for community protection 
to 1450 msl.
    The North Dakota State Park System has four parks adjacent to the 
lake. The Narrows State Park was flooded and abandoned in 1995. The 
road to Grahams Island State Park was flooded this spring and the park 
was closed all year. A project to raise the road should be completed in 
November. Many camp sites, the marina, and other facilities at Grahams 
Island State Parks remain flooded. Shelvers Grove and Black Tiger Bay 
Parks have some flooded facilities but they remain open.
    Engineers estimate it will cost $950,000 to relocate pipes and pump 
stations required to keep the Ramsey County rural sewer system 
operable. This work must be accomplished this fall. As lakeshore 
property owners move away to escape the rising water, income to service 
the system's existing $907,000 debt decreases. Over 125 accounts have 
been lost due to the flooding.
Basin Water Management Efforts
    A multi-faceted approach, including basin water management, 
infrastructure protection as mentioned above, and an outlet to the 
Sheyenne River, is critical for addressing Devils Lake flooding 
problems.
    About 60,000 acres of wetlands are drained throughout the basin 
while about 252,000 acres of wetlands and lakes are still intact and 
storing water. In 1995, the State Water Commission initiated the 
Available Storage Acreage Program (ASAP) with a target of 75,000 acre-
feet of storage in the upper basin. The program solicits temporary, 
voluntary, and compensated water storage sites. In 1997, 150 sites 
provided 22,000 acre-feet of storage for 1997 runoff. The State Water 
Commission recently approved an additional $1.15 million for 1998 
storage. ASAP will continue to seek storage as funding permits.
    The U.S. Fish and Wildlife Service has identified 36 projects to 
provide 12,774 acre-feet of long-term storage potential on public 
lands. In 1996, eight projects were completed and now provide 1,762 
acre-feet of storage. Cost thus far is $471,000 for permanent 
facilities. In addition, the recent Conservation Reserve Program 
emphasized wetland restoration in its signup criteria. As a result 
164,000 acres of wetlands will be re-established in the counties that 
are part of the Devils Lake Basin. Over 7,800 acres of Federal wetland 
reserve will be established. The State's ASAP program and the North 
Dakota Wetland Trust are helping finance some of the wetland 
restorations.
    Sub-basin committees of local landowners have been established by 
the Devils Lake Joint Water Board to help achieve water management 
objectives through direct grassroots involvement. A full-time manager 
was hired by the Board in early October to help implement their basin 
management plan.
The Outlet Part of the Solution
    Several potential alignments for a Devils Lake outlet have been 
considered. In all cases, potential water quality impacts and flood 
risk in receiving waters are major concerns. A ``west-end outlet'' is 
critical to attain cost and environmental viability. The preferred 
alignment is the Peterson Coulee route. Several designs are being 
considered. Current designs clearly preclude the emergency outlet from 
being used as an inlet.
    Under a fast-track approach, outlet construction will take a 
minimum of 29 months, including environmental reviews, authorization, 
and funding. When finished, the project may pump a maximum of 300 cubic 
feet per second (cfs) to the Sheyenne River. This could remove about 
120,000 acre-feet of water annually or about 1.2 feet at today's level.
    Devils Lake water will be mixed with the normal flow of the 
Sheyenne and Red Rivers. At no time during a 10-year simulation of a 
200 cfs emergency outlet project were the sulfate standards or 
international border objectives exceeded. However, outlet operation 
will also raise total dissolved solids (TDS) levels. Managing TDS to 
satisfy downstream concerns will be factored into the final project 
design.
                                 ______
                                 
                                 State of North Dakota,    
                            Office of the State Engineer,  
                                   Bismarck, ND, November 21, 1997.

Hon. John H. Chafee,
Committee on Environment and Public Works,
United States Senate,
Washington, DC 20510-6175.

Dear Senator Chafee: Thank you for the opportunity to respond to 
questions from members of the committee regarding the proposed flood 
control project at Devils Lake, North Dakota. The questions are 
certainly pertinent to the deliberations of the committee and are also 
pertinent to the considerations of the State of North Dakota as we 
attempt to move forward and address this most devastating situation to 
the people of Devils Lake and to the State.

    Question 1. What is the position of the State of North Dakota 
regarding Devils Lake stabilization? My understanding is that this 
involves transporting Missouri River water into Devils Lake when the 
lake levels are low, and pumping water out of the lake into the 
Sheyenne River when levels are high. Is 10 stabilization a part of the 
statewide water development plan?
    Answer: Area residents and State leaders have envisioned a project 
to stabilize the water level in Devils Lake since the early years of 
statehood. When the water level is sufficiently high to support a sport 
fishery, the lake provides a significant recreational resource to a 
multi-State region (locally valued at $30 million per year in 1988). 
Early studies concluded that the Missouri River is the best source of 
water, from the standpoint of quality and reliability, to supplement 
natural runoff from the Devils Lake watershed during times of drought. 
The same studies conclude water should be released on a regulated basis 
to the Sheyenne River during wet cycles to prevent the level from 
rising too high.
    Both the 1983 and 1992, North Dakota State Water Management Plans 
discuss the need to stabilize Devils Lake. The 1992 North Dakota State 
Water Management Plan was developed with considerable public input from 
all across the State and it indicates support for the stabilization of 
Devils Lake. Bear in mind that in 1992 Devils Lake was approximately 20 
feet below its current level.

    Question 2. Because it is naturally a closed basin lake, the lake's 
level has historically swung quite dramatically. Just 4 years ago, it 
was at one of its lowest points since the mid 1800's. If we had been 
pumping Missouri River basin water into the lake for years prior to 
1993, and then we received all the rainfall and snowfall that we have 
had since 1993, wouldn't we now have a lot more water in the lake and a 
lot more flooding than we have right now?
    Answer: Please allow me to make a correction in fact and perception 
to the comments preceding the question. The lowest level of Devils Lake 
since the mid 1800's was elevation 1400.9 msl recorded in 1940. With 
some variation, the water level has been on a general rise since that 
time. I am enclosing a graph that illustrates the lake's recent water 
level history. Four years ago the lake was at an elevation of 
approximately 1423 msl. The drought of the late 1980s and early 1990s 
was causing the lake level to decline rapidly. There was great fear 
that the level might continue to drop to elevation 1422 msl, a point 
critical to sustaining the lake's recreational fishery. At that time 
the State was engaged in emergency studies to find ways to supplement 
inflow to the lake and thus maintain the fishery. As stated in the 
response to the previous question, it was concluded that importing 
Missouri River water was the best solution. It is important to note 
that those plans were focused on stabilizing Devils Lake through 
construction of an inlet and an outlet.
    In answer to the stabilization question, if the State would have 
had a project in place to pump water into Devils Lake in 1993, the 
project would have also included an outlet. In the spring of 1993, 
Devils Lake was in its proposed normal operating range, and water would 
not have been pumped into the lake. Thus the level of Devils Lake prior 
to the current wet period would likely not have been any different than 
what it actually was in June, 1993.
    With the onset of the flood situation in July of 1993, the outlet 
would have been put into use as conditions permitted. That outlet would 
have removed an average of 100,000 acre-feet of water each year. 
Estimating a total withdrawal of 400,000 acre-feet, the lake would now 
be roughly six feet lower than it is today. At $25 to $30 million 
damages per foot of elevation on the lake, the outlet project could 
have provided a significant savings to the nation, the State, and the 
region compared to what we have experienced without it.

    Question 3. What is the State's position regarding the contribution 
of agricultural drainage to Devils Lake water level rise?
    Answer: We at the State level believe that agricultural drainage in 
the Devils Lake watershed has not contributed significantly to current 
flood damages at Devils Lake. Nonetheless, the State has initiated an 
effort throughout the Devils Lake basin to close any illegal drains 
that may exist.
    Determining the amount of flood storage potential that exists in 
drained wetlands has been a difficult issue that we continue to 
address. At our request, both the U.S. Geological Survey and the U.S. 
Bureau of Reclamation have begun test case studies in an effort to 
address this issue in detail.
    Based on current evidence, staff hydrologists, U.S. Geological 
Survey hydrologists, and ND Geological Survey geologists have concluded 
that wetland drainage does not contribute significantly to the current 
Devils Lake flooding problem. These experts point out that the climatic 
wet cycle we find ourselves in is a far greater factor in the flooding. 
They point out that Devils Lake has overflowed to Stump Lake a number 
of times as well as to the Sheyenne River long before European 
settlement altered the landscape. Attached is an article by Dr. John 
Bluemle, North Dakota State Geologist, to further explain the 
situation.
    I hope these responses are adequate. If you need further 
clarification or have additional questions, please contact me at your 
convenience.
            Sincerely,
                                    David A. Sprynczynatyk,
                                                    State Engineer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             [From the North Dakota Weekly, July 23, 1996]
               Devils Lake ``Could'' Rise Another 20 Feet
                           (By John Bluemle)
    Devils Lake--Once again this summer, many of us are anxiously 
observing the level of Devils Lake, wondering just how high the water 
level may rise.
    The behavior of Devils Lake seems to cause no end of consternation 
to any number of people. Residents of the area are rightly concerned as 
their roads and property are flooded and many of them feel frustrated 
because it seems to them that little has been done or can be done to 
deal with the problem.
    As a geologist with the North Dakota Geological Survey, I've been 
studying the geology of the area around Devils Lake. off and on, since 
1962. One of the first reports I wrote as a professional geologist with 
the North Dakota Geological Survey was on Devils Lake. It dealt with 
the way the glaciers formed the lake basin, Sully's Hill, and related 
geologic features in the area.
    Over the years, I've continued to study Devils and Stump lakes. 
Most of my work In the area has dealt with the geology, explaining why 
the lakes are there and how they formed. For example, Devils and Stump 
Lakes occur In a depression that resulted when the glacier picked up 
and moved--thrust or pushed--large amounts of material southward, 
piling them up and forming the range of hills just south of the lakes.
    Sully's Hill Is the highest point in this jumble of Ice-thrust 
material. Maybe I'll devote one of my weekly columns sometime soon to a 
discussion of the geology of the Devils Lake area.
    I also pointed out in my early studies that an important aquifer 
system, the Spiritwood Aquifer directly underlies the lake chain and 
that the groundwater in that aquifer can and does interact with the 
water in the lakes. At times, this interacting relationship causes 
Devils Lake to behave in an apparently anomalous manner (rising during 
drought years, falling during rainy times depending upon whether the 
groundwater is flowing into or out of the lake from the aquifer).
    Several of my studies have dealt with the fluctuations In the lake 
levels and the reasons they occur. A study I did several years ago 
dealt with some of the problems of understanding the behavior of a lake 
In an enclosed basin. Without going Into great derail here, my 
conclusion was that, ultimately, Devils and Slump Lakes fluctuate in 
response to climatic changes.
    These changes are cyclic, extreme, long-term, and inevitable.
    Recently, I reviewed data in the North Dakota Geological Survey 
lakes and I was able to compile a new chart to illustrate how the level 
of Devils Lake has fluctuated over the past 4,000 years (see chart). 
The chart is generalized and probably the most important thing to note 
when looking at it is not the specific limes that the lake dried up or 
overflowed--it's not that accurate. Rather, the important consideration 
is the overall frequency and extremes of the fluctuations in the level 
of the lake.
    Devils Lake has dried up completely at least five or six times 
during the past 4,000 years, and it has overflowed into the Sheyenne 
River at least three or four times (and probably many more times than 
that, but my data don't allow me to be more specific). Devils Lake also 
almost certainly has overflowed into Stump Lake many more times than 
I've shown on my chart, but again, my data aren't specific enough to 
allow me to determine how often.
    The climatic cycles that result in rising and falling conditions in 
Devils and Stump Lakes are poorly understood, but they tend to be long-
term events. That is, the lakes may experience overall rising or drying 
conditions for well over 100 years at a time. The current rising cycle 
began about 1940--only 56 years ago. The previous cycle ended In 1940, 
or after at least 110 years of generally falling lake levels. That is, 
In about 1830 or perhaps a little earlier. Devils Lake and Slump Lake 
were joined as a single lake and there is even some evidence that the 
water may have overflowed briefly Into the Sheyenne River at about that 
time.
    Going back just a little further, we know that the lakes 
essentially were dry for a period of perhaps 150 years during the late 
15th century to the late 17th century. Oak trees grew on the dry floor 
of East Stump Lake during that time. Following that dry period, the 
water levels tended to rise until the early 19th century.
    I really only want to make a couple of points today. In at least 
two of my articles several years ago I noted that the actions of man 
during the last 100 years or so--since settlement of the area--are not 
an important factor In determining the behavior of the lake. That 
should be obvious from a quick look at the chart I've drawn: the lake 
rose and fell often and dramatically before European settlers arrived 
on the scene.
    Clearly, the natural condition for Devils Lake is either rising or 
falling, either toward overflow or dry lake bed.
    The lake should not be expected lo maintain a stable level or to 
remain long at any given level. Only an inlet and an outlet can remedy 
this situation.
    Ideally, the goal should be to stabilize and freshen the lake and, 
in my opinion, this would be best done by constructing an Inlet near 
the west end of Devils Lake and an outlet at the east end. However, 
that's not my decision to make, as the North Dakota Geological Survey 
is not involved in policy issues relating to the lake.
    Barring direct intervention (construction of an inlet and/or outlet 
to the lake) how high can we expect Devils Lake to rise?
    I won't make specific predictions--short-term predictions are 
better left to the National Weather Service--but I would like to point 
out that there IS no reason to believe that the lake will not rise 
another 20 feet--until it overflows into the Sheyenne River--before the 
present cycle has run its course and a new, long-term cycle of 
declining water levels begin.
    Please note that I did not say that the lake will rise 20 more 
feet. I said that there is no geologic reason to say that it can't or 
won't do that. It has happened several times in the past and it can 
happen again.
                               __________
                                    State of Minnesota,    
                                  Office of the Governor,  
                                                  October 23, 1997.
The Honorable John Chafee, Chairman,
Committee on Environment and Public Works,
Dirksen Senate Office Building,
Washington, DC 20510.
Dear Mr. Chairman: Thank you for holding a hearing today to discuss the 
Devil's Lake ``Emergency'' Outlet project. This project could have 
great impact on Minnesota if completed as currently proposed. Because 
of this fact, I am deeply concerned that no one from Minnesota was 
asked to participate in today's hearing. I respectfully ask Hat 
testimony prepared by my Department of Natural Resources be included in 
the hearing record, and request that if another hearing is called on 
this project, Minnesota be included.
    Thank you for your consideration of this matter.
            Warmest regards,
                                           Arne H. Carlson,
                                                          Governor.
                                 ______
                                 
Testimony of Ron Nargang, Deputy Commissioner, Minnesota Department of 
                           Natural Resources
    Mr. Chairman, thank you for this opportunity to brief the 
Environment and Public Works Committee on Minnesota's concerns 
regarding the Devil's Lake ``Emergency'' Outlet project. I am Ronald 
Nargang, Deputy Commissioner of the Minnesota Department of Natural 
Resources (MDNR). Historically, the States of Minnesota and North 
Dakota have a long-standing tradition of working together cooperatively 
on interstate natural resources issues. The ongoing recovery process 
from the spring floods of 1997 is one such example of the cooperative 
nature of this relationship. However, the State of Minnesota is very 
concerned about the proposed outlet at Devil's Lake and appreciates the 
opportunity to provide comments. This statement outlines the concerns 
of the Minnesota Department of Natural Resources and Minnesota 
Pollution Control Agency.
    It is imperative that a comprehensive review of the project, 
including an Environmental Impact Statement, be performed on the 
project to determine its potential effectiveness and impacts before any 
work on the project is initiated. If the review shows the project to be 
ineffective or environmentally damaging, the project should not 
proceed.
    Issues that must be addressed include:
    Cost-benefit Analysis--The U.S. Army Corps of Engineers (USAGE) 
estimates that an outlet project will cost a minimum of $21,000,000.00, 
with annual operation and maintenance costs estimated to be 
$700,000.00. The Emergency Outlet Plan determined that if the project 
had been in place and in operation from 1985--1995, a lake level 
reduction of only 1.1 feet would have been realized, at significant 
construction, maintenance, and operational costs.
    In addition, the analysis by the USACE showed that, through 1994, 
outlet operation would have been constrained largely by the sulfate 
standard because of the high salinity of Devil's Lake. By 1995, the 
rising lake was diluted to the point where bank-full and pumping 
capacities would have been the constraining factors. Significant damage 
would still have occurred with only this limited amount of project 
effectiveness. Any review of the project must include a cost-benefit 
analysis to determine if this is a wise expenditure of Federal tax 
dollars.
    Changes in Red River Water Quality Analysis--The Emergency Outlet 
Plan states that operation of the outlet will raise Total Dissolved 
Solids (TDS) along the Sheyenne and Red Rivers. Although the Sheyenne 
River has no TDS standard, the Red River standard and International 
Border objective of 500 mg/l TDS is already exceeded under without 
project conditions; consequently, outlet operation could increase the 
frequency, duration and magnitude of those occurences.
    Specific analyses of the changes in total dissolved solids, total 
suspended sediment (TSS)/turbidity, chloride, sulfate, and phosphorus 
levels must be performed for the Red River and the Sheyenne River. Some 
parameters were analyzed in the Emergency Outlet Plan, but more 
complete modeling for both rivers should be performed. The analysis of 
changes in TSS levels should factor in any increases in erosion of the 
Sheyenne River channel from increased flows. Effects on the fishery of 
the Red River due to changes in these water quality parameters must 
also be assessed.
    Environmental Effects--The Emergency Outlet Plan states that 
construction and operation of the emergency outlet will impact an 
estimated 970 acres of wetlands, woods and grasslands along the Twin 
Lakes outlet route. In addition, most of the outlet route has not been 
surveyed for cultural resources, nor has the outlet route been 
inventoried for traditional cultural properties. Any outlet study must 
include the development of an extensive monitoring program to address 
areas of impacts on natural and cultural resources, bank erosion, 
municipal water supply, etc.
    Operational Plan Parameters--Parameters and triggers based on lake 
level and water quantity and quality impacts on the Sheyenne River were 
included in the Emergency Outlet Plan. These should be addressed in the 
current study, and expanded if analysis of the parameters described 
above shows negative effects on the Red River.
    Alternatives Evaluation--The no-action alternative, wetland 
restoration and upper-basin storage in the Devils Lake Basin, 
alternative transportation systems and alternative methods of supplying 
emergency services to residents around the lake should all be explored 
in the current study. The USACE in earlier reports and studies has 
stated that an outlet alone will not dramatically lower the level of 
Devil's Lake.
    Relationship to the Garrison Diversion Project--Though separate 
projects, the Devil's Lake Outlet and the Garrison Diversion Project 
are often said to be linked together. It is important that any planned 
connection between the two projects be fully explained. If the projects 
are in fact ``connected actions'', the current study should factor 
effects of the operation of the Garrison Diversion Project into all 
aspects of the review.
    I ask the committee to review these issues very carefully as it 
deliberates authorizing this project. As the impact of this project on 
Minnesota could be substantial, I also ask that our State be included 
in deliberations to the greatest extent possible. To that end, please 
call on me for any further information you may require regarding 
Minnesota's position on the Devil's Lake project. Thank you.
                                 ______
                                 
    Project: Devils Lake Basin, North Dakota
    Purpose/River Basin: Flood Control and related purposes--Red River 
of the North
    Status/Schedule: In 1993, the Corps of Engineers and the North 
Dakota State Water Commission agreed to proceed with a cost-shared 
feasibility study. Due to increasing lake levels since 1993 and the 
threat of further flood damages, the Corps is accelerating portions of 
the flood control project selected in the reconnaissance report at the 
request of the North Dakota congressional delegation. In February 1996, 
a contingency plan was prepared that presented possible options that 
might be implemented if the lake continued to rise. As a follow-up of 
the Contingency Plan, an Emergency Outlet Plan was prepared in August 
1996 that presented a plan for an outlet from Devils Lake to the 
Sheyenne River that could be implemented in an accelerated time frame, 
within a 3-year period. The emergency outlet is being debated at the 
State, Federal and local levels. The other longer term aspects of the 
feasibility study are proceeding.
    Location and Description: Devils Lake is located in a closed basin 
in semi-arid northeastern North Dakota. Depending on climatological 
patterns, the lake is subject to extreme variations in stage. Both low 
and high levels cause major problems. Devils Lake is highly saline; at 
low stages, salinity concentrations are so great that fish and wildlife 
are seriously affected; in addition, boat access around the lake is cut 
off end the area's recreation-related income (exceeding an estimated 
$50 million annually) is threatened. High lake levels cause urban, 
agricultural, and transportation flood damages. A repeat of the highest 
recorded lake level would cause over $250 million in flood damages.
    Background/Discussion: A draft feasibility report, released in 
April 1988, recommended a flood control outlet from Devils Lake to the 
Sheyenne River. However, the North Dakota State Water Commission 
withdrew support for the project, citing a need to include an inlet for 
lake stabilization. As a result of a 1990 Senate Committee resolution, 
the Corps issued a draft reconnaissance report in February 1992 
addressing both an inlet and an outlet. The likely source of inlet 
water is the Garrison Diversion Unit; thus, the Bureau of Reclamation 
has been involved in the study.
    Additional Considerations/Issues: The most feasible inlet and 
outlet routes cross the Fort Totten Indian Reservation. There is 
concern about biological contamination of Devils Lake should Missouri 
River/Garrison Diversion water be used to stabilize Devils Lake. 
Downstream interests in the Red River basin and Canada are concerned 
about the release of Devils Lake water for flood control purposes, both 
because of the biotransfer issue and the lake water's high salinity. A 
major issue with this study is the low priority emphasis the Corps 
places on a lake inlet, whereas the State of North Dakota is strongly 
in favor of controlling both high and low levels.
    Summarized Financial Data: (The feasibility study is being cost-
shared: 50 percent Federal/50 percent non-Federal)

                                                                        
------------------------------------------------------------------------
                                                                        
------------------------------------------------------------------------
Allocations to Date (Federal)...........................      $2,275,000
Balance to Complete (Federal)...........................       2,170,000
  Total estimated Federal Cost..........................      $4,445,000
------------------------------------------------------------------------

    Authority/Project Authorization: Resolution of the Senate Committee 
on Environment and Public Works, dated March 27, 1990, which calls for 
a study of water management, stabilized lake levels, water supply, 
water quality, recreation, water pollution abatement, and fish and 
wildlife enhancement and conservation.
    Contact Person: William Spychalla, Project Manager Phone: 612-290-
5727
    Information Paper Prepared by: St. Paul District, U.S. Army Corps 
of Engineers, February 1997
                                 ______
                                 
    Project: Devils Lake Levee, North Dakota
    Purpose/River Basin: Flood Control--Red River of the North
    Status/Schedule: The Stage 1 construction contract was awarded in 
September 1996 to Wanzek Construction, Fargo, North Dakota. The 
contractor is making excellent progress. Over 60 percent of the Stage 1 
levee has been brought up to final grade and 45 percent of riprap has 
been placed bringing the city to a current protection level of 1443.0 
feet above mean sea level (msl). Modification work at the pump station 
is complete. Total Stage 1 completion is scheduled in September 1997. 
In October 1996, the Devils Lake City Council passed a resolution of 
approval for the final Stage 2 levee alignment adjacent to Highway 20. 
Stage 2 plans and specifications are underway and are scheduled for 
completion in February 1997. The final construction contract is 
scheduled for award in April 1997, with total project completion in 
October 1997.
    Location and Description: The Devils Lake basin is in northeastern 
North Dakota, in the northwest corner of the Red River of the North 
basin. The project provides a 5-foot raise of the city of Devils Lake 
existing levee system (completed in 1985) and approximately 3.7 miles 
of new levee, designed for a lake elevation of 1445.0 feet above met 
with 3 to 5 feet of freeboard.
    Background/Discussion: By resolution dated 17 June 1996, the city 
of Devils Lake formally requested emergency assistance from the Corps 
to raise the city's protection dikes to elevation 1445 plus necessary 
freeboard of 3 to 5 feet. On 9 July 1996, the State of North Dakota 
formally requested Corps of Engineers assistance in the construction of 
the upgrade of the existing levee system protecting the city. 
Increasing lake levels and wave action could result in catastrophic 
failure of the existing levee system. If this happened, over $50 
million in damages would occur. Given the height of the existing levee, 
an imminent threat of loss of life would also exist. The project was 
approved under Public Law (PL) 84-99 Advance Measures Authority and a 
Project Agreement was signed on 12 August 1996. The project is being 
constructed in two stages. Stage 1 consists of raising the existing 
Creel Bay embankment on the southwestern portion of the city, 
modifications to the Creel Bay Pump Station, and providing tieback 
levees. Stage 2 consists of a new levee section on the south side of 
the city just east of Highway 20 and a new levee section adjacent to 
Highway 2 at the east side of the city. As designed and constructed, 
the project will be certified to provide protection for a lake 
elevation of 1445.0 feet msl. A potential certification concern by the 
Federal Emergency Management Agency (FEMA) involves the deferred levee 
construction/road raise at four locations. This issue is being 
coordinated with FEMA.

                        SUMMARIZED FINANCIAL DATA                       
------------------------------------------------------------------------
                                                                        
------------------------------------------------------------------------
Estimated Federal Cost..................................      $5,250,000
Estimated non-Federal Cost..............................       1,750,000
Cash/In-Kind............................................     (1,496,000)
LERRD's.................................................       (254,000)
  Total Estimated Project Cost..........................      $7,000,000
------------------------------------------------------------------------

    AUTHORITY/PROJECT AUTHORIZATION: PL 84-99 Activities (Advance 
Measures).
    CONTACT PERSON: William Spychalla, Project Manager Phone: 612-290-
5727
    INFORMATION PAPER PREPARED BY: St. Paul District, U.S. Army Corps 
of Engineers, February 1997
                                 ______
                                 
   Statement of Gary L. Pearson, South Dakota Prairie Audubon Society
    The rising level of Devils Lake in recent years has caused millions 
of dollars of damage to roads and other developments and it has created 
tremendous hardships for many people living near the lake. The problems 
are serious, and they require solutions that are rational and 
effective, are based on sound hydrologic and engineering analyses, and 
are economically justified and environmentally responsible. 
Unfortunately, the proposed emergency outlet from Devils Lake to the 
Sheyenne River fails--and fails dismally--to meet any of these 
criteria.
    In considering the problems created by the high water levels at 
Devils Lake, it is necessary to recognize that we are dealing with a 
natural phenomenon, but a man-made disaster.
    The geologic record shows that Devils Lake has never been a stable 
lake and that it naturally fluctuates between wide extremes on a cyclic 
schedule. The lowest point at the bottom of Devils Lake is 1397 feet 
above mean sea level (msl), and Devils Lake has gone completely dry 
five times in the past 4,000 years. The lake also has twice reached a 
level of 1457 feet msl, where it overflowed naturally into the Sheyenne 
River, once about 2,200 years ago and again about 1,000 years ago. 
During the past 4,000 years, the lake has fluctuated between these 
extremes another eight times.
    The last time that Devils Lake was completely dry was about 350 
years ago and it then rose to a level of about 1445 feet met in the 
early 1800's, after which it again began to decline. The first recorded 
level for the lake was 1438 feet in 1867, so the lake was declining as 
the area was settled in the early 1880's. In his 1911-1912 Biennial 
Report, the North Dakota State Engineer outlined a proposal to restore 
Devils Lake to an elevation of 1439 with water diverted through a canal 
from the Souris (Mouse) River. In his report, the State Engineer noted 
that:
    ``The drainage area of Devils Lake is nearly two thousand square 
miles, but the land lies so nearly level, and there are so many 
marshes, meadows, small ponds and lakes which arrest the flow of water 
and from which it evaporates, that it is not likely that the run-off 
from more then seven hundred to eight hundred square miles of the total 
area ever reaches the lake.'' (Attachment No. 1)
    In 1927, a proposal was developed to restore Devils Lake with water 
diverted from the Missouri River, and the Flood Control Act of 1944 
authorized the Missouri-Souris Diversion Unit to deliver water from the 
Missouri River to irrigate 1,000,000 acres principally in northwestern 
North Dakota and to restore Devils Lake. When soils studies showed the 
land was not irrigable, the project was abandoned, and a 250,000 acre 
Garrison Diversion Unit was then authorized in 1965 to replace it. The 
Garrison Diversion project also included a plan to ``freshen'' Devils 
Lake with Missouri River water while discharging the lake's saline 
waters through an outlet to the Sheyenne River. However, by 1974, the 
Bureau of Reclamation had abandoned the outlet because of its adverse 
impacts on the Sheyenne and Red rivers (U.S. Bureau of Reclamation, 
1974).
The Creation of an Emergency
    As the level of Devils Lake continued to decline in the first half 
of this century, roads, railroads and other developments encroached 
more and more on the dry lake bed, each generation gambling that the 
lake would not return in their lifetimes. Even after the lake reached 
its modern day low of 1400 feet in 1940 and began to rise again, 
development on the lake bed continued. The town of Minnewaukon and the 
City of Devils Lake located their sewage lagoons on low land near the 
lake because it was less costly than building them on higher land where 
they would be less vulnerable to flooding. Despite recognition that the 
area was too low, the Devils Lake Industrial Park also was located in 
an area vulnerable to high water tables and flooding as the lake rose 
(Attachment No. 2). In addition, private individuals and commercial 
developers were permitted to build homes and businesses on the shore of 
the rising lake.
    Simultaneously with development around Devils Lake itself, 
agricultural development resulted in extensive drainage of wetlands 
throughout the watershed, especially in the northern areas of the 
Devils Lake Basin. As wetland drainage intensified after World War II, 
flooding problems escalated in the lower portion of the basin, creating 
momentum for even more drainage to send the water on downstream. By 
1955, the problems created by wetland drainage throughout the State had 
become so great that the North Dakota Legislative Assembly passed a 
statute requiring permits from county water boards before wetlands were 
drained. At the same time, flooding problems had become so severe in 
the lower portions of Devils Lake Basin as a result of wetland drainage 
in the upper portions of the watershed that the State Water Commission 
declared a moratorium on drainage in the Basin. However, the chairman 
of a local water board announced publicly that farmers would continue 
to drain their wetlands regardless of State laws or the Water 
Commission's moratorium. The Water Commission made no attempt to 
enforce its moratorium, the county water boards made no effort to 
enforce the drainage statute, and rampant wetland drainage continued 
throughout the Basin, as well as throughout much of the rest of eastern 
North Dakota. (See Attachment No. 3)
    As the problems created in the lower portion of the Devils Lake 
Basin increased with drainage in the upper watershed, the U.S. 
Department of Agriculture's Soil Conservation Service, with the support 
of local drainage interests, the North Dakota Congressional Delegation 
and the Governor, was authorized in 1967 to begin planning of a 246,477 
acre Starkweather Watershed Project in the northern portion of the 
Basin. Under the guise of controlling flooding of agricultural land, 
the project would have involved construction of 60 miles of channels to 
drain some 60,000 additional acres of wetlands and lakes and to carry 
the water directly into Devils Lake. However, passage of the National 
Environmental Policy Act in 1969 forced the SCS to prepare an 
environmental impact statement on the project and this, coupled with 
congressional oversight hearings, resulted in the Department of 
Agriculture abandoning the project in 1973. (See Attachment No. 3)
    Undeterred by the revelations of the Starkweather Watershed 
Project's adverse impacts, drainage proponents pushed for the State to 
build Channel ``A,'' the Starkweather project's 2,000 cfs main drainage 
channel that would divert the flood waters accumulating in the lower 
part of the Basin directly into Devils Lake. Consequently, in 1975, the 
North Dakota Legislature established a Devils Lake Basin Advisory 
Committee, dominated by drainage interests, to study water management 
problems in the Basin and to recommend solutions. However, at the same 
time, the Legislature also authorized construction of Channel ``A,'' 
thus precluding any chance of the Committee's recommendations not 
including this feature. One proposal for dealing with the flooding 
problem in the Basin was restoration of 96,000 acres of drained 
wetlands (Attachment No. 4). However, the Committee's report instead 
recommended over 200 miles of channelization, including Channel ``A,'' 
to facilitate wetland drainage throughout the Devils Lake watershed and 
rush more water into Devils Lake faster, and it included no specific 
recommendations for wetland restoration (Devils Lake Basin Advisory 
Committee, 1976).
    Although the cost participation agreement for Channel ``A'' between 
the State Water Commission and local water boards was supposed to 
prohibit further drainage of wetlands in the Starkweather and Edmore 
watersheds, virtually no effort has been made by the Water Commission 
or the local drainage boards to enforce the prohibition. In fact, the 
State Engineer himself approved a dozen drainage projects in the two 
watersheds between 1977 and 1982 (Attachment No. 5).
    Despite escalating flooding problems at Devils Lake, wetland 
drainage continued in the Basin, aided and abetted by the State Water 
Commission, county water boards and local drainage proponents. For 
example, in 1977 the State Engineer approved a permit for the partial 
drainage of Hurricane Lake, adding up to 7,000 acre-feet of water to 
Devils Lake whenever run-off was excessive. Rampant wetland drainage 
was so widespread in the area that a 1979 report by the General 
Accounting Office cited the Devils Lake Basin as a specific example 
where extensive wetland drainage was followed by severe flooding in the 
lower portion of the watershed. Then in 1983, at the same time it was 
urging the Corps of Engineers to declare Devils Lake a flood disaster 
area and to construct outlet to the Sheyenne River, the Ramsey County 
Water Resource Board, without the required permit, constructed a ditch 
from Lake Irvine to drain up to 6,000 more acre-feet of water into 
Devils Lake, and a few months later, it approved a permit to drain 
Morrison Lake into Devils Lake.
    It is clear, therefore, that the current ``flood emergency'' at 
Devils Lake is not the result of any sudden, unexpected natural 
disaster, but, rather, is a problem that has been developing over a 
period decades.
    It is now estimated that a minimum of 189,000 acres of wetlands 
have been drained in the Devils Lake Basin, and that these wetlands had 
the capacity to store at least 491,000 to 926,000 acre-feet of water 
(Attachment No. 6). With evaporation, evapotranspiration and seepage, 
much of this storage was renewable on an annual or even more frequent 
basis (Attachment No. 6). Instead, however, most of the water from 
these drained wetlands now finds its way directly into Devils Lake.
    It is against this background of ill-advised and frequently 
irresponsible water resource management, predicated on the water 
management philosophy of creating a flood and then dumping it 
downstream, that the current Devils Lake Outlet proposal must be 
considered.
    It is, of course, axiomatic that without high levels of 
precipitation, flooding in the Devils Lake Basin would less severe, and 
that with high precipitation levels, Devils Lake would still rise even 
if there had been no wetland drainage in the Basin. However, common 
sense tells us that the drainage of 189,000 acres of wetlands capable 
of storing nearly a million acre-feet of water accelerates the rate and 
intensifies the severity of flooding around Devils Lake at any given 
level of precipitation. Thus, the encroachment of development on the 
bed of Devils Lake coupled with extensive wetland drainage throughout 
the Basin set the stage for disaster when heavy precipitation returned 
4 years ago. Between 1970 and 1993, Devils Lake had fluctuated between 
elevations of 1420 and 1429 feet, and in 1993 it stood at 1424 feet. 
However, with the high levels of precipitation since 1993, the lake 
rose seven feet to elevation 1431 feet in 1994, then seven more feet to 
elevation 1438 in 1996, and this year it reached 1443 feet msl.
Lack of Economic Justification
    In 1990, the Corps of Engineers was authorized to conduct a study 
of the Devils Lake Basin, including plans for an inlet and an outlet. 
However, the Corps concluded that an outlet would produce only $0.39 in 
benefits for each dollar of cost (U.S. Army Corps of Engineers, 1994). 
In February, 1996, the Corps released a Devils Lake Contingency Plan 
that had been developed at the request of the North Dakota 
Congressional Delegation. The plan discussed a variety of measures to 
deal with the flooding problems in the Devils Lake Basin, including 
storage of water in drained wetlands (estimated by the Corps to have a 
potential of 657,000 acre-feet, which is equivalent to about seven feet 
off the current level of Devils Lake), raising roads, raising the dike 
protecting the City of Devils Lake, dining and moving houses, and flood 
insurance, as well as construction of an outlet to the Sheyenne River 
(U.S. Army Corps of Engineers, 1996a). No benefit/cost analysis was 
provided for the outlet.
    Since the Corps calculated that the benefit/cost ratio of an outlet 
would be only 0.39/1.00, well over $100 million have been spent to move 
some 300 houses and other structures, to raise roads, to build and 
raise dikes and to implement other measures to minimize the damages 
resulting from the high water levels (Attachment No. 7), thus reducing 
even further any benefits of an outlet. It is obvious, therefore, that 
the proposed outlet from Devils Lake is devoid of any economic 
justification.
Lack of Engineering Feasibility
    Disregarding other components of the Corps' 1996 Contingency Plan 
and the lack of economic feasibility of an outlet disclosed in the 
Corps' 1994 report, in May, 1996, the North Dakota Congressional 
Delegation requested that the Corps select an outlet plan from its 1996 
report and, within 90 days, develop a Devils Lake Emergency Outlet Plan 
which would be compatible with an inlet to bring Missouri River water 
into the lake (U.S. Army Corps of Engineers, 1996b). With discharges 
restricted to a period from May through November and limited by water 
quality in Devils Lake and the channel capacity of the Sheyenne River, 
the Corps selected a 200 cfs outlet plan. The Corps estimated that, had 
the outlet been in operation in 1994, it would have lowered the level 
of Devils Lake by only 13 inches by October of 1995 (U.S. Army Corps of 
Engineers, 1996b). However, the lake still would have risen five feet 
with the outlet in operation (U.S. Army Corps of Engineers, 1996b), and 
it would have risen another five feet since 1995. As the Corps points 
out:
    ``. . . a 1-day, 1-inch rainfall on the lake is equivalent to an 
inflow of over 3,000 cfs, 15 times the EOP's 200-cfs design capacity. 
Big Coulee and Channel A inflows also exceeded 3,000 cfs in the spring 
of 1995.'' (U.S. Army Corps of Engineers, 1996b)
    The inadequacy of an outlet in solving the high water problems at 
Devils Lake is further demonstrated by comparing its discharge under 
optimum conditions of some 75,000 acre-feet per year with the inflows 
to the lake from Channel ``A'' alone, which were 145,200 acre-feet in 
1993, 73,420 acre-feet in 1994, and 116,756 acre-feet in 1995 (U.S. 
Army Corps of Engineers, 1996a). In other words, in addition to being 
economically infeasible, the proposed Devils Lake outlet simply 
wouldn't work to prevent flooding around the lake.
Lack of Environmental Impact Analysis
    Although the proposed outlet would do little to alleviate the high 
water problems at Devils Lake, it would create substantial problems 
downstream on the Sheyenne River and on the Red River of the North, 
which forms the border between North Dakota and Minnesota and flows 
into Manitoba. In the area where the outlet would discharge, the 
Sheyenne River could more accurately be characterized as a small 
prairie creek, with a maximum channel capacity of 500 cfs (U.S. Army 
Corps of Engineers, 1996b). Typically, prairie streams are 
characterized by high flows in the spring and at times of heavy 
precipitation, but generally low flows the rest of the year.
    The Corps' Emergency Outlet Plan report notes specifically that the 
environmental effects of the outlet to Devils Lake and the Sheyenne 
River had not been addressed, and it emphasizes that:
    ``Due to the preliminary nature of the EOP and uncertainties 
regarding effects from operation of the outlet, more detailed 
information is required to fully identify the impacts of an emergency 
outlet.'' (U.S. Army Corps of Engineers, 1996b)
    However, the Corps acknowledges that:
    ``Potential effects include changes in flow conditions, water 
quality, and groundwater elevations that, in turn, may result in 
subtle, long-term changes to existing ecosystems and may not be readily 
noticeable or quantifiable without extensive monitoring programs.'' 
(U.S. Army Corps of Engineers, 1996b)
    We do know that subjecting the Sheyenne River to prolonged periods 
of high flows with discharges from the Devils Lake Outlet will alter 
its hydrologic characteristics and result in destabilization, erosion 
and remodeling of the stream bed, with the sediments being deposited 
downstream in Lake Ashtabula where they will cause degradation of water 
quality and deterioration of the fishery. It will take decades for the 
channel to adjust to the new flow regimen and to restabilize.
    Those living downstream on the Sheyenne and Red rivers know that, 
when Devils Lake continues to rise after the outlet is constructed, the 
same pressures will then mount again to increase the discharge from the 
200 cfs outlined in the Corps' Emergency Outlet Plan, thus further 
escalating the downstream impacts. In fact, even before the first spade 
of dirt has been turned for construction of the outlet, the North 
Dakota State Engineer already has proposed increasing the discharge to 
300 cfs (Attachment No. 7). In the meantime, if the outlet is 
constructed following this piecemeal approach, the Congress can expect 
the North Dakota Congressional Delegation to be coming back again and 
again over the years for more millions of dollars to ``mitigate'' the 
impacts of the outlet they are asking this Committee today to endorse.
    Other potential adverse impacts of the outlet already identified by 
the Corps's preliminary reconnaissance-level study include (1) 
worsening of future low-level situations where removal of water could 
jeopardize the Devils Lake fishery, (2) increased mercury levels in 
downstream aquatic systems, (3) persistent high sulfate levels in Lake 
Ashtabula on the Sheyenne River during drought conditions, (4) higher 
water treatment costs for cities using river water (which include Fargo 
and Grand Forks, North Dakota), and (5) increased frequency, duration 
and magnitude of violations of North Dakota, Minnesota and 
International Red River Total Dissolved Solids standards (U.S. Army 
Corps of Engineers, 1996b). These potential adverse impacts have not 
yet been adequately evaluated to permit a determination of whether or 
not they can be effectively mitigated or, if they can, the cost of 
doing so. The Corps notes:
    ``Consequently, the outlet should not be operated unless a serious 
flood threat is developing. Unfortunately, lake behavior is not 
predictable.'' (U.S. Army Corps of Engineers, 1996b)
    Proponents of the Devils Lake Outlet argue that, without the 
outlet, if Devils Lake continues to rise to 1457 feet msl and overflows 
to the Sheyenne River, the natural outlet will wash out, causing 
devastating floods downstream on the Sheyenne and Red rivers 
(Attachment No. 8). However, Devils Lake has overflowed to the Sheyenne 
River in the past without washing out the natural overflow channel 
(Attachment No. 9). As we already have seen, the capacity of the outlet 
would be only a fraction of the volume of the inflows, so if Devils 
Lake is destined to overflow to the Sheyenne River, it will do so 
whether or not the outlet is built. In the meantime, the Devils Lake 
Basin has the capacity to store an additional 2,000,000 acre-feet of 
water that would not impact downstream areas even if the lake were to 
overflow naturally. Of course, if Devils Lake should reach 1457 feet, 
it will not matter to those downstream on the Sheyenne and Red rivers 
whether the water comes from the proposed emergency outlet or from the 
natural outlet, or both.
    It would be difficult to imagine a more perfect example of the 
exact kinds of problems that the National Environmental Policy Act was 
intended to avoid. In fact, only 3 months ago, Senators Dorgan and 
Conrad agreed to an amendment to the fiscal year 1998 Energy and Water 
Development Appropriations Act, which appropriates emergency funding 
for construction of the outlet, requiring, in part, that:
    ``. . . the construction is technically sound, economically 
justified, and environmentally acceptable and in compliance with the 
National Environmental Policy Act of 1969 . . .'' (Congressional 
Record, July 15, 1997, S7484))
    However, just last week, under pressure from our North Dakota 
Congressional Delegation, President Clinton declared the Devils Lake 
outlet to be ``an emergency requirement'' (Attachment No. 10). Senator 
Conrad asserts that this declaration somehow compels construction of 
the outlet without preparation of a full environmental impact 
statement, without consideration of other more effective and feasible 
alternatives and without addressing the adverse impacts of the outlet 
until after they have occurred (Attachment No. 11). We strongly 
disagree with this interpretation, which is neither wise policy nor a 
legal requirement.
Curtailed Public Information and Stifled Debate
    The Corps' 1996 report on the Emergency Outlet Plan, Devils Lake, 
North Dakota, states explicitly that:
    ``While the EOP lacks much field data to verify existing conditions 
and a full assessment of impacts, it will be a common reference point 
for discussions among interested parties regarding the practicability 
and implementability of an emergency outlet.'' (Emphasis added) (U.S. 
Army Corps of Engineers, 1996b)
    However, despite widespread opposition to the outlet from 
downstream residents, other States, Manitoba and Canada, and 
conservation and water resource organizations (Attachments No. 12, 13, 
14, 15, 16, 17, 18, 19, 20, 21, 22), little factual information on the 
outlet has been provided to the public, and no forum has been 
established to permit meaningful public discussion of the outlet 
proposal. In fact, when residents of the Sheyenne River traveled to 
Bismarck last winter to present petitions opposing the outlet, Governor 
Schafer would not even meet with them. Now, the North Dakota 
Congressional Delegation is attempting to foreclose any further 
substantive opportunities for public participation in decisions 
regarding the proposed outlet by circumventing the NEPA process.
    Meanwhile, despite the unequivocal evidence that the proposed 
outlet would be ineffective in controlling the level of Devils Lake, 
proponents of the plan are misleading the public with fraudulent claims 
that an outlet is ``a permanent solution'' to the problems caused by 
the rising lake (Attachment No. 23). Clearly, there can be no 
meaningful debate when the public is deprived of factual information on 
the outlet and is provided instead with such patently false promotional 
propaganda.
An Outlet Means An Inlet
    While the North Dakota Congressional Delegation is telling the 
Congress that it has abandoned all thoughts of seeking authorization 
for an inlet and is now interested only in an outlet from Devils Lake, 
politicians and proponents of the outlet are telling a very different 
story back in North Dakota. For example, Devils Lake Mayor Fred Bott 
was quoted in July as saying that an inlet is less important now and:
    ``We so desperately need the outlet. That's what we need to deal 
with right now.'' (Attachment No. 24)
    At the same time Devils Lake Emergency Management Committee co-
chairman Vern Thompson also was quoted as saying that now is not the 
time to debate an inlet and:
    ``We've got to take this thing one step at a time, and an outlet is 
our big issue now. Let's do what we can today, and deal with the rest 
of it at a later date.''
    (Attachment No. 24).
    A month later, in typical North Dakota water management style, 
Thompson was again quoted as saying:
    ``I'd rather piecemeal this together than take a shot at the 
grandiose plan and lose it all.'' (Attachment No. 25)
    On July 30, Senators Dorgan and Conrad were reported to have 
reminded North Dakota water development interests that the Congress 
still can authorize the inlet later (Attachment No. 24).
    Then in an August 1, 1997, letter to Senate Majority Leader Trent 
Lott, Governor Schafer and the Majority Leaders of the State 
Legislature protested that:
    ``. . . Abandoning for all time the possibility for an inlet runs 
contrary to the statewide water development plan, which envisions 
stabilization of Devils Lake. It represents a significant statewide 
policy shift, made suddenly at the Congressional level with minimal 
input from North Dakota.'' (Attachment No. 26)
    When North Dakota State Engineer David Sprynczynatyk was discussing 
the Devils Lake outlet at the October 2, 1997, meeting of the Red River 
Basin Board, he was asked by a Canadian official about the State's 
plans for an inlet. Mr. Sprynczynatyk's response was:
    ``That's an issue for another day and time.''
    Thus, by their own admissions, North Dakota politicians and water 
development interests are steadfastly pursuing a calculated piecemeal 
strategy to construct an inlet to Devils Lake, and in September, 
Senators Dorgan and Conrad revealed their plan for getting the inlet 
built under the same guise they have used for the outlet: now it's an 
``emergency inlet.'' (in Attachment No. 27, Senator Conrad and Senator 
Dorgan outline how the need for an ``emergency inlet'' could be 
justified when the lake level begins to decline.)
The Real Motivation Behind the Outlet: the Garrison Diversion Project
    It is instructive to note that the North Dakota Congressional 
Delegation is, at this moment, preparing to introduce legislation to 
amend the Garrison Diversion Unit authorization to include enhancement 
of fisheries habitat as a project purpose, thus providing for 
construction of an inlet whenever in the future the lake begins to 
decline. Indeed, the future already is here. In his October 2, 1997, 
``Review of Rough Draft Amendments for Garrison,'' Garrison Diversion 
Conservancy District Manager Warren Jamison points out to the 
Congressional Delegation that:
    ``You should note that no mention of Devils Lake stabilization is 
made. I understand that is the result of the February meeting with the 
conservation interests. This leaves Devils Lake stabilization as an 
authorized feature of the project by virtue of its inclusion in the 
1965 Act. I support this under the circumstances.'' (Emphasis added) 
(Attachment No. 28)
    Lest there be any doubt, the 1965 Garrison authorization included a 
400 cfs inlet to deliver Missouri River water to Devils Lake and a 200 
cfs outlet to the Sheyenne River (U.S. Bureau of Reclamation. 1965).
    It is important to recognize that the real motivation behind North 
Dakota's pursuit of an ineffective and economically infeasible outlet 
from Devils Lake has little to do with any legitimate ``emergency,'' 
but instead is simply another element of the State's strategy for 
piecemealing together its plan for a $1,500,000,000 Garrison Diversion 
project: with the current high water levels in Devils Lake, the outlet 
is needed before the inlet can be discussed, but as soon as the lake 
begins to decline, an ``emergency inlet'' can then be promoted, and of 
course to deliver Missouri River water to ``stabilize'' the lake 
through the inlet would require completion of the stalled Garrison 
Diversion project's principal supply system (Attachments No. 24, 29). 
Unfortunately, we are greatly concerned that the Administration has 
allowed itself to be duped into buying into the ruse, because the only 
``emergency'' that the outlet would address is North Dakota's lack of 
justification for the Garrison Diversion project (U.S. Department of 
the Interior, 1990; Garrison Diversion Unit Task Group, 1990).
    The impacts resulting from the transfer of Missouri River water 
into the Hudson Bay Basin under the Garrison Diversion project have 
been a matter of great concern to the governments of Manitoba and 
Canada. In 1975, the issue was referred to the International Joint 
Commission, and after scientists from both countries studied the 
project for 2 years, the Commission concluded that:
    ``. . . the impact of [the transfer of fish species, fish diseases 
and fish parasites indigenous to the Missouri River Basin into the 
Hudson Bay Drainage Basin] would be irreversible and would become 
apparent in about 10 years, with full impact in 25 to 50 years. If it 
were to occur, the undesirable foreign species which have a high 
reproductive potential could successfully compete for food and space, 
could replace indigenous forage fish, could alter the balance between 
existing predators and their prey, could carry parasites and could 
destroy some valuable present species. The inter-basin transfer could 
also introduce fish diseases by a water medium. In addition to the 
general ecosystem destabilization that could occur, the population of 
whitefish, walleye and sauger could be reduced by 50 percent in Lakes 
Winnipeg and Manitoba. This would, in turn, cause an annual loss of $6 
million (Can.) to the commercial fishing industry of Manitoba and could 
possibly eliminate it. The Manitoba sports fishery could experience an 
annual loss of 26,000 recreation days and $130,000 in related revenue . 
. .'' (International Joint Commission, 1977).
    It also is important to note that, in the 20 years since the 
International Joint Commission issued its report, no reliable and 
economically feasible way has yet been developed to assure that the 
delivery of Missouri River water to Devils Lake would not result in 
violation of the Boundary Waters Treaty of 1909.
    If this Committee has any doubt that construction of the Devils 
Lake outlet is simply the next step toward completion of the Garrison 
Diversion Unit and violation of the Boundary Waters Treaty, we would 
suggest that you ask Governor Schafer, Senator Conrad, Senator Dorgan, 
Congressman Pomeroy and the leadership of the State Legislature to sign 
pledges committing the State permanently to abandoning any and all 
efforts to secure an inlet to Devils Lake, and to reimbursing the U.S. 
Treasury for all costs associated with construction of the outlet if 
the State should violate its commitment.
Real Solutions for the Problems at Devils Lake
    The problems at Devils Lake are serious and require solutions, but 
they are no different than the problems being faced by many others in 
the upper Midwest where rising lake levels are flooding roads and 
threatening homes. Unlike the disaster that hit Grand Forks in April, 
where the entire city was inundated in a matter of hours, the waters at 
Devils Lake have been rising gradually over a period of years, allowing 
ample time to move homes, raise roads, build dikes and implement other 
measures.
    The single most effective solution for dealing with the rising 
level of Devils Lake is to continue progressive evacuation of the flood 
plain, to elevation 1457 feet met if necessary. As we learned after the 
1993 flood on the Mississippi River, this may be the only really 
permanent solution.
    Under the Corps' Emergency Outlet Plan, the trigger elevation for 
operation of the emergency outlet would be 1428 feet (U.S. Army Corps 
of Engineers, 1996b). The construction costs for the outlet are 
estimated at $34,000,000 with annual operation and maintenance costs of 
$1,500,000 (Attachment No. 7). The Corps estimates that an additional 
63,000 acres would be flooded if the lake were to rise to elevation 
1455 feet, and it also determined in 1994 that cropland in the Devils 
Lake area has a value of $557 per acre, pasture land has a value of 
$203 per acre and other lands including wetlands have a value of $150 
per acre (U.S. Army Corps of Engineers, 1994). Therefore, if the full 
cropland price of $557 per acre were paid for all of the land that 
would be flooded to elevation 1455, the land still could be purchased 
for $35,091,000--less than the cost of building the outlet and 
operating it for 1 year.
    In the meantime, the dike protecting the City of Devils Lake 
already is being raised to provide protection at a lake level of 1450 
feet, and the dike could be raised further to provide protection to an 
elevation of 1457 feet where the lake would discharge naturally to the 
Sheyenne River. In addition, funding is available through programs such 
as the Conservation Reserve and Wetland Reserve to compensate farmers 
for water being held on their lands.
    The inundation of roads creates inconvenience, although 
substantially less than was caused by the flooding of 370,000 acres 
when Garrison Dam was built 100 miles away on the Missouri River. 
Nevertheless, consideration could be given to maintaining key highways 
across the lake, either through continuing to raise the roads or 
constructing bridges.
    Finally, restoration of wetlands should be encouraged, and if 
necessary required, throughout the Basin. Although this might not 
prevent Devils Lake ultimately from overflowing to the Sheyenne River, 
it would be far more effective than the proposed outlet in retarding 
the rise of the lake, and, unlike the outlet, it would significantly 
reduce the volume of the flows if the lake ever were to discharge to 
the Sheyenne River.
                            recommendations
    In view of the many people downstream in North Dakota and in other 
States and Canada who would be affected by an outlet from Devils Lake 
but have been deprived of meaningful participation in decisions 
regarding the outlet, and in view of the substantial evidence of the 
outlet's lack of economic and engineering rationality or environmental 
acceptability, we strongly recommend that the Committee on Environment 
and Public Works reiterate to the President and the Executive Branch 
the requirements that the Congress has specified in the fiscal year 
1998 Energy and Water Development Appropriations Act must be met before 
construction may be initiated on a Devils Lake Outlet. As you know, 
these involve a long list of prerequisites, including a report by the 
Secretary of the Army to the Congress confirming that ``the 
construction is technically sound, economically justified, 
environmentally acceptable and in compliance with the National 
Environmental Policy Act of 1969.''
    We would further recommend that you advise the President that funds 
are available which, if necessary, could be used to expedite full NEPA 
compliance, but that the many interests that would be affected by the 
outlet and the substantial questions that exist regarding its economic 
feasibility, technical soundness and environmental acceptability 
dictate that standard NEPA procedures not be waived.
    Thank you.
    Gary L. Pearson, D.V.M. Vice President Dakota Prairie Audubon 
Society
                               references
    Devils Lake Basin Advisory Committee. Study Report, Volume 1. 
Richard Ellison, Project Director. 235 pp.
    Garrison Diversion Unit Task Group. 1990. Garrison Diversion Unit 
Task Group Report. October 1990. 42 pp.
    International Joint Commission. 1977. Transboundary Implications of 
the Garrison Diversion Unit. An IJC Report to the Governments of Canada 
and the United States. 144 pp.
    U.S. Army Corps of Engineers. 1994. Devils Lake, North Dakota, 
Stage 1A, Issues Resolution Conference Agenda and Background 
Information. 20 pp.
    U.S. Army Corps of Engineers. 1996a. Devils Lake, North Dakota, 
Contingency Plan.
    U.S. Army Corps of Engineers. 1996b. Emergency Outlet Plan, Devils 
Lake, North Dakota. St. Paul District.
    U.S. Bureau of Reclamation. 1974. Final Environmental Statement, 
Initial Stage, Garrison Diversion Unit, Pick-Sloan Missouri Basin 
Program, North Dakota, INT FES 74-3. U.S. Department of the Interior.
    U.S. Bureau of Reclamation. 1965. Supplemental Report on Garrison 
Diversion Unit (Initial Stage--250,000 Acres), Garrison Diversion Unit, 
North Dakota--South Dakota, Missouri River Basin Project. November 1662 
(Revised February 1965). Department of the Interior. 46 pp.
    U.S. Department of the Interior. 1990. Final Audit Report. Garrison 
Diversion Unit Cost Allocation, Bureau of Reclamation. Office of 
Inspector General. Report No. 9049. 38 pp.
                          list of attachments
    1. Fifth Biennial Report of the State Engineer to the Governor of 
North Dakota For the Years 1911-1912. State of North Dakota Public 
Document No. 21. Knight Printing Company, Fargo. pp. 19-31.
    2. Zaleski, John Ir. High Water Table Problem at New Industrial 
Park. Devils Lake Daily Journal (Devils Laker N. D.) August 18, 1981.
    3. Pearson, Gary L. Draining the Great Marsh. USA Today. November, 
1985. pp. 83-89.
    4. Pearson, Gary L. Statement Submitted at the Public Meeting for 
the Devils Lake Basin Study, Bismarck, North Dakota, June 7, 1976.
    5. Pahy, Vern, North Dakota State Engineer. Letter to President, 
North Dakota Chapter of The Wildlife Society. August 24, 1981.
    6. Sapa, Allyn J., Field Supervisor, North Dakota Field Office, 
U.S. Fish and Wildlife Service. Letter to Steve Blomeke, Director, 
National Wildlife Federation. January 31, 1997.
    7. Weixel, Gordon. State picks an outlet. Devils Lake Daily Journal 
(Devils Lake, N. D.) July 23, 1997.
    8. Stromme, Floyd. Rising lake not just a problem for Devils Lake. 
The Forum (Fargo, N. D.) July 14, 1996.
    9. North Dakota State Water Commission. News Release. Devils Lake 
Outlet Sedimentation Studies Completed. Undated.
    lo. Clinton, William J. Statement by the President. October 13, 
1997.
    11. Associated Press. Clinton clears way for outlet. Jamestown Sun 
(Jamestown, N. D.) October 14, 1997.
    12. Harris, Greg. Unconvinced. Residents along Sheyenne river 
respond coolly to Devils Lake emergency outlet proposal. Jamestown Sun 
(Jamestown, N. D.) October 3, 1996.
    13. Thorfinnson, Hugh. Devils Lake outlet will harm Sheyenne River. 
Other Views. The Forum (Fargo, N. D.) February 2, 1997.
    14. Voldal, Henrik. Misconceptions exist about proposed outlet. 
Jamestown Sun (Jamestown, N. D.) August 26, 1997.

    15. Rebuffoni, Dean. North Dakota flood-control. Critics of a 
project that would divert water from Devils Lake into the Red River 
range from environmentalists to the Minnesota DNR to Canadian 
officials. Star Tribune (Minneapolis, Min.) May 22, 1997.
    16. Sando, Rodney W., Commissioner, Minnesota Department of Natural 
Resources. Letter to Senator Paul Wellstone. April 4, 1997.
    17. Nixon, Jeremiah W. Attorney General of Missouri. Letter to 
Kathleen A. McGinty, Chair, Council on Environmental Quality. September 
26, 1997.
    18. Waddell, D. G., Charge d'affaires, a.i., Canadian Embassy, 
Washington, D. C. Letter to Congressman Joseph M. McDade. September 11, 
1997.
    19. Resolution of the Upper Mississippi River Basin Association. 
September 24, 1997.
    20. Inland Rivers, Ports & Terminals, Inc. Resolution. September 
17, 1997.
    21. Beard, Daniel P., Senior Vice President for Public Policy, 
National Audubon Society, Mark Van Putten, President, National Wildlife 
Federation, and Brent Blackwelter, President, Friends of the Earth. 
Letter to President William J. Clinton. March 14, 1997.
    22. Pope, Carl, Executive Director, Sierra Club. Letter to Kathleen 
McGinty, Council on Environmental Quality. September 15, 1997.
    23. Lee, Sonja. Outlet plan gains approval. Bismarck Tribune 
(Bismarck, N. D.) July 23, 1997.
    24. Wetzel, Dale. Lawmakers: Dorgan amendment would wreck chances 
of Devils Lake Inlet. Jamestown Sun (Jamestown, N. D.) July 30, 1997.
    25. Associated Press. Officials cool to lake outlet delay proposal. 
The Forum (Fargo, N. D.) August 13, 1997.
    26. Schafer, Edward T. Governor of North Dakota, North Dakota House 
Majority Leader Representative John Dorso and North Dakota Senate 
Majority Leader Senator Gary Nelson. Letter to U.S. Senate Majority 
Leader Trent Lott. August 1, 1997.
    27. Davis, Don. N. D. senators push for emergency inlet. Devils 
Lake compromise a tough sell. Bismarck Tribune (Bismarck, N. D.) 
September 11, 1997.
    28. Jamison, Warren, Manager, Garrison Diversion Conservancy 
District. Review of Rough Draft Amendments for Garrison. October 2, 
1997. 13 pp.
    29. Pearson, Gary L. A Review of the Mid Dakota/Sheyenne Lake 
Development Plan Proposed by The State of North Dakota and The Garrison 
Diversion Conservancy District, January 1992. Prepared for The National 
Audubon Society and The National Wildlife Federation. June, 1992.
                               __________
 Responses by Gary Pearson to Additional Questions from Senator Chafee
                            Dakota Prairie Audubon Society,
                       Jamestown, ND 58402-1703, November 22, 1997.

The Honorable John H. Chafee, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510.

Dear Chairman Chafee: Thank you for your letter of November 7, 1997, 
with the additional questions regarding my testimony presented at the 
Senate Committee on Environment and Public Works' October 23, 1997, 
hearing on the proposed emergency outlet from Devils Lake to the 
Sheyenne River that have been submitted tty Members of the Committee. I 
appreciate the opportunity to provide additional information on this 
controversial proposal. I also appreciate the extension of time granted 
by the Committee staff which has enabled me to obtain current data in 
order to respond to the questions as specifically and factually as 
possible.
    For clarity of reference, in responding to the Committee's 
questions, additional attachments provided with these answers will be 
identified alphabetically, while the attachments submitted with my 
written statement at the October 23 hearing will retain their numerical 
designations.
    Question No. 1: You note that some 189,000 acres of wetlands 
capable of storing nearly a a million acre-feet of water has been 
drained for various purposes. What is being done to reverse this 
situation?
    Response: The ``short answer'' to this question is, virtually 
nothing. However, in responding more fully to this question, I believe 
that i' would be helpful to the Committee first to provide some 
background on the Devils Lake Basin. Therefore, Attachment A is a copy 
of a map of ``Surface Water Systems: Devils Lake Basin'' from the 1976 
Devils Luke Basin Advisory. Committee Study Report, showing the 
principal lakes and natural drainages in the Basin. Attachment B is a 
copy of a map from the from the U.S. Bureau of Reclamation's 1974 Final 
Environmental Impact Statement on the Garrison Diversion Unit, which 
shows in greater detail the four bays (West Bay, Main Bay, East Bay and 
East Devils Lake) that comprise Devils Lake, as well as their 
relationship to West and East Stump lakes. The principal point of 
natural inflows to Devils Lake is from Big Coulee (not shown on 
Attachment A), an extension of Mauvais Coulee that discharges into West 
Bay of Devils Lake (U.S. Army Corps of Engineers, 1988). Water from 
Edmore Coulee, St. Joe Coulee and Calio Coulee in the northern part of 
the Basin drains into the Chain Lakes, Dry Lake, Morrison Lake, 
Sweetwater Lake, and at times of high run-off, these lakes overflow to 
the west and ultimately discharge into Big Coulee and then into West 
Bay.
    Attachment C from the 1976 Devils Lake Basin Advisory Committee 
Study Report shows the extent of wetland drainage in the various 
watersheds of the Devils Lake Basin two decades ago. It should be noted 
that, by 1976, 40 percent of the wetlands in the Chain Lakes Watershed 
had been drained, 41 percent of the wetlands in the Edmore Watershed 
had been drained, and 73 percent of the wetlands in the Starkweather 
Watershed had been drained. The Devils Lake Basin Advisory Committee 
estimated that a total of 98,000 acres of wetlands had been drained in 
the Devils Lake Basin at that time (Devils Lake Basin Advisory 
Committee, 1976). The Nonh Dakota State Office of the U.S. Fish and 
Wildlife Service estimates that 189,000 acres of wetlands have now been 
drained in the Devils Lake Basin (Attachment D)--nearly double the 
number of acres of wetlands that had been drained 21 years ago at the 
time of the Devils Lake Basin Advisory Committee Study.
    Attachment E from the 1976 Devils Lake Basin Advisory Committee 
Study Report shows the ``Primary Flood-Prone Areas: Devils Lake 
Basin.'' This, of course, was before the recent flooding problem 
developed around Devils Lake proper, and it shows that the most severe 
flooding was occurring in the lower portions of the Chain Lakes, 
Starkweather and Edmore watersheds--the same watersheds having the most 
extensive wetland drainage. Although drainage proponents deny it and 
North Dakota politicians try to ignore it, the flooding problems in the 
tower portions of these watershed had been exacerbated by the extensive 
wetland drainage throughout the watersheds, especially in their upper 
reaches (See Attachment No. 3, p. 86, and Attachment No. 29, pp. 61-63, 
to written statement and pp. 3-4 of written statement).
    Attachment F from the 1976 Devils Lake Basin Advisory Committee 
Study Report shows the ``Structural Projects'' recommended by the 
Committee. As noted in my written statement, most of these have now 
been constructed, including the drainage channels from Hurricane Lake, 
Lake Irvine, Morrison Lake, and Dry Lake. It should be noted that the 
drainage channel from Dry Lake to Six-Mile Bay of Devils Lake (Channel 
``A'' of the Soil Conservation Service's abandoned Starkweather 
Watershed Project, See pp 3-4 of written statement), which was 
completed by the State of North Dakota in 1978, now drains the runoff, 
including the water from drained wetlands, from the Chain Lakes, 
Starkweather and Edmore watersheds directly into Six-Mile Bay of Devils 
Lake. The direct discharge of this water from these extensively drained 
watersheds into Devil Lake reduces the opportunities (time and surface 
area) for evaporation and infiltration, so Channel ``A'' not only 
accelerates the rate of flow of water from the northern part of the 
Basin into Devils lake, but it also increases the volume. Attachment G 
from the February 26, 1985, Devil.s Lake Daily Journal shows that 
Devils Lake, where an average of 25 percent of the watershed was 
estimated to have been drained, rose 13.2 feet between 1964 and 1984, 
while nearby West Stump Lake, where only 8 percent of the watershed was 
estimated to have tureen drained, rose only 1.8 feet.
    As the attached copy of a story from the August, 14, 1975, 
Jamestown Sun reports, the rising level of Devils Lake already was 
causing problems:
    ``. . . But today too much water plagues the lake and nearby 
residents.
    ``. . . Between 1972 and 1975, the lake rose six feet--[to 1425 
feet msl], becoming a threat to low-lying roads and private property 
along the shore.
    ``. . . Now the city is planning to build a dike between the lake 
and the town and the Army Corps of Engineers is working with local 
officials to plan for a possible flood during spring runoff.
    ``A heavy runoff could raise the water level one or two feet and 
flood businesses and private property, city and State authorities said.
    ``The State Highway Department says North Dakota 57, at the narrows 
between the main lake and East Bay, has been damaged most by high water 
. . .
    ``County and township roads have also been damaged by high water . 
. .'' (Attachment H).
    Despite the clear recognition by Federal, State and local officials 
as early as 1975 that the rising level of Devils Lake was threatening 
roads, businesses and private property, in 1975 the State Legislature 
authorized construction of Channel ``A,'' in 1976 the Devils Lake Basin 
Advisory Committee recommended over 200 miles of channelization in the 
Devils Lake Basin, in 1977 the Ramsey County Water Management District, 
with the approval of the Corps of Engineers (See Attachment 1) and 
funding from the State, proceeded to construct Channel ``A,'' in 1977 
the State Engineer approved the drainage of Hurricane Lake into Devils 
Lake, and in 1983, when the Ramsey and Benson County Commissions 
already had been seeking disaster designation for the area (Attachment 
J) and again with the approval of the State Engineer, the Ramsey County 
Water Resource District drained Lake Irvine arid Morrison Lake into 
Devils Lake.
    When the North Dakota Chapter of The Wildlife Society suggested to 
the North Dakota State Engineer in 1982 that the operating plan for 
Channel ``A,'' which is based solely on the level of Dry Lake and does 
not consider the impacts of discharges on flooding problems in Devils 
Lake, be modified as pan of an integrated flood control program for 
both Dry Lake and Devils Lake (Attachment K), the State Engineer said 
that would be ``impractical'' (Attachment L). As the following figures 
from the Corps of Engineers' 1996 ``Devils Lake, North Dakota, 
Contingency Plan'' (U.S. Army Corps of Engineers, 1996a) show, the 
inflows to Devils Lake from Channel ``A'' approach and frequently 
exceed those from Big Coulee:

                                                                                                                
----------------------------------------------------------------------------------------------------------------
                                                                 Big Coulee inflow (ac-   Channel A inflow (ac- 
                             Year                                         ft)                      ft)          
----------------------------------------------------------------------------------------------------------------
1979..........................................................                  171,900                       NA
1987..........................................................                   47,470                   69,950
1993..........................................................                   76,250                  145,200
1994..........................................................                   88,220                   73,420
1995..........................................................                  199,242                  166,756
----------------------------------------------------------------------------------------------------------------

    As noted above, with Devils Lake reaching an elevation of 1427 feet 
msl, the Ramsey and Benson County Commissions already were seeking 
disaster designation for the area in 1982 (Attachment J). However, the 
attitude of drainage proponents in the face of these escalating 
problems created by the rising level of Devils Lake was still being 
expressed 3 years later in 1985 by Ramesy County Water Resource 
District chairman and Devils Lake Basin Advisory Committee member 
Robert Garske:
    ``Wetland drains are a ``round robin'' that profit both farmers and 
businessmen, Garske said. Farmers can raise wheat instead of ducks on 
drained wetlands, and businessmen profit from more customers drawn to 
the Devils Lake fishery, which runoff water supports by keeping the 
lake from getting too salty and killing the fishery, he said.
    ``Rather than trying to hold (water) back, we need to figure out 
how to get more in,'' Garske said'' (Attachment G).
    Thus, at the same time that the rising lake already had been 
threatening roads, businesses and private property around Devils Lake 
for a decade, instead of implementing measures to curtail wetland 
drainage in the Devils Lake Basin, local water resource district 
officials were trying ``to figure out how to get more Iwaterl in'' the 
lake, and the State Engineer was approving more drainage in the Basin 
(See Attachment 5 to written statement and pp. 3-4 of written 
statement).
    At a June 22, 1983, public meeting held by the Corps of Engineers 
on water related problems in the Devils Lake Basin, the North Dakota 
Chapter of The Wildlife Society reviewed the history of water resource 
mismanagement in the Devils Lake Basin and recommended that the Corps 
1) place a ban on further wetland drainage in the Basin, 2) initiate a 
study of the impacts of current water management practices on Devils 
Lake, 3) conduct a comprehensive hydrologic investigation to identify 
the factors contributing to flooding and other water resource problems 
in the Basin, 4) assume the lead in developing a comprehensive water 
resource management program for the Basin, and 5) reject the 
alternative of an outlet to the Sheyenne River and require that the 
water resource management problems be resolved within the Basin 
(Attachment M). A decade and a half later, the Corps remains focused on 
the construction an outlet from Devils Lake to the Sheyenne Rivet, 
while still having not done the studies necessary to determine the 
causes of the problem and whether an outlet would be feasible or 
effective in alleviating it.
    Against this background, the question, therefore, becomes, what has 
been done in the last decade, and especially in the last 4 years since 
Devils Lake started its accelerated rise, to reverse this situation? 
Regrettably--and incredibly--the answer remains, virtually nothing.
    Neither the State Legislature, nor the Governor, nor the State 
Engineer, nor the county water resource districts in the Devils Lake 
Basin has imposed a prohibition against further wetland drainage in the 
Basin.
    The operating plan for Channel ``A'' has not been modified to 
reduce the flows into Devils Lake or to retard the rate of rise of 
Devils Lake at critical periods. In fact, on the rare occasions when 
the gates on Channel ``A'' have been closed, they reportedly have been 
surreptitiously opened under cover of darkness, and when chains were 
placed on the gates, they reportedly were cut, presumably by irate 
upstream farmers.
    No comprehensive program of wetland restoration has been 
implemented in the Devils Lake Basin.
    The State has initiated only token efforts to fabricate a facade 
for claiming that it is changing the irresponsible and destructive 
record of water resource mismanagement in the Devils Lake Basin which 
it has condoned and encouraged for the last half century.
    The Corps of Engineers' August 12, 1996, ``Emergency Outlet Plan, 
Devils Lake, North Dakota'' describes the State's purported efforts at 
Upper Basin Storage:
    ``The Contingency Plan discussed the State's $5,800,000 plan to 
retain runoff on public and private lands to prevent or delay an 
estimated 75,000 ac-h from reaching Devils Lake, equivalent to nearly I 
foot off the current 1437.7+. This proposal included (1) $2,600,000 for 
the U.S. Fish and Wildlife Service (USFWS) to develop 14,900 ac-ft of 
storage on public lands (to supplement 1,300 ac-ft of storage completed 
in the fall of 1995), (2) a $50,000 NDSWC grant to the Devils Lake 
Basin Joint Water Resource Board to acquire the rights to 3,000 ac-ft 
of retention on Conservation Reserve Program (CRP) lands, (a) $800,000 
to raise the outlet sills in the Chain of Lakes and to add 38,000 ac-ft 
to the lakes' capacity, and (4) $2,450,000 to store 18,000 ac-ft on 
small private tracts (farmland, potholes, etc.), including an estimated 
$1,000,000 to construct control structures and an estimated $1,450,000 
annually to lease the land for water storage. The North Dakota 
Congressional Delegation is supporting the State's efforts via Federal 
funding and coordination.'' (U.S. Army Corps of Engineers, 1996b)
    Of course, the Fish and Wildlife Service was not responsible for 
the wetland drainage in the Devils Lake Basin, so development of 
additional storage on public lands at Federal expense does not 
represent reversal of the wetland drainage situation in the Basin. The 
$50,000 North Dakota State Water Commission grant to acquire rights to 
3,000 ac-ft of retention on CRP lands provides farmers with a double 
payment for those lands, but it is not clear how much of the 3,000 
acre-feet of storage is simply on land already flooded and how much 
actually is in restored wetlands.
    The 18,000 acre-feet of storage proposed on private lands 
represents only 1.9-3.7 percent of the storage capacity of the 189,000 
acres of wetlands that have been drained in the Devils Lake Basin, so 
it does not represent a significant reversal of wetland drainage in the 
Basin. Since the State Water Commission announced the ``Available 
Storage Acreage Program'' (ASAP), approximately 13,000 acres of 
privately owned wetlands at 167 sites and having 22,000 acre-feet of 
storage have been restored in the Devils Lake Basin. However, this 
still represents only 2.3-4.5 percent of the storage capacity of the 
189,000 acres of wetlands that have been drained in the Basin.
    The North Dakota Legislative Assembly habitually has refused to 
fund the State Water Bank Program, but recently $500,000 were provided 
for the program through a Memorandum of Understanding with the North 
Dakota Game and Fish Department, which likely means that a good portion 
of the funds will come from sportsmen's license revenues and the 
Department's budget. The funds are targeted for the upper Devils Lake 
Basin with 5-10 year easement contracts. To date, 114 acre-feet of 
storage at 4 sites have been acquired in the upper Devils Lake Basin 
under the State Water Bank Program.
    In June of this year, Governor Schafer ordered the State Water 
Commission to identify and close illegal drains in the Devils Lake 
Basin [Attachment N). Under the Governor's order, the State Engineer is 
to identify illegal drains and the county water resource boards are to 
conduct investigations and determine what action is to be taken 
(Attachment O). Of course, putting the State Engineer and the county 
water resource hoards in charge of investigating illegal wetland 
drainage in the Devils Lake Basin is akin to putting John Erlichman and 
Gordon Liddy in charge of the Watergate investigation--it simply is not 
reasonable to believe that they are going to document their own 
violations of the law for the past 40 years. Not surprisingly, 
therefore, at the time the Governor issued his order, the State 
Engineer already was minimizing the amount of illegal drainage in the 
basin by estimating it at ``at least 20,000 acre-feet of water'' 
(Attachment N). If it is assumed that the illegally drained wetlands 
averaged 2.5 feet in depth, this would put the State Engineer's 
estimate at only 8,000 acres of wetlands drained illegally in the 
Basin. Of course, this would imply that valid permits were issued for 
the remaining 181,000 acres of drained wetlands, or that they all 
occurred in watersheds under the 80 acre minimum requiring a drainage 
permit, neither of which is even remotely plausible.
    As is pointed out in Attachment 3 (p. 88) and Attachment 29 (pp. 
86-87) to my written statement, the North Dakota wetland drainage 
statute is neither enforced nor enforceable and, consequently, it is 
routinely ignored and circumvented by drainage interests, including the 
State Engineer and county water resource districts through such ploys 
as 1) denying that drainage has occurred, 2) arbitrarily determining 
that a watershed is under the 80-acre minimum where a permit is 
required, 3) determining that the watershed is drained by several 
ditches, each draining an area under the minimum requiring a permit, 4) 
determining that the drainage is a ``clean-out'' of an existing drain, 
therefore, not requiring a permit, or if these fail, simply (a) issuing 
a permit after-the-fact. There is little question that these same 
tactics will continue to he employed to ``legalize'' drains identified 
under the Governor's order (Attachment O).
    It is not surprising, therefore. that less than a month after the 
Governor had announced his order, the Bismarck Tribune reported that:
    ``So far, the State Water Commission has found 22 drains that it 
suspects are illegal, said Wayne Simon, chairman of the Ramsey County 
Water Resource District.
    Simon said the district will investigate some of the drains to 
determine whether to close them. But he said the district needs the 
money, and doesn't want to do the job anyway.
    ``We don't feel that there are illegal drains up there,'' Simon 
said. ``We would like to find a way to make them all legal.'' 
(Attachment P)
    Mr. Simon has since become the coordinator for the Devils Lake Task 
Force, which ostensibly is seeking solutions to the water problems in 
the Devils Lake Basin.
    Shortly after the Governor's order was issued, the Devils Lake 
Daily Journal reported:
    ``But water board directors aren't very enthusiastic about going 
out and declaring established drains illegal. They feel it will 
increase tensions among a group--the agricultural community--that is 
already stressed by 4 years of flooding, insect infestations and Crop 
disease.''
    ``If people start pointing fingers they are probably going to get 
shot at,'' says Ramsey County water board member Robbin McMorrin, who 
urged that Sprynczynatyk and Governor Schafer be on hand when water 
boards attempt to close the `illegal drains'.'' (Attachment O)
    Of course, ``tension'' and ``stress'' are no excuse for violating 
the law, creating hardships for others or threatening to shoot those 
who might hold opposing views. Nevertheless, the intimidation had the 
desired effect, and the Grand Forks Herald reported that:
    ``. . . IGovernorl Schafer and the North Dakota State Water 
Commission said they are not blaming upper Basin drainage as a 
significant contributor to the Devils Lake situation.
    Schafer said he doesn't foresee a mass closing of drains to stop 
flooding nor does he think upper basin drainage is the main reason for 
flooding.'' (Attachment Q).
    And the Bismarck Tribune reported that:
    ``The Governor said he has worked diligently on solutions such as 
an outlet, and he admits illegal drains are an insignificant part of 
the problem at Devils Lake, which has tripled in volume since 1993.
    Schafer said the point of closing illegal drains is to assure 
downstream people who are hesitant to accept water from an outlet that 
other measures also are being taken.
    ``I don't want anybody to be able to say North Dakota isn't doing 
it's [sic] job,'' Schafer said. ``I suppose you could say that is 
politics.'' (Attachment P)
    Consequently, with renegade farmers in the Devils Lake Basin openly 
making implied threats that anyone--apparently including the Governor 
and the State Engineer--with the temerity to suggest that the 491,000 
to 926,000 acre-feet of water from the 189,000 acres of wetlands they 
have drained might be contributing to the flooding problem at Devils 
Lake could be shot, with the State Engineer assuring them that drainage 
is not the problem and that he will make only a token effort to 
identify illegal drains, with county water resource district officials 
assuring them that any illegal drains that are identified will simply 
be made legal, and with the Governor telling them that they are not 
responsible for the flooding problem at Devils Lake and that his order 
to close illegal drains is only a perfunctory political ploy designed 
to quell criticism of the State's abysmal record of failure to regulate 
wetland drainage in the Basin so they can get on with building an 
outlet to the Sheyenne River, it is not surprising that nothing has 
been done to reverse the deplorable wetland drainage situation in the 
Devils Lake Basin.

    Question 2: You state that, ``If Devils Lake is destined to 
overflow to the Sheyenne River, it will do so whether or not the outlet 
is built.'' Please explain this further.
    Response: First, it is important to recognize that the likelihood 
of Devils lake overflowing to the Sheyenne River is extremely remote. 
Despite a long geologic record of wide cyclic fluctuations in the level 
of Devils Lake, it has overflowed to the Sheyenne River only twice in 
the last 4,000 years (Attachment R).
    (Note that, although Dr. Bluemle states that wetland drainage is 
not responsible for the overall behavior of the lake and that only an 
inlet and an outlet can remedy the fluctuations of the lake, he does 
not address the incremental contribution of wetland drainage to current 
flooding problems, nor does he address the feasibility of delivering 
and removing the volumes of water to and from Devils Lake that would be 
required to stabilize the lake at an elevation of 1428 feet msl and at 
a surface area of 56,000 acres, and the resulting environmental impacts 
to Devils Lake itself and to the Sheyenne and Red rivers.)
    Second, as Attachment R shows, when Devils Lake begins to rise or 
fall, it is not possible to predict with any certainty just how far it 
will go. Thus, although Devils Lake appears to have reached its current 
level of 1443 feet msl eight times over the last 4,000 years, it has 
increased to a level of 1445 feet where it overflowed to Stump Lake 
only five of those times, and it has increased to a level of 1457 feet 
where it overflowed to the Sheyenne River only twice (Attachment R). 
Even in the short term, the level of the lake has fluctuated widely 
(Attachment S). As the Corps of Engineers points out:
    ``Unfortunately, lake behavior is not predictable.'' (U.S. Army 
Corps of Engineers, 1996b)
    This unpredictability is the result of the interaction of multiple 
complex factors, some of which, such as precipitation, are highly 
variable and unpredictable, and others, such as the area/depth/volume 
relationship of the lake, which are variable but predictable. The area/
depth/volume relationship is, however, a major determinant in the rise 
of Devils Lake, in the likelihood of it overflowing to the Sheyenne 
River, and in the efficacy of the proposed emergency outlet in 
preventing such an overflow from occurring. Table I in Attachment T 
shows the relationships between the elevation, area and capacity of 
Devils Lake at elevations from 1415 to 1440 feet msl. Between elevation 
1419 and 1420 feet, the area of the lake increases by only 1500 acres 
and the capacity increases by only 39,800 acrefeet. Between elevation 
1429 and 1430 feet, the area increases by 2200 acres and the capacity 
increases by 59,200 acre-feet. Between 1439 and 1440 feet, the area 
increases by 3,500 acres and the capacity increases by 85,900 acre-
feet. Thus, nearly one and a half times as much water is required for 
Devils Lake to raise one foot at 1429 feet as was required to produce a 
one foot rise at 1419 feet, and over twice as much is needed to produce 
a one foot rise at 1439 feet.
    At elevation 1445 feet, Devils Lake overflows eastward into West 
and East Stump Lake. Because the Stump Lakes are significantly lower 
than Devils Lake (See Attachment G), should Devils Lake reach 1445 
feet, there will then be a period during which Devils Lake will not 
rise significantly while the Stump Lakes are filling, and after they 
are filled, the increased surface area will result in even greater 
inflow volumes being required to produce incremental rises in the level 
of Devils Lake. At elevation 1440, Devils Lake has an area of 85,000 
acres and a capacity of 1,680,000 acre-feet, at 1445 feet it has an 
area of 110,000 acres and a capacity of 2,000,000 acre-feet and at 
elevation 1450 feet, the area increases to 250,000 acres and the 
capacity increases to 3,000,000 acre-feet. Thus, the storage capacity 
increases three times as much as the lake rises from 1445 to 1450 feet 
as it did going from 1440 to 1445 feet.
    Figure 6 (p. 32) in Attachment D shows the actual inflows to Devils 
Lake since 1990, with an estimate of the 1997 inflow. These figures 
are:

                                                                        
------------------------------------------------------------------------
                                                                Annual  
                            Year                                Inflow  
                                                             (Acre-feet)
------------------------------------------------------------------------
1990.......................................................       10,800
1991.......................................................       15,500
1992.......................................................       38,100
1993.......................................................      295,600
1994.......................................................      184,300
1995.......................................................      375,300
1996.......................................................      279,800
1997.......................................................      418,000
------------------------------------------------------------------------

    Thus, the 295,000 acre-feet of inflows that caused a seven foot 
rise (from 1424 to 1431 feet) between 1993 and 1994 would produce only 
a 2.7 foot increase at a lake elevation of 1445 feet, and the 697,800 
acre-feet of inflows that caused another seven foot rise (from 1436 to 
1443 feet) between 1995 and 1997 would produce only a 2.8 foot rise at 
elevation 1450 feet.
    Another factor enters into the equation as the lake expands in 
area, however, and that is evaporation, which averages 30 inches 
annually in the area (Attachment D, Appendix 2, p. 3). At an elevation 
of 1440 feet and a surface area of 85,000 acres, approximately 212,500 
acre-feet of water would be expected to evaporate from Devils Lake in a 
year. However, at an elevation of 1445 feet and an area of 110,000 
surface acres, this increases to 275,000 acre-feet a year, and at an 
elevation of 1450 feet and an area of 250,000 acre-feet, 625,000 acre-
feet--1.5 times this year's record 418,000 acre-feet inflows--could be 
expected to evaporate from Devils Lake in a year.
    What this means, of course, is that progressively larger increases 
in precipitation and runoff would be required to sustain the same rate 
of rise in the level of Devils Lake that has occurred over the past 4 
years. Or it means that, even if the recent high levels of 
precipitation should be sustained, the rate at which the lake rises 
will progressively decrease, admit will reach a level substantially 
below elevation 1450 feet where it will stabilize. This is the basis of 
the U.S. Geological Survey's conclusion that the lake is about to 
stabilize and then begin slowly to fall (Attachment U).
    What this also means is that it is extremely unlikely that Devils 
Lake will overflow to the Sheyenne River in the foreseeable future, and 
that, even if it should, the declining rate at which the lake would 
rise would provide ample time to implement appropriate measures. And, 
of course, this means that there is no urgency to rush ahead with 
construction of the proposed Devils Lake Emergency Outlet before doing 
the studies necessary to demonstrate that it is technically sound, 
economically feasible, and environmentally acceptable.
    The area/depth/volume relationships of Devils Lake also demonstrate 
the ineffectiveness of the proposed emergency outlet in preventing the 
lake from overflowing to the Sheyenne River in the event that the 
increasingly large volumes of inflows required for that to happen 
should occur.
    The Corps' Emergency Outlet Plan proposes a 200 cubic-foot/second 
(cfs) outlet (U.S. Army Corps of Engineers, 1996b), and:
    ``Operation is assumed to be limited to a 7-month ``window'' from 1 
May through 30 November to prevent pump damage from ingested ice and to 
avoid adding flow to the river during spring runoff in the lower 
Sheyenne River. Within that ``window,'' operation would be restricted 
by (a) the Sheyenne River's estimated 500-cfs channel capacity in the 
vicinity of the outlet confluence and (b) the State's 450-mg/l sulfate 
standard for the river. Operation would also be suspended when any 
portion of the Sheyenne River was threatened by high stages.'' (U.S. 
Army Corps of Engineers, 1996b)
    As a result of these restrictions, the Corps calculates that, had 
the outlet been in operation from October 1985 to October 1995, it 
would have operated a total of 535 days at an average rate of 76 cfs 
and it would have removed a total of 81,000 acre-feet of water from the 
lake (U.S. Army Corps of Engineers, 1996b). Even assuming a Sheyenne 
River channel capacity of 600 cfs and a 300 cfs outlet as is being 
proposed by the State Engineer (Attachment 7 to written statement), the 
Corps calculates that the outlet would have operated for only one 
additional day (536 days) at an average rate of 99 cfs, and it would 
have removed only 105,000 acre-feet of water from the lake.
    (It should be noted that the 200 cfs emergency outlet plan proposed 
by the Corps in its Emergency Outlet Plan involves a series of pumped 
lifts and channels [U.S. Army Corps of Engineers, 1996b). However, when 
he was asked at the October 23 hearing about the size and configuration 
of the outlet, North Dakota State Engineer David Sprynczynatyk told the 
Committee that it would be an 84inch pipe. The explanation for this 
discrepancy between the Corps' plan and what Mr. Sprynczynatyk told the 
Committee is that the State is planning on a pipe outlet so it can be 
converted into an inlet for Devils Lake simply by reversing the pumps.)
    Of course, the water quality restrictions are reduced as the lake 
level rises and the pollutants become more diluted, but because 
increasingly higher levels of precipitation are required to sustain the 
rate of rise of the lake, this also increases the likelihood of high 
natural flows simultaneously occurring in the Sheyenne River that would 
funkier restrict discharges from the outlet. For point of illustration, 
however, it is instructive to consider how the operation of a Devils 
Lake outlet under even the most optimistic assumptions would affect the 
level of Devils Lake if it should continue to rise. If a 200 cfs outlet 
were to operate at full capacity for 7 months, it would remove (400 
acre-feet/day x 210 days =) 84,000 acre-feet of water a year from 
Devils Lake, and a 300 cfs outlet operating at full capacity for 7 
months would remove 126,000 acre-feet each year. These figures then 
should be compared with the inflows to Devils Lake over the past 5 
years:

                                                                        
------------------------------------------------------------------------
                                                  200 cfs      300 cfs  
                                     Inflows       outlet       outlet  
               Year                (acre-feet)    (maximum     (maximum 
                                                 acre-feet)   acre-feet)
------------------------------------------------------------------------
1993.............................      295,000       84,000      126,000
1994.............................      184,000       84,000      126,000
1995.............................      375,300       84,000      126,000
1996.............................      279,000       84,000      126,000
1997.............................      418,000       84,000      126,000
------------------------------------------------------------------------

    Of course, if the precipitation and runoff should increase so the 
lake continues to rise, the outlet would become progressively less 
effective in preventing it from happening. For example, a net increase 
in volume of 1,000,000 acre-feet of water would be required for Devils 
Lake to rise from elevation 1445 feet to 1450 feet, but it would take 
12 years for a 200 cfs outlet operating at maximum capacity to remove 
that volume of water, and 8 years for a 300 cfs outlet to do it. Of 
course, if the high levels of precipitation and runoff necessary to 
produce that rise were to continue, the lake also would continue to 
rise while the outlet was operating. Therefore, if precipitation and 
runoff should increase to the levels necessary to cause Devils Lake to 
overflow to the Sheyenne River, it is evident that there is only a very 
limited scenario, where the precipitation and runoff would begin to 
decline before the lake reached 1457 feet, when the outlet might 
prevent the overflow from occurring. However, because precipitation and 
runoff are not predictable, and because lead time is necessary in order 
to implement other measures, if Devils Lake should continue to rise, it 
still would be necessary to continue raising roads and dikes and 
evacuating the areas below 1457 feet because it would be impossible to 
known whether or not the narrow scenario in which the outlet would make 
a difference would actually occur.
    It also is important to recognize that, under the narrow scenario 
where the outlet would prevent Devils Lake from overflowing to the 
Sheyenne River, downstream residents would in the meantime have had to 
deal with the additional millions of acre-feet of water that would have 
to be pumped from Devils Lake to prevent it from overflowing. And in 
the more likely scenario where the outlet ultimately world not prevent 
the lake from overflowing, they would still have to deal with the 
additional water coming from the natural outlet, as well as that which 
already had been coming for years from the emergency outlet. It should 
be noted, however, that, at the elevation of 1457 feet where it would 
overflow to the Sheyenne River (that elevation may actually be 1460 
feet msl IU.S. Army Corps of engineers, 1988), Devils Lake would have a 
surface area of well in excess of 300,000 acres, so even a 500,000 
acre-feet inflow would raise the lake by less than six inches. With a 
surface area of more than 300,000 acres and a ``head'' of less than 
half a foot, flows from the natural outlet, while prolonged, would 
nevertheless be relatively low.
    The efficacy of an outlet in reducing the high water problems if 
Devils Lake should continue to rise is perhaps best put into 
perspective by comparing its maximum 84,000 to 126,000 acre-feet per 
year capacity under the most unrealistically optimistic conditions with 
the rate of evaporation as the lake expands in area, and with the 
storage potential of the 189,000 acres of wetlands that have been 
drained in the Basin. As rioted above, at 1445 feet, some 275,000 acre-
feet of water--2 to 3.3 times the maximum capacity of the outlet--would 
evaporate from the lake. At elevation 1450 feet, the annual 625,000 
acre-feet of evaporations would be 5 to 7 times the maximum capacity of 
the outlet. Similarly, if even half of the storage capacity of the 
189,000 acres of drained wetlands were renewable on an annual basis 
(See Attachment D, Appendix 2, pp. 2-3), this would prevent from 2 to 6 
times as much water from reaching Devils Lake as the outlet could 
remove in a year if it were operating at maximum capacity.

    Question 3: Your written testimony (under the ``Recommendations'' 
portion on page 12) reads as follows:
    ``[We] strongly recommend that the Committee on Environment and 
Public Works reiterate to the President and the Executive Branch the 
requirements that the Congress has specified in the fiscal year 1998 
Energy and Water Development Apropriations Act must be met before 
construction may be initialed on a Devils Lake outlet.''
    My question is, do you think that the Congress has done an adequate 
job of not only preserving the requirements of NEPA and the Army Corps 
project procedures...but stipulating,that the Executive Branch must 
abide by such requirements? Where does the burden lie as a result of 
this legislation?''
    Response: As you noted a number of times during the October 23 
hearing, Chairman Chafee, in the fiscal year 1998 Energy and Water 
Development Appropriations Act, the Congress has specified that, before 
initiating construction on the proposed Devils Lake Emergency Outlet, 
the Corps of Engineers must demonstrate that:
    ``. . . the construction is technically sound, economically 
justified, and environmentally acceptable and in compliance with the 
National Environmental Policy Act of 1969 . . .'' (Congressional 
Record, July 15, 1997, S7484)
    It might be argued that the Congress has, therefore, met its 
burden, and that the burden now shifts to the Executive Branch to 
follow Congress' directive--and in a perfect world that probably would 
be sufficient. However, I believe that Senator Wyden's questions to 
Acting Assistant Secretary of the Army for Civil Works Dr. John H. 
Zirschky regarding bid rigging, collusive practices and price fixing in 
the Corps' dredging program demonstrate the need in the real world for 
continuing Congressional oversight of Executive agencies to assure that 
the directives of the Congress are honored and the interests of the 
public are protected. Regrettably, this also is notably true in the 
case of the proposed Devils Lake Emergency Outlet, where extreme 
political pressures are being brought to bear on the Administration by 
the North Dakota Congressional Delegation to circumvent Army Corps 
project procedures and the clear directive from the Congress in order 
to construct a technically unsound, economically infeasible and 
environmentally unacceptable ``emergency'' outlet from Devils Lake.
    I have discussed above the reasons that the proposed emergency 
outlet is not technically sound. Hopefully, the Corps will address 
these issues in a thorough, factual, objective and straightforward 
manner. However, I believe it would be naive to assume that this would 
automatically occur without the prospect of Congressional review.
    The same is true regarding the Corp's determination of the economic 
feasibility of the proposed emergency outlet. Figure 4 of Attachment T 
shows the cumulative damages (in 1982 dollars) to residential, 
commercial and public property (including farm land) as Devils Lake 
rises from elevation 1430 feet to elevation 1450 feet. It should be 
noted that the cumulative damages increase from about $2,500,000 at 
elevation 1430 to about $52,500,000 at elevation 1445 feet, or by an 
average of about $3,333,000 per foot. However, from elevation 1445 feet 
to 1455 feet, the cumulative damages increase by about $24,500,000 to 
$77,000,000, or by an average of $2,450,000 per foot. Although 
inflation and subsequent development on the lake bed have increased 
some of these figures, data from North Dakota State University show 
that the value of farm land in the area actually has declined, from an 
average of $534 per acre in 1982 to $423 per acre in 1997. 
Nevertheless, the relationships remain valid, and the lake reached a 
level of 1443 feet this year. Consequently, the data from this 1982 
memorandum by the State Engineer refute the testimony of current State 
Engineer David Sprynczynatyk at the October 23, 1997, hearing where he 
told the Committee that the Corps' 1994 economic analysis, which showed 
that an outlet would return only $0.39 in benefits for each dollar of 
cost (U.S. Army Corps of Engineers, 1994), no longer is valid because 
the amount of the damages at current elevations is greater with each 
foot of rise in the lake than it was at the time the Corp did its 
benefit/cost analysis. Thus, contrary to what Mr. Sprynczynatyk told 
the Committee on October 23, the incremental damages that would occur 
with each incremental rise in the lake will be lower, not higher, than 
when the Corps did its economic analysis in 1994.
    With an outlet having a progressively diminishing effect on the 
level of the lake if it continues to rise, with incremental potential 
damages diminishing as the lake rises, and with other measures that are 
being implemented reducing even further those potential damages, it is 
evident that the beneft/cost ratio of an outlet would not improve and 
undoubtedly would decline even further. However, a story in yesterday's 
Jamestown Sun reports that:
    ``Col. Mike Wonsik, commander of the corps' St. Paul, MN, district 
. . . said the [Devils Lake] dike project is one of the biggest advance 
projects the corps has ever done. The corps also is working on plans to 
justify to the Congress the need for an emergency Devils Lake outlet to 
ease flooding.
    Wonsik said formulas normally used by the Corps to evaluate the 
benefits of such outlets deal with rivers, so the corps is using a 
different formula to evaluate the Devils Lake project.'' (Emphasis 
added) (Attachment V)
    Thins, despite the Congressional directive contained in the fiscal 
year 1998 Energy and Water Development Appropriations Act, it is 
evident that the Corps has decided to abandon its established project 
procedures and to use a different formula in its ``plan to justify to 
the Congress the need for an emergency Devils Lake outlet.'' 
Unfortunately, rather than performing an unbiased and factual analysis 
to determine if an emergency outlet is, in fact, economically feasible 
as directed by the Congress, it appears that the Corps is deliberately 
preparing its economic analysis for the explicit purpose of justifying 
the project to the Congress. Clearly, the Executive Branch is not 
meeting its burden under the legislation adopted by the Congress.
    Proponents of the outlet are similarly planning to circumvent the 
Congress' requirement that the emergency outlet must be environmentally 
acceptable and in compliance with the National Environmental Policy 
Act. As is shown by Attachment H. the high water problem at Devils Lake 
has been developing for more than two decades, so it is not the kind of 
``emergency'' that has required immediate action in a matter of days or 
weeks to deal with a sudden disaster that is over in a few hours or 
days. It is not the type of situation where insufficient time is 
available to conduct a thorough environmental impact analysis and 
prepare a full environmental impact statement before action is taken, 
and for which provisions have been established to waive regular 
National Environmental Policy Act procedures where it is necessary to 
begin actions immediately in order to save lives and property.
    Nevertheless, in its Emergency Outlet Plan, the Corps specifically 
outlined how the normal 60-month NEPA process for the outlet could be 
shortened to 29 months by ``modifying NEPA compliance and waiving other 
requirements'' (U.S. Army Corps of Engineers, 1996b). In the meantime, 
the North Dakota Congressional Delegation has pressured the 
Administration into designating the Devils Lake outlet an ``emergency 
requirement'' (Attachment No. 10 to written statement), and Acting 
Assistant Secretary Zirschky testified at the October 23 hearing that 
the Secretary of the Army had made a determination that the flooding at 
Devils Lake constitutes an emergency. Although it appears that the 
President's October 13, 1997, designation of the outlet as an 
``emergency requirement'' may have been done strictly for budgetary 
purposes, as is reported in Attachment 11 (to written comments) the 
Nonh Dakota Congressional Delegation is now claiming that it provides 
an emergency waiver of standard NEPA requirements:
    ``President Clinton cleared the way for construction to begin as 
early as next summer on an outlet for Devils Lake by granting an 
emergency designation that will speed environmental review.
    The designation will allow construction to start before 
environmental studies are completed, and also makes the project a top 
priority for the Army Corps of Engineers, Sen. Kent Conrad, D-N.D., 
said Monday.
    ``If you go through the regular process, it would take six to 10 
years to start construction, Conrad said. ``We don't have 6 to 10 
years.'' (Attachment II to written statement)
    There is no question that the North Dakota Congressional Delegation 
is going to pressure the Administration and the Council on 
Environmental Quality for an emergency waiver of the standard N EPA 
process that will permit construction of the outlet without preparation 
of a full environmental impact statement, without consideration of 
other more effective and feasible alternatives, without addressing the 
adverse impacts of the outlet until aher they have occurred and before 
knowing whether or not they can be effectively mitigated or the costs 
of doing so if they can.
    Although the burden for complying with the stipulations imposed on 
the emergency outlet by the Congress may rest with the Executive 
Branch, if the public interest is to be protected, there clearly is a 
critical need, if not a responsibility, for the Congress to continue to 
provide close oversight to ensure that the Executive Branch meets the 
burden which the Congress has imposed for assuring that the proposed 
emergency outlet from Devils Lake is technically sound, economically 
feasible and environmentally acceptable and in full compliance with the 
National Environmental Policy Act.
    Chairman Chafee, I would again like to thank you and the Members of 
the Committee for your interest in and attention to this important 
issue, and for this opportunity to provide additional information 
relating to the testimony I presented at the October 23 hearing on the 
Devils Lake Emergency Outlet. If I can be of any funkier assistance to 
the Committee, I would appreciate it if you would let me know.
            Sincerely,
                                   Gary L. Pearson, D.V.M.,
                                               Jamestown, ND 58401.
                                 ______
                                 
                               references
    Devils Lake Basin Advisory Committee. 1976. The Devils Lake Basin 
Study, Study Report, Volume 1. Prepared by TPI Consultants, Inc. 
Richard Elision, Project Director, Office of the Governor, State of 
North Dakota. 235 pp.
    U.S. Army Corps of Engineers. 1988. Devils Lake Basin, North 
Dakota, Integrated Draft Feasibility Report and Environmental Impact 
Statement. U.S. Army Corps of Engineers, St. Paul District. 167 pp.
    U.S. Anny Corps of Engineers. 1994. Devils Lake, North Dakota, 
Stage IA, Issues Resolution Conference and Background Information. 20 
pp.
    U.S. Army Corps of Engineers. 1996a. Devils Lake, North Dakota, 
Contingency Plan. Department of the Army, St. Paul District, Corps of 
Engineers. 49 pp.
    U.S. Army Corps of Engineers. 1996b. Emergency Outlet Plan, Devils 
Lake, North Dakota. Department of the Army, St. Paul District, Corps of 
Engineers. 26 pp.
                          list of attachments
    Attachment A. Illustration from Surface Water Systems: Devils Lake 
Basin. From Devils Lake Basin Advisory Committee. 1976. Devils Lake 
Basin Study, Study Report, Volume 1. Prepared by TPI Consultants, Inc. 
Richard Ellison, Project Director, Office of the Govemor, State of 
North Dakota. 235 pp.
    Attachment B. [omitted in this report] Illustration of Garrison 
Diversion Unit, Devils Lake--Stump Lake Recreation Development. From 
U.S. Bureau of Reclamation. 1974. Final Environmental Statement, 
Initial Stage, Garrison Diversion Unit. INT FES 74-3.
    Attachment C. Illustration of Wetlands and Drainage by Watershed: 
Types 1, III, IV, V. From Devils Lake Basin Advisory Committee. 1976. 
Devils Lake Basin Study, Study Report, Volume 1. Prepared by TPI 
Consultants, Inc. Richard Ellison, Project Director, Office of the 
Governor, State of North Dakota. 235 pp.
    Attachment D. North Dakota Field Office, U.S. Fish and Wildlife 
Service. 1997. Devils Lake Feasibility Study, Lake Stabilization, 
Devils Lake, North Dakota, Planning Aid Letter and Substantiating 
Report. [Note: portions of report omitted and retained in committee 
files.]
    Attachment E. Illustration of Primary Flood-Prone Areas: Devils 
Lake Basin. From Devils Lake Basin Advisory Committee. 1976. Devils 
Lake Basin Study, Study Report, Volume 1. Prepared TPI Consultants, 
Inc. Richard Ellison, Project Director, Office of the Governor, State 
of North Dakota. 235 pp.
    Attachment F. Illustration of Alternative IV Structural Projects. 
From Devils Lake Basin Advisory Committee. 1976. Devils Lake Basin 
Study, Study Report, Volume 1. Prepared by TPI Consultants, Inc. 
Richard Ellison, Project Director, Office of the Govemor, State of 
North Dakota. 235 pp.
    [Note: The following attachments are retained in committee files, 
but are not reproduced here for cost reasons:]
    Attachment G. Buttz, Harris. Comparison of Stump Lake, Devils Lake 
water levels shows effects of drainage. Devils Lake Daily Journal, 
Devils Lake, North Dakota. February 26, 1985.
    Attachment H. Zaleski, Jack, Jr. Excess Water Plagues Devils Lake 
Residents. Jamestown Sun, Jamestown, North Dakota. August 14, 1975.
    Attachment I. Department of the Army, St. Paul District, Corps of 
Engineers, St. Paul, Minnesota. Notice of Application for Permit. 
January 2, 1979.
    Attachment J. Associated Press. Disaster label sought for Devils 
Lake. The Forum, Fargo, North Dakota. July 14, 1982.
    Attachment K. Richard D. Crawford. Letter from President, North 
Dakota Chapter of The Wildlife Society to Vernon Fahy, North Dakota 
State Engineer. January 5, 1982.
    Attachment L. Vern Fahy. Letter from State Engineer to Richard D. 
Crawford, President, North Dakota Chapter of The Wildlife Society. 
February 18, 1982.
    Attachment M. Gary L. Pearson. Statement of the North Dakota 
Chapter of The Wildlife Society Submitted at the U.S. Army Corps of 
Engineers Public Meeting on Water Related Problems in the Devils Lake 
Basin. Devils Lake, North Dakota. June 22, 1983. 12 pp.
    Attachment N. Associated Press. Schafer: Identify, close illegal 
drainage system. Jamestown Sun, Jamestown, North Dakota. June 6, 1997.
    Attachment O. Weixel, Gordon. In Search of . . . Illegal drains. 
Devils Lake Daily Journal, Devils Lake, Nonh Dakota. 1997
    Attachment P. Associated Press. Landowners' group raps Schafer 
plan. The Bismarck Tribune, Bismarck, North Dakota. July 3, 1997.
    Attachment Q. Campbell, Erin. Schafer orders illegal drainage 
systems closed. Grand Forks Herald, Grand Forks, North Dakota. July 1, 
1997
    Attachment R. Bluemle, John P. From the State Geologist. North 
Dakota Geological Society Newsletter 23(1): 1 -2)
    Attachment S. Fluctuations in Levels of Devils Lake. From Devils 
Lake Basin Advisory Committee. 1976. Devils Lake Basin Study, Study 
Repon, Volume 1. Prepared by TPI Consultants, Inc., Richard Ellison, 
Project Director, Office of the Govemor, State of Nonh Dakota. 235 pp.
    Attachment T. Vern Fahy, State Engineer. Memo to Govemor Allen 1. 
Olson and Members of the State Water Commission. Subject: Devils Lake 
Flood Control--SWC Project #1712. November 8, 1982. 6 pp.
    Attachment U. Associated Press. Odds are lake will stabilize and 
then fall. Jamestown Sun, Jamestown, North Dakota. October 20, 1997.
    Attachment V. Associated Press. Project to raise dike no small 
feat. Jamestown Sun, Jamestown, North Dakota. November 21, 1997. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  United States Department of the Interior,
        Fish and Wildlife Service, Washington, DC, October 3, 1997.

Mr. Robert J. Whiting, Chief,
Environmental Resources Section
Management and Evaluation Branch
St. Paul District, Corps of Engineers
St. Paul, Minnesota 55101

Dear Mr. Whiting: The U.S. Fish and Wildlife Service (Service) is 
providing you this Planning Aid Letter (PAL) for the Devils Lake 
Feasibility Study. Lake Stabilization, Devils Lake, North Dakota, and 
its accompanying Substantiating Report. The PAL and Substantiating 
Report have been prepared by the North Dakota Field Office, in response 
to the Corps of Engineers' (Corps) Fiscal Year 1997 Scope of Work dated 
October 21, 1996, for fish and wildlife activities associated with the 
Feasibility Study. It is prepared under the authority of and in 
accordance with the Fish and Wildlife Coordination Act (16 U.S.C. 661-
67e), and in accordance with the provisions of the Endangered Species 
Act (16 U.S.C. 1531 et seq.).
    Water levels in Devils Lake have been rising since 1993. In an 
effort to stabilize the lake level, the 1993 Energy and Water 
Development Appropriations Act (Public Law 102-77) directed the Corps 
to conduct a Feasibility Study to address water management, 
stabilization of lake levels, water supply, water quality, recreation, 
and conservation of fish and wildlife resources.
    The scope of this PAL and Substantiating Report is to provide a 
description of the existing resources in the project area. derived 
from: a) a literature review of published reports detailing fisheries, 
wildlife, vegetation, wetlands, threatened and endangered species, 
water quality, and unique or identified natural areas within the study 
area; b) participation in Habitat Evaluation Procedures (REP) 
activities; and c) identification of future study needs. Most features 
of the Scope of Work were addressed prior to suspension of the study in 
order to proceed with the outlet proposal. Those activities that were 
not completed or require additional work will be addressed when the 
feasibility study is reinitiated.
    Various lake stabilization components studied in the Feasibility 
Study have the potential to impact a wide range of fish and wildlife 
resources. Of particular importance in accomplishing the objectives of 
this project will be the protection and restoration of wetland 
resources in the basin. the longterm maintenance of a viable fishery 
resource in Devils Lake, and minimizing the potential impacts to fish 
and wildlife resources on the Sheyenne and Red Rivers.
    The current situation at Devils Lake has its origin from the higher 
levels of precipitation, but equally important is the impact brought on 
by inadequately planned development that has occupied an active lake 
plain, and alteration of the contributing watershed that has increased 
flooding vulnerability.
    It will be essential to maintain the integrity of the valuable fish 
and wildlife resources in the basin. The wetlands and lake fishery 
continue to remain vulnerable to the types of development activities 
witnessed in the past, and are subject to negative impacts by 
developing this project in an incomplete manner. A comprehensive 
approach that determines a cost effective and environmentally sound 
project needs to be thoroughly scoped through the National 
Environmental Policy Act (NEPA), or some other process, to ensure that 
potential impacts from oversights of the past and the compatibility of 
future actions are addressed and effectively implemented.
    The following list of issues have been identified through the 
development of the Substantiating Report. They represent some of the 
major unresolved issues and data needs relative to the Feasibility 
Study.
    1. The Long-Term Resolution of Devils Lake Flooding Requires a 
Basinwide Plan. The Corps, in cooperation with the State sponsor, 
should develop actions for the Devils Lake flooding solution as part of 
a comprehensive approach, and seek authorization language and 
implementation strategies that endorse the comprehensive approach. The 
goal should be to maximize the actions that contribute to the solution 
within the basin, and minimize the amount of water that may be released 
outside the basin. To facilitate this approach, a detailed survey of 
the basin's storage potential, including natural restorable and managed 
sites, should be completed and analyzed as part of the basin's storage 
component.
    2. What is the Effect of Land Use Chances in the Basin on the 
Lake's Runoff? The Corps should seek updated hydrologic predictions 
that include the current runoff potential in the basin incorporating 
the changes to runoff potential caused by land use manipulation. These 
updated predictions should be provided in a timely manner to allow use 
in the development of specific actions and operation strategies.
    3. Operation Criteria. Operating criteria for the various parts of 
a comprehensive solution should be proposed and analyzed. Additionally, 
a specific hydrologic analysis between surface and ground water on the 
Sheyenne River in western prairie fringed orchid range will be required 
to assess potential for impacts to the threatened plant. The result of 
this study will be needed to work out an acceptable operating plan 
prior to implementation.
    4. Determining Optimum Lake Levels. For purposes of resolving the 
flooding issue and minimizing the harm to natural resources, a minimum 
lake level target and operating range should be identified and used to 
devise operating strategies, and develop expectation for resolution of 
the flooding issue.
    5. Water Quality Maintenance. Based on predictive models, operating 
criteria should be established that minimize the harm to the Devils 
lake and downstream receiving waters. Also, a comprehensive program to 
enhance remaining water will be necessary if an outlet is proposed to 
remove the lake's freshwater.
    There is considerable potential within the Devils Lake Basin to 
protect, restore, and enhance fish and wildlife habitats while 
simultaneously providing positive benefits towards solving the Devils 
Lake flooding problem. We urge the Corps to make this a foundation of 
the Devils Lake solution, and are committed to working closely with the 
Corps on these issues.
    The Service will continue to work within our authorities to 
implement practical solutions to the Devils Lake flooding. We will also 
participate with the Corps when the Feasibility Study is reinitiated. 
Questions regarding information contained in our report should be 
directed to Bill Pearson at (701) 250-401.
            Sincerely,
                                             Allyn J. Sapa,
                       Field Supervisor, North Dakota Field Office.
                               __________
   Substantiating Report For Devils Lake Feasibility Study for Lake 
                Stabilization Devils Lake, North Dakota
           i. identification of purpose, scope, and authority
    The elevation of Devils Lake has been steadily rising since 1993. 
Currently, Devils Lake stands at elevation 1442.6 feet (September 28, 
1997). Forecasts for the future of Devils Lake are uncertain, as the 
lake has a long history of fluctuation. Wiche and Vecchia (1996) 
suggest that a rising or declining lake level may in fact be a more 
normal condition than a stable lake level.
    In an effort to stabilize the lake level, the 1993 Energy and Water 
Development Appropriations Act (Public Law 102-77) directed the Corps 
of Engineers (Corps) to conduct a Feasibility Study to address water 
management, stabilization of lake levels (including an inlet and 
outlet), water supply, water quality, recreation, and conservation of 
fish and wildlife resources.
    In response to a negotiated scope of work, the U.S. Fish and 
Wildlife Service (Service) is providing a Planning Aid Letter (October 
3, 1997), and this Substantiating Report for the Devils Lake 
Feasibility Study, Lake Stabilization, Devils Lake, North Dakota. It is 
prepared under the authority of and in accordance with the Fish and 
Wildlife Coordination Act (16 U.S.C. 661-67e), and in accordance with 
the provisions of the Endangered Species Act (16 U.S.C. 1531 et seq.).
    The scope of this Substantiating Report provides a description of 
the existing resources in the project area, derived from an extensive 
literature review of published reports detailing fisheries, wildlife, 
vegetation, wetlands. threatened and endangered species, water quality, 
and unique or identified natural areas within the study area.
            ii. identification of prior studies and reports
    Since 1980, several studies and reports on Devils Lake have been 
published. The Corps has produced the following studies: 1996 Emergency 
Outlet Plan: 1996 Environmental Assessment and Plans and Specifications 
for Raise of Existing Levee; 1996 Contingency Plan; 1992 Reconnaissance 
Report for Flood Control, Lake Stabilization. and Comprehensive 
Purposes; 1988 Devils Lake Basin Integrated Draft Feasibility Report 
and Environmental Impact Statement; 1983 Section 205 Detailed Project 
Report for Flood Control. These reports provide a significant 
background of information from the basin.
    The Service has published the 1988 Draft Fish and Wildlife 
Coordination Act Report for Fish and Wildlife Resources in Relation to 
the Devils Lake Basin Flood Control Project; and the 1992 
Substantiating Report.
                   iii. description of the study area
Devils Lake Basin
    The Devils Lake Basin, located in northeastern North Dakota, is a 
closed basin encompassing 3,814 square miles or roughly 5 percent of 
North Dakota's land surface (Figure 1), and is divided into nine 
watersheds (Figure 2). Devils Lake Basin is bounded on the south by the 
Sheyenne River Basin, on the north by the Pembina River Basin, and on 
the east by the Park, Forest and Turtle River Basins. Devils Lake is 
considered part of the Red River-Hudson Bay drainage system, although 
no flow into the Red River-Hudson Bay system has occurred in recorded 
time. The topography of the Devils Lake basin results in a north-to-
south drainage pattern, with Devils Lake receiving 87 percent of the 
basin's runoff, and Stump Lake receiving the balance of 13 percent. Not 
all of the basin contributes directly to Devils Lake or Stump Lake, as 
many wetland basins do not contribute, except when they reach overflow 
during above average precipitation.
    The Devils Lake Basin is the result of the last advance of 
continental ice sheets in North Dakota. Glacial Devils Lake was 
maintained at about elevation 1450 feet above mean sea level (msl) by 
glacial meltwater flowing from the retreating ice sheet to the north 
and by precipitation. Evidence in the basin suggests that water levels 
have fluctuated from the time the glacial ice sheets completely melted 
away through recent recorded time (Figure 3). The underlying causes of 
the long-term changes in water levels are not fully understood.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Within the Devils Lake Basin lie a chain of waterways beginning 
with the Sweetwater group, and extending through Mauvais Coulee, 
Minnewauken Flats, West Bay Devils Lake, Main Bay Devils Lake, East Bay 
Devils Lake, and East Devils Lake to Stump Lake (Figure 1). Mauvais 
Coulee, a principal tributary to Devils Lake, is the largest drainage 
channel in the Devils Lake system. Water flows intermittently, largely 
in response to precipitation and wetland drainage. Devils Lake and its 
wetlands are maintained by spring runoff, precipitation, and ground 
water. The potential of the basin to store water has been greatly 
influenced by man's alteration of the land. Most notably by land 
tillage, expansion of runoff by drainage of non-contributing wetland 
basins, and alteration of drainage patterns. The result is water that 
would normally be stored and subjected to evapotranspiration in the 
basin is now adding to lake levels. Eisenlohr (1966) defined 
evapotranspiration as that water lost to the air by means of 
evaporation, and transpiration by vegetation. Evapotranspiration is the 
primary mechanism that exports water from the basin. In addition, 
seepage into groundwater stored in the basin removes surface waters. 
The average annual precipitation for the Devils Lake Basin is 16.98 
inches, with 11.8 inches occurring during the growing season. The 
average annual evaporation is 30.00 inches, with a seepage average of 
7.10 inches (Ludden et al. 1983).
    The weather of Devils Lake varies widely with the season. Records 
at the Devils Lake weather station show mean monthly temperatures from 
68--F in the summer, to 4--F in the winter. The maximum recorded 
temperature is 112--and the minimum is 46--below zero. The frost free 
growing season lasts from about May 15 to September 23. Mean annual 
snowfall is 36 inches.
Sheyenne River
    The Sheyenne River is one of four major tributaries to the Red 
River in North Dakota, with a watershed of 6,910 square miles (Figure 
4). For descriptive purposes, the Sheyenne River can be divided into 
three segments. From its headwaters in northwestern Sheridan County, 
the first segment flows east across the drift plain into Nelson County, 
where it turns southward. flowing to central Ransom County. From this 
point, the river turns northeast to its confluence with the Red River. 
From the town of Sheyenne, North Dakota, to Lake Ashtabula, the 
Sheyenne flows through a valley 100-50 feet deep, and \1/4\ to 1 mile 
wide, carved into Cretaceous Pierre Formation shale.
    Lake Ashtabula, located about midway along the river's length, is a 
5,430-acre impoundment formed by Baldhill Dam. Both the lake and dam 
were authorized in 1944. The construction of Baldhill Dam began in 
1947, and was completed in 1951. The Corps of Engineers operates the 
lake for water supply and flood control.
    This reservoir is a popular recreation area for eastern North 
Dakota residents providing swimming, boating, and a diverse sport 
fishery for walleye, northern pike, muskellunge, yellow perch, and 
white bass. Lake Ashtabula also provides an annual source for northern 
pike and walleye eggs for the Valley City National Fish Hatchery.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The second reach, from Lake Ashtabula to just below Lisbon, North 
Dakota, flows through a valley \1/2\ to 1 mile wide and as deep as 200 
feet, through glacial till and Cretaceous Niobrara and Pierre 
Formations. The third segment flows from below Lisbon to the confluence 
of the Red River, across the Sheyenne Delta, through an extensive 
sandhills area and the floor of glacial Lake Agassiz, forming the Red 
River Valley.
    The Sheyenne is approximately 550 miles in length with an average 
slope of 1.5 feet per mile on the drift prairie, 2 feet per mile as it 
enters the Red River Valley, and approximately 1 foot per mile as it 
flows across the Red River Valley.
Red River
    The Red River of the North is a part of the Hudson Bay drainage 
system which drains parts of North Dakota, South Dakota, and Minnesota 
in the United States, and parts of Manitoba and Saskatchewan in Canada 
(Figure 4). The Red River, formed at the confluence of the Bois de 
Sioux and Otter Tail Rivers, has a total drainage area in the United 
States of 39,200 square miles, of which 20,820 square miles are in 
North Dakota (including the non-contributing Devils Lake Basin).
    In recent geologic times, the Red River region was covered by a 
large continental ice sheet. Retreating glaciers left a massive 
saltwater lake known as Lake Agassiz. The present day Red River Valley 
formed the bottom of the lake. The Red River flows north into Canada 
across the floor of the glacial lake bed for 394 river miles, forming 
the North Dakota-Minnesota boundary. The lake bed is nearly flat, with 
an average slope of about 0.4 feet per mile. The river has a high 
sediment load of silts and clays which results in the muddy character 
of the Red. Additionally, the river is characterized by a low gradient 
and high sinuosity.
        iv. description of fish and wildlife resource conditions
                           existing resources
Fishery
    Devils Lake: The sport fishery of Devils Lake is a valuable 
resource which greatly improved during the 1980's with rising water 
levels. Devils Lake is a brackish lake, developed through lake level 
fluctuations which are beneficial to the support of the current 
fishery. The fishery remained relatively stable during the drought of 
1988-990. Primary species pursued by anglers are walleye, northern 
pike, yellow perch, and white bass. White suckers and black bullheads 
are also present but have not increased sufficiently to degrade the 
quality of the sport fishery. Tiger muskellunge are also present in low 
numbers. Previously, virtually all game fish were artificially stocked 
due to low reproduction potential from brackish water quality. With 
current high lake levels freshening the lake, yellow perch, northern 
pike. white bass. crappie, and possibly walleye are experiencing 
successful natural reproduction. Forage species such as fathead minnows 
have increased dramatically with the high lake levels (Hiltner, pers. 
common.). Table 1 lists the fish species that occur in Devils Lake.
    Game fish reproduction in East Bay (east of Highway 57) has been 
lower than western bays, due to high salinity levels. Reproductive 
success of fish other than fathead minnows and brook sticklebacks in 
East Bay has been low. The only young-of-the-year fish caught in any 
number in Black Tiger Bay and East Bay Devils Lake during sampling with 
seine nets and small frame nets were fathead minnows and brook 
sticklebacks (Hendrickson 1990). Yellow perch and black crappie 
reproduction has been verified in Black Tiger Bay where fresh water 
flows from Spring Lake (Hendrickson 1990). Only adult fathead minnows 
and brook sticklebacks were caught in West Stump Lake in 1987 and 1988 
(Hendrickson 1990). Fathead minnows and brook sticklebacks were found 
in East Stump Lake during 1996 (Hiltner, pers. common.). However, with 
recent high water conditions in Devils Lake it is suspected, by North 
Dakota Game and Fish Department, that game fish reproduction could 
occur in East Bay. Young-of-the-year northern pike have been found in 
East Bay in 1997 (Hiltner, pers. common.).
    Prior to 1965, no game fishery existed in Devils Lake (U.S. Fish 
and Wildlife Service 1992). Routine stocking of game fish was initiated 
in 1965. During the 1980's, the fishery improved, which resulted in a 
dramatic increase in recreational use of the lake. Most fishing 
activity occurs in Devils Lake west of Highway 57.
    Long-term maintenance of the fishery in Devils Lake is dependent on 
the balanced relationship of nutrients, salinity, water levels, and 
Total Dissolved Solids (TDS) concentrations. This balance helps to 
prevent oxygen depletion from occurring, has limited fish reproduction, 
and regulates algae blooms. The result has been a simple but highly-
valued fishery. Historically, East Stump Lake did not support a 
recreational fishery due to high levels of TDS, (241,000 mg/l in 
January 1961). As of June 1997, the lake level has risen to 1.404 feet 
msl, with TDS levels at 13,460 mg/l. Yellow perch fingerling survival 
in East Stump Lake was investigated by the North Dakota Game and Fish 
Department (Department) June 25--July 2, 1997 (North Dakota Game and 
Fish Department 1997). Adult yellow perch can tolerate sodium-sulfate 
levels up to 15,000 mg/l. This study resulted from a request by local 
groups to stock yellow perch into East Stump Lake. The Department 
performed yellow perch fingerling survival tests to determine if 
survival rates would sustain a recreational yellow perch fishery.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Perch fingerling survival ranged from 56 percent to 93 percent, 
with an overall survival of 78 percent. The results of necropsies 
performed on the live yellow perch indicated some stress associated 
with an osmotic pressure gradient. There was also evidence that the 
perch fingerlings had been feeding on zooplankton or small macro 
invertebrates while confined in the nets. The Department recommended 
that because the short-term yellow perch fingerling survival was above 
expected levels, East Stump Lake could be considered for stocking with 
yellow perch fingerlings in 1998.
    Sheyenne and Red Rivers: Both the Sheyenne and Red Rivers' systems 
provide spawning habitat and nursery areas for forage fish, as well as 
a migrational avenue for sport fish, including channel catfish, 
northern pike, walleye, sauger, rock bass and crappie. Lake Ashtabula 
provides the primary recreational fishing site on the Sheyenne River.
    There are 13 species of freshwater mussels inhabiting the Red and 
Sheyenne Rivers (Cvancara 1974). Of these 13 species, 8 are found in 
the Red River and 9 in the Sheyenne River. The most common species 
found are White heelsplitter (Lasmigona complanata), Giant floater 
(Anodonta grandis), Fatmucket (Lampsilis siliquoides), and Cylindrical 
papershell (Anodontoides ferussacianus). Less common species include 
Wabash pigtoe (Fusconia flava), Three-ridge (Amblema costata), 
Mapleleaf (Quadrula quadrula), Creek heelsplitter (Lasmigona 
compressa), Fluted-shell (Lasmigona costata), Squaw Foot (Strophitus 
rugosus), Pink heelsplitter (Proptera alata), Black sandshell (Ligumia 
recta latissima), and Pocketbook (Lampsilis ventricosa).
Wildlife
    Devils Lake: Wildlife in the Devils Lake Basin is closely 
associated with water and wetlands (Table 2). Historically, the Devils 
Lake Basin has had one of the highest concentrations of prairie 
wetlands in the Northern Great Plains. These wetlands range from 
numerous large lakes to thousands of small, shallow potholes or 
marshes.
    Shallow water wetland habitats are clearly the most valuable 
habitat types for waterfowl. Shallow, seasonally flooded wetlands 
provide important pair habitat and breeding sites for dabbling ducks, 
including mallard, pintail, gadwall, and teal. Over-water nesters such 
as scaup, canvasback, and redhead build nests in vegetation which grows 
in water depths of 5 feet and less. Broods feed and take cover in 
shallow, vegetated wetlands. Other wildlife such as white-tailed deer, 
fox, raccoon, muskrat, mink, beaver, and ring-necked pheasant rely on 
shallow water wetlands for food and cover. Vegetation associated with 
these wetlands are especially valuable during winter, as cover for 
upland species. Drainage of shallow wetland habitat for agricultural 
purposes has been significant in the Devils Lake Basin.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Open water habitats provide, to varying degrees of importance, 
brood, migratory, molting, and staging areas for most ducks, geese. and 
swans. Some diving ducks such as scaup, ringneck and redhead use these 
wetlands as feeding areas. Sub-irrigated meadows are used to some 
extent by feeding waterfowl, but to a greater extent by feeding and 
nesting shorebirds.
    Saline wetland habitats are used heavily by nesting and feeding 
ducks. Saline wetlands or bays less than 4 feet deep, which permit 
growth of aquatic vegetation, are more productive for waterfowl and 
shorebirds than deeper, open water areas. Because of their physical and 
chemical nature, few of these wetlands are drained.
    In addition to waterfowl, many other species of marsh and 
shorebirds use the lakes and wetlands of the basin for migration and 
nesting habitat, including black-crowned night herons, great blue 
herons, great or common egrets, American bitterns, western and eared 
grebes, white pelicans, double-crested cormorants. and ring-billed 
gulls.
    The Chain of Lakes located north of Devils Lake in the middle of 
the basin provides a unique combination of feeding and resting habitats 
utilized by migrating waterfowl. Large concentrations of migrating 
geese, ducks (primarily canvasbacks, scaups, and mallards), cranes, 
swans, cormorants, and pelicans congregate in this area during spring 
and fall migrations. It is one of the most important areas remaining in 
eastern North Dakota for recreational activities such as hunting of 
small game, white-tailed deer, and waterfowl: photography; bird 
watching; and nature study.
    Sheyenne River: The Sheyenne River flows southeast through land 
dominated by agriculture to its confluence with the Red River of the 
North near Fargo. The riparian areas along the Sheyenne River provide 
valuable habitat for a variety of wildlife species. Game species found 
along the river's riparian corridor and adjacent uplands include white-
tailed deer, moose, wood duck, dabbling ducks, pheasant, greater 
prairie chicken, sharptail grouse, grey partridge, mourning dove, wild 
turkey, squirrels (grey, red, and fox), and rabbits (cottontail and 
jackrabbits). Another important wildlife resource is the numerous 
forbearing species such as red fox, coyote, muskrat, beaver, mink, 
weasel, and raccoon. Migratory non-game birds use the river corridor 
for migration or the wooded areas along the river for feeding and 
nesting areas. These birds include many species of passerine song 
birds, wading and shore birds, and captors including Swainson's hawk, 
northern harrier, Cooper's hawk, red-tail hawk, broad-winged hawk, and 
migrating bald eagles.
    The Sheyenne River flows through a unique natural area in 
southeastern North Dakota known as the Sheyenne Sandhills. The 
Sandhills are home to 17 different State listed species as Endangered, 
Threatened, or Peripheral in ;orth Dakota (Link 1989). Additionally, 
the U.S. Forest Service manages the 70,000-acre Sheyenne National 
Grasslands located in Ransom and Richland Counties, in southeastern 
North Dakota. An important State Wildlife Management Area (WMA) along 
the Sheyenne River is Mirror Pool WMA, consisting of three public 
tracts in the Sheyenne Sandhills, scattered along 4 miles of the 
Sheyenne River, southeast of Enderlin, North Dakota (Heidel 1988).
    Red River: Although the habitats supporting fish and wildlife 
resources along the Red River have been substantially altered, the 
remaining areas provide several important functions. Shelterbelts and 
riparian woodlands provide donning and nesting sites, food, escape and 
winter cover, and travel lanes for many wildlife species, including red 
and gray squirrels, chipmunk, cottontail rabbit. striped skunk, red 
fox, raccoon, and white-tailed deer. Common bird species include brown 
thrasher, American kestrel, yellow warbler, crow, robin, downy and 
hairy woodpeckers, flycatchers, black-capped chickadee, and warblers. 
Passerine birds use shelterbelts and riparian forests along the river 
corridor, as migrational routes. Species which have adapted to man's 
activities on the river include the house wren, robin, chipping and 
house sparrows, grackle, and purple martin.
    The riverine habitat provides feeding and resting areas, primarily 
during migrational periods, for several species of waterfowl, namely 
mallards, Canada geese, and hooded mergansers. Wood ducks commonly 
breed in the area, nesting in cavities provided by the mature trees. 
Mink and muskrat also utilize the riparian zone, along with migrating 
shorebirds and birds of prey.
Vegetation
    Devils Lake: The Devils Lake basin is located within the 
transitional zone between the tall grass and mixed grass prairies. 
Historically, nearly 2 million acres of the Devils Lake Basin was 
native grasslands, interspersed with wetlands, woodlands, and shrub 
lands. By the mid-1970's, only 127,875 acres of native grassland 
remained, comprising 8 percent of the basin's cover type (Devils Lake 
Basin Advisory Committee 1976). Conversion of native grassland to 
cropland continues, but at a much reduced rate, because most lands 
suitable for farming have already been plowed. Remaining grasslands are 
grazed or cut for hay. Various conservation programs such as 
Conservation
    Reserve Program, waterbank, and planted wildlife cover have 
established tamegrass as an important habitat in the basin. Currently, 
there about 200,000-250,000 acres of tamegrass in the basin.
    Grassland in association with wetlands is vital to upland nesting 
waterfowl and other migratory birds. Native grasslands are also 
important habitat for resident species such as sharp-tailed grouse, 
ring-necked pheasant, gray partridge, white-tailed deer, jack rabbit, 
skunk, badger, fox coyote, and many nongame bird species.
    There are three major types of native grassland sites in the basin, 
each with its own distinctive plant community. These types are silty, 
overflow. and thin upland range sites. Silty range sites are the most 
common, occurring on nearly-level to rolling glacial till plains, lake 
plains, and on high stream terraces. This grassland type is dominated 
by cool season grasses. In good condition, this type would be expected 
to have needle and thread, green needlegrass, western wheatgrass, 
porcupine grass, numerous forte species, and a few shrubs. The overflow 
range site occurs on nearly level swales and depressions in glacial 
till plains and on stream terraces and floodplains, and is the second 
most frequently occurring grassland site. Dominant species of this type 
include big bluestem, switch grass, little bluestem, green needlegrass, 
and porcupine grass. Forbs and shrubs such as Maximilian sunflower, 
fringed sagebrush, western snowberry, chokecherry, and Juneberry are 
also common. The other common grassland site in the basin is the thin 
upland site. This site is found on gently sloping to moderately steep 
glacial till uplands. A mixture of both cool and warm season grasses 
dominate this type. Principal species are needle and thread, porcupine 
grass, green needlegrass, and little bluestem. All native grassland 
areas, regardless of type, are extremely important to both game and 
non-game wildlife species.
    The Conservation Reserve Program (CRP), administered by U.S. 
Department of Agriculture, is designed to retire agricultural acreage 
for soil and water conservation, and to provide wildlife benefits. The 
Service has estimated that approximately 201,463 acres of CRP exists in 
the Devils Lake basin. Table 3 is a breakout of each county in the 
basin and the CRP acreage.

              Table 3. CRP Acreage in Devils Lake Counties.             
------------------------------------------------------------------------
                                                    Percent             
                                                       of     Estimated 
                                        CRP Acres    County   CRP Acres 
                                                     in the   in the the
                                                     Basin      Basin   
------------------------------------------------------------------------
Benson...............................       43,621       50       21,810
Cavalier.............................       29,848       22        6,566
Nelson...............................      108,756       32       34,802
Pierce...............................       87,367       11        9,610
Ramsey...............................       69,288      100       69,288
Rolette..............................       68,328       22       15,031
Towner...............................       54,336       67       36,405
Walsh................................       88,348        9        7,951
    TOTAL............................      549,887               201,463
------------------------------------------------------------------------

    Woodlands cover 3 percent of the basin. The native forest 
surrounding the Devils Lake chain ranks as one of the three largest 
blocks of contiguous forest remaining in the State. The North Dakota 
Forest Service classifies the native forest in the basin into four 
types: lowland hardwoods, aspen-birch, oak timber, and brush timber. 
Acre-for-acre prairie woodlands are second only to wetlands in 
providing diverse breeding habitat and cover for birds and mammals.
    The lowland hardwoods type is composed primarily of American elm, 
green ash, box elder, cottonwood, and basswood. This type predominates 
along water draineues and river bottoms.
    The primary species in the aspen-birch type are trembling aspen, 
balsam poplar, and paper birch. Stands of these trees prefer northern 
and eastern slopes or other sites where soils are well drained, but 
moisture is abundant.
    The oak timber type is composed primarily of bur oak. It dominates 
dry forest sites in the area. Especially in the area south of Devils 
Lake. Bur oak also grows on moist sites, but in association with other 
species such as green ash.
    The brush timber type is composed of native forest shrubs such as 
willows, chokecherry, American or beaked hazel, red-stemmed dogwood, 
hawthorne, juneberry, pincherry, silverberry, buffaloberry, American 
plum, highbush cranberry. and others. Scattered native trees like bur 
oak and green ash are normally associated with the shrubs.
    A forest inventory of the Devils Lake area by the North Dakota 
Forest Service in January 1980, revealed that during 1971-1977, about 
6.700 acres of native forest were converted to other uses. Agricultural 
clearing for cropland, hayland, and pastures, along with clearing for 
residential development were the principal causes for forest 
conversion. In addition to the losses from clearing, about 25 percent 
of the native forest lands in the area are grazed by livestock.
    Because North Dakota has such limited woodlands, prairie woodland 
habitat in the basin is valuable to a wide variety of wildlife. Prairie 
woodlands are especially important during winter when they provide 
protective cover for both game and nongame wildlife. Raptors such as 
the Swainson's hawk and great horned owl require prairie woodlands for 
nesting.
    Sheyenne River: Deciduous woodlands are the most important habitat 
type in the Sheyenne River Valley. Primary tree species include bur 
oak, basswood, American elm, box elder, aspen, and cottonwood.
    Mirror Pool Wildlife Management Area in southeastern North Dakota 
includes Mirror Pool Swamp, the largest fen or peatland (dense alder 
and bog birch brush) on the Sheyenne River (Heidel 1988).
    Red River: Most of the original prairie which once stretched beyond 
the river corridor has been replaced by farmland. Dominant tree species 
along the Red River include American elm, box elder, cottonwood, green 
ash. and basswood. Common understory species in riparian areas include 
willow, gooseberry, hawthorne, juneberry, and buck brush. Species such 
as Solomon's seal, nodding trillium, asters, wood nettle, violets, 
Canada anemone, hawksbeard, bedstraw, and columbine are common in the 
herb layer. The riparian vegetation also provides shading along the 
bank and the fallen trees in the river provide spawning areas, create 
eddies, and scour holes which are used by the fisheries resource.
    Riparian habitats: Riparian habitats are generally defined as the 
zone of vegetation influenced by the hydrology of streams and rivers. 
Riparian vegetation usually exhibit a higher degree of robustness than 
that located in adjacent areas, and as such, represents a transitional 
zone between wetland and upland environments. Riparian corridors along 
intermittent streams and tributaries to the Red River, Sheyenne River, 
and Devils Lake provide valuable habitat for fish and wildlife. Marsh 
habitat within riparian corridors often provide waterfowl habitat as 
good as prairie wetlands. Riparian areas in the Devils Lake Basin and 
along the river corridors are important not only as habitat for fish 
and wildlife, but also for flood control, streambank stabilization. and 
to improve water quality.
    During high precipitation or runoff events, riparian corridors slow 
the rate of surface water runoff or overland flow. The dense, thick 
vegetation of a healthy, unaltered riparian corridor, and its deep 
humus layer of soil act as retardants, holding back and slowing runoff. 
Cottonwood, ash, and elm with their deep roots, and willow, dogwood, 
and buck brush with shallow, dense roots effectively hold the soil in 
place and defect water to reduce streambank erosion. Riparian areas can 
improve water quality by acting as filters to remove chemical 
compounds, toxic substances, sediments, and trash as the water moves 
slowly through the system.
Description of Wetland Resources
    Devils Lake Basin: Wetland habitats of Devils Lake and its 
watershed can be grouped into broad categories which provide several 
functions and values unique to wetlands such as flood water storage, 
habitat for wildlife, filtering of polluted water, and groundwater 
recharge. Using ``Classification of Wetlands and Deepwater Habitats of 
the United States'' by Cowardin, et al. (1979), and the National 
Wetlands Inventory (NWI), prairie pothole habitats found in the Devils 
Lake Basin can generally be grouped into palustrine, emergent, 
temporarily, seasonally and semipermanently flooded wetlands (PEMA, 
PEMC, and PEMF, respectively). The upper basin chain of lakes can be 
described as a lacustrine, limnetic, unconsolidated bottom, 
intermittently exposed wetland (L1UBG), with a shallow ring of 
lacustrine, littoral, aquatic bed, semipermanently flooded habitat 
(L2ABF).
    Sheyenne River: The Sheyenne River is classified as a riverine, 
lower perennial, unconsolidated bottom, intermittently exposed (R2UBG), 
for the upper one-third, and riverine, lower perennial, unconsolidated 
bottom, permanently flooded (R2UBH), for the lower two-thirds of the 
river's length. In addition to the river habitat, there are several 
other types of floodplain wetlands that occur in the Sheyenne River 
floodplain. For the most part. they are characterized as palustrine, 
emergent, temporarily, and seasonally flooded wetland habitats (PEMA 
and PEMC, respectively). In some areas, sedge meadow wetlands are found 
adjacent or near the Sheyenne River and are maintained by river flows 
and ground water tables. An occasional palustrine, forested, 
temporarily flooded (PFOA) linear or polygon situated adjacent to the 
river may be found along the Sheyenne River.
    Red River: The Red River is characterized as a riverine, lower 
perennial, unconsolidated bottom, permanently flooded (R2UBH). There 
are occasional exposed river bars which have been typed as riverine, 
lower perennial, unconsolidated shore, temporarily or seasonally 
flooded (R2USA, and R2USC, respectively). Unlike the Sheyenne River, 
the Red River floodplain is largely void of wetland polygons of PEMA 
and PEMC. Floodplain wetlands, when identified. typically exist in old 
river scars and oxbows.
Existing Resources
    Devils Lake: The wetland resources of the Prairie Pothole Region, 
including the Devils Lake Basin, perform and provide,many functions and 
values. In general, wetlands follow a yearly cycle, beginning with the 
spring catch of snowbelt runoff. Through the summer months, wetlands 
receive direct precipitation and runoff from the surrounding watershed, 
while simultaneously exporting water through evapotranspiration and 
losing surface water through seepage. By late summer, the wetlands are 
generally drawn down or dry and enter the fall and winter months in a 
condition that prepares them to repeat the cycle the next spring. In 
describing their many roles, Dahl (1996) documented that wetlands 
provide the following functions and values unique to the Prairie 
Pothole Region:
    <bullet>  At least 15 duck species depend on prairie pothole 
wetlands throughout the nesting season.
    <bullet>  Wetlands provide a vital role in waterfowl reproduction, 
feeding, and body conditioning prior to and during spring migration.
    <bullet>  Prairie pothole wetlands are used by a total of 352 
animal species, including federally listed endangered species.
    <bullet>  Wetlands perform a number of other functions, such as 
nutrient sinks, which help to purify water, recharge ground water, and 
provide a source of water and forage for domestic animals.
    <bullet>  Wetlands have the ability to attenuate flood waters.
    In light of the rising lake levels of Devils Lake and massive 
flooding along the Red River in 1997, it is important to recognize and 
understand the role that wetlands do or could play in flood control, 
through their ability to collect and attenuate flood water. These 
functions, particularly when lost through drainage, effect the accuracy 
of predicting runoff events.
    When a wetland depression has collected runoff and precipitation to 
its maximum storage, it will spill additional water, therefore, it is 
accurate to suggest that full wetlands are performing their flood 
retention function. The other functions such as evapotranspiration and 
seepage continue. When the full storage capability (non-contributing) 
of these wetlands is drained, this storage function is lost or largely 
eliminated. Likewise, other functions such as evapotranspiration and 
seepage are also lost. If these wetlands are restored so that runoff 
and precipitation are again captured to the full storage level, that 
water is again non-contributing downstream.
    There is little doubt that the devastating floods witnessed in 
1997, in the Devils Lake Basin and the Red River Valley, due to the 
higher than average precipitation experienced over the past several 
years, has been exacerbated by man's manipulation of the land. The 
impact of flooding is also magnified by man's encroachment on the 
floodplain. This situation illustrates the critical need for wetlands 
and their role in capturing and attenuating flood waters.
    It has been shown through scientific studies that wetlands store 
vast amounts of water. Tiner (1984) reported that agricultural drainage 
between the mid-1950's and mid-1970's was responsible for 87 percent of 
the wetland loss in the United States. The ability to naturally store 
water in North Dakota is greatly reduced due to the fact that 
approximately 50 percent of the wetland base has been drained in North 
Dakota (Dahl 1990). It is important to note that undrained wetlands in 
the Devils Lake Basin are currently storing large volumes of water that 
are minimizing the amounts of inflows that could occur to the lake.
    Currently, there is a three-part approach to solving the Devils 
Lake flooding problem. Along with infrastructure protection and an 
outlet, storage of water in the basin represents the third component to 
the solution. Previously noncontributing drained wetlands are having an 
impact on lake levels by not capturing runoff and precipitation in the 
watershed. In addition. these drained wetland depressions are not 
further regulating inflow to Devils Lake through evapotranspiration and 
groundwater seepage.
    The Devils Lake Basin is a closed system. Within the system, it is 
important to understand how the sub-systems within the basin function. 
Richardson (1994) offers some insight by stating that the ``glaciated 
landscape of the Prairie Pothole Region is a mosaic of closed system 
catchments that vary in size, topographic position, and relationship to 
the groundwater,'' which suggests that most of the wetlands within the 
larger closed Devils Lake Basin are themselves closed systems. However, 
through artificial drainage, as many as 200,000 acres of wetlands, 
previously non-contributing, now function as open systems. This 
drainage, which by surface is twice the surface of Devils Lake, 
generally contributes to rising lake levels.
    Rude and Walker (1968) defined two distinct kinds of landscapes: 
(1) open systems, where the drainage grades form small streams to 
larger trunk streams. and (2) closed systems, where the drainage is 
trapped within a common depository and where surface flow, if it 
occurs, is mostly in ill-defined drainageways to trunk streams. The 
Interagency Floodplain Management Committee's report, ``Science for 
Floodplain Management into the 21st Century'' (1994), describes closed 
landscapes as:
    . . . areas of glacial drift in the drainage basin. Closed 
landscapes lack well defined stream outlets: thus water, sediment, and 
other materials from the surrounding area are trapped in potholes or 
other depressions. Trapped or ponded water must either evaporate or 
recharge the ground water. During large storms, the smaller depressions 
may fill and any excess water may overflow in undefined surface 
drainage to other depressions or eventually to a stream. Constructed 
open ditch drainage systems change closed landscapes so that they 
function more like open landscapes with respect to both surface and 
ground water hydrology. Before agricultural drainage, closed landscapes 
were considered non-contributing, with respect to surface water runoff, 
although they might contribute during storms large enough to cause the 
depressions to ``fill and spill.''
    Hubbard (1988) concluded that as wetland basins are drained, the 
size of the receiving watershed is increased, along with the 
probability that a given runoff event will produce flood levels in the 
receiving water body. While the hydrological functions of flood 
attenuation is complex, it is generally excepted that artificial 
drainage has diminished the effectiveness of prairie pothole wetlands 
to lessen flood damage (Dahl 1996). Similar conclusions have been 
supported by research conducted by Vining et al. (1983), Brun et al. 
(1981), Rannie (1980), Campbell and Johnson (1975), and Kloet (1971). 
Additionally, the correlation between increasing drainage area and 
increasing discharge measurements has long been known to hydrologists 
(Strahler 1964). When Devils Lake is at lower elevations, or in dry 
cycles, this process seems insignificant. However, when elevations are 
at current levels, each inch of water added to Devils Lake becomes 
critical.
    Stichling and Blackwell (1957) documented an interesting phenomenon 
relative to closed drainage systems on the glaciated Canadian prairie. 
The condition they describe can be a corollary to the current Devils 
Lake flooding situation. Hubbard (1988) discussed the finding of their 
research and states:
    Following several years of below normal runoff, the depressions 
within the gross drainage area (gross drainage area is that plane area 
enclosed within its divide that would entirely contribute runoff to the 
main stream in extremely wet years) are empty, or nearly so, providing 
large amounts of storage. The net drainage area (that portion of the 
gross drainage area that will contribute runoff to the main stream in a 
particular year) under dry conditions can therefore be relatively 
small. Stichling and Blackwell (1957) measured a typical watershed in 
Canada and determined that the net drainage area under dry conditions 
for that particular basin was only 20 percent of the gross drainage 
area. Thus, during a major runoff event 80 percent of the gross 
drainage area would be non-contributing. After several years of above 
average runoff, the depressions would be full, or nearly so. and 
available storage would be low. The net drainage area under these 
conditions would approach the gross drainage area in size. A major 
runoff event that under dry antecedent depression conditions would 
yield little to the main stream, would contribute large amounts of 
runoff to the main stream under wet antecedent conditions.
    The above described situation may be relative to the basin, in that 
the Devils Lake Basin experienced a drought from mid-summer 1987 
through mid-summer 1993, with above average precipitation following the 
drought for several years. Stichling and Blackwell's findings that 
during wet antecedent depression conditions, large amounts of runoff 
would be contributed to the main stream, may serve as a parallel to the 
basin for the last 10 years (1987-997). This phenomenon is important 
when considering the effects that agricultural drainage and an 
increased contributing watershed has had on the stream flow within the 
Devils Lake Basin.
    As already discussed, the artificial drainage system in the basin 
functions similar to the drainage pattern of an open system. In recent 
years, the above average runoff has yielded nearly full depressions 
with lowered amounts of available storage. According to Stichling and 
Blackwell, this condition would result in the runoff from a particular 
drainage area approaching the gross drainage area, thus, large runoff 
events could be expected. If the phenomenon described by Stichling and 
Blackwell is occurring in the Devils Lake Basin, it could be the result 
of a basin-wide drainage network, operating as an open system, 
providing the necessary foundation for this event to occur.
    Wetland Acreage Determination: Using the 1979 National Wetland 
Inventory data (as a baseline for wetland acreage), 1980 Natural 
Resources Conservation Service (NRCS) drained hydric soil 
determinations, and the Service's Private Drainage Survey information, 
several conclusions can be made regarding the status of wetlands in the 
basin. From 1966 through 1980, the Service conducted a statewide 
drainage survey in North Dakota. The survey documented a 2.5 percent 
wetland drainage rate for the Devils Lake Basin counties (U.S. Fish and 
Wildlife Service 1966-980).
    Historic wetlands: The Service has determined at least 400,000 
acres of wetlands historically occurred in the basin. With the basin 
accounting for 2,400,000 acres, the wetland base would be 16.6 percent, 
which is similar to other parts of the Prairie Pothole Region.
    Current wetlands: According to the 1979 NWI data, there are 
approximately 252,000 acres of undrained wetlands in the basin (Table 
4). The drainage survey conducted by the Service between 1969-0 
documented wetland drainage in the Devils Lake Basin, averaging 2.5 
percent per year. Using this drainage rate to calculate drainage 
between 1980-985, 41,000 acres of additional wetland could have been 
drained. Drainage since 1985 is considered to be minimal (due to the 
enaction of the Swampbuster provision of the Food Security Act). 
Removing 41,000 from 252,000 produces a 1985 wetland acreage estimate 
for the basin of about 211,000 acres or about 55 percent of the 
original 400,000 acres. These acres, which are more than twice the 
surface acreage of Devils Lake, are providing significant regulation of 
inflow through storage and evapotranspiration to the lake, and as  
result reducing potential impacts.
    Wetland drainage: There are two ways to arrive at an acre estimate 
for wetland loss due to drainage.
    1. In 1980, the NRCS published an estimate of drained and undrained 
hydric soils by county for North Dakota. The Devils Lake Basin 
accounted for approximately 142,000 acres of drained hydric soils. 
Adding the 41,000 drained wetland acres described previously, it is 
estimated that approximately 183,000 acres of wetlands have been 
drained in the basin.
    2. By subtracting 211 000 current wetland acres from the estimated 
400,000 historic wetland acres a figure of 189 000 acres is produced 
which represents the total acres of wetlands that may have been drained 
in the basin.
    * When adjusted to 1997. this wetlands.
Storage Studies

 Table 4. The Acreage and Type of Wetlands Existing in the Devils Lake Basin Based on National Wetland Inventory
                                                  Data (1979).                                                  
----------------------------------------------------------------------------------------------------------------
                                                                                 Semi-                          
                        Subbasin                          Temporary  Seasonal  Permanent  Permanent  Total Acres
                                                            Acres      Acres     Acres      Acres               
----------------------------------------------------------------------------------------------------------------
Hurricane...............................................      7,255     7,234      7.296      5,340       27.125
Comstock................................................        857     2,066      1.347          O        4,270
Mauvais.................................................     10,119    15,313     12,894      7.608       45,934
Chain Lakes.............................................      2,178     5.114      2,446      1,831       11,569
Starkweather............................................      1,756    10,071      2,601      6,254       20,682
Edmore..................................................      2,919    17,194      3,791      6,530       30,434
Stump Lake..............................................      8,436    23,323     11,916      8,875       52,550
DL North................................................      4,094    17,259      9,253      3,374       33,980
DL South................................................      4,997     6,147      8,817      5,955       25,916
    Totals..............................................     42,611   103,721     60,361     45,767     252,460*
----------------------------------------------------------------------------------------------------------------
When adjusted to 1997, this total includes 211,000 acres of undrained wetlands.                                 

Storage Studies
    Drained Basin Study: The Service and the North Dakota State Water 
Commission conducted a Drained Basin study to further describe the 
potential storage in restored drained wetland depressions within the 
Devils Lake Basin. The results of this study were presented in a 
response to the Director of the North Dakota office of the National 
Wildlife Federation and Vice Chairman of the Devils Lake Basin Joint 
Water Resource Board (Sprynczynatyk and Sapa 1997) (Appendix 1). The 
Service continued to analyze and refine the data in response to a 
second request for information from the Director of the North Dakota 
Wildlife Federation (Sapa 1997) (Appendix 2).
    Sprynczynatyk and Sapa (1997) used four studies to conclude that 
restoring 60,000 acres of drained wetlands to their expanded maximum 
depressional storage could result in a potential stored volume of 
156,000 to 294,000 acre-feet. Sapa (1997) used the same ratio of 
expansion to show that when applied to the 189,000 acres of drained 
wetlands estimated in the Devils Lake Basin. could have a maximum 
depressional storage of 491,000 to 926,000 acre-feet of water.
    The results of these studies show that the potential for wetland 
restoration to allow natural basins to capture and store runoff water, 
and allow evapotranspiration to export water out of the basin while re-
establishing seepage connections to the basin, is large. Figure 5 shows 
a cross section that may be helpful in understanding maximum storage 
potential relative to the restored wetland boundary.
    Additional Storage to Upper Lakes: There are several lakes that are 
located in the mid-basin that have the potential for additional storage 
by modifying their existing outlets. The SWC developed information on 
the current holding levels of 11 lakes within the basin and has noted 
the necessary modification and the additional storage that is 
attainable (Table 5).
    A total of 33,250 acre-feet of water storage is available for 
additional storage to the upper basin lakes, impacting a total of 8,720 
acres that are currently not flooded. The 33,250 acre-feet of storage 
is above what is normally incorporated into the existing wetland 
storage of these lakes.

                                      Table 5. Upper Lakes Storage (1997).                                      
----------------------------------------------------------------------------------------------------------------
                                                                Natural                                         
                                                   Natural      Overflow    Potential    Additional     Total   
                      Lake                         Overflow    Volume ac-    Holding      Storage    Storage ac-
                                                  Level msl        ft       Level msl    Acre-feet        ft    
----------------------------------------------------------------------------------------------------------------
Dry Lake.......................................       1447.5       23,500       1449.0        8,500       32,000
Sweetwater-Morrison............................       1459.0       27,000       1460.0        7,000       34,000
Lake Irvine/Alice..............................       1441.6        9,300       1443.0        9,000       18,300
Chain Lake.....................................       1442.0        1,750       1443.0        1,350        3,100
Mikes Lake.....................................       1442.0          500       1443.0          500        1,000
Hurricane Lake *...............................       1549.5        4 300       1550.5        3,500        7,800
Lake Ibsen *...................................       1489.5        7,150       1490.5        1,500        8,650
Silver Lake *..................................       1441.0        2,698       1444.0        1 250        3,948
Cavanaugh Lake *...............................       1453.5        2,700       1455.0          650        3,350
    Totals.....................................                    78,898                    33,250      112,148
----------------------------------------------------------------------------------------------------------------
* Estimated overflow level and volume.                                                                          

    The potential for water storage in the upper basin is not limited 
to lakes. Topographic setting of wetland basins can be modified using 
dykes and dams to increase storage capacity beyond normal levels.
    Sheyenne and Red Rivers: The Red River Valley drainage basin reacts 
in much the same way as the Devils Lake Basin, in that artificial 
drainage enlarges the contributing watershed and increases runoff, 
thereby increasing the possibility of flooding in the receiving water 
body, e.g., Red and Sheyenne Rivers.
    In the winter of 1993, the North Dakota State Geologist published 
an article in the North Dakota Geological Survey (NDGS) Newsletter in 
which he wrote:
    Artificial drainage ditches facilitate draining of valuable 
farmland, but they also result in faster and more complete transfer of 
rainfall and snow melt to the main stream or river. Water that was once 
stored on flatlands bordering the river can pour into the river quickly 
during spring thaws. Similarly, drained wetlands, which were once 
available to hold back water, can release water quickly, thereby 
contributing to the flooding problem (Bluemle 1993).
    The NDGS article is consistent with other research regarding the 
effects of agricultural drainage and its impact on flooding. Several 
researchers have shown that increases in stream flow are a likely 
result of agricultural drainage.
    Vining et al. (1981), found that yearly stream flows at Hillsboro 
(42 years of data, beginning in 1936 on the Goose River) and Grafton 
(47 years of data, beginning in 1932 on the Park River) increased 
during the study period, while at Hazen (37 years of data, beginning in 
1944 on the Knife River) the yearly streamflow had not changed. 
Precipitation affected the yearly stream flows in the Knife and Park 
Rivers, but did not have an affect on the Goose River. Subsequent land 
surveys in the Goose River drainage showed the basin to have been 
enlarged due to artificial drainage. It appears that artificial 
drainage has affected the streamflow in the Goose River. The study 
suggests that other rivers in eastern North Dakota may be affected in 
the same way as the Goose River.
    Brun et al. (1985), concluded that predicted flow rates were shown 
to be closely related to changes in basin size due to land drainage in 
the Maple and Goose River Basins. Brun's regression analysis showed 
that an increase in predicted flow is strongly related to increases in 
drainage area in each basin. Flow rates were shown to be related to 
precipitation, however, there appeared to be no change in precipitation 
patterns to account for the increase in flow rates, suggesting that 
artificial drainage is a major factor in increasing stream flow.
    While many studies tend to show that increased drainage leads to 
increased stream flow, what has not been shown to date, is how much of 
the increased flow adds to the peak flows on flooding rivers.
    Hydric Soils: Hydric soils have been defined by NRCS as those soils 
that, in an undrained condition, are saturated, flooded, or ponded long 
enough during the growing season to develop anaerobic conditions that 
supports the growth and regeneration of hydrophytic vegetation. While 
not interchangeable with wetland data, hydric soil information, 
particularly artificially drained hydric soil, can be very helpful for 
highlighting and supporting much of the wetland data previously 
discussed. Cowardin (1982) found that because water regimes and their 
characteristic vegetation fluctuate over a period of years, soils can 
be used to predict long-term average conditions. Under normal 
circumstances, hydric soils support wetland vegetation, and therefore 
can be used as a wetland indicator (Dahl 1990).
    Hydric soil acreage listed by county is shown in Table 6. The 
figures in the table have been determined by NRCS and compiled over 
various years. The table lists the hydric soil estimates by county, the 
percentage of each county in the Devils Lake Basin, and the hydric soil 
acres in the basin. Ramsey County is the only county that is entirely 
within the basin. All other hydric soil acres are determined by the 
percentage of each county total within the basin.

                       Table 6. Hydric Soil Acres for Devils Lake Counties and the Basin.                       
----------------------------------------------------------------------------------------------------------------
                                                  Hydric Acres by County                   Hydric Acres in the  
                                                --------------------------                        Basin         
                     County                                                % Co. Basin -------------------------
                                                     1980         1997                      1980         1997   
----------------------------------------------------------------------------------------------------------------
Ramsey.........................................      109,000      222,596          100      109,000      222,596
Towner.........................................      105,000      165,167           67       70,350      110,662
Cavalier.......................................      128.000      253,999           22       28,160       55,880
Pierce.........................................      119,000      135,210           11       13,090       14,873
Nelson County Area.............................      122,000      163,133           32       39,040       52,203
Rolette........................................      115 000       73,153           22       25,300       16,094
Benson County Area.............................      140,000      195,545           50       70,000       97,773
Walsh..........................................      283,000      209,293            9       15,120       18,836
    TOTALS.....................................    1,121,000    1,418,096                   370,060     *588,917
----------------------------------------------------------------------------------------------------------------
*This figure was generated through the Service's calculations of raw hydric soil acreage data provided by NRCS. 

    The difference in the total hydric soil acreage by county, as 
explained by the NRCS, is due to the completion of about 10-5 county 
soil surveys in North Dakota. The completion of these surveys allow for 
a more accurate assessment of hydric soil acreage.
    Numerous programs are available through various State and Federal 
agencies that offer income incentives to farmers and ranchers. These 
programs are designed around environmental benefits, but offer a 
variety of opportunities to affect storage and runoff in the basin. The 
details of these programs are described in the NDSU Extension Service 
brochure entitled ``Income Alternatives for Farmers and Ranchers,'' 
August 1992 (Appendix 3). This brochure is currently being reprinted.
Threatened or Endangered Species and Rare Species
    Threatened or Endangered Species: Federally endangered and 
threatened species that may be present in the Devils Lake Basin include 
the bald eagle (Haliacetus eucocephalus), peregrine falcon (Falco 
peregrinus), and piping plover (Charadrius melodus). The bald eagle and 
peregrine falcon migrate through, but are not known to nest in the 
Devils Lake Basin. Piping plovers migrate through the project area and 
are recorded as nesting on exposed alkaline shoreline within the basin.
    Federally endangered and threatened species that may be present 
along the Sheyenne and Red Rivers' corridors include the bald eagle 
(Haliacetus eucocephalus), peregrine falcon (Falco peregrinus), and 
western prairie fringed orchid (Platanthera praeciara). The bird 
species often utilize water courses and river valleys as migration 
routes and temporary feeding sites. The Red River Valley and its 
tributaries, including the Sheyenne River, are primary migration routes 
across eastern North Dakota.
    A list of federally endangered and threatened species for each 
county in the project areas is provided in Table 7. This list fulfills 
requirements of the Fish and Wildlife Service under Section 7 of the 
Endangered Species Act.
    If a Federal agency authorizes funds, or carries out a proposed 
action, the responsible Federal agency, or its delegated agent. is 
required to evaluate whether the proposed action ``may affect'' listed 
species. If it is determined that the action ``may affect'' a listed 
species, then the responsible Federal agency shall request formal 
Section 7 consultation with this office. If the evaluation shows a ``no 
effect'' situation on the listed species, further consultation is not 
necessary.
Table 7. County Occurrence of Threatened and Endangered Species in 
        North
    Western prairie fringed orchids, a federally listed threatened 
species, are located throughout the Sheyenne National Grasslands and 
adjacent areas in Ransom and Richland Counties. The wester prairie 
fringed orchid is a perennial orchid of the North American tallgrass 
prairie and is found most often on unplowed. calcareous prairies and 
sedge meadows. In North Dakota, the orchid most frequently occurs in 
the sedge meadow community on the Glacial Sheyenne Delta and also in 
the moist tallgrass prairies.
    The Service is concerned with the Sheyenne River flowing at or near 
bank full conditions for extended periods of time. The concern is that 
such conditions may affect the surrounding water table and aquifers, 
resulting in the inundation of low lying swales and their margins, 
which is the habitat of the orchid. Sustained or more frequent 
inundation would likely alter the vegetation community. If this or 
other impacts are likely to occur, formal Section 7 consultation with 
this office will be required to determine whether this project will 
jeopardize the existence of the orchid. Specifically, project data 
needs to be developed that characterizes and projects impacts for the 
interaction between surface and ground water in the orchid range in 
Richland and Ransom Counties. This surface/ground water interaction 
must also address the long-term affects of sustained bank flow 
conditions and overlay an alyses of average precipitation and above 
normal precipitation events.
    Rare species: The North Dakota Parks and Recreation Department, 
Natural Heritage Inventory, compiles and maintains a database 
documenting the statewide status and location of rare flora and fauna, 
ecological communities, and unique geological features. Appendix 4 are 
the tables detailing the Natural Heritage Inventory listings for the 
Devils Lake Basin, and the Sheyenne and Red Rivers.
    The Devils Lake Basin listing was compiled using 110. 7.5-minute 
quadrangles, which encompass the basin. The Sheyenne River table lists 
species and features found within a corridor approximately 6 miles wide 
(3 miles on each side of the river). The Red River corridor is 
approximately 3 miles wide, and only presents species and features 
found in North Dakota.
    The Nature Conservancy administers the Pigeon Point tract located 
in Owego Township, T. 135 N.. R. 53 W., Section 19, and T. 135 N.. R. 
53 W., Section 18, SE\1/4\, and T. 135 N.. R. 53 W., Section 18, W\1/2\ 
of the NE\1/4\.
Water Resources/Water Quantity
    Devils Lake: In October of 1992, Devils Lake was recorded at 
elevation 1422.4, the lowest elevation registered thus far for the 
decade of the 1990's (Figure 6). At elevation 1422.4, Devils Lake was 
approximately 46,034 surface acres. The spring of 1993 marked the 
beginning of a steady rise in lake levels. Currently, the lake has 
risen 20.2 feet to 1442.6 (September 28. 1997) in just over 4 years. At 
its current elevation, Devils Lake is 96,900 surface acres. The 
estimated mean annual inflow to Devils Lake for 1950-993 is 65,500 
acre-feet (Wiche and Vecchia 1995). The annual inflow from 1990 to 1997 
is shown on Figure 6. Preliminary inflow estimates for 1997 through 
June is 418,000 acre-feet (Pers. common., S. Vecchia, USGS, Bismarck 
1997).
Figure 6. Annual Inflow to Devils Lake, with a 1997 inflow estimate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Devils Lake: The water quality of the Devils Lake Basin is affected 
by factors such as climate, topography, and geology. Warm dry periods 
generally increases evaporation efficiency, which results in a 
concentration of dissolved solids, while during wet periods, increased 
runoff, stream flow and lake levels tend to dilute dissolved solids. 
Topography and drainage also affect water quality by influencing the 
amount and rate of runoff (Lent and Zainhofsky 1995).
    The most recent water quality data has been developed by the U.S. 
Geological Service (USGS) and published in ``Lake Levels, Stream Flow, 
and Surface-Water Quality in the Devils Lake Area, North Dakota'', by 
Wiche 1996. The data covers a variety of periods ending in 1995. The 
North Dakota Department of Health is continuing to monitor water 
quality at nine sites along the Chain of Lakes and Devils Lake. four to 
six times a year. Raw data is being compiled and will be analyzed in 
the future (North Dakota Dept. of Health, oral commun. 1997).
    The issue of water quality in Devils Lake, and its relationship to 
the fishery and the proposed outlet to the Sheyenne River, is difficult 
to address, largely because it is not entirely understood. Because 
freshwater flows enter Devils Lake on the west end, TDS concentrations 
are the lowest there. The TDS gradient increases eastward in Devils 
Lake resulting in more saline conditions on the east side.
    The following tables list the average dissolved-solids 
concentrations for Devils Lake Basin locations, upstream and downstream 
tributaries, Devils Lake and Stump Lake (Tables 8 and 9). Figure 7 
displays the TDS gradient from west to east across Devils Lake.

Table 8. Average Dissolved-Solids Concentration for Streams and Lakes in
                   the Devils Lake Basin (Wiche 1996).                  
------------------------------------------------------------------------
                                                                    TDS 
                Site                           Location           (mg/l)
------------------------------------------------------------------------
Tributaries Upstream of the Chain                                       
 of Lakes:                                                              
1..................................  Edmore Coulee..............     450
2..................................  Starkweather Coulee........     361
3..................................  Mauvais Coulee.............     618
Chain of Lakes and Downstream                                           
 Tributaries:                                                           
4..................................  Sweetwater Lake............     585
5..................................  Lake Alice.................     768
6..................................  Lake Irvine................     607
7..................................  Channel A..................     683
8..................................  Big Coulee.................     645
9..................................  Sheyenne River (near            476
                                      Warwick).                         
------------------------------------------------------------------------



 Table 9. Average Dissolved-Solids Concentration for Selected Locations 
       in Devils Lake and West and East Stump Lakes (Wiche 1996).       
------------------------------------------------------------------------
                          Location                            TDS (mg/l)
------------------------------------------------------------------------
                        Devils Lake                                     
Sixmile Bay................................................        3,300
Creel Bay..................................................        3,300
Main Bay...................................................        3,500
Mission Bay................................................        4,100
East Bay...................................................        5,600
East Devils Lake...........................................       10,400
                        Stump Lakes                                     
West Stump Lake............................................       14,700
East Stump Lake............................................     103,000*
------------------------------------------------------------------------
* TDS levels continue to improve.                                       

Figure 7. TDS Gradient from West to East Across Devils Lake to Stump 
        Lakes.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Based on field data gathered at Devils Lake, it is generally agreed 
that the existence of a healthy fishery depends on a balance between 
TDS and nutrient levels. Operation criteria for each of the features 
designed will have an impact on future fishery. To maximize protection 
of the valuable fish resource operation criteria should consider long-
term impact to the fish resource.
    Nutrient loading is believed to be occurring in Devils Lake, in 
part, due to runoff from the intensively farmed basin, and to a lesser 
degree from livestock operations. Wetland drainage, fall cultivation, 
and fertilizer application are some of the agricultural practices 
suspected of contributing to water quality degradation.
    Removal of fresh water from the west end of Devils Lake by a 
proposed outlet will result in a general degradation of water quality 
in the future. To lessen potential impacts from the water quality 
degradation, all steps should be taken to enhance remaining water 
quality. These include, but are not limited to, protection and 
enhancement of riparian zones, reduce inflow nutrient and soil through 
grassed waterways. and in connecting historic waterflow routes, which 
will slow water movement and remove nutrients, and encourage Best 
Management Practice that enhance water quality.
    Lorenz (1996) details the sampling design for a comprehensive 
regional assessment of water quality in the Red River of the North 
Basin, as a study unit under USGS's National Water-Quality Assessment 
(NAWQA) Program. The sampling design was developed to address questions 
about the presence, distribution, and nutrient loads and pesticides 
associated within the basin. The report describes the environmental 
framework and sampling design for the the water quality assessment 
during 1993-995. Due to the report's comprehensive attire, a copy of 
its Selected References has been appended to this report (Appendix 5). 
This reference list represents an excellent resource for literature 
relating to water quality issues of the Red River basin.
Public Wildlife Lands
    There are a number of public wildlife lands within the basin that 
are managed for the benefit of fish and wildlife resources. The North 
Dakota Game and Fish Department manages seven Wildlife Management Areas 
(Black Swan, Crary, Minnewaukan, Nesvig, Pelican Township, C.C. 
Underwood, and Kenner Marsh) within the Devils Lake Basin, totaling 
2,513 acres.
    The Service is currently developing a digital database that will 
depict all Service fee title and wetland easement tracts. This database 
is being produced for the Devils Lake Basin, eventually expanding 
statewide. It is the Service's intention to provide the Corps with the 
Devils Lake Basin database as soon as it's completed (mid-FY98).
    Within the Devils Lake Basin, the Service administers Waterfowl 
Production Areas (WPA), wetland easements, and a National Wildlife 
Refuge (Lake Alice). All tracts are managed by the Devils Lake Wetland 
Management District Complex located in Devils Lake, North Dakota. The 
following table is a summary of the acres of wetlands administered by 
the Service (U.S. Fish and Wildlife Service. 1995). Table 10. Service 
Land Interests in Devils Lake Basin

                                                                        
------------------------------------------------------------------------
                       Land Interests                           Acres   
------------------------------------------------------------------------
Wetland Easements..........................................      112,598
WPA's......................................................       10,666
National Wildlife Refuge (Lake Alice)......................        8,000
Sullys Hill National Game Preserve.........................        1,674
------------------------------------------------------------------------

    The Service also operates the Valley City National Fish Hatchery 
(on the Sheyenne River) immediately upstream from the town of Valley 
City.
International Considerations as they relate to Fish and Wildlife 
        Resources
    Preliminary analysis of proposed emergency outlet plan have been 
undertaken by the Garrison Joint Technical Committee. This committee of 
Canadian and U.S. officials have not officially reached conclusion on 
the proposal. In addition, the issue of Devils Lake has been elevated 
to the International Joint Commission for further consideration.
V. Identification of Fish and Wildlife Related Issues and 
        Recommendation Influencing Lake Stabilization
    The following list of issues have been identified through the 
development of this Substantiating Report. They generally represent 
some of the major unresolved issues and data needs relative to the 
Feasibility Study.
    1. The Long Term Resolution of Devils Lake Flooding Requires a 
Basinwide Plan.
    Resolution of Devils Lake flooding has been characterized by the 
State sponsor and others as the three-part approach. The three parts 
are:
    a. Infrastructure protection/removal/zoning
    b. Storage/management of runoff (flood water) throughout the basin
    c. Outlet
    Without a comprehensive approach to solving the flooding situation, 
any or all of the solutions are likely to have disappointing results. 
Infrastructure protection/removal/zoning, is needed to protect roads 
and maintain needed services for the area, provide flexibility in lake 
elevations by removing difficult-to-protect low-lying structures, and 
securing long-term management flexibility through zoning restrictions. 
Storage, management, and evaporation of runoff throughout the basin 
will provide immediate relief to the amount of runoff entering the 
lake, increase regulation of basin runoff. accelerate lake draw down. 
minimize the amount of water that might be processed through an outlet. 
and directly addresses a source of man-controlled runoff to the lake. 
An outlet would be used to provide additional relief after the basin 
actions (a and b) have been implemented.
    Recommendation: The Corps, in cooperation with the State sponsor 
develop actions for the Devils Lake flooding solution as part of a 
comprehensive approach, and seek authorization language and 
implementation strategies that endorse the comprehensive approach. The 
goal should be to maximize the actions that contribute to the solution 
within the basin, and minimize the amount of water that may be released 
outside the basin. To facilitate this approach, a detailed survey of 
the basin's storage potential, including natural restorable and managed 
sites, should be completed and analyzed as part of the basin's storage 
component.
    2. What is the Effect of Land Use Chances in the Basin on the 
Lake's Runoff?
    Predictive hydrologic models need to be developed to understand how 
land use manipulation has increased the amount of contributing land, 
and altered run off potential in the basin. This information is needed 
to increase accuracy of run off predictions, and set realistic 
expectations and operating criteria for all three of the building block 
solutions.
    Recommendation: The Corps should seek updated hydrologic 
predictions that include the current run off potential in the basin 
incorporating the changes to runoff potential caused by land use 
manipulation. These updated predictions should be provided in a timely 
manner to allow use in the development of specific actions and 
operation strategies.
    3. Operation Criteria. Goals and operating criteria for all parts 
of the solution need to be established. This is necessary to plan 
development in an orderly manner, and determine the environmental 
impacts to the basin, the lake and its resources, and downstream on the 
Sheyenne and Red Rivers. It is also necessary to develop practical and 
compatible plan strategies for an effective resolution of the flooding 
issue.
    Recommendations: Operating criteria for the various parts of a 
comprehensive solution should be identified and analyzed. Additionally, 
a specific hydrologic analysis between surface and ground water on the 
Sheyenne River in western prairie fringed orchid range will be required 
to assess potential for impacts to the threatened plant. The result of 
this study will be needed to work out an acceptable operating plan 
prior to implementation.
    4. Determining Optimum Lake Levels. Modifying the hydrology of the 
Devils Lake basin is likely to change the lake in the future. To 
minimize the potential for these changes to be harmful, development of 
criteria for lake level operations is necessary. These criteria should 
address the desired lake levels and water quality necessary to maintain 
a vigorous fishery resource, should establish the minimum draw down 
necessary to achieve relief from the flooding and provide flexibility 
in lake management, and address basin storage from a standpoint of 
reducing downstream impacts on the lake, and Sheyenne and Red Rivers.
    Recommendation: For purposes of resolving the flooding issue and 
minimizing the harm to natural resources, an operational management 
plan needs to be developed. This should include a minimum lake level 
target, operating ranges be used to devise operating strategies. and 
develop expectation for resolution of the flooding issue.
    5. Water Quality Maintenance. Protection against the degradation of 
water quality from the flooding solution, in Devils Lake, and the 
Sheyenne River (Lake Ashtabula) and Red River will be essential to 
minimize impacts to fish and wildlife resources, downstream water 
users, and Canada.
    Recommendation: Based on predictive models, operating criteria 
should be established that minimize the harm to the Devils lake, and 
downstream receiving waters. Also, a comprehensive program to enhance 
remaining water will be necessary if an outlet is proposed to remove 
the lake's freshwater.
                             vi. references
Best, R.G. 1978. Utilization of color infrared aerial photography to 
    characterize prairie potholes. Pages 180-187, in Pecora IV, 
    Proceedings of the Symposium. Natl. Wildl. Fed. Sci. Tech. Ser. 3.
Bluemle, J.P. 1993. Flooding in North Dakota in 1994? North Dakota 
    Geological Survey Newsletter. Vol. 20, No. 4, Winter 1993.
Brun, L.J.. J.L. Richardson, J.W. Enz, and J.K. Larsen. 1981. Stream 
    flow changes in the southern Red River Valley of North Dakota. 
    North Dakota--Farm Res. 33(5):11-4.
Campbell, K.L., and H.P. Johnson. 1975. Hydrologic simulation of 
    watersheds with artificial drainage. Water Resour. Res. 11:120-26.
Cowardin, L.M. 1982. Wetlands and deepwater habitats: A new 
    classification. J. Soil and Water Cons. 37:83-5.
Cowardin. L.M., V. Carter, F.C. Golet, and E.T. LaRoe. 1979. 
    Classification of wetlands and deepwater habitats of the United 
    States. U.S. Fish and Wildlife Service. FWS/OBS--79/31, Washington, 
    DC.
Cowdery, T.K. 1997. Shallow ground water quality beneath cropland in 
    the Red River of the North Basin, Minnesota and North Dakota, 1993-
    5. U.S. Geological Survey, Water-Resources Investigations Report 
    97-001. 52 pp.
Cvancara. A.M. 1974. Mussels and pollution in the Red River drainage, 
    North Dakota and Minnesota. Research Project Technical Completion 
    Report. Research Report No. WI-221-19-4. Dept. of Geology, Univ. of 
    North Dakota, Grand Forks, North Dakota.
Dahl, T.E. 1990. Wetland losses in the United States 1780's to 1980's. 
    U.S. Dept. of the Interior, Fish and Wildlife Service. Washington, 
    DC.
Dahl, T.E. 1996. Status of prairie pothole wetlands in the United 
    States North Dakota, South Dakota, and Minnesota, In Draft. U.S. 
    Fish and Wildlife Service, National Wetlands Inventory Center. St. 
    Petersburg, Fla.
Devils Lake Basin Advisory Committee. 1976. The Devils Lake Basin 
    Study, Vol. 1, Study Report. Bismarck, North Dakota.
Duxbury, A. 1989. Natural history of the Sheyenne Delta. North Dakota 
    Outdoors, Vol. 52. Issue 02. 14-8.
Eisenlohr, W.S., Jr. 1966. Water loss from a natural pond through 
    transpiration by hydrophytes. Water Resources Research, Vol. 2, No. 
    3, p. 443-53.
Euliss, N.H., D.M. Mushet. 1996. Water-level fluctuation in wetlands as 
    a function of landscape condition in the Prairie Pothole Region. 
    Wetlands Vol. 16, No. 4, December 1996, Pages 587-93.
Goldstein. R.M., J.C. Stauffer. P.R. Larson, and U.L. Lorenz. 1996. 
    Relation of physical and chemical characteristics of streams to 
    fish communities in the Red River of the North Basin, Minnesota and 
    North Dakota. 1993-5. U.S. Geological Survey. Water Resources 
    Report 96-227.
Goldstein, R.M., M.E. Brigham, and J.C. Stauffer. 1996. Comparison of 
    mercury concentrations in liver. muscle, whole bodies. and 
    composites of fish from the Red River of the North. Can. J. Fish. 
    Aquat. Sci., Vol. 53, Pages 244-52.
Guenthner, R.S. 1991. Methods for estimating monthly mean 
    concentrations of selected water-quality constituents for stream 
    sites in the Red River of the North Basin, North Dakota and 
    Minnesota. U.S. Geological Survey, Water-Resources Investigations 
    Report 91-086. 52 pp.
Heidel, B. 1988. Mirror Pool Wildlife Management Area. North Dakota 
    Outdoors, Vol. 50, Issue 08. 19 pp.
Hendrickson, J.C. 1990. Salinity and fish reproduction in Devils Lake 
    Basin, North Dakota. North Dakota State University. M.S. Thesis.
Hiltner, R.J. 1997. Aquatic investigations of Devils Lake. 1996. North 
    Dakota Game and Fish Department, Bismarck, North Dakota.
Hiltner, R.J. 1996. Aquatic investigations of Devils Lake, 1995. North 
    Dakota Game and Fish Department, Bismarck, North Dakota.
Hiltner, R.J. 1992. Creel survey information for Devils Lake. 
    Spirilwood Lake, Heart Butte, Lake Elsie and Velva Sportsmans Pond. 
    North Dakota Came and Fish Department-Bismarck. North Dakota.
Hiltner, R., and T. Steinwand. 1996. Addendum to analysis of long term 
    survival, natural reproduction and potential hybridization of 
    striped bass (Morone saxatilis) in Devils Lake, North Dakota. North 
    Dakota Game and Fish Department, Bismarck, North Dakota.
Hoberg. T. 1992. Reptiles and amphibians of North Dakota. North Dakota 
    Outdoors, Vol. 55, Issue 01, 7-6.
Hubbard, D.E. 1988. Glaciated prairie wetland functions and values: A 
    synthesis of the literature. U.S. Fish and Wildlife Service 
    Biological Report 88(43). 50 pp.
Hubbard, D.E., and R.L. tinder. 1986. Spring runoff retention in 
    prairie pothole wetlands. J. Soil and Water Cons. 41:122-25.
Hubbard, D.E. 1982. Surface area-volume relationship of wetland basins 
    in the interior of the Coteau des Prairies. Pages 154-58 in Proc. 
    S.D. Acad. Sci. Vol. 61 (1982).
Interagency Floodplain Management Review Committee, Science for 
    floodplain management into the 21st Century. Floodplain Management 
    Task Force, Washington, DC., 1994.
Johnson, R.R., C.L. Milewski, and K.F. Higgens. 1996. Summary and 
    selected annotated bibliography of the ecology of the Upper 
    Mississippi and Missouri River drainage basins with emphasis on 
    wetlands and riparian zones and the impact of flood control and 
    flooding on the ecosystem, in Galat, D.L., and Frazier, A.G., eds., 
    Overview of River Floodplain Ecology in the Upper Mississippi River 
    Basin, Vol. 3 of Kelmelis, J.A., ed., Science for Floodplain 
    Management into the 21st Century: Washington, DC., U.S. Government 
    Printing Office, 115 pp.
Kloet, L. 1971. Effects of drainage on runoff and flooding within the 
    Pembina River Basin, North Dakota-Manitoba. U.S. Fish and Wildlife 
    Service, Bismarck, North Dakota (Unpublished report).
Lent, R.M., and S.D. Zainhofsky. 1995. Variations in surface-water 
    quality in the Chain of Lakes and its tributaries, Devils Lake 
    Basin, North Dakota, 1957-2. U.S. Geological Survey, Water 
    Resources Investigations Report 95-102. 87. pp.
Lent, R.M. 1994. Sources and cycling of major ions and nutrients in 
    Devils Lake, North Dakota. U.S. Geological Survey. Water-Resources 
    Investigations Report 94-171. 63 pp.
Link, G. 1989. The secret and splendor of the Sheyenne Sandhills. North 
    Dakota Outdoors, Vol. 52, Issue 02, 19-1. Lorenz, D.L., and J.D. 
    Stoner. 1996. Sampling design for assessing water quality of the 
    Red River of the North Basin. Minnesota, North Dakota, and South 
    Dakota, 1993-995. U.S. Geological Survey, Water-Resource 
    Investigations Report 96-129.
Ludden, A.P., D.L. Frink, and D.H. Johnson. 1983. Water storage 
    capacity of natural wetland depressions in the Devils Lake Basin of 
    North Dakota. J. Soil and Water Cons. 38:45-8.
Moretti, C.J. 1996. Research Project Technical Completion Report: 
    Evaluation of water quality impact caused by winter wastewater 
    discharges into the Red River. North Dakota Water Resources 
    Research Institute, Grand Forks, North Dakota. 35 pp.
North Dakota Game and Fish Department. 1997. Short term survival of 
    yellow perch fingerlings in cages. Special Project Fact Sheet, 
    3:97. Devils Lake, North Dakota.
North Dakota Parks and Recreation Department. 1987. North Dakota Rivers 
    Study. Bismarck, North Dakota.
North Dakota State Department of Health and Consolidated Laboratories. 
    1990. The status of water quality in the State of North Dakota, 
    1988-989. The 1990 Report to the Congress of the United States. 
    Division of Water Supply and Pollution Control, Bismarck, North 
    Dakota.
North Dakota State Department of Health and Consolidated Laboratories. 
    1992. North Dakota Water Quality Assessment, 1990-991. The 1992 
    Report to the Congress of the United States. Division of Water 
    Supply and Pollution Control, Bismarck, North Dakota.
North Dakota State Department of Health and Consolidated Laboratories. 
    1994 North Dakota Water Quality Assessment, 1992-993. The 1994 
    Report to the Congress of the United States. Division of Water 
    Supply and Pollution Control, Bismarck, North Dakota.
Peggerla, A.K. 1994. A study of the impact of discharges into a reach 
    of the Red River of the North. North Dakota Water Resource Research 
    Institute. Grand Forks, North Dakota. 42 pp.
Rannie, W.F. 1980. The Red River flood control system and recent flood 
    events. Water Resour. Bull. 16:207-14.
Richardson, J.L. 1994. Report on various aspects of upland hydrology, 
    wetlands and soils for the SAST Project. In Draft. Dept. of Soil 
    Science. North Dakota State University, Fargo, North Dakota.
Richardson, J.L., and C.L. Lura. 1986. Soils and vegetation in the 
    Stand Zones of Devils Lake, North Dakota. Dept. of Soil Science, 
    North Dakota State Univ., Fargo, North Dakota.
Richardson, J.L., J.L. Arndt, and J. Freeland. 1994. Wetland soils of 
    the Prairie Potholes, Dept. of Soil Science. North Dakota State 
    Univ., Fargo, North Dakota.
Ruhe, R.V., and P.H. Walker. 1968. Hillslope models and soil formation. 
    I. Open Systems: International Congress of Soil Science, 9th, 1968, 
    [Transactions 4] Pages 551-560.
Sando, S.K. 1993. Physical-property, water-quality, plankton, and 
    bottom material data for Devils Lake and East Devils Lake. North 
    Dakota, September 1988 through October 1990. U.S. Geological 
    Survey, Water-Resources Investigations Report 91-086. 52 pp.
Sando, S.K., and R.M. Lent. 1995. Spatial and seasonal variability in 
    water quality of Devils Lake, North Dakota, September 1988 through 
    October 1990. U.S. Geological Survey, Water Resources 
    Investigations Report 954081. 41 pp.
Sapa, A. 1997. Letter to National Wildlife Federation analyzing and 
    defining data.
Schlueter, L. 1995. The Red River of the North. North Dakota Outdoors, 
    Vol. 57, Issue 10, 6-9.
Spryncznatyk, D., and A. Sapa. 1997. Letter to National Wildlife 
    Federation on drained basin study.
Stichling, W., and S.R. Blackwell. 1957. Drainage area as a hydrologic 
    factor on the glaciated Canadian prairies. Pages 356-76 On General 
    assembly of Toronto, Vol. 3: surface waters, prevision [sic.], 
    evaporation. Intern. Assoc. Sci. Hydrol. Pub. No. 45.
Strahler, A.N. 1964. Quantitative geomorphology of drainage basins and 
    channel networks. Pages 39-6 in V.T. Chow, ed. Handbook of applied 
    hydrology. Section 4. McGraw-Hill Book Co., New York.
Strobel, M.L. 1995. Salinity in surface water in the Red River of the 
    North Basin, Northeastern North Dakota. U.S. Geological Survey, 
    WaterResources Investigations Report 95-082. 14 pp.
Tiner, R.W. 1984. Wetlands of the United States: Current status and 
    recent trends. U.S. Fish and Wildlife Service, National Wetlands 
    Inventory, Washington, DC.
U.S. Army Corps of Engineers (St. Paul District). 1983. Section 205 
    Detailed Project Report: Flood control project at Devils Lake, 
    North Dakota. St. Paul, Minnesota. 89pp.
U.S. Army Corps of Engineers (St. Paul District). 1988. Devils Lake 
    Basin Integrated Draft Feasibility Report and Environmental Impact 
    Statement. St. Paul. Minnesota. 167 pp.
U.S. Army Corps of Engineers (St. Paul District)-1992 Reconnaissance 
    Report for Flood Control, Lake Stabilization and Comprehensive 
    Purposes, Devils Lake Basin, North Dakota. St. Paul, Minnesota. 
    75pp.
U.S. Army Corps of Engineers (St. Paul District). 1996. Emergency 
    Outlet Plan, Devils Lake, North Dakota. St. Paul, Minnesota. 26 
    pp.U.S. Army Corps of Engineers (St. Paul District). 1996. 
    Environmental Assessment and Plans and Specifications for Raise of 
    Existing Levee. Devils Lake, North Dakota. St. Paul, Minnesota.
U.S. Army Corps of Engineers (St. Paul District). 1996. Devils Lake, 
    North Dakota Contingency Plan. St. Paul, Minnesota. 49 pp.
U.S. Fish and Wildlife Service. 1988. Draft Fish and Wildlife 
    Coordination Report, Devils Lake Basin Flood Control Project.
U.S. Fish and Wildlife Service. 1992. Substantiating Report. Devils 
    Lake Basin Project, Devils Lake, North Dakota. Bismarck. North 
    Dakota.
U.S. Fish and Wildlife Service. 1995. Devils Lake Wetland Management 
    District Fact Sheet. Devils Lake, North Dakota.
U.S. Fish and Wildlife Service. 1966-980. Private drainage survey. 
    Unpublished file data.
U.S. Fish and Wildlife Service. 1996. North Dakota s federally listed 
    endangered, threatened, and candidate species. Bismarck, N. Dak.
Vining, R.C., L.J. Brun, J.W. Enz, and J.L. Richardson. 1983. An 
    analysis of stream flow variability for three rivers in North 
    Dakota. Proceedings, Fifth Conference on Hydrometerology, American 
    Meteorology Society. Pages 50-51.
Wiche, G.J. 1996. Lake levels, stream flow, and surface-water quality 
    in the Devils Lake Area, North Dakota. U.S. Geological Survey, Fact 
    Sheet FS-189-6. 4 pp.
Wiche, G.J., and A.V. Vecchia. 1995. Probability of future lake levels 
    of Devils Lake, North Dakota. U.S. Geological Survey, Fact Sheet 
    FS-158-5.
Wiche, G.J., and A.V. Vecchia. 1996. Lake-level frequency analysis for 
    Devils Lake, North Dakota. U.S. Geological Survey. Water-Supply 
    Paper 2469. 57 pp.
Wiche, G.J., and T. Williams-Sether. 1997. Streamflow characteristics 
    of streams in the Upper Red River of the North Basin, North Dakota, 
    Minnesota, and South Dakota. U.S. Geological Survey, Open-File 97-
    16, 374 pp.
Williams-Sether, T., R.M. Lent, and G.L. Wiche. 1996. Variations in 
    surfacewater quantity and quality as a result of the 1993 summer 
    flood in the Devils Lake Basin, North Dakota. U.S. Geological 
    Survey, Water-Resources Investigations Report 96-028. 32 pp.
Winter, T.C. et al. 1984. Synopsis of ground-water and surface-water 
    resources of North Dakota. U.S. Geological Survey. Open-File Report 
    84732.
                               __________
  Statement of Joe Belford, Commissioner, Ramsey County, North Dakota
    Chairman Chafee, and members of the authorization committee on 
Senate Environmental and Public Works: For the record my name is Joe 
Belford. I am a Ramsey County Commissioner in North Dakota. I Co-chair 
the Lake Emergency Management Committee, which includes elected 
officials from the Devils Lake Basin. I also am Vice-Chairman and the 
North Dakota representative of the Red River Basin Board, which 
includes North Dakota, South Dakota, Minnesota, and Manitoba.
    With me to answer any questions are two elected officials. Fred 
Bott is the Mayor of Devils Lake and a member of the Lake Emergency 
Management Committee. Vern Thompson is a State Senator and Mayor of 
Minnewaukan. Mayor Thompson is also Co-chair of the Lake Emergency 
Management Committee with me.
Emergency Today--Started In 1993
    Thank you for the opportunity to testify before your committee. We 
have a serious emergency flood on our hands in the Devils Lake Basin. 
The flooding started in June 1993. At the time, the lake was at an 
elevation of 1422.6 mean sea level (msl). Devils Lake continues to be 
one of the most important lakes in North Dakota for milking walleye and 
northern pike eggs to reproduce and stock fish across the State. The 
low elevation caused concern for a fish kill potentially impacting the 
whole State's fishery.
    About the same time flooding started in the Missouri and 
Mississippi River regions, we began to receive heavy rains. The summer 
of ``93'' we received about 45 inches of rain in the upper part of the 
Devils Lake Basin. Since that time, we continue to receive heavy 
precipitation through rain or snow. A Presidential disaster declaration 
has been signed for our area every year since 1993. The lake started 
out covering about 40,000 acres of land in 1993. Since then, the lake 
has risen over 20 feet. The lake has more than doubled in size, and 
tripled in volume. Devils Lake peaked this summer just under 1443 msl. 
The lake now covers about 105,000 acres. In 1993 there was 500,000 
cubic feet of water in Devils Lake. The lake raised 5 feet just this 
summer, increasing the volume of water in it as much as it had in 1993 
(500,000 more cubic feet).
Unlike A River Flood--No End To Damages
    This flood is unlike any river flood, such as you saw this spring 
in Grand Forks. A river flood will crest by a certain date and 
elevation. The flooding in Devils Lake continues to grow like a cancer, 
with no end. To date, estimated damages are over $200 million dollars. 
The question we must answer is, do we want to manage the water, or let 
the water manage us? If we continue to let the water manage us, we are 
looking at another $260 million dollars in damages, before the lake 
rises to an elevation of 1457 msl and overflows uncontrollable into the 
Sheyenne River.
Lake Moves 8 Miles--Flooding Thousands of Acres
    To illustrate how the lake has grown, the town of Minnewaukan which 
Mayor Thompson represents, was located 8 miles from the shores of 
Devils Lake. The lake moved to the town's edge causing them to move 
their lagoon system. Included in the 8 miles of new lake bottom are 
thousands of acres of deeded agricultural land under 20 feet of water. 
Farmers and ranchers, who contribute heavily to the $350 to $500 
million dollar annual economic impact to the State, are being driven 
off the land and are losing their livelihood.
City Levee Raised 10 Feet--$51 Million Cost
    Mayor Bott and the city of Devils Lake are in the process of 
building an extension to the levee system. It protects the lagoon 
system and a major portion of the town. This is the second 5 foot levee 
raise in 2 years. The cost of the levee raises will total $51 million 
dollars. The city is the economic hub of this region of the State, 
providing airport and hospital care facilities.
County And Township Disasters
    As a county commissioner we are in the process of trying to deal 
with over 200 homes being moved or destroyed because of the rising 
water. A number of homes had to be burned onsite because there are not 
enough movers to relocate the homes fast enough. This is causing 
catastrophic impacts to our local government. Property owners are 
asking for abatements, in fact on Tuesday night the commission acted on 
105 property abatements on their property taxes. This affects schools, 
townships, city, county, and eventually State government services. If 
the lake continues to rise as much last year as it did this year 
another 50 homes in Ramsey County will be affected valued at another $3 
to $4 million dollars.
    Hundreds of county and township roads are inundated by the rising 
lake. This is causing severe health and safety concerns. Emergency 
services for health and safety are at risk because of the closed roads. 
State and U.S. highways are closed at times because of the wave action 
flowing across the roads makes them unsafe.
Spirit Lake Nation Emergencies
    The Spirit Lake Nation Indian Reservation is experiencing economic 
disaster because of road closings to the $14 million dollar resort and 
casino. The roads closed cause emergency vehicles to travel up to 55 
miles, when normally it is a 6 mile drive to the local hospital. It 
will cost in excess of $15 million to build a bridge across the lake to 
provide emergency access. About 83 homes are in the process of being 
moved on the reservation, and thousands of acres of tribal trust lands 
are being affected.
Comprehensive Solutions
    We are trying to come up with a comprehensive solution to our 
flooding problems. They include a partnership of Federal, State, and 
local governments working together toward a holistic approach. The 3 
legged stool approach we talk about includes;
    1. management of water in the upper basin;
    2. protection and moving of infrastructure;
    3. an emergency outlet;
    No leg can stand on its' own!
Upper Basin Management
    To manage water in the upper basin, we are encouraging farmers to 
sign-up for various programs. Some of these programs include; 
Conservation Reserve Program (CRP), Wetlands Reverse Program (WRP), 
State Water Bank Program, Available Storage Acreage Program (ASAP) and 
other Federal or State programs.
    Last springs' CRP sign-up had 1 out of every 5 farmers sign up. A 
new sign-up is taking place this fall. We anticipate a record sign-up, 
taking more land out of production and producing new wetland areas. We 
expect nearly all the available State Water Bank moneys to be spent in 
the Devils Lake Basin. The ASAP program is providing valuable returns 
for additional wetlands storage. Agriculture is the main economy of our 
region and the State. It is a challenge to convince farmers, who at one 
time were subsidized by the government to create drains, to get them to 
plug the same dredged channels. We recognize this is not the total 
answer. As our State Geologist Dr. John Blumlie says, agriculture 
practices have little to do with the flooding of Devils Lake. Since the 
glacier period the lake has risen and overflowed to the Sheyenne 
different times before man ever settled the area. We continue 
diligently in our efforts in this area.
Emergency Infrastructure Response
    To protect the infrastructure we move and relocate threatened 
structures, raise essential roads, and build dikes and levees to 
protect other infrastructure. Over 5 million cubic yards of dirt have 
been added to the State roads to raise them out of the water. About $62 
million has been spent on State and U.S. road raises in our area. The 
cost escalates dramatically as the lake raises higher.
Emergency Outlet Tool
    The emergency outlet is a management tool that will allow us to 
release a controlled quantity and quality of water without harming our 
downstream neighbors. We believe it is an environmentally and 
economically smart project. A controlled emergency outlet can prevent a 
possible environmental and economic disaster down the road. The 
proposed west end outlet, uses the best quality of water in Devils 
Lake. This water is very similar to what is in the Sheyenne presently. 
It would be released into the Sheyenne River during non-flooding or 
flood potential times. We are confident that a properly managed outlet 
will meet water quality standards in North Dakota, Minnesota, and 
Manitoba. In our view, it would be irresponsible to do nothing and let 
the waters continue to rise uncontrollable.
House On Fire--Livelihoods At Risk
    Our homes, schools, churches, communities, and livelihoods are at 
risk. Quite frankly our house is on fire and we need tools to work with 
to put out the fire. In our view, we need to move forward with 
authorization and funding, so downstream people in North Dakota, 
Minnesota, and Manitoba do not have to suffer the pain and heartache we 
have been going through the last 5 precipitation seasons.
    We thank you for your support to date, and plead for your continued 
help as we deal with this monster of a problem. If you have any 
questions Mayor Bott, Sen. Thompson, or I would be happy to try and 
answer them.
        Vern Thompson, Mayor of Minnewaukan, State Senator;
     Joe Belford, Ramsey Co. Commissioner, Red River Basin 
                                                     Board;
              Fred Bott, Mayor of Devils Lake, Member LEMC.
    Lake Emergency Management Committee consists of elected officials 
from the Devils Lake Basin.
                           mission statement
    ``Solve short-term emergency needs that are in harmony with the 
long-term goals of the Devils Lake Basin. Seek implementation of a 
project that considers the social and environmental needs of our 
residents, and residents of downstream communities.''
        State of Missouri, Department of Natural Resources,
                               Jefferson City, MO, November 7, 1997

The Honorable John Chafee, Chairman
Committee on Environment and Public Works
Dirksen Senate Office Building
Washington, DC 20510

Dear Mr. Chairman: Thank you for holding a hearing on the Devils Lake 
``Emergency'' Outlet project on October 23, 1997. The project could 
potentially have a significant impact on Missouri and over downstream 
States in the Missouri River Basin and all States bordering the 
Mississippi River.
    I respectfully request that the attached testimony for the State of 
Missouri be included in the hearing record and that Missouri be 
included in any subsequent hearings on this project
    Thank you for your consideration in this matter.
            Very truly yours,
                                            David A. Shorr,
                                                          Director.
                                 ______
                                 
 Statement of David A. Shorr, Director, Missouri Department of Natural 
                               Resources
    Thank you for the opportunity to provide comments to the Committee 
on Environment and Public Works related to the October 23, 1997 hearing 
on the Devils Lake ``Emergency'' Outlet Project. I am David Shorr, 
Director of the Missouri Department of Natural Resources. The State of 
Missouri is very concerned about the outlet proposed for Devils Lake 
and appreciates the opportunity to provide comments to the Committee.
    There are many issues surrounding the proposed outlet for Devils 
Lake. These issues could have a very real impact on many other parties 
both within and outside the State of North Dakota. Factual information 
must be provided to the public on all proposals and a forum established 
to permit full, open and meaningful public discussion. information on 
all aspects of the full array of options should be discussed, including 
costs, benefits and environmental effects of each proposal.
    Following are some of the issues that should be considered in a 
public discussion.
Economic Analysis
    The U.S. Army Corps of Engineers reports indicate that the proposed 
outset alone would be incapable of lowering the water levels of Devils 
Lake sufficiently to provide relief. At the same time, significant 
investments for construction and maintenance of the outlet facility 
would be required resulting in only $.39 of benefits for every dollar 
of cost, estimated by the U.S. Army Corps of Engineers to be at least 
$21,000,000.
Environmental Impacts
    A comprehensive analysis is needed of the proposed project, that 
includes a complete Environmental Impact Statement in compliance with 
requirements of the National Environmental Policy Act. All possible 
alternatives to the construction of the proposed outlet and Me impacts 
associated with construction, operation and maintenance of the proposed 
outlet under each of the possible alternatives must be given careful 
consideration in the Environmental Impact Statement.
Diversion
    Any proposed diversion of water from the Missouri River Basin for 
out-of-basin uses is of grave concern to Missouri. Missouri's 
population is dependent on Missouri River water for municipal and 
industrial water supply, power plant cooling, wastewater treatment 
facilities, ports and navigation. In dry periods, the Missouri River 
represents 65 percent of the flow of the Mississippi River at St. 
Louis. When the Port of St. Louis is not operational, downstream and 
upstream ports are immediately affected, impacting navigation on the 
entire inland waterway system.
    Growing depletions in the Missouri and Mississippi River Basins are 
a concern. According to recent estimates, Tom the U.S. Geological 
Survey, depletions in the Missouri River amount to 18.7 million acre 
feet per year (MAF/yr), while the average discharge of the Missouri 
River near its mouth is about 58 MAF (1929-1995). This diversion, along 
with other potential growth in depletions should be assessed us the 
NEPA process.
    Plans for an inlet and outlet to Devils Lake have been considered 
jointly for at least several years as documented by U.S. Army Corps of 
Engineers reports begun in 1990. It is often said that the current 
proposed ``emergency'' outlet is directly related to completion of an 
inlet as another piece of the Garrison Diversion Project. If, as the 
U.S. Army Corps of Engineers reports, an outlet would be ineffective 
alone in reducing the water levels of Devils Lake' careful 
consideration should be given before authorizing tax dollars for a 
project that would not even address the ``emergency'' need.
    I ask the Committee to review these issues carefully as it 
considers this project. As the impact to the State of Missouri and 
other downstream States court be significant, I ask that we be included 
in any farther discussions or consideration of projects affecting the 
Missouri River Basin. I would be happy to provide any additional 
information related to Missouri's position on the proposed Devils Lake 
``Emergency'' Outlet Project.
                               __________
                                             3417 Old 10 R,
                        Valley City, N.D. 58072, November 17, 1997.

The Honorable John H. Chafee, Chairman,
Committee on Environment and Public Works,
United States Senate,
Washington, DC 20510.

Dear Mr. Chairman: I am chairman of People to Save the Sheyenne, a 
group of ordinary citizens living along the Sheyenne River in North 
Dakota. We organized earlier this year to oppose the proposed outlet 
from Devils Lake to the Sheyenne River. We gathered over 1,300 
signatures on petitions opposing the outlet (copies enclosed,. We 
gathered those 1300 plus signatures in a short period of time during 
the worst winter we've seen in a long while and, it is worth noting, in 
a sparsely populated area. These signatures demonstrate the feelings of 
people who live and work along the Sheyenne River--they do not want any 
more water--they have their own problems with water without getting 
additional water from Devils Lake.
    Although we are a small grass roots group, with no source of 
funding except donations, we have sponsored two trips(four of our 
members went on the first one, two on the second) to Washington, DC. to 
tell our story to the U.S. Congress. Our members have contributed 
significant amounts of time and money to oppose construction of the 
outlet.
    I wrote you on 9-21-97 asking that you let me know when the hearing 
would be held on the proposed outlet from Devils Lake to the Sheyenne 
River. We were hoping to appear to testify against it. I have not heard 
from you, but, I have learned from another source that you have 
scheduled the hearing for October 23. I am disappointed that you did 
not let me know. I have also learned that you are permitting testimony 
from only one opponent while scheduling testimony from several 
proponents. I had hoped that this would be a fair and balanced hearing 
which would shed light on both sides of this contentious issue. But,I 
guess I was wrong.
    Since you have denied us an opportunity to appear and make our case 
at the hearing, I have decided to do the next best thing and submit 
written testimony. Please share this testimony with the other members 
of the Senate Committee on Environment and Public Works.
    People to Save the Sheyenne have many concerns and unanswered 
questions about this project. We are convinced it will increase bank 
erosion, which is already a serious problem, along the Sheyenne River. 
We do not see how it can help but intensify summer flooding such as we 
had because of heavy rains in 1993. The proponents say the pumps would 
be stopped in the event of heavy rains in the area. But, it would take 
about 10 days for the Devils Lake water already in the river to pass 
Valley City. There are also serious unanswered questions as to what 
this project will do to water quality in the Sheyenne River. Devils 
Lake is not known for its water quality.
    People to Save the Sheyenne are upset that other alternatives to 
deal with Devils Lake flooding have not been given serious 
consideration. Thousands of acre feet of water could be stored in the 
upper basin by restoring drained wetlands. A large area, mostly north 
of Devils Lake, has been artificially drained into the lake. Closing 
those drains and restoring those wetlands could according to a January 
1997 report from the N.D. State Engineer and U.S. Fish and Wildlife 
Service provide 327,000 acre feet of storage. An earlier study suggests 
the potential of two or three times that amount of storage. Upper basin 
storage can do much more to reduce flooding at Devils Lake than the 
proposed outlet would do.
    We are especially troubled by the current attempt to build the 
outlet without studying the costs and benefits of the various 
alternatives to determine which would be the best and most cost 
effective approach to reduce Devils Lake flooding. We contend that 
storing thousands of acre feet of water in the upper basin would be 
more cost effective.
            Sincerely,
                                   Henrik Voldal, Chairman,
                                       People to Save the Sheyenne.
                                 ______
                                 
                                          Canadian Embassy,
                                  Washington, DC, October 22, 1997.

The Honourable John H. Chafee, Chairman,
Committee on Environment and Public Works,
United States Senate,
Dirksen Senate Office Building,
Washington, DC 20510.

Dear Chairman Chafee: I understand that the Senate Environment and 
Public Works Committee will hold a hearing on October 23 on the Army 
Corps of Engineers' flood control project at Devils Lake, North Dakota. 
This project would divert water through an outlet from Devils Lake 
through the Sheyenne to the Red River, which runs north into Manitoba, 
Canada, and has the potential for irreversible environmental damage. I 
am therefore particularly grateful to Members of the Committee who 
ensured that project construction is contingent on a number of 
conditions, including the need for consultation with the International 
Joint Commission to ensure that the project will not violate the 
requirements or intent of the Canada-U.S. Boundary Waters Treaty of 
1909. I commend the Committee for exercising its oversight 
responsibility and urge that you ensure full compliance by the 
Executive Branch with those conditions, prior to commencement of any 
construction.
    In view of the recent appropriation of funds for this project 
without the benefit of public review by your Committee, Canada is 
particularly concerned about the degree of objectivity possible in the 
interpretation and fulfillment of conditions attached to a project 
which is continually changing in scope and design. As originally 
planned, the outlet would increase the volume of water flowing into the 
Red River basin, where there are already significant flooding and water 
quality problems, in both the United States and Canada. In spite of 
this, we understand from North Dakota media reports that discussions 
are underway between the State Water Commission and the Corps of 
Engineers that could involve a significant increase in proposed flows 
by:
    (i) moving from the original, Twin Lakes route, involving a series 
of pools, pumps and a canal, to using a pipeline along the Peterson 
Coulee Route; and (ii) changing to year-round pumping.
    Canada sympathizes with North Dakota's problems with Devils Lake 
flooding. This year, Manitoba, North Dakota and Minnesota residents in 
the Red River valley, downstream from the proposed outlet, experienced 
the worst flooding in centuries. We understand that many genuine 
emergency mitigation measures for Devils Lake flooding are already 
being implemented in North Dakota, such as construction of an emergency 
dike. We also understand there are other approaches that have not yet 
been fully examined that might avoid Devils Lake problems from being 
exported downstream. According to a Corps of Engineers report, the 
proposed outlet would take several years to complete and, even then, 
would not have a significant impact on water levels in Devils Lake.
    Canada has expressed longstanding concern with any part of the 
Garrison Diversion project which might lead to transfers of water, 
carrying foreign fish diseases and biota, from the Missouri River basin 
to the Hudson Bay basin. The International Joint Commission has stated 
in the past that such interbasin transfers have the potential to 
seriously damage Canadian waters and Manitoba's multi-million dollar 
fishery, in violation of the Boundary Waters Treaty.
    As originally designed, and even in current North Dakota plans, the 
question of an outlet from Devils Lake cannot be separated from that of 
an inlet, since the lake has traditionally suffered from drought. In 
dry years, the lake would be fed by water from the Missouri River 
through an inlet which, together with the outlet, would complete North 
Dakota's plans for Devils Lake stabilization and a feature of the 
Garrison Diversion project. While I am aware that none of the 
appropriated funds may be used for an inlet, the fact remains that an 
inlet is a high priority in North Dakota. This has been repeatedly and 
publicly made clear in the local media by politicians and other State 
leaders.
    The Garrison Diversion Unit Reformulation Act of 1986 and other 
U.S. laws outline the process for seeking domestic consensus on and 
approval of Garrison-related projects. The Reformulation Act also 
provides for consultations between Canada and the U.S. on water 
projects that might affect Canadian waters. Canada will formally 
address any U.S. proposals after the U.S. domestic process is complete.
    I would be pleased to provide you with any further information on 
the Canadian position that you may require. I urge you to give serious 
consideration to Canada's concerns and I request that you include this 
letter in the official record of the October 23 hearing.
            Yours sincerely,
                                          Raymond Chretien,
                                                        Ambassador.
                               __________
                                         November 30, 1997.

Senator John H. Chafee,
Committee on Environment and Public Works,
Washington, DC 20510-6175.

Dear Sen. Chafee: I just received your letter with ref; to the 
questions in regard to the Devils Lake Basin with the answers below.
    1. They are a very limited factor in the flooding conditions at 
Devils Lake. According to the North Dakota State Water Engineer, he 
said that drainage only contributes about 7 percent to the lake it 
self.
    2. Yes we are having some success with the various programs,as we 
are currently holding about 25000 acre feet in the upper basin. It is 
an educational process that we have undertaken in the basin a seems to 
be working. We just recently hired a basin manager with one of his main 
duties is to promote upper basin storage.
    3. There is very much universal support for the 
outlet,asconsiderable damage has happened and the economy is very bad 
due to the high lake levels.
    Once again I want to thank you for having the hearings and allowing 
me to testify in behalf of our community.
            Sincerely,
                                               Joe Belford.
                               __________
                North Dakota Chapter, The Wildlife Society,
                      P.O. Box 1442, Bismarck, ND, October 1, 1997.

Mr. Robert J. Whiting, Chief,
Environmental Resources Section,
Management and Evaluation Branch,
U.S. Army Corps of Engineers,
St. Paul MN, 55101-1638

Dear Mr. Whiting: This letter is in response to your September 5, 1997 
letter requesting comments on the proposed Devils Lake outlet. We 
appreciate the opportunity to provide our thoughts on this issue.
    The most obvious omission from Enclosure 1 (Project Information 
Summary Sheet) and Enclosure 2 (General Concerns) is the cost benefit 
examination of the project. The Corps of Engineers own study concluded 
that an outlet from Devils Lake would return only $0.39 in benefits for 
every dollar of cost. Since publishing this study in 1994, the 
estimated benefits have diminished because of federally completed flood 
mitigation while the costs have at least doubled. Construction of 
raised highways, flood plain evacuation, and the new dike protecting 
the city, all done with Federal funds, are examples where the flood 
protection has been achieved and reduced the need for and expected 
benefits from an outlet. These current costs do not include the 
environmental consequences of draining water from the Devils Lake basin 
to the Sheyenne River, or increased drainage potential in the upper 
basin as a result of construction of an outlet. The double counting of 
these benefits or the omission of these costs is not acceptable. The 
bottom line is that this proposal had a negative cost benefit ratio in 
1994 and the figures have gotten worse since then.
    The Section entitled Proposed Outlet Operation should include 
criteria to which the project sponsor will be held responsible during 
outlet operation such as goals for upper basin storage, implementation 
of a plan for investigation and closure of illegal drainage and a 
regional education campaign addressing consequences of building in a 
lake and draining wetlands.
    The Alternatives Investigated section should be renamed. True 
alternatives to construction of an outlet have never been promoted much 
less analyzed by the project sponsor or by the Corps. While the 
Governor insists the need for an outlet was determined through the 
development of a detailed action plan established in 1995 by the Devils 
Lake Basin Interagency Task Force, he neglects to mention that the 
Corps in its August 12, 1996 report on the proposed outlet stated 
explicitly that: ``While the [Emergency Outlet Plan] lacks much field 
data to verify existing conditions and a full assessment of impacts, it 
will be a common reference point for discussions among interested 
parties regarding the practicability and implementability of an 
emergency outlet.'' Since 1996 has the Corps and Congress come to the 
conclusion that the outlet is now practical?
    Looking at the issue of the outlet without examining a major 
contributing factor, basin management, is irresponsible and 
inconsistent with the expectations of the public on your agency. The 
State sponsor of this project has not accepted any responsibility for 
the current situation and expects the Federal Government to construct 
an environmentally unacceptable outlet that creates a multitude of 
problems out of one. The burden of responsibility for construction has 
shifted to the Corps and with that burden comes the focus of public 
scrutiny. We reiterate our previously expressed concerns that to design 
an outlet prior to investigation of the source of the problem and an 
analysis of alternative solutions to the problem is irresponsible and 
contrary to the spirit of NEPA. What major efforts have been 
implemented within the basin for long term water management?
    There must be strict enforceable criteria in place that are 
acceptable to downstream interests in North Dakota, Minnesota, and 
Canada for operation of the outlet prior to construction. Leaving this 
issue until after construction is a mistake that could halt the 
eventual operation of a completed project resulting in an expenditure 
of taxpayer funds with no realized benefits.
    The effectiveness of the outlet is mentioned under the Stabilized 
Lake Level section. There is no plan for discussing the sustainability 
in the long term of this solution versus moving the town, holding water 
in the basin with a control structure at the natural outlet, and upper 
basin storage and management.
    We ask that you add these concerns to the list you have developed 
and coordinate with the sponsor and determine if they will be 
responsible to assure that environmental commitments and downstream 
interests are actually going to be considered in development of the 
project.
    The list of concerns should also include the cumulative impacts of 
construction of this outlet including but not limited to expedited loss 
of public trust for the Federal Government and more specifically the 
Corps of Engineers.
            Sincerely,
                                  Michael Olson, President.

                                    

                                  <all>
</pre></body></html>
